<html>
<title> - INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   INTERIOR, ENVIRONMENT, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2011 

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                   JAMES P. MORAN, Virginia, Chairman

 NORMAN D. DICKS, Washington           MICHAEL K. SIMPSON, Idaho
 ALAN B. MOLLOHAN, West Virginia       KEN CALVERT, California
 BEN CHANDLER, Kentucky                STEVEN C. LaTOURETTE, Ohio
 MAURICE D. HINCHEY, New York          TOM COLE, Oklahoma
 BETTY McCOLLUM, Minnesota
 JOHN W. OLVER, Massachusetts
 ED PASTOR, Arizona                                                     

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Delia Scott, Christopher Topik, Julie Falkner,
                      Jason Gray, and Brendan Lilly
                            Staff Assistants

                                ________

                                 PART 7
                                                                   Page
 Voices From Our Native American Communities......................    1
 Issues From the Field: Public Witnesses and Members..............  235
 Voices From Our Native American Communities......................  365
 Witnesses--Prepared Statements for the Record....................  483

                                   S

                                ________

         Printed for the use of the Committee on Appropriations










                                 Part 7

                                 Public

                               Witnesses
















  INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2011


















                   INTERIOR, ENVIRONMENT, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                   JAMES P. MORAN, Virginia, Chairman

 NORMAN D. DICKS, Washington        MICHAEL K. SIMPSON, Idaho
 ALAN B. MOLLOHAN, West Virginia    KEN CALVERT, California
 BEN CHANDLER, Kentucky             STEVEN C. LaTOURETTE, Ohio
 MAURICE D. HINCHEY, New York       TOM COLE, Oklahoma
 BETTY McCOLLUM, Minnesota
 JOHN W. OLVER, Massachusetts
 ED PASTOR, Arizona                                                     

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Delia Scott, Christopher Topik, Julie Falkner,
                      Jason Gray, and Brendan Lilly
                            Staff Assistants

                                ________

                                 PART 7
                                                                   Page
 Voices From Our Native American Communities......................    1
 Issues From the Field: Public Witnesses and Members..............  235
 Voices From Our Native American Communities......................  365
 Witnesses--Prepared Statements for the Record....................  483

                                   S

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 56-200                     WASHINGTON : 2010














                          COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 NORMAN D. DICKS, Washington               JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia           C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                        HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana               FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York                   JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York                 RODNEY P. FRELINGHUYSEN, New
 ROSA L. DeLAURO, Connecticut                Jersey
 JAMES P. MORAN, Virginia                  TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts              ZACH WAMP, Tennessee
 ED PASTOR, Arizona                        TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina            ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                       JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island          KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York              MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California         JOHN ABNEY CULBERSON, Texas
 SAM FARR, California                      MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois           ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan           DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                       JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania                RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey             KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia           JO BONNER, Alabama
 MARION BERRY, Arkansas                    STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California                   TOM COLE, Oklahoma
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
   Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado
 PATRICK J. MURPHY, Pennsylvania                                                                            

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


  DEPARTMENT OF THE INTERIOR, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2011

                              ----------                              


         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              

                                           Tuesday, March 23, 2010.

              VOICES FROM OUR NATIVE AMERICAN COMMUNITIES

   PUBLIC WITNESSES--REPRESENTATIVES FROM TRIBES AND NATIVE AMERICAN 
                            ADVOCACY GROUPS

    Mr. Moran. Good morning to everyone. Thank you for being 
here. We are starting precisely at 9:30 and we want to welcome 
you to the first public witness hearing of the year. This 
morning and again this afternoon, we are going to hear from 
many of our partners and friends in the Native American 
community, and we want to especially welcome those of you who 
traveled from long distances this morning, all the way from the 
West Coast and many from Washington State. We do look forward 
to your testimony.
    I think that this quote from the constitution of the 
Iroquois Nation sums up why many of you have traveled here 
today and why the subcommittee believes your testimony is so 
valuable, and I quote, ``Look and listen for the welfare of the 
whole people and have always in view not only the present but 
also the coming generations, even those whose faces are yet 
beneath the surface of the earth.'' That is much of what we 
want to talk about, what we are doing to look forward to future 
generations.
    As my colleagues on this Subcommittee know, there are 
significant challenges facing the Native American community 
today including the availability of health services, access to 
quality education and combating crime in Indian Country. We 
continue to take steps to address these challenges, and we are 
proud that last year this Subcommittee under Chairman Norm 
Dicks' leadership with support from Mr. Cole as well, so it was 
bipartisan, provided $2.6 billion to the Bureau of Indian 
Affairs. This was a historic 10 percent increase in funding 
over the previous year's levels.
    We were pleased to see a significant increase in the Indian 
Health Service's budget request this year. The request is $4.4 
billion. It is $350 million more than last year's levels.
    Now for some important housekeeping items. We are going to 
have to remind all witnesses that you only have 5 minutes total 
to deliver your statement and to answer questions. We are going 
to have to watch the timer closely to ensure that we hear from 
everyone on the schedule. When the orange light comes on, you 
have only 1 minute left and should then begin to wrap up. When 
the red light comes on, your time has expired. We do not like 
to do this, but it was either do it this way or only hear from 
half the witnesses, and so we figured we are better off giving 
everyone an opportunity to be heard even though it is going to 
be in a very tight time frame. Now, of course, your entire 
prepared statement will be included in the hearing record.
    Mr. Moran. Before we get started, Mr. Cole or Mr. Simpson, 
did you have any comments?
    Mr. Cole. Thank you very much, Mr. Chairman.
    For those of you that are regulars at this Committee, you 
know I do not normally sit in this seat. This is Mr. Simpson's 
seat. I feel a little bit like getting in the car with my dad 
right next to me, watching every move I make.
    Mr. Moran. We will make sure he does not crash it.
    Mr. Simpson. I am going to be in and out at other hearings, 
so Mr. Cole is obviously the expert in this area.
    Mr. Cole. That is not true. My good friend, Mr. Simpson, 
knows at least as much about this as I do, and certainly Mr. 
Moran and former Chairman Dicks are wonderful partners in this 
work.
    Greetings, Mr. Chairman, and thanks to all of you who have 
come. This is an area of great interest and importance, I 
think, certainly to the country but to me personally. So as a 
Native American, as a tribal member, a lot of the problems that 
I see in other parts of the country, the same kinds of problems 
that exist in my area and certainly with the tribes that I am 
privileged to represent, 11 different tribes actually in my 
district. So I look forward to the testimony. This is actually 
one of the highlights of the year for me, Mr. Chairman, to have 
the opportunity to hear so many voices from Indian Country and 
a lot of their concerns, their points of view, and frankly 
enjoy their wisdom on this.
    So it is a great privilege to be here. I look forward to a 
productive hearing.
    Mr. Moran. Thank you, Mr. Cole.
    Mr. Simpson, did you have anything you----
    Mr. Simpson. No, that is okay.
    Mr. Moran. Very good. Mr. Dicks.
    Mr. Dicks. Well, I just want to welcome all of my friends 
from Washington State over here this morning, and today is a 
historic day. We are going to sign the health care legislation 
later this morning and so I will not be able to stay for all of 
the testimony, but I am going to be here for most of it, and I 
just want to say how glad I am that Mr. Moran has now assumed 
the chairmanship. He and I have been friends for 40 years. I 
hired him to work for Senator Magnuson. It just shows you what 
good judgment I have. And also we have the best committee terms 
of bipartisanship, and Mike Simpson and Tom Cole are just great 
supporters and have worked with us on these issues, and this is 
a committee that supports what the tribes are trying to do. 
Thank you, Mr. Chairman.
    Mr. Moran. Thank you, Mr. Dicks. You have left me with big 
moccasins to fill. You have done wonderful work on behalf of 
Native Americans and we really thank you, and we appreciate 
your continued intense involvement in these issues. Our first 
witness will be Henry Cagey, the chairman of the Lummi Indian 
Nation. Chairman Cagey, welcome.
                              ----------                              

                                           Tuesday, March 23, 2010.

                          LUMMI INDIAN NATION


                                WITNESS

HENRY CAGEY
    Mr. Cagey. Good morning, Mr. Chairman. My name is Henry 
Cagey, chairman of the Lummi Nation up in Washington State, and 
again, I appreciate the time that you have given the tribe to 
talk about our issues and some of our challenges.
    You know, again, I heard you loud and clear that we will 
summarize our testimony. For the record, Mr. Chairman, we are 
the third largest tribe in Washington State and we have over 
5,200 members in the tribe. We are a fishing tribe, and one of 
the challenges that we have is that our salmon are gone. Mr. 
Dicks has been working very hard in restoring our salmon and 
bringing them back, but again, the challenge that we face as a 
tribe is that we are still dependent on fishing. One of the 
things that we have been asking the Committee to look at is the 
hatchery line item, and again, the hatcheries are one of the 
few ways that we can sustain our economy. Hatcheries are one of 
the few ways that we can sustain our families and our fishing 
lifestyle that we have become accustomed to, and again, that is 
really challenging Mr. Dicks's theory on wild stock versus 
hatchery stock. I understand that.
    But again, the Lummi are still a fishing economy, and 
again, our lifestyle has really changed in the last 10 to 20 
years and it is really starting to show the effects of the drug 
abuse, the high dropout rates with our kids. The parents that 
we have are fishermen, and seeing that, we are working very 
hard to change the dependency on the fishing, but again, that 
is a hard corner to turn. We have a ways to go to address the 
next generation of these kids that are coming behind the 
current fishermen. So we are working with the Department of 
Labor, we are working with Commerce and looking at ways to 
sustain our fishing, but again, one of the things that we need 
the Committee to look at is the hatchery line item, and again, 
we support hatcheries. That is really one of the few areas 
where we can do that.
    The other areas that we want to hit on, Mr. Chairman, is 
the Indian Health Service. Contract health services is a huge 
need in the Northwest. Since we do not have hospitals, we are 
dependent on contract health service.
    The other thing that we are becoming aware of is HIV, HIV 
meaning that we are seeing increases in AIDS in our community, 
and starting to show some of the effects of that disease coming 
at us.
    The other part we would ask the Committee to look at is 
getting the Bureau of Indian Affairs to recognize this commerce 
declaration disaster. So again, this disaster that we are 
talking about, Mr. Dicks's office is very familiar with the 
disaster, but we want the Bureau of Indian Affairs to recognize 
this declaration that was issued in 2008, and for the last 2 or 
3 years now we have been punted back and forth between the 
Administration and Congress and we need some better guidance on 
what we need to do with this declaration that was issued in 
2008.
    The other area that we want to touch on, Mr. Chairman, is 
the Lummi Nation Slater Road Project, and it was a big project 
that we are in partnership with Whatcom County, and Whatcom 
County is a road that we have come to agreement with to 
basically take a look at the flooding area, and we have FEMA 
money that has been provided to the project but we need $6 
million more to finish the project, and that is something that 
we want to get your support as well.
    The other part we want to wrap up is the Indian Energy and 
Economic Development Workforce Division within the Bureau that 
we are working with Mr. Middleton and his folks, and they are 
doing a very good job in at least taking some leadership in 
economic development. So energy and economic development, Mr. 
Middleton's office, has been very supportive of our welding 
school and other things that we are creating through his shop.
    So again, on behalf of the Lummi Nation, we want to thank 
the Committee. We want to thank you for all your hard work you 
did last Sunday with the health care bill. We really appreciate 
everything that you guys do in supporting Indian issues.
    [The statement of Henry Cagey follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, Chairman Cagey, and right on the dot. 
You did it within 5 minutes.
    Does anyone want to make a comment or question?
    Mr. Dicks. I would just say we are pleased that on the BIA 
hatcheries we have been able to increase the funding by $5 
million over the last 2 years. It still starts from a very 
small number but we have tried to help increase the funding and 
we will continue to look at that.
    Mr. Moran. Very good. Thank you, Chairman Cagey.
    Next we will hear from Douglas R. Nash, who is the director 
of the Institute for Indian Estate Planning and Probate at the 
Seattle University School of Law. Mr. Nash.
                              ----------                              

                                           Tuesday, March 23, 2010.

INSTITUTE FOR INDIAN ESTATE PLANNING AND PROBATE AT SEATTLE UNIVERSITY 
                             SCHOOL OF LAW


                                WITNESS

DOUGLAS R. NASH
    Mr. Nash. Thank you, Mr. Chairman, Mr. Vice Chairman, 
members of the Committee. As noted, I am the director of the 
Institute for Indian Estate Planning and Probate at Seattle 
University School of Law. Our organization establishes projects 
that provide estate-planning services to Indian people 
nationwide. We provide direct services through those projects 
to tribal member clients at no cost, and the statistics and the 
results of our work are contained in my written statement. Our 
work has proven that effective estate planning reduces the 
issue of fractionation on Indian-owned trust lands and reduces 
probates and consequently the cost of those probates. They are 
done through the Office of Hearings and Appeals within the 
Department of the Interior.
    Last year I appeared before the Subcommittee to urge 
funding for Indian estate planning projects. Last year the 
conference committee's report urged the Bureau of Indian 
Affairs to provide funding for Indian estate planning projects 
through existing budget line items. We tried for months to find 
out how that language would be implemented and met with no 
success in that regard. This year we note that the Department 
has submitted a request for five new positions to implement the 
American Indian Probate Reform Act and they propose to do this 
through researching cost-effective actions regarding Indian 
estate planning and providing public information through the 
use of brochures and the use of news media. While we appreciate 
the Department's interest and their actions, those proposed 
actions will not get wills done, they will not reduce 
fractionation and they will not avoid Indian probates. 
Consequently, they will not reduce the cost to the Federal 
Government for the Bureau's administration of those 
fractionated interest and the cost of the probates that 
eventually come to pass regarding those fractionated interests.
    Through our projects and our experience, we have used 
almost every conceivable model to deliver estate-planning 
services to Indian people. We funded attorney projects, 
projects staffed by attorneys. We have utilized paralegals. We 
have the first Indian estate-planning clinic at Seattle 
University School of Law. We have stretched dollars so far as 
to establish pro bono projects in which retired attorneys 
provide estate-planning services at no cost. So we know the 
cost-effective models and we know how to stretch available 
dollars to provide the services.
    We also agree that public information is essential. We have 
utilized all of our projects to hold community outreach 
meetings to provide information to Indian landowners, to tribal 
leaders and to government officials as well. We have a website 
that provides information on a regular basis based upon 
interest. It is divided amongst attorneys, Indian landowners 
and tribal leaders. Over the past 5 years we have reached over 
14,000 Indian people with our community outreach efforts.
    We have established that effective estate planning services 
will reduce fractionation, will reduce probates and 
consequently reduces the costs that are associated with those 
activities. We would ask again that this Subcommittee look at 
the prospect of funding those activities, which are built into 
the American Indian Probate Reform Act as is the authorization 
for appropriations and the direction of funds through contract 
to nonprofits as well as tribes.
    Thank you, Mr. Chairman. I would be happy to answer any 
questions that you might have for me.
    [The statement of Douglas R. Nash follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you very much, Mr. Nash.
    Any questions?
    Mr. Dicks. So you are saying this is authorized so it does 
not need an earmark, it could just be funded by the Committee?
    Mr. Nash. That is correct, sir.
    Mr. Dicks. What about a website? Do you have a website?
    Mr. Nash. We do, sir, Indianwills.org.
    Mr. Dicks. Thank you.
    Mr. Moran. Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman.
    Mr. Nash, I am just curious, do you have any assessment on 
if Congress passed the Cobell settlement as negotiated, how 
would that impact what you are doing, particularly in the 
fractionated area? Would that be a big help dealing with some 
of these problems?
    Mr. Nash. The provision of funds for the land consolidation 
effort would have a big impact. The land consolidation program, 
as you know, was part of the American Indian Probate Reform 
Act, and the Act was designed actually to have both fronts 
active, estate planning and land consolidation activities, and 
it has been our assessment for years that those activities, if 
funded and active, would eventually reduce fractionation to the 
point that it would not be a problem.
    Mr. Cole. So I would assume on that ground alone you would 
see that the passage of the enactment of the settlement by 
Congress is a very good thing?
    Mr. Nash. We would, sir.
    Mr. Cole. Thank you very much.
    Mr. Moran. Very good. I am glad you asked that question. 
Thank you, Mr. Cole.
    Mr. Simpson. Okay. Thank you very much, Mr. Nash.
    Mr. Nash. Thank you.
    Mr. Moran. Next we will hear from Frances Charles, who is 
the chairwoman of the Lower Elwha Klallam Tribe.
                              ----------                              

                                           Tuesday, March 23, 2010.

                       LOWER ELWHA KLALLAM TRIBE


                                WITNESS

FRANCES CHARLES
    Ms. Charles. Good morning. I thank you for the opportunity 
to testify on behalf of the Lower Elwha Klallam Tribe, and I 
would like to have it on record that we support the Affiliated 
Tribes Northwest of Washington State, the Northwest Portland 
Indian Health Board and also the Northwest Indian Fish 
Commission testimonies that are going to be heard before you 
today. Also, we support the budget request for the National 
Congress of American Indians and the Native American Health 
Board recommendations as well.
    One of the reasons that I am here before you today, in 1992 
Congress enacted the Elwha River Ecosystem and the Fishery 
Restoration Act, Public Law 102-495. The law mandated the 
removal of the Elwha and Glines Canyon dams from the Elwha 
River. The government committee itself addressed the public 
health and safety environment and economic development issues 
that we pertain. Dam removal will occur in 2011 and we thank 
you for the continued support for the dam removal project 
itself. The law states in section 7, ``Tribal land acquisition 
and development. After the Secretary makes a determination to 
remove the dams and actually acquires the projects and funds 
are appropriated for such conveyance and removal, the Secretary 
is authorized to acquire by purchase and hold in trust in 
reservation status for their benefit of the Lower Klallam Tribe 
lands in Klallam County, Washington, for housing, economy 
development and moorage for the tribal commercial and fishing 
fleets. (B) There is authorized to be appropriated amount not 
to exceed $4 million to carry on land acquisition purposes for 
this section.''
    Congress authorized $4 million for land purchases for the 
tribe to make amends for the damages of tribal fisheries. The 
National Park Services acts as a lead agency for the federal 
dam removal projects and the mandate did not include addressing 
any appropriation for the tribe. It has been 18 years since the 
Act was passed, and we are requesting for an additional amount 
from the $4 million to $15 million due to the prices of the 
economics and not only that, for the cost of the land bases of 
the properties around the Klallam County area.
    And again, before the dams are removed, we are requesting 
some of the resources for the removal of the 200-year-old dams 
that have taken away and rendered the impossibilities of our 
tribal community who live on the fishing industry in the Port 
Angeles area. Of the $15 million requested, the tribe would 
immediately use $2 million to purchase and improve 12 acres 
centrally located on Highway 101 on the east shore of Lake 
Aldwell, therefore gaining a timely opportunity to develop the 
land that is contiguous to the project land that the tribe also 
seeks to acquire.
    Improvements would facilitate conversion of the parcel from 
private to public use including road access development, 
wastewater treatment, parking, utilities, trail development and 
facility upgrade. Acquisition and development on this site 
provide the unique setting for a world-class interpretative 
center to foster research in educational outreach and showcase 
ecosystem restoration, which will follow with the dams itself. 
So we ask for your continued support in that area.
    Also, the Lower Elwha Klallam Tribe is requesting funds for 
the tribal historic preservation in Port Angeles area that we 
are enriched with the cultural resources of significant sites. 
We have been involved in protecting and restoring the two 
ancient village sites which we had remains of over 300 of our 
Klallam ancestors, one of the largest single sites that have 
been unearthed west of the Mississippi River. Other sites of 
that area also include Ennis Creek, which is undergoing a 
cleanup. We also have other areas of the Pish as well as the 
dam, removal of sacred sites where we have ceremonial sacred 
grounds that we have been entwined with our community members 
and our elders have indicated a lot of the stories that are in 
some of their books for the youth and for our community itself.
    We are also asking for the need to continue with the 
support for the National Historic Preservation and the Native 
American Grave Protection Act itself in those areas, and we 
really emphasize the importance, and we thank you for the 
opportunity to testify and that you have passed the health 
bill. We also encourage you to put some more money and 
resources to the tribal programs. Thank you.
    [The statement of Frances Charles follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Very good. Well done, Ms. Charles. Thank you.
    Mr. Dicks, did you have anything?
    Mr. Dicks. Well, I just want to say, this is going to be a 
very exciting year with the contracts going out finally for the 
dam removal, and it is a very large project but one that I 
think is going to be very beneficial to the tribe.
    Ms. Charles. Thank you.
    Mr. Moran. Mr. Cole. Mr. Simpson. Okay. Very good. Thank 
you very much, Ms. Charles.
    Ms. Charles. One other comment is, please support our 
veterans that are out there. Thank you.
    Mr. Moran. That is very good.
    Mr. Dicks. We do.
    Mr. Moran. Now we will hear from Mr. David Bean, who is a 
council member of the Puyallup Tribe of Indians. Mr. Bean, 
please proceed.
                              ----------                              

                                           Tuesday, March 23, 2010.

                       PUYALLUP TRIBE OF INDIANS


                                WITNESS

DAVID BEAN
    Mr. Bean. Chairman Moran, Vice Chairman Dicks, members of 
the committee, thank you for allowing us to be here today to 
share our priorities for the fiscal year 2011 budget.
    I am here on behalf of our chairman, Herman Dillon, Sr. The 
Puyallup Tribe's top priority is addressing the public safety 
needs of our community. For the last decade, the Puyallup 
Reservation has been in the crossfire of over 30 identified 
gangs. In the last 5 years, we have lost several members as a 
result of gang violence. Our experience is that they are 
targeting younger and younger people every year but also if we 
do not stem this wave, we will lose a generation of Puyallup. 
The violence and criminal activity has touched virtually every 
family on our reservation, so our public safety needs are acute 
in all areas from patrol officers, tribal court funding, 
investigators and prosecutors.
    We presently fund 95 percent of our public safety. The BIA 
only funds 5 percent. What is more alarming is that the BIA's 
amount of funding we have received in the last decade, we have 
not received any increases in the last decade. We understand 
that the increases in the BIA law enforcement accounts have 
been largely kept within the BIA itself. We urge the Committee 
to ensure that law enforcement funding is shared 
proportionately between the BIA and tribal law enforcement 
agencies.
    In responding to growing public safety need, the Puyallup 
Tribe fulfilled a vision in planning and development of a new 
justice center, a place where we will not only be able to 
properly house and rehabilitate offenders but also provide 
justice in a holistic and comprehensive way. We are honored to 
have received a DOJ ARRA grant for construction of the 
detention center portion and will be breaking ground within the 
next 90 days. However, we are fearful that the BIA will not be 
able to honor its commitment to fund the operations of these 
new detention facilities once they come online. We urge the 
Committee to fund the operation of these new facilities and 
closely monitor the BIA's process in this regard.
    The tribe's second priority is the education of our 
children. We are deeply disappointed in the BIA's budget for 
education. There are no proposed programmatic increases for BIA 
or tribally operated schools. Thus, our schools must now do the 
same job of educating our children with less funds, 
consequently, less staff. It is no wonder numerous tribal 
schools are failing the No Child Left Behind standards.
    Finally, within the BIA's account, the Puyallup Tribe takes 
very seriously the responsibility to protect and manage our 
treaty-protected rights and resources. Thus, we fully support 
the President's $28 million funding for BIA rights and 
protection. What we would ask is that Congress fund this 
account to the full $30 million that was provided by Congress 
in fiscal year 2010.
    I end this testimony with again a statement of thanks for 
the President's proposed 8 percent increase in the Indian 
Health Service funding. However, the lines at our clinic and 
the health status of my elders tell me that this is not enough. 
Medical appointments are scheduled 3 months out, and in our 
dental clinic, patients wait up to 18 months for a root canal. 
Oftentimes they need a tooth extracted before it can be fixed. 
The contract care allocation has been significantly inadequate 
to meet the needs since 2004. At Puyallup alone, we face a $6 
million shortfall. With no IHS hospitals in the Portland area, 
all specialty and hospital services are paid for out of 
contract health care. This means that children go without 
access to optometry and our elders are denied access to 
surgeries and specialty care. There is no access to after-hours 
urgent care, mammography, colonoscopy or inpatient drug and 
alcohol treatment. The tribe can fill some of this gap but we 
cannot fill it all. We need your help.
    And so in closing, I raise my hands to each and every one 
of you and say to you, thank you all for being here today and 
allowing us to share our priorities with you.
    [The statement of David Bean follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you very much, David.
    Mr. Dicks.
    Mr. Dicks. Well, I want you to know that we are working 
with the local law enforcement people and we want to work with 
the tribe as well on this gang-related issue. This is a very 
serious matter. We take it seriously and we want to work with 
you on that and all the other issues that you presented.
    Mr. Moran. Mr. Cole.
    Mr. Cole. I have several questions. First, thank you for 
your testimony. It is quite compelling. I am sorry I am not 
familiar with a lot about your particular tribe, but can you 
tell me what sources of income independent, if any, of the 
Federal Government you have? Do you have any tribal businesses?
    Mr. Bean. We do have tribal businesses. We have a tribal 
casino. We are in the process of developing a port facility 
that was developing several acres of land that was returned to 
the Puyallup Tribe in 1988, the historic land claim settlement 
agreement that Vice Chairman Dicks was so instrumental in 
helping bring to life, so I want to say thank you for that, and 
we have a tax base where tax on cigarette sales, fuel sales, 
and exploring opportunities to diversify our economy.
    Mr. Cole. I am particularly struck, again you mentioned 
three areas and you started out with law enforcement, and 
obviously that is a matter of concern to everyone and we do 
obviously have a trust responsibility there, which I would 
suspect we have not met. In terms of law enforcement, I saw a 
little bit in your testimony, what is the size of your total 
budget and what are the sorts of things you need from the BIA, 
number one, and two, jurisdictionally, do you have some 
problems, do you feel limitations in terms of the amount of 
authority you get to exercise over your own land or people that 
commit crimes in your own territory?
    Mr. Bean. Yes, there are several limitations. We are 
working with local law enforcement jurisdictions to cross-
deputize our officers but have met some obstacles in that 
regard. Our public safety budget is about $5.7 million 
annually, and again, we find 95 percent of that, and so I would 
look for funding to increase our patrol officers. I would look 
for funding to help expand our court system as well as 
investigators, prosecutors.
    Mr. Cole. Last question, just on your health care needs. 
Again, what sort of percentage, if any, of that do you fund and 
is it contract services? Do you operate your own clinics? How 
does your health care structure work?
    Mr. Bean. We do operate our own clinic. We contribute about 
$6 million annually to our clinic. Its annual budget is about 
$21 million. So we fill that gap as best we can but again we 
fall short and appreciate any help you can give us towards that 
end.
    Mr. Cole. I will conclude with this. I just wanted to make 
the point, Mr. Chairman, a lot of these tribes, whatever their 
economic base, they turn around and invest very heavily back in 
their own people, actually making up for the shortfall that we 
legally are responsible for, and I suspect we are going to get 
case after case after case like this where you have tribes 
doing as much as they possibly can and really relieving the 
burden of the Federal Government, and these are areas, we did 
make a lot of progress last year. Chairman Dicks deserves 
credit for that more than any other single individual, but 
these are problems that are going to take sustained investment 
over many years to really catch up with the backlog. Thank you 
for your testimony.
    Mr. Bean. Yes, sir.
    Mr. Moran. Thanks, Mr. Cole.
    Mr. Simpson.
    Mr. Simpson. Did you say you were building, were planning 
to build a justice center?
    Mr. Bean. Yes, sir. We have been planning a justice center 
for quite some time and again appreciate having been awarded 
ARRA funding for our detention center.
    Mr. Simpson. So it is in the planning stage?
    Mr. Bean. Yes, sir, and we plan to break ground here in the 
next 90 days.
    Mr. Simpson. One of the things we put in the language of 
the report last year is that the BIA should look at regional 
facilities, and the reason I ask this is, Shoshone-Bannock 
Tribe, Fort Hall Reservation, just opened a justice center. I 
went to their opening in February. They actually built it and 
their concern is the same as yours, operating these afterwards, 
but the language we put in the report is that the BIA should 
look at the possibility of regional facilities. Would this be a 
regional facility? Would you be able to use it for that?
    Mr. Bean. We could. We would have to expand it. Presently, 
it is only 26 beds. There are 25,000 Native Americans within 
our service area, and so we definitely--our needs are larger 
than what we have presently for this facility.
    Mr. Simpson. Do the other tribes in the same region have 
the same issues with the justice--when I went out and looked at 
the facilities, the buildings, they were, frankly, deplorable. 
Do the other tribes have those same problems?
    Mr. Bean. Yes. I recently visited. I was east of the 
mountains in Spokane and saw a BIA facility, and it was just in 
terrible condition, not very safe, as well as our own. I have 
been to the Nisqually Tribe. They are developing a beautiful 
facility, which is about 20 miles south of Puyallup.
    Mr. Simpson. Thank you.
    Mr. Moran. Thanks, Mr. Simpson.
    Thank you, Mr. Bean. Thank you very much.
    We will now hear from Mr. Billy Frank, who is the chair of 
the Northwest Indian Fisheries Commission. Mr. Frank.
    Mr. Dicks. Welcome, Billy.
    Mr. Moran. You can introduce the folks that you are 
accompanied with.
                              ----------                              

                                           Tuesday, March 23, 2010.

                 NORTHWEST INDIAN FISHERIES COMMISSION


                               WITNESSES

BILLY FRANK, JR.
BOB KELLY
MICHAEL GRIM
    Mr. Frank. We are handing out our annual report. There is a 
map in front there. That tells who we are, Mr. Chairman.
    Thank you for having us here, and congratulations, Mr. 
Dicks.
    Mr. Moran. Mr. Dicks is now responsible for the country's 
defense in addition to being responsible for its interior.
    Mr. Dicks. Formerly.
    Mr. Frank. That is good. I am Billy Frank, chairman of the 
Northwest Indian Fish Commission. It is indeed a privilege for 
me to be among the distinguished cadre of Northwest tribal 
leaders, who are also here, and this is most all of our tribes 
right here and the national tribes, you know, we are all here.
    Mr. Moran. Would you introduce the gentlemen with you?
    Mr. Frank. Yes. This is the new chairman of the Nootsack 
Tribe, Bob Kelly, and this is my executive director of 
Northwest Indian Fish Commission, Mike Grim, and they are going 
to respond here in a minute. Their strong support and 
encouragement gives our organization focus and direction and 
helps make us successful in protecting and enhancing the treaty 
rights.
    Now, out of the United States versus Washington, we became 
co-managers with the State of Washington in fishery management 
and natural resources, and we sit on a 200-mile international 
treaty Pacific Salmon Management Council from Mexico to Alaska. 
We sit on the international treaty now and for the last 35, 40 
years and we are fishery managers. The tribes are on every one 
of these watersheds along the Pacific Coast and inside Puget 
Sound, and the State of Washington, they are on course. They 
are putting the watersheds back together. We work with the 
Puget Sound Partnership. We work with the Federal Government 
and co-management with the State of Washington, and we are 
managers. Michael.
    Mr. Grim. Thank you, Mr. Chairman. As you will see from our 
testimony, the Northwest Indian Fisheries Commission, the 20 
tribes that make up the Commission make up Puget Sound as well 
as the coast. If you look to your far left on the page, you 
will see our coastal tribes as well as our Puget Sound tribes. 
We have a number of Acts that all of our 20 tribes are in the 
process of implementing. In many of those cases, we went 
through the long process of planning for recovery on a number 
of species and we are not into implementation. The main and 
most important Act that we face is the Endangered Species Act, 
and we have a number of listings. We have Puget Sound Chinook, 
Lake Ozette sockeye and steelhead is not far away.
    What we are starting to see as we move forward into 
implementation with our 20 tribes is that we are running into 
the harsh reality that there are two different standards that 
we are addressing here as we look at achieving our goals and 
objectives in the implementation of these plans that we have. 
We have plans in every basis for our Chinook species. There is 
a different stock relative to every river if you look at the 
map. When we talk about the standards, the tribal standard that 
we equate with the trust responsibility that the agencies and 
the Federal Government have in terms of protecting and 
restoring these treaty rights is somewhere up here. You have 
got harvestable numbers versus a different standard with the 
Act, which is something more attune to museum pieces, and we 
have this large gap that we have identified.
    Now, with every piece of funding that we can get our hands 
on, our member tribes, we are collaborating as much as 
possible. There are a couple of different ways we could go. We 
could fight like hell through the courts or we could choose the 
collaborative route and try to work with our local governments. 
We have local governments in each one of these basins. We work 
very closely with the state government and the agencies as well 
as we try to implement these Acts but the main message as you 
read through our testimony is that we have two different 
standards that we are trying to achieve here and we need your 
help in terms of helping us achieve the standard that means the 
most for us, which is harvestable numbers and not museum 
pieces.
    Mr. Moran. Thank you. Very good.
    Mr. Kelly.
    Mr. Kelly. I see we are pretty short on time so just allow 
me just a couple of seconds to wrap up. First of all, I just 
wanted to recognize how important the actions of this Committee 
were last year to address the needs that we identified in the 
BIA rights protection. That was huge. One of our priorities 
this year is to try to maintain those gains that you were able 
to provide. The President's budget came up short. There was a 
10 percent reduction, or 10 percent of those gains were not 
included in the President's budget request for the western 
Washington fish management and the Washington State timber, 
fish and wildlife program and so we want to see those restored. 
In addition, we also want to note that we continue to have more 
needs than this Committee was able to address last year but I 
do not want to diminish the significance of what you did do.
    We also, as Mr. Dicks pointed out, we also have an interest 
in continuing increase in fish hatchery maintenance. You have 
done a tremendous job getting that up but again we have 
additional maintenance needs.
    Then lastly, EPA, I wanted to make note that we very much 
support what we see in the President's budget there for the 
Indian GAP program. This new multimedia tribal implementation 
grant program is huge to us. That is going to go a long way to 
addressing our partnership with EPA with tribal environmental 
programs. And we support increasing the Puget Sound back to the 
$50 million mark that this Committee was able to get in last 
year.
    Mr. Moran. Very good. Mr. Dicks.
    Mr. Dicks. You were very good on that, and you also want to 
see the Legacy Roads and Trails restored to its level too, 
which will also help us on the habitat.
    Mr. Moran. Mr. Frank.
    Mr. Frank. Mr. Chairman, we have Ed Johnstone from the 
Quinault tribe. He is our treasurer, so he just has to look 
good.
    [The statement of Billy Frank, Jr., follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. We will do what we can, particularly for the 
salmon harvest. Thank you all very much.
    Mr. Dicks. Thank you, Billy. Good job.
    Mr. Moran. Mr. Cole, we are out of time so----
    Mr. Cole. Just one quick question. I am always amazed at 
the diversity of Indian Country, and I have learned more about 
fisheries from Mr. Dicks. We do not have a lot of those in 
Oklahoma for our tribes. That has never been a major source of 
income or livelihood. I am just curious, could you tell me how 
many Native Americans are involved in this industry amongst the 
20 tribes that are in the Commission? How big an economic 
impact is this activity?
    Mr. Johnstone. The three tribes are the Lummi, the Makah 
and the Quinault. Just using those as an example, we have 
probably between 300 and 400 at Quinault and I would say the 
other tribes also. I would say the Quinault and the Lummi--
Henry is here. He has probably got 400 to 500. We have 300 to 
400 at Quinault, and I would say at Makah you would easily have 
400 to 500.
    Mr. Cole. So these are really substantial parts of the 
local economy?
    Mr. Johnstone. Definitely.
    Mr. Grim. It supports not only their economy but also their 
culture, and the local economy.
    Mr. Dicks. And there is a lot of recreational fishing 
associated with this too. I mean, there is both the commercial 
side of this and the recreational, and a lot of the work that 
we do helps both.
    Mr. Cole. And I assume that under treaties that you have 
got rights obviously that nobody else has in terms of the 
amounts you are able to harvest, the season, what have you.
    Mr. Frank. It is very unique, Mr. Cole. We are the only 
treaty tribes along the Pacific Coast and throughout all of the 
Nation, and I mean real comprehensive fishery management 
programs, shellfish, hunting, all of that, gathering, 
harvesters and gatherers.
    Mr. Cole. I will not take the Committee's time, but I would 
like to learn more about it sometime. It is very different than 
the tribes I represent.
    Mr. Moran. Thank you, and Chairman Cagey of the Lummi 
Nation indicated it had been 700 fishers supporting 3,000 
people, now it is down to 500 in just a decade, so there are 
problems that are consistently felt across the board.
    Our next speaker will be Ralph Forquera. He is the 
executive director of the Seattle Indian Health Board. Mr. 
Forquera.
                              ----------                              

                                           Tuesday, March 23, 2010.

                      SEATTLE INDIAN HEALTH BOARD


                                WITNESS

RALPH FORQUERA
    Mr. Forquera. Thank you, Mr. Chairman.
    Good morning. My name is Ralph Forquera. I am the executive 
director of the Seattle Indian Health Board. The Seattle Indian 
Health Board is an urban Indian health program located in 
Seattle. We are celebrating our 40th anniversary this year, so 
I think we are the oldest and probably one of the larger Indian 
urban health programs in the country.
    I would first like to thank the Committee for the generous 
contribution that they made last year to the urban Indian 
health program. An additional $5 million was added to our 
budget, which meant that we received almost $7 million in 
increase for the urban program, which is the largest single 
increase in the history of the program, and I just wanted to 
acknowledge the great work that you guys are able to do, and I 
know that Mr. Dicks was very involved in that process and we 
really appreciate it.
    I have three items that I would like to speak to regarding 
the urban Indian health programs. One is sexual violence 
against women. In a meeting that the President held with the 
tribes in November of last year, one of the items that was 
brought up repeatedly is the fact that there seems to be an 
epidemic of sexual violence against Indian women on 
reservations. We recently looked at a study called the National 
Study of Family Growth, which is a CDC-sanctioned study. It is 
the first time that Indians have ever been looked at in this 
particular database, and we found remarkable evidence of sexual 
violence among Indian women living in cities also. So one of 
the recommendations I would like to ask is that the Committee 
consider additional funding to look more specifically at this 
particular issue among the Indian population and hopefully 
begin to build partnerships in order to be able to address that 
particular issue.
    The second item that I would like to mention is electronic 
health records for the urban Indian health programs. Last year 
the Congress appropriated $85 million to the Indian Health 
Service for technology and electronic health records through 
the ARRA fund. The urban Indian health programs were not 
considered eligible for any of those dollars so we received no 
financing for electronic health records from that particular 
fund. This year, even with the increase that was provided for 
the urban Indian health programs, the Indian Health Service 
only set aside $95,000 to support technology, and that was 
primarily to train people in their RPMS system, their 
electronic health records system, that many of us do not 
operate, primarily because of the kinds of operations that we 
have. We have a need for a much broader array of technologies 
than the Indian Health Service's system has available to it, so 
I would like to request that the Committee consider about a $2 
million appropriation for advances in the non-RPMS technology 
for the urban Indian programs.
    And finally, Mr. Moran, you mentioned earlier the 
importance of looking at especially Indian youth. This is one 
of the areas that we have been working on. I also direct the 
Urban Indian Health Institute, which is a small research center 
that we created back in 2000 to basically begin to look at 
urban Indian health issues. The Indian Health Service has never 
really spent a lot of time looking at urban Indians and so my 
organization decided that we would try to address that 
particular issue. One of the areas that we have been most 
concerned about is the area of youth issues. We know that there 
are a number of youth that are at high risk. We also know that 
there are a number of urban Indian youth that have for a 
variety of reasons succeeded very well, but we do not know what 
are the causative factors of those youth. So we started working 
with Dr. Robert Blum at the Johns Hopkins University, who has 
done the last study on Indian youth back in 1988, so it is 
quite old, and there were no urban Indians that were looked at 
at the time. But working with Dr. Blum, we started talking 
about trying to develop a study specifically to look at the 
urban Indian communities, working through the network of urban 
Indian programs around the country. We estimate that this will 
be about a 3-year project. It will take somewhere around $1 
million to $1.5 million to do based on what our estimates are 
for that particular project. And we had been looking for 
resources within the bureaucracy itself, within DHHS and the 
Indian Health Service and have not really been able to pull 
anything together, so I thought that this year I would try and 
make a request of the Committee itself to see if there might be 
some interest in doing that particular work.
    We want to congratulate you on the passage of the health 
reform bill and we think that that will have a profound effect 
on the urban Indian programs over time, but we think it is 
going to take time to get there, and what we are looking for is 
some bridge opportunities in order to be able to build that 
capacity. Thank you very much.
    [The statement of Ralph Forquera follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you very much, Mr. Forquera.
    Mr. Dicks. We appreciate your being here and your 
leadership on these issues, and we are glad we were able to 
keep this program alive a few years ago, and now it is back in 
the President's budget, which is very positive. Thank you.
    Mr. Forquera. It was very reassuring for us to get that 
kind of an increase. I mean, it was just finally somebody kind 
of patted us on the back for the work that we have been trying 
to do for a long time.
    Mr. Moran. Mr. Cole.
    Mr. Cole. Yes, I have a couple questions. First, I wanted 
to follow up on this violence to women off the reservation. We 
normally attribute it on the reservation, a big part of it 
obviously the absence of law enforcement. One would suspect 
that would be less the case in urban centers that are outside 
of reservations. Do you have any particular reason?
    Mr. Forquera. We do not, and that is one of the reasons why 
we want to look at this. We think some of it may be--you talked 
about earlier the gang issue and especially young women being 
affected by early gang involvement and gang activity in cities. 
But we really do not know, and that is one of the things that 
we need to look at. We were quite surprised at the extent of 
the violence. It was a very small cohort so it was not a large 
group, so you would not have expected the intensity of the 
responses that we got on that particular issue, so it must be a 
major issue and we would like to look more at what are some of 
those causative factors and see if there are interventions that 
we can effect.
    Mr. Cole. A couple other quick questions. Just educate me, 
how many--number one, are you comparable to--we have Indian 
health facilities off reservations or outside areas of historic 
jurisdiction, Oklahoma City and Tulsa, enormously important to 
us. Is that basically the scope of your operations? Well, how 
many patients do you see?
    Mr. Forquera. It depends. We see about 7,000 or 8,000 
Indian people a year in our program. It is quite a 
comprehensive program because we have a fairly sizable clinic, 
very similar to, actually probably closer to Tulsa than 
Oklahoma City because Oklahoma City has a much larger program. 
Our program is fairly similar to the Tulsa program. We have a 
couple of unique characteristics. We have a family practice 
residency program, for example, where we actually train Indian 
docs on site, and then we have this research institution. We 
also manage Thunderbird Treatment Center, which is a 
residential drug and alcohol treatment program, and that is in 
the process of a transition right now too because it was 
primarily state funded in Washington State and the state has 
really had some serious financial problems in the last couple 
of years, so we are seeing some erosion in that area but it has 
not quite impacted us as much as it has some of the other 
communities.
    Mr. Cole. I assume again, like Oklahoma City and Tulsa, 
that any tribal members eligible to use the facility or 
restricting certain tribes, or what have you?
    Mr. Forquera. Yes, we actually serve members from about 250 
Indian tribes from around the United States, plus we serve non-
federally recognized Indians also so state-recognized Indians 
and Indians that are no longer affiliated with a tribe. So we 
have a number of state-recognized tribal people representing 
our service population as well as a lot of descendants of 
people that were displaced as a result of the relocation 
programs, a number of people that cannot link back to their 
home reservations or their home tribes anymore but yet we can 
follow their heritage by going back through linear kinds of 
things. We work with the Mormon Church, we work with the census 
and a whole variety of different places to try to get 
information for people.
    Mr. Cole. Well, thanks for what you do. This is a huge 
problem, Mr. Chairman, that we have got a lot of natives a long 
way away from their tribes, a long way away from their historic 
areas. They still have frankly the same trust rights and same 
negotiated privileges as those back on a reservation or in an 
area of historic jurisdiction, so making these kinds of 
services available in urban areas is absolutely critical.
    Mr. Forquera. Thank you very much.
    Mr. Cole. Thanks for the work you do.
    Mr. Moran. Thank you. Would it not be fair to say that 
nearly all of your clientele would have incomes below $44,000 
for a single person, $88,000 for a family of four?
    Mr. Forquera. About 86 percent of our clients are below 100 
percent of poverty, so whatever the standard is for 100 percent 
of poverty. So it is a very, very large----
    Mr. Moran. So they would qualify for 100 percent subsidy?
    Mr. Forquera. The majority of them would, yes.
    Mr. Moran. And would not be paying anything for the health 
care that will now be made available to them from the health 
care bill that was signed Sunday.
    Mr. Forquera. That is correct.
    Mr. Moran. They can go to an insurance company, they can 
get their insurance policy. The Federal Government will pay 100 
percent for 86 percent of them. I suspect it will provide a 
subsidy for 100 percent because the subsidy extends up to 400 
percent of poverty.
    Mr. Forquera. That should cover a significant number of our 
population.
    Mr. Moran. Virtually all the clientele that you serve, so 
it will have a dramatic impact on the quality and accessibility 
of health care.
    Mr. Forquera. Absolutely, and I think over the course of 
the next 4 or 5 years as all this gets rolled out, we will be 
able to really see the impact of that as well as better define 
the structures and the systems that we need to have in place 
that we are going to be able to care for them.
    Mr. Moran. Well, there will be financial incentive for 
insurance companies to do that since the government will be 
paying them directly. Thank you very much, Mr. Forquera.
    Mr. Forquera. Thank you.
    Mr. Moran. Joseph Pavel, the vice chair of the Skokomish 
Indian Tribe. Thank you for coming.
                                           Tuesday, March 23, 2010.

                         SKOKOMISH INDIAN TRIBE


                                WITNESS

JOSEPH PAVEL
    Mr. Pavel. Joseph Pavel, Skokomish Tribe. Thank you for 
this opportunity. Chairman Moran, Congressman Dicks, good to 
see you again, members of the committee. I am Joseph Pavel and 
I am here on behalf of the Skokomish people, on behalf of our 
community and the great needs that we have. Our community is 
certainly at high risk, at great risk. Public safety is a big 
issue for us. We are a small rural community, Hood Canal in 
western Washington, not immune from any of the other problems 
that you have heard spoken of this morning.
    Just this last holiday season, we had two young men die of 
drug abuse situations. This is something that our community is 
not willing to tolerate anymore. They have directed us to 
counsel the staff to take action, to take steps to remedy this 
situation. This is something that the community has been very 
sincere about for many, many years. When I was first on the 
tribal council in the early 1980s, we had no capacity to 
address these issues. We started out with basically hiring a 
tough guy half time, gave him a shirt, walking up and down the 
reservation half time. I think we were able to fund him out of 
a domestic violence community outreach grant. And we have been 
struggling to build our law enforcement, our judicial system by 
cobbling together whatever we could. We do not receive any BIA 
enforcement dollars. You know, we are a small tribe, formally a 
280, which is a jurisdictional situation. We have since been 
endorsed by the state and county or rescind jurisdiction back 
to the tribe. The Department of Interior has not recognized 
that as yet because we do not have the capacity to maintain law 
enforcement and they refuse to provide that capacity to the 
tribe.
    So the Bureau of Indian Affairs within that culture, that 
society is pervasive. I believe this was one of the original 
roles, policing tribal people, tribal reservations. It is an 
area of jurisdiction that they continue to hold tight-fisted to 
their own selves. They need to be directed to allow for tribal 
programs to develop, to be enhanced, to provide the capacity 
for tribes to enforce their own laws and codes in our own 
communities. We have been very successful at putting together 
with whatever resources we could find our public safety 
program. We have a very, I believe, appropriate set of codes 
and ordinances. Certainly they need to be enhanced, continued 
to work on. We are a member of an intertribal court system that 
struggles to be funded. The Bureau of Indian Affairs does not 
support them. They get nominal funding. They have received no 
increases from any of the recent upgrades in the Bureau law 
enforcement judicial appropriations. The Bureau needs to be 
directed to be forthcoming with those dollars.
    Our people are in a crisis. We are in the process of 
developing a multi-pronged approach to deal with these issues. 
Certainly prevention is huge on the list. I think a community 
that feels safe and secure that they can be comfortable in 
their own homes, not the victim of crime, not have to be 
fearful. Every one of our folks is a victim, not only those 
that are a direct victim of a crime or in this situation of 
drug use and abuse or dealing it but every single one of our 
members, every one of our families is immediately affected just 
tremendously right to the core of our families, our community 
and our culture, and this is something that we have been 
directed to address and we are very sincere and we will work 
diligently towards that effort. We ask for the Committee's 
support in that. We ask that the Bureau be forthcoming with 
providing that support capacity for tribes, Skokomish Tribe as 
well, particularly who I am here to speak for but I am sure we 
are not unique in that situation across the country, that we 
need to get over this area of distrust, of turf. Tribal courts, 
tribal law enforcement are often not very well trusted. I think 
in our area, we have been able to address those issues. We have 
support for the law enforcement community in our area and we 
have a high standard.
    [The statement of Joseph Pavel follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you very much, Vice Chair Pavel. I do see 
that crime rate is five times the national average and half of 
the members of the tribe have been victims of crime, many of 
them violent crime. It is a very difficult situation and I am 
glad you brought it to our attention.
    Mr. Dicks.
    Mr. Dicks. Has the BIA been out on the reservation?
    Mr. Pavel. No.
    Mr. Dicks. Have you invited them to come out there?
    Mr. Pavel. No, we have not.
    Mr. Dicks. Do you think that might be a useful idea to have 
them come out?
    Mr. Pavel. Certainly.
    Mr. Dicks. We could ask somebody to come out. I would be 
glad to be there myself to have a discussion. I think we need 
to take some extraordinary steps here, so I would appreciate it 
if you would get in contact with me so that we can figure out 
what to do about this.
    Mr. Moran. It sounds like they need to assign more BIA 
officers.
    Mr. Cole.
    Mr. Cole. No questions.
    Mr. Moran. Mr. Simpson.
    Mr. Simpson. No questions.
    Mr. Moran. Thank you very much, Mr. Pavel.
    Our next speaker will be Ray Peters. He is the tribal 
administrator of the Squaxin Island Tribe. Mr. Peters.
                              ----------                              

                                           Tuesday, March 23, 2010.

                          SQUAXIN ISLAND TRIBE


                               WITNESSES

PETE KRUGER
RAY PETERS
    Mr. Kruger. Good morning, distinguished members of the 
Committee. I am Pete Kruger, secretary of the Squaxin Island 
Tribe. Congratulations, Chairman Moran, on your recent 
appointment. On behalf of Squaxin, I offer the support of our 
people to assist you and your staff in anything that we can.
    Mr. Moran. Thank you. What is the story with Mr. Peters?
    Mr. Dicks. He is right here.
    Mr. Moran. Oh, there we go. Okay. Good. So you are 
accompanied by Mr. Peters?
    Mr. Kruger. Yes.
    Mr. Moran. Very good.
    Mr. Kruger. Thank you for inviting the Squaxin Island Tribe 
to provide testimony on our 2011 funding request. I would like 
to introduce Mr. Ray Peters, executive director, also a tribal 
member, who will present our request to you today. Thank you 
very much.
    Mr. Moran. Very good. Thank you, Mr. Kruger.
    Mr. Peters. It is my honor on behalf of the Squaxin tribal 
leadership and the tribal members to give this testimony to 
you. I want to go on record by saying that the regional 
requested recommendations of the Northwest Portland Area Indian 
Health Board, Affiliated Tribes of Northwest Indians and 
Northwest Indian Fish Commission that the Squaxin Island people 
fully support their request.
    The first request that I would like to talk about is a 
request to the Northwest Indian Treatment center. It is a 
regional facility. It is very effective. It is an accredited 
facility through CARF. It is recognized. It is certified by the 
State of Washington Department of Health. We have been a 
treatment facility since 1993, and have served an average of 
180 Native Americans per year. With the diminishing resources 
at the state level and increasing access problems we will face, 
this will decrease our funding for beds. This increase in the 
base funding will be the first increase since the original 1993 
Congressional set-aside. The co-occurring treatment addresses 
the historic trauma, specifically post-traumatic stress 
disorder, by increasing a grief process that takes into account 
a historical context. Patients see their addictions and 
problems in their community in a historical context, which in 
itself can be healing and inspires the recovery to be active 
participants in the healing back home. I have seen as a tribal 
administrator firsthand a tribal member who has been affected 
by these addictions, see people come out of the Northwest 
Indian Treatment Residential Program and be active participants 
in our community healing and go on to get educations, be an 
inspiration to their children, be inspirations and become 
leaders of the tribe. It is paramount that our base funding is 
increased. Due to the funding that we seek and have leverage 
from the State of Washington, it is important that we get some 
increase in that area.
    As well as you have heard from other tribes, public safety 
is a big concern for the Squaxin people. Our reservation is 
also on the mainland and our island in the waterways, our tree 
rights, shellfish, we are the people of the water, and then our 
hunting lands are nearly 3 hours away. That poses some 
challenges. The lack of enforcement in officers, we have become 
a target of those peddlers of poison and methamphetamine that 
also affect our community.
    We are one of the first tribes to start a tribal historic 
preservation office and we appreciate the funding that we 
received from the Federal Government, but as other tribes have 
gotten their offices up and going, that funding has decreased 
and so while it is good that other tribes are starting their 
office, we will receive nearly 150 requests per year for land 
projects within our lands that require our oversight and 
research, and the funding does not even cover a part-time 
archaeologist or an assistant to be able to handle the 
administrative paperwork for that. We do appreciate the 
increase that has been shown, but due to the number of offices 
that are being started up, it actually has become a decrease in 
our overall annual funding.
    As well, we request that the final payment to the Puget 
Sound regional shellfish settlement be fulfilled, and we are 
responsible for co-managing that resource and want to enhance 
those areas.
    [The statement of Pete Kruger follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, Mr. Peters, and thank you, Council 
Member Kruger.
    Mr. Dicks.
    Mr. Dicks. Good to see you guys. We will certainly work 
with you on these issues.
    Mr. Cole. I have just a quick question if I may, again just 
educational for me. I noticed just looking at your testimony 
you are the largest employer in your local area. Can you tell 
me what your economic base is, what your activity is, how you 
generate your own income?
    Mr. Peters. Yes. We have Sala Seafoods Company, where we 
grow oysters, sell shellfish, which we buy from our tribal 
harvesters, as well as salmon, and then we sell that, so we 
have Sala Seafoods, and we have Little Creek Casino and Resort. 
We also run two trading posts, convenience stores, and then 
also run Skookum Creek Tobacco Company.
    Mr. Cole. And roughly how many employees and what is the 
breakdown between tribal and non-tribal?
    Mr. Peters. In the government, we have about 150 full-time 
employees. In the enterprise, Island Enterprise Inc., we have 
just about 90, and then at the casino resort, which we have 200 
rooms, as well we have just under 1,000.
    Mr. Cole. And again, how many native, how many non-native?
    Mr. Peters. We have about 30 percent of our tribal 
population is employed and so the other 70 percent is residents 
of Mason County.
    Mr. Cole. So a pretty significant contributor obviously to 
non-natives?
    Mr. Peters. Yes.
    Mr. Cole. So they are lucky to have you there.
    Mr. Peters. Yes. Mason County is a very depressed county.
    Mr. Cole. Thank you.
    Mr. Moran. Thanks, Mr. Cole. Mr. Simpson. Okay. Thanks very 
much, both of you.
    We will next hear from Michael Finley, the chair of the 
Confederate Tribes of the Colville Reservation. Mr. Finley. 
Thank you all very much for coming. Thanks for making the long 
trip. We appreciate your testimony.
                              ----------                              

                                           Tuesday, March 23, 2010.

              CONFEDERATED TRIBES OF COLVILLE RESERVATION


                                WITNESS

MICHAEL FINLEY
    Mr. Finley. Chairman Moran, Ranking Member Simpson, it is 
an honor to be here today. My name is Michael Finley. I am the 
chairman of the Confederate Tribes of the Colville Reservation 
in northeast Washington State. You have my written testimony, 
and I wanted to highlight a few of those areas here today.
    The challenges that Indian tribes face today in 
constructing IHS facilities in Indian Country is difficult 
because of the existing programs administered through IHS 
presently. These issues are of great importance to us and my 
tribe, and IHS facility dollars have not been traditionally 
made available to tribes. Our tribe is a large tribe in a rural 
area, as I stated, in northeast Washington State. We are 1.4 
million acres. We have a large high-service population of 
around 5,000. We have been operating out of dilapidated 
buildings for quite a few years until about 5 years ago we had 
new facilities constructed at three different locations on our 
reservation. We had tried using the existing programs to fund 
the construction of the Nespelem facility and we were on the 
priority list for several years but for whatever reason we were 
never pushed to the top of that list, and so we were forced to 
deal with the situation by paying for a majority of the 
construction with our own tribal dollars. And so presently we 
have the largest community within the boundaries of our 
reservation being Omak, Washington, where we are trying to look 
at ways, funding options, funding sources to build a facility 
in Omak. The problem with building our own facility is it does 
not always come with adequate funds or staff to equip the 
facility, so now we are faced with new buildings but we do not 
have adequate staff or equipment to put in the buildings.
    So the Omak area that I mentioned just a minute ago, we are 
looking at the joint venture program to try to get a new 
building constructed but unfortunately with the downturn in the 
timber market, we have taken huge cuts on our tribal revenues. 
Historically we have been a timber resources tribe and we were 
forced to close two mills in the Omak district that employed 
just under 500 people, and that is not counting the contractors 
who brought the product to the mill, and so the actual impacts 
are far more reaching than just the jobs at the mill 
themselves.
    So our recommendation is to include $40 million to the 
Small Ambulatory Program for fiscal year 2011. We would also 
like IHS to provide 50 percent of the staffing costs for 
facilities in awarding grants as well as IHS to award up to $5 
million for the construction portion of grants in instances 
where a facility will serve an unusually high user population, 
that being Omak since it is the largest community of our tribal 
members within our boundaries and where unique circumstances 
exist as well.
    I appreciate the opportunity to be here today before you 
and I stand for any questions you may have.
    [The statement of Michael Finley follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thanks very much, Mr. Finley.
    Mr. Cole.
    Mr. Cole. Thank you. Just again educational for me, how 
many tribal members, how many tribes, actually, collected 
together and how many members?
    Mr. Finley. We have just under 9,400 members. We have 12 
aboriginal distinct tribes that make up our confederacy, and as 
I stated, we have a land base of 1.4 million acres.
    Mr. Cole. You mentioned the importance of timber obviously 
and how much that has hurt given what has happened in that 
industry. What are the other sources of income that the tribes 
have? What are their enterprises they operate?
    Mr. Finley. Well, we have several enterprises. We do have 
casinos, and since we are one of the largest tribes in the 
Pacific Northwest, we do have a rather generous compact with 
the State of Washington, but at the same time we are off the 
beaten path. We are in probably the most rural areas in 
Washington.
    Mr. Cole. It is a business where location is everything.
    Mr. Finley. It is. We are not along a major corridor. We 
are not along an interstate. We are along a state highway, but 
again, you know, it is not a highway that is well traveled in 
comparison to some of the other ones such as the I-5 corridor, 
the I-90 in Washington State.
    Mr. Cole. Do you have any sort of statistics on what the 
unemployment rate would be?
    Mr. Finley. It is over 50 percent.
    Mr. Cole. Thank you very much, Mr. Chairman.
    Mr. Moran. Thank you. Mr. Simpson.
    I think for next year it might be helpful to have a map to 
see where exactly the tribes are located.
    Mr. Finley. It is up there, dead center of Washington 
State. You see the largest tribe there in the middle? That is 
us.
    Mr. Moran. Thank you. That prior map that we had with the 
inlets and the bay, that was helpful, and I appreciate it. 
Thank you, Mr. Finley.
    Next we will hear from Roger Trudell, who is the chair of 
the Santee Sioux Tribe.
                              ----------                              

                                           Tuesday, March 23, 2010.

                           SANTEE SIOUX TRIBE


                               WITNESSES

ROGER TRUDELL
PATRICIA MARKS
    Mr. Trudell. Good morning, Chairman Moran and Committee 
members. I would like to thank you for the opportunity to be 
here and present, and this is Patty Marks, our attorney at 
large and our right-hand person out here in this area. I am 
chairman of the Santee Sioux Nation, which is located in 
northeastern Nebraska. We are in northeast Nebraska as we were 
removed from the State of Minnesota in the 1860s. Our tribe was 
the recipient of the largest mass execution in this country's 
history. Thirty-eight members of our tribe were hung in public 
at Mankato, Minnesota, December 26, 1862. Later after that, two 
more were kidnapped from Canada and hung publicly again, so 40 
in all. We are currently located in Nebraska and we have made a 
few stops before there. Our people were interred at Fort 
Snelling, which is close to Minneapolis-St. Paul area, removed 
to Crow Creek in South Dakota, then later relocated to 
Nebraska, where our home is now.
    We have approximately 4,000-some members on our roll 
dispersed throughout the 50 states. How many total Santee Sioux 
are there? Nobody knows. A lot of them were absorbed by other 
tribes and currently in Canada.
    Today I am specifically here to address the water needs on 
our reservation. Our population far exceeds the ability to put 
wells in anymore and the water that is available for drinking 
is not really potable, as I call it. They have other levels in 
here that Indian Health Service states the levels of our water 
do not meet human consumption. The approximate cost of a 
reservation-wide water system which would include all persons, 
tribal and non-tribal residing within boundaries of our 
reservation, approximately $21 million.
    The majority of our people are below the poverty level. We 
do employ through contracting of federal programs. We employ 
somewhere in the neighborhood of 100 people. We also have some 
private industry or private commercial activities that employ 
probably another 50 people or more, probably greater. We have a 
class II casino operation that employs 30-some people. They 
have a C store which is located on the reservation. It is open 
24 hours a day. That employs anywhere from two to three people 
a shift. And we have a C store located in South Yankton, which 
is across the bridge from Yankton, South Dakota, and that is 
also a 24-hour operation that employs two to three people per 
shift also. The majority of those people at Yankton are non-
tribal members. We do employ other tribal members that reside 
in the town of Yankton and some non-Indian people at that 
facility. We also have a business called Santee Financial 
Services, which is a lending institution, and that is serviced 
from the reservation.
    Again, the water that we have, the studies have been going 
on actually since the 1960s. I see 1997 and 2004 in here. They 
have gone on longer than that. Indoor water was brought to our 
reservation in the early 1960s. Many of the people did not even 
have wells in the 1960s. Now the wells that we do have are all 
going bad. A lot of this is created by the Pick-Sloan Act. We 
are between the Fort Randall Dam and Gavins Point Dam, and we 
do have some visual aids there to show the siltation that is 
going on in the Missouri River caused by the Lewis and Clark 
Dam on the Missouri River, and we are on the tail waters of 
that. The siltation has caused a rising water table level and 
through that process, although you would think it would enhance 
our water sources, it is actually a detriment to it because it 
creates a lot of nitrates and other chemicals that are used in 
agriculture to filtrate into the

wells and into the water system. That would cost approximately 
$21 million. We also have a request to assist people with 
drinking water until that can be accomplished.
    So I thank you for your time this morning.
    [The statement of Roger Trudell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thanks very much, Mr. Trudell. Who is your 
Member of Congress? Who represents you in the Congress?
    Mr. Trudell. Adrian Smith is my representative from our 3rd 
district in Nebraska.
    Mr. Moran. Adrian Smith.
    Mr. Trudell. I do not know him either. I do not think 
anybody in our part of Nebraska knows him.
    Mr. Moran. Do you know him? Is there a--oh, you do?
    Mr. Cole. As a matter of fact, it is a big district. That 
is a 75,000-square-mile Congressional district.
    Mr. Moran. I did not know he was a colleague. Now I am 
embarrassed. I did not realize. Okay. I have not heard of him 
before.
    Mr. Cole, do you have questions?
    Mr. Cole. Yes, just a couple quick questions. You mentioned 
you had a class I facility. Is that all Nebraska allows? They 
do not have class III gaming?
    Mr. Trudell. Nebraska does not have class III gaming.
    Mr. Cole. This is a pretty dramatic picture. The siltation 
here is just amazing. Are there any state efforts for help?
    Mr. Trudell. There are no state efforts. The state did come 
in and assist us when the wells that were our primary source 
for our main village of Santee were flooded. The state did come 
in and assist us with rebuilding those wells and providing 
drinking water for a period of time.
    Mr. Cole. You mentioned you had 4,000 or so members. How 
many actually reside on the reservation and what is the size of 
the reservation?
    Mr. Trudell. Well, our reservation is 12 by 17 miles. We 
own approximately 27,000 of those acres in there. We provide 
service. We have 2,300 active files in our health facility.
    Mr. Cole. Are any of the neighboring communities, non-
tribal communities, affected with a water situation similar to 
yours?
    Mr. Trudell. Nibrara and Center and of course the 
communities east of us are already on rural water systems.
    Mr. Cole. Thank you, Mr. Chairman.
    Mr. Moran. Thank you, Mr. Cole.
    Ms. Marks. May I make one----
    Mr. Moran. Please.
    Ms. Marks. We had a meeting with the Indian Health Service 
2 weeks ago. One of the concerns is that this water clearly 
does not meet level II of the Clean Drinking Water Act. Indian 
Health Service says because they cannot monitor the tribal 
system every day, they believe that on various occasions, more 
numerous than we would like to talk about, it does not meet 
level I. We have mothers mixing baby formula with water that 
does not meet level I. We have people who literally cannot 
afford to buy it so they are adding sugary mixes, Kool-Aid, 
whatever we can, to kill the taste. This water smells. I cannot 
get it from my mouth to my nose.
    This has been a ping pong ball. The Bureau of Reclamation 
sends us back to the Indian Health Service who sends us over to 
Interior who sends us back over here. We have got to solve this 
problem. We cannot have newborn infants drinking contaminated 
water. That is why we put the request in for the $200,000 just 
to buy water for those young mothers until we can get this 
problem fixed. It is a serious mess.
    Mr. Cole. May I ask an additional question, Mr. Chairman.
    Mr. Moran. Please, go ahead.
    Mr. Cole. You know, when you talk to BIA, what do they tell 
you in terms of what is available----
    Ms. Marks. Go to Reclamation or Indian Health.
    Mr. Cole. And what do they tell you?
    Ms. Marks. Indian Health says we will try to get you on the 
priority list. Reclamation says all of our monies come through 
earmarked for specific projects.
    Mr. Cole. Does anybody acknowledge that the Federal 
Government has an obligation to provide you water on a 
reservation?
    Ms. Marks. That is why quite frankly I recommended to the 
chairman that he come here and get you in the mix of people 
being talked to about this issue because no one seems to want 
to have this squarely within their box. Reclamation says well, 
we build big huge water systems. Indian Health Service says we 
build wells. Bureau of Indian Affairs says we do not deal with 
water at all. It is one of those things where there is no 
question the authorization exists but for someone to step up 
and say this is our agency's responsibility and we will help 
you is what we are missing.
    Mr. Moran. Well, frankly, it is difficult to do much 
without the person who represents you advocating for you 
because there are members who advocate for tribes within their 
district. Mr. Cole does that extremely well.
    Ms. Marks. And Mr. Smith is publicly in support of this 
project.
    Mr. Moran. Does Senator Nelson get involved at all?
    Ms. Marks. Senator Nelson is weighing in now. Senator 
Johanns has been very upfront for a while. Part of the issue 
was, we kept hoping, BOR started a study of this water back in 
2004. They never finished it. The administration changed. Mr. 
Osborne, who was a former member of this fine body, retired, 
and since then no one is picking up the ball. We certainly are 
going to encourage as much as we can with our delegation but I 
would state for the record, it is my belief that this is a 
trust responsibility area. It is squarely on Indian Health 
Service's shoulders, and this Committee has oversight over 
Indian Health Service.
    Mr. Cole. You make a very good point. It is very clearly a 
trust responsibility to provide water on a reservation.
    Ms. Marks. You cannot drink it. You cannot bathe. You 
cannot wash dishes. You cannot cook.
    Mr. Cole. So that is a failure of the----
    Ms. Marks. When you boil the water and it still comes up 
unsafe, there is a problem here we have to figure an answer to.
    Mr. Moran. Well, good for you for bringing it to our 
attention. I am not sure what we are going to be able to do. I 
wish Mr. Osborne was still here representing you.
    Mr. Cole. Mr. Chairman, speaking for somebody that is an 
ardent OU Sooner fan, we are glad he is back in Nebraska but we 
do not wish him quite the success that he used to have.
    Mr. Moran. It is troubling. The Sioux Nation was one of the 
greatest, most heroic, tribes and that is basically why you 
have suffered and been abused in such an extreme manner. I 
would hope that we could do something about this situation. 
This is not your land. You were put here and your land was 
taken from you. For what it is worth, I wish that stories like 
this could be told at the American Indian Museum just half a 
block away. Unfortunately, as far as I am concerned, it is a 
glorified craft store, but this is the history that should be 
shown. I was not aware of the situation in Minnesota. I am glad 
you brought it to our attention, but most importantly, I am 
glad you described your current situation because it continues 
to be one of deliberate abuse as far as the testimony you have 
provided today. It needs to be rectified. I hope maybe Mr. Cole 
and I can figure out something to do about it. Thank you very 
much.
    Ms. Marks. Chairman, congratulations, sir. We are very 
pleased to have you as chairman.
    Mr. Moran. Thank you. Thank you for saying that.
    All right. The next testimony will come from Ron Suppah. 
You are the chair of the Confederated Tribes of the Warm 
Springs Reservation of Oregon?
    Mr. Suppah. Yes, sir.
                              ----------                              

                                           Tuesday, March 23, 2010.

   THE CONFEDERATED TRIBES OF THE WARM SPRINGS RESERVATION OF OREGON


                                WITNESS

RON SUPPAH
    Mr. Suppah. Good morning, Mr. Chairman and members of the 
Subcommittee. I am Ron Suppah, chairman of the Confederated 
Tribes of Warm Springs Reservation of Oregon.
    Warm Springs is a forestry tribe. Timber is a principal 
source of our revenue and jobs, and the health and good 
management of our forest is very important for us. 
Unfortunately, BIA has been starving its forestry programs for 
years. It gets only about one-third of the per-acre funding of 
the Forest Service, and since 2003 inflation has gone up 17 
percent while BIA forestry has only gone up 5.3 percent. At 
Warm Springs, this unfair treatment of BIA forestry funding has 
seriously eroded our forestry staff. Eleven of our 27 full-time 
positions are permanently unfunded. Our ability to plan and 
manage our forest has been crippled.
    Warm Springs believes the following steps are needed to 
begin repairing this damage. First, reject the absorption of 
BIA fixed costs. We are already way understaffed and this cut 
will only eat further into forestry and other programs' limited 
funds. Second, BIA forestry funding must be substantially 
increased. The Intertribal Timber Council suggests increasing 
forestry to $31.2 million just to keep up with increases given 
other agencies in recent years. We believe it would be a start 
and we support that. Third, in the BIA forestry project budget, 
restore $1 million to the Timber Harvest Initiative Program and 
add $5 million to forest development to reduce the national 
thinning and replanting backlog of 900,000 acres. On Warm 
Springs, our own backlog is approximately 60,000 acres.
    Also related to our forestry is BIA Endangered Species Act 
funding. Nationally, the ESA program needs at least $5 million 
and $2.3 million needs to be directed for the northern spotted 
owl on the Northwest reservations.
    Mr. Chairman, for BIA law enforcement, Warm Springs asks 
that the $19 million for FBI agents be kept at BIA to increase 
the pay of tribal law enforcement personnel. Being able to 
retain our tribal police will do more to improve day-to-day law 
enforcement on the ground than hiring more FBI agents.
    For BIA Johnson-O'Malley, Warm Springs urges it be funded 
at $25 million. That is the only BIA elementary and secondary 
support for the great majority of our tribes whose children are 
in public schools and its decline must be reversed.
    In the Indian Health Service, add $100 million to contract 
health care. There are no IHS hospitals in the Northwest so 
even with recent increases, when contract care money now runs 
out around the middle of the year, our care is pushed back to 
next year.
    Finally, please instruct the IHS that 638 contract support 
funding for new contracts must be spent on new contracts. 
Currently, they use that money to help existing contracts and 
will not fund new contracts such as ours.
    Mr. Chairman, that concludes my remarks. Thank you.
    [The statement of Ron Suppah follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you. That is a sophisticated analysis of 
the budget. Good for you, Mr. Suppah.
    Mr. Cole.
    Mr. Cole. A couple questions just quickly. I am interested 
in the idea of $19 million for FBI because you put your finger 
on a difficult problem. We know we do not have enough tribal 
law enforcement personnel but we also know they do not have the 
same authority that an FBI agent does on Indian land, and one 
of our big problems is tribal courts are so limited in the 
kinds of penalties they can impose on non-Indians on Indian 
land. They ought to have, in my mind, the same jurisdiction as 
any local jurisdiction does. They ought to be able to impose 
the same kind of penalties as would be imposed on me if I 
committed a crime in Alexandria, Virginia, even though I am not 
from Alexandria. But if you do not have this federal component, 
do you have any concerns that you are not going to have people 
with adequate jurisdiction because we know a lot of crimes do 
not go punished appropriately because it is just a long time 
before you get a federal investigator to deal with them.
    Mr. Suppah. It is funny that you should bring that up as an 
example because Warm Springs has recently had a tribal police 
officer follow a non-tribal member off the reservation on a 
state highway across the reservation line and cited the 
individual and they were subsequently taken to court in 
Jefferson County in Madras, which is an off-reservation 
community, and the court there found them guilty, and basically 
the non-member appealed that to the Oregon Supreme Court and 
the Oregon Supreme Court overturned that decision by the 
Jefferson County judge, and basically we run into that dilemma 
of islands of no jurisdiction. That is what reservations are 
now in Oregon and we are working with the state attorney 
general's office to ask them to help us, and they said that 
they will appeal to the Oregon Supreme Court to review that 
case.
    Mr. Cole. It is a huge problem. Our colleagues, Stephanie 
Herseth-Sandlin and Senator Dorgan, actually have a pretty good 
piece of legislation to try to enhance the authority of tribal 
courts, but you are still going to have this disparity between 
what literally a non-tribal judicial system right next door can 
do, and it invites crime in. I mean, criminals are not stupid. 
They go to places where there is not as much law enforcement 
and the penalties that can be imposed are not nearly as great. 
It makes sense then to prey on those communities as opposed to 
somebody right next to them.
    Let me ask you another question because you really hit on 
something that is near and dear to my heart, which is Johnson-
O'Malley.
    Mr. Suppah. Can I finish?
    Mr. Cole. Please do.
    Mr. Suppah. I think that a lot of the goal as tribal 
members, we made a run for the line as kind of like a safety to 
get back onto the reservation where we felt we were safe. That 
was the tribal member doing that. Now it has been reversed to 
where now the non-members are running for that line because 
there is a jurisdictional void there.
    Mr. Cole. I can assure you, you are exactly right.
    You made a pretty strong pitch for Johnson-O'Malley money, 
which I could not agree with you more since about 90 percent of 
native kids are actually not in reservation schools, they are 
someplace else, and that is something honestly we have not 
really substantively increased since 1995. We actually froze 
the population count as if there were no new native kids in 
non-native school districts, and it is a very good but very, 
very dramatically underfunded program. Do you have kids off 
your reservation in non-tribal schools? Is that where your 
interest comes from?
    Mr. Suppah. Yes. Approximately 50 percent of the 509-J 
school district where our children go to public schools is 
comprised of tribal membership.
    Mr. Cole. Is there any particular programs for them in 
these non-tribal schools that help them deal with the 
challenges they have or teach them about their own culture and 
history?
    Mr. Suppah. Well, I think that try as we may, the dropout 
rate is severely high for our tribal membership and our 
graduate rate is hurt also, so that is why it becomes more 
critical for Johnson-O'Malley to come into play because you can 
get tutor programs and other kinds of assistance for the tribal 
members that go to school there.
    Mr. Cole. Well, I do not know what the dropout rate is in 
your tribe, but I know nationwide, you are talking only 49 
percent of native kids finish high school compared to 75 
percent national average, and about 10, 11, percent go to 
college compared to almost a quarter of the non-native 
population, so you really put your finger on a pretty critical 
problem.
    Anyway, I am sorry, Mr. Chairman, but it is very excellent 
testimony. Thank you.
    Mr. Moran. Yes, very interesting. Thanks very much, Mr. 
Cole. Thank you very much, Mr. Suppah.
    Mr. Suppah. Thank you guys for the time.
    Mr. Moran. Appreciate it. Thank you. Good for you.
    Delores Pigsley is the next person, chair of the Tribal 
Council of the Siletz Tribe in Oregon.
                              ----------                              

                                           Tuesday, March 23, 2010.

                              SILETZ TRIBE


                                WITNESS

DELORES PIGSLEY
    Ms. Pigsley. My name is Delores Pigsley and I am the 
chairman of the Confederated Tribes of Siletz Indians of Oregon 
and we are a small tribe on the Oregon coast. We have 4,700 
tribal members who have a most tragic history. We negotiated 
treaties. Seven of those treaties were ratified and one was 
not. We were removed form our aboriginal homelands. We were 
terminated in the 1950s and restored in the 1970s during the 
Carter administration, and because of termination, we have been 
subjected to many injustices.
    We have a long list of needs. Many of them are basic needs 
because we had no services for those years of termination. 
Health care is our top priority, and I thank those of you who 
supported the Indian Health Care Improvement Act because we 
hope that it will benefit us. We are requesting $2.9 million to 
address staffing and equipment needs for our clinic. From 
restoration in 1977 until today, we have not had the 
opportunity to have an IHS clinic funded on our reservation. We 
would still find ourselves on the waiting list. We were 
fortunate to get a grant, a loan and Congressional dollars for 
startup equipment to build a small clinic in Siletz. The clinic 
was funded as a demonstration project and it still bears that 
title. Since the clinic was built in Siletz, it has been 
expanded twice. The need for further expansion occurred about 3 
years ago, and today we have built a new clinic that is going 
to open in May and it is three times the size of our current 
clinic to be able to support the services to our expanding 
population and non-tribal members.
    Our clinic services our membership as well as the community 
at large and we are one of the few tribes in Oregon that accept 
Medicare and Medicaid patients. People drive a long ways to 
visit our clinic. The new clinic will be able to accommodate 
many more patients and services and funds for additional 
staffing and equipment will help to address the greater need of 
the providing services.
    Our tribe is totally dependent on contract health care as 
are most of the tribes in the Northwest. All the services that 
we get in hospitals, we pay out of contract health care, and 
contract health care dollars until the last 2 years has not had 
a sizable increase.
    An example of critical needs--we have a long list of 
deferred surgeries, surgeries that include carpal tunnel, knee 
surgeries, stomach hernias, rotator cuff repair, gastric 
bypass, MRIs for various things, dental surgery, hysterectomy. 
None of those services get funded.
    The second-highest priority is providing education benefit 
scholarships for every tribal member that wants to go nts to go 
to college. Back in the days when the tribe was restored, we 
had zero dollars, and I was the secretary-treasurer in the 
1970s, and $75 was the most money we ever had in our coffee 
can. Today we provide services and scholarships to every 
student or adult that wants to go to college. The higher 
education funds have been stagnant since 1995. In 1995, we had 
35 students in college. Today we have 161 students. The tribe 
has had to make up the shortfall in funding to the tune of $3.5 
million. For 2004 to 2009, we were funded $707,000. Our costs 
were $4.2 million. We make these difficult funding decisions 
because we view education and health as one of the best 
investments that our tribe can make for its members, and we 
fully support the Northwest Portland Area Indian Health Board's 
budget request along with the National Congress of American 
Indians. We fully support funding Indian boarding schools. The 
Chemawa Indian School is a mile away from my home and they 
never receive adequate funding for the students that they get 
at the school and care for. Thank you.
    [The statement of Delores Pigsley follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you very much, Ms. Pigsley.
    Mr. Cole.
    Ms. Pigsley. Any questions?
    Mr. Cole. Just one quick one. I was curious, what are your 
sources of income since you are obviously picking up a lot of 
costs. What tribal enterprises or----
    Ms. Pigsley. Well, in the beginning we had--we have timber 
and we cut just a small, I think it is 2.5 million board feet a 
year, very small timber base that would not support government. 
Our largest source of funding comes from a casino that we built 
on the coast. It is right on the beach in Lincoln City, and 
since we built the casino, we purchased the hotel next door and 
the golf course down the road and so it has been our--and we 
the largest employer in the county. So it supported all of the 
shortfalls that we have had across the board, and we are a 
self-governance tribe.
    Mr. Cole. Are you class III or class II?
    Ms. Pigsley. Class III.
    Mr. Cole. Well, that is good. Congratulations on not 
waiting around for us to solve your problems.
    Ms. Pigsley. We still need your help.
    Mr. Cole. No, no, I am not trying to escape the obligation. 
I just think it is really important to do what your tribe has 
done, and you have to be well situated and a lot of things have 
to work just right, but it shows an awful lot of initiative.
    And Mr. Chairman, as I know you know, when tribes do this, 
they almost always turn right around and invest all the money 
right back where you are investing your money, in education, in 
health care and what have you.
    Ms. Pigsley. And all the casino money goes back to the 
tribe, unlike other non-tribal casinos, and so it has been 
tremendously successful for us.
    Mr. Cole. Well, again, congratulations on the initiative, 
again, not to let us off the hook, but I am glad you did not 
wait for us either.
    Ms. Pigsley. Thank you.
    Mr. Moran. Thank you, Mr. Cole. It is an example of why I 
do support Indian gaming.
    But please do watch the development of the health care bill 
very carefully. It does sound as though that can be of 
assistance to you.
    Ms. Pigsley. I was watching TV most of the day Saturday and 
yesterday, heard all the commentaries and I am looking forward 
to see how it can support tribes. Thank you
    Mr. Moran. Thank you.
    The next witness will be A.T. Stafne, the chair of the 
Assiniboine and Sioux Tribes of the Fort Peck Reservation.
                              ----------                              

                                           Tuesday, March 23, 2010.

       ASSINIBOINE AND SIOUX TRIBES OF THE FORT PECK RESERVATION


                                WITNESS

A.T. STAFNE
    Mr. Stafne. Good morning, Chairman Moran, Congressman Cole. 
Thank you for providing this opportunity for Native Americans 
to come before you and having the patience to listen to all our 
problems. I am thankful for this opportunity that you have 
provided.
    I am A.T. Stafne. I am the chairman of the Assiniboine and 
Sioux people, who number about 12,000 members who live on the 
Fort Peck Reservation, which is in northeastern Montana. The 
size of our reservation is about 100 miles long by 50 miles 
wide. It comprises over 2 million acres of land that we have 
there. Of the 12,000 members, we have about 6,500 that live on 
the reservation. The total population of the reservation is 
about 11,000. The other 4,500 or so people on the reservation 
comprise non-Indians and Indians from other tribes. So with 
that, we are quite a large reservation.
    But first, let me say congratulations for the enactment of 
the health care bill. We watched that with much interest. We 
listened to hear Native American people in that bill but I 
never heard native people mentioned in that bill.
    Mr. Moran. Let's clarify that. Native Americans are fully 
qualified.
    Mr. Cole. Actually, my chairman and I would have probably 
have a difference on this because I think this legislation 
should have been enacted separately, but basically the Indian 
Health Care Reauthorization Act was folded in to the total 
bill. So what has been a goal of ours for a very long time, it 
is part of this large bill that I actually favor, was 
reauthorization. We went since 1992 under both Republican and 
Democratic Congresses, quite frankly, without getting it 
reauthorized. So you will find full Indian health care 
reauthorizations in there, so there are subsections that deal 
specifically with the native population, and there is a good 
increase in funding and authority there. It sort of got lost in 
the larger discussion because, again, this is a trust 
obligation that we have but it is there, and I think you will 
find it very helpful going forward. Lots still to do but that 
is a good step in the right direction.
    Mr. Moran. First, I think it is just as well that it was 
not discussed because the folks who were most adamantly opposed 
probably would have found just one more reason to be opposed, 
so it is just as well it snuck in, but it is a great 
opportunity for all Native Americans to take advantage of it. I 
hope you will. Excuse me for the interruption. Go ahead.
    Mr. Stafne. And I hope since this is acted on, I hope we 
will certainly discuss the Indian Health Service. Basically 
more money is what is needed. I would like say 2 years ago when 
I met then-Senator Obama when he came to Montana, I told him 
our number one problem on Fort Peck Reservation was health. In 
fact, Fort Peck Reservation Tribal Council has declared health 
a crisis on Fort Peck Reservation. Number one was health. 
Number two was law enforcement. That is still our situation 
now. We are thankful for the increase in this year's IHS 
funding. That is a step again in the right direction. We are 
happy it is now the other way, a decrease.
    At Fort Peck, when we have health problems, we go to our 
IHS, which operates a clinic on the reservation. Now, most of 
the time we do not even have doctors working at the clinic 
because we have trouble attracting doctors to IHS. We see 
nurses, but all they do is prescribe pills, pills for 
inflammation and pills for pain, and that is causing many of 
our people to become addicted to painkillers. We recently had a 
drug bust, a raid made by our law enforcement department and 
they arrested, I think it was approximately 37 people for drug 
violations, selling pills illegally. So the reason for that is, 
we do not have a hospital on Fort Peck IHS. We do have 
hospitals for the city. The city has hospitals but we are not 
referred up there by IHS. If we have a problem, we have to come 
to a level 12 before they can send you out for contract health 
care. Level 12 means you have to be in danger of losing a limb 
or your life. When that happens, they call for an airplane, 
which from Billings, Montana, is 300 miles from where we live. 
The airplane comes and airlifts us out. Now, if you are in 
danger of losing your life, sometimes that happens on the 
airplane trip. And of course, that costs more money. If they 
could diagnose these and have more preventive-type medications, 
we would save a lot of money for that.
    I am sorry. My time is up. Thank you.
    [The statement of A.T. Stafne follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Well, good for you. Thank you. This is a large 
reservation, and I am glad that President Obama is aware of it 
and of your needs. I hope some of them will be met directly 
from the new health care authorization, but clearly there are 
others in the area of public safety and economic development.
    Mr. Cole.
    Mr. Cole. Yes, just for the record, so you know, the Indian 
health care reauthorization was actually passed by the Senate 
in the last session of Congress. We held it up here in the 
House, and it had bipartisan support. It moved actually through 
the Resources Committee very quickly, got hung up two sessions 
ago actually, got hung up in E&C at the subcommittee level, 
finally got through the Senate last time. Then frankly what 
happened here is, we made a decision that we did not want to 
have a debate over abortion before an election, and so we had 
to start all over again. That is why this got put in this 
particular vehicle. So again, just for the record, Mr. 
Chairman, neither party has a whole lot to be proud of in the 
way we have handled the Indian Health Service. I am certainly 
willing to take my party's share of the blame. But the 
important thing, and you made this point, is that it is done. 
It moved through. It is a movement in the right direction. But 
the basic problem has been, again, both parties historically 
underfunding these services, which they are obligated to 
provide by treaty. So we look forward to working with you 
because I know the challenges in reservations this size and 
population bases this small, and getting doctors to come is a 
challenge. It is the same problem that you have in the inner 
city, really. It is exactly the same thing. You have got a 
relatively poor population. You do not have a lot of 
opportunities for professionals in the financial sense. They 
have to be awfully dedicated to go there. We probably do not 
pay them enough, either, you know, from our end of this deal, 
but the needs are very great. So anyway, thanks for what you 
are doing.
    Just by way of a question, I made a long statement here--
again, you are in a very sparsely populated area. What sorts of 
economic activities do you have? Do you have the potential from 
your standpoint to engage beyond timber? I think it is always 
good to get in the record what the unemployment rate is in a 
particular area because it really gives us a quick short on how 
many challenges you face across the board.
    Mr. Stafne. Well, the unemployment rate depends on what 
report you read. I have seen it from 53, 57 percent to 70 
percent.
    Mr. Cole. Well, if 53 is the good number, I do not think 
anybody on this panel will regard that as a good result.
    Mr. Stafne. And our resources, this is mainly a cattle and 
farming area and we have a farm and ranch and we also have 
limited oil activity, so that is our income.
    Mr. Cole. Thank you very much.
    Mr. Stafne. Thank you, sir.
    Mr. Moran. Thank you, Mr. Stafne. Thank you very much.
    Next we will hear from Patricia Whitefoot, the president of 
the National Indian Education Association.
                                           Tuesday, March 23, 2010.

                 NATIONAL INDIAN EDUCATION ASSOCIATION


                                WITNESS

PATRICIA L. WHITEFOOT
    Ms. Whitefoot. Good morning, Mr. Chairman, members of the 
Committee. I am Patricia Whitefoot, a member of the Yakama 
Nation from south central Washington, and I want to say I 
appreciate the opportunity to submit testimony on behalf of the 
National Indian Education Association.
    The Association was founded in 1970, and NIEA is the 
largest native education organization in the Nation with a 
membership of over 3,000 individuals who are American Indian, 
Alaska Native and Native Hawaiian educators, tribal leaders, 
school administrators, teachers, elders, parents and students.
    Since the release of the 1969 Senate Kennedy report 
documenting the problems in Indian education, Indian 
communities have realized greater participation and control of 
programs in schools. However, in Indian education we still face 
enormous challenges including severe underfunding. For too many 
of our students in schools, we continue to experience abject 
failure. A study released last month by the Civil Rights 
Project at the University of California at Los Angeles Graduate 
School of Education and Information Studies found that less 
than 50 percent of American Indian and Alaska Native students 
in 12 states graduate from high school.
    Mr. Moran. Can you repeat that more slowly?
    Ms. Whitefoot. Okay. I am sorry.
    Mr. Moran. No, it is just I wanted everyone to hear that.
    Ms. Whitefoot. Just this last month in February, UCLA's 
Graduate School of Education and Information Studies found that 
less than 50 percent of American Indian and Alaska Native 
students in 12 states graduate from high school, a statistic 
that sadly also applies on a national level and has held steady 
over the past decade.
    In addition, schools serving native students within the 
Bureau of Indian Education System continue to struggle to meet 
AYP with only 24.4 percent of BIE schools meeting AYP as 
compared to almost 70 percent of schools nationally. These 
statistics only serve to reaffirm the need for systemic reform 
of education programs in schools serving native students.
    NIEA is requesting $660.96 million for fiscal year 2011, 
which includes new program funding and a modest 5 percent 
increase for BIE's programs. This includes funding for the 
elementary and secondary education programs, education 
management, an increase of $25 million allocation for student 
transportation, and a $5 million allocation to provide 
technical assistance to schools to develop their own standards 
and assessments. Schools currently have to use classroom 
dollars to transport their students to make up for the 
transportation funding shortfall. During the school year, BIE-
funded school buses will travel nearly 15 million miles, often 
over gravel or dirt roads. The Little Wound School, located on 
the Pine Ridge Reservation in South Dakota, runs 13 bus routes 
each day during which the buses travel an average 1,600 miles 
per school day totaling 268,000 miles annually for regular bus 
runs, not including activity runs.
    For Indian school construction and repair, NIEA requests 
$263.4 million. In May of 2007, the Office of Inspector 
General, Department of Interior, issued a flash report that 
describes the conditions at BIE schools that require immediate 
action to protect the health and safety of students and 
faculty. In his conclusion, the Inspector General states that 
the failure to mitigate these conditions will likely cause 
injury or death to children and school employees. NIEA is also 
requesting report language requiring the Department of the 
Interior report on the status of the schools listed on the 
BIE's construction list, the use of funding for Indian school 
construction and a timeline for completion of projects 
currently on the list.
    NIEA is also requesting $24 million for the Johnson-
O'Malley program funded at Bureau of Indian Affairs. JOM grants 
are the cornerstone for many Indian communities in meeting the 
unique and specialized needs of native students, as you heard 
previously.
    Our tribal educational departments provide tribes with the 
opportunity to become actively involved in the education of 
their children. Despite an authorization under NCLB and several 
other prior statutes, federal funds have never been 
appropriated for tribal education departments. Therefore, NIEA 
is requesting that the Department of the Interior fund tribal 
education departments at $5 million.
    In closing, Mr. Chairman, members of the Committee, I would 
like to just echo the expressions made by the tribal 
leadership. I fully support all of the congratulations that 
people provided for the Committee on the health care 
legislation. However, we want to make certain that those needs 
are also impacting students in our schools where we work from 
preschool to higher education, attention is needed, and on 
behalf of NIEA, I would like to thank the Committee for its 
support on behalf of native communities. With your support, we 
are hopeful we can begin to provide the funding for education 
that native communities deserve. Thank you.
    [The statement of Patricia L. Whitefoot follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you very much. I appreciate that, Ms. 
Whitefoot.
    Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman. Just a couple quick 
questions. One, that, usually, when I deal with the impact aid, 
it is in connection with a large military installation, but I, 
you know, obviously, there is impact aid for----
    Ms. Whitefoot. Exactly.
    Mr. Cole. Tribal, too. Can you give me an idea of whether 
or not we are anywhere close to adequate, in terms of impact 
aid flowing to schools where there are significant native 
populations?
    Ms. Whitefoot. Right. I worked in a public school as a 
teacher, educator, administrator. And in the school district 
where I work, we have an Indian education program and, of 
course, with our Indian education parent committees, we 
participate in the policy recommendations for the school 
district, to provide the necessary services in the community. 
When we take a look at the funding, and I participate in the 
impact aid conferences over the years, impact aid just 
continues to be underfunded, as well. And I would say, for the 
military community, too. I also have grandchildren that are in 
the military community, and are directly impacted by the impact 
aid funding, as well. That is not just those impact aid funds 
that are available on reservations or, where federal 
installations are.
    Mr. Cole. And let me ask you this, too. I have never seen 
the statistic on this, and I thought, given your background, 
you might know. Is there any sort of estimate on what tribes 
themselves, out of their own economic activities, invest back? 
We have had a number of people testify about the number of 
their children that they are giving scholarships to, you know, 
how significant is this for tribes, in terms of when they have 
got money, putting it right back in there?
    Ms. Whitefoot. Well, I appreciate, Chairman Pigsley and the 
work that she has done. And of course, being from the 
Northwest, we all communicate with one another and learn from 
one another about what tribes are doing, in terms of education, 
and just comprehensive needs for children.
    In our case, I am from the Yakima Nation in Washington, and 
recently, our tribe has taken the casino funds, and put it back 
into public education with our children. We serve 26 school 
districts in South Central Washington, including along the 
Oregon border, and currently, I am in conversations with our 
tribe about making certain that those tribes reach the children 
from preschool to higher education, and we are still in 
deliberation right now on that, but that is to go directly back 
to the students that are currently in education, from preschool 
to higher education.
    Mr. Cole. Last question. I am very curious about your 
thoughts as an educator: We really have two subsets of kids 
here, ones that are being educated at the BIE schools, and a 
much larger group, obviously, that are in the normal, regular 
public school system.
    What is the best way to use funds that are available, 
whether it is impact aid, Johnson-O'Malley, tribally directed 
funds, to help kids, which is a great majority of Native 
American children, that are going to non-native schools, do 
better? I mean, what are the types of things, the ways in which 
that money ought to be deployed?
    Ms. Whitefoot. Well, the works that we do at NIEA, of 
course, includes occupational and professional development 
programs, administration programs to have native people working 
in those school systems, and I think through programs like Head 
Start, which I have managed over the years, when you work with 
professionals that are coming from your community, you work 
with those individuals so that they, one day, will become a 
teacher, and then, come back into the public education system.
    But I also think it is important that, at the local level, 
that parents be involved in those decision-making processes, as 
well as the tribal government, and that tribal control is 
important, just like local control of public education.
    And I think we need to take a look at the education system, 
systemically from preschool, from birth to lifelong learning. 
And the more that we could get the community involved and, as I 
said, parents and volunteers in our community, and that we take 
them through a career development program, I have witnessed and 
experienced the benefits, that have been able to address some 
of the issues and problems that were expressed here today.
    Mr. Cole. Well, I know Secretary Salazar and Secretary Echo 
Hawk are putting----
    Ms. Whitefoot. Thank you. Thank you.
    Mr. Cole. And I think appropriately so, a great deal of 
emphasis on tribal empowerment.
    Ms. Whitefoot. Both of them, right.
    Mr. Cole. And it is so critical that tribes have a direct 
say-so.
    Ms. Whitefoot. Exactly.
    Mr. Cole. In the education of their kids. I mean, it brings 
the responsibility down to the local level. It pulls the 
parents in.
    Ms. Whitefoot. Exactly.
    Mr. Cole. And it makes an enormous difference in the lives 
of individual children.
    Ms. Whitefoot. And I agree, and having met with Secretary 
Salazar, and both he and Duncan and their staff people, I agree 
with that. Thank you.
    Mr. Cole. Thank you. And thank you very much, Mr. Chairman.
    Mr. Moran. Thank you, Mr. Cole. Thank you very much, Ms. 
Whitefoot. Appreciate the testimony. Next, we will hear from 
Joe Durglo, the President of the Intertribal Timber Council of 
Oregon. Mr. Durglo.
                              ----------                              

                                           Tuesday, March 23, 2010.

                  INTERTRIBAL TIMBER COUNCIL (OREGON)


                                WITNESS

JOE DURGLO
    Mr. Durglo. Good morning, Mr. Chairman, and members of the 
subcommittee. My name is Joe Durglo. I am the Vice Chairman of 
the Confederated Salish & Kootenai Tribes, and President of the 
Intertribal Timber Council, an organization of 70 tribes that 
collectively possess most of the 18 million acres that BIA 
holds in trust.
    I appreciate the opportunity to testify today, because the 
BIA Forestry is in trouble, and needs this subcommittee's 
attention. Over the past two years, ITC testified that 1993 and 
2003 independent reports noted that BIA Forestry receives only 
about one third the per-acre funding provided the U.S. Forest 
Service, and that BIA Forestry needs $120 million increase to 
achieve parity.
    A review of the federal forestry budgets from Fiscal Year 
2004 to Fiscal Year 2009 showed that Forest Service forest 
products and BLM public domain forest management budgets 
increase 26 percent, while at the same time, BIA tribal 
priority allocation forestry budgets, which provides similar 
services, increased only 3.8 percent. Inflation over the same 
period went up 14.1 percent.
    Such a disparate treatment of Indian forestry funding is 
neither fair, nor does it comply with the federal trust 
responsibility. It is hurting the health of our forests, the 
economies of our communities, and our governments' abilities to 
meet the basic needs of our people. To correct this, and put 
BIA forestry on a path toward equality, with funding of other 
federal forestry programs, the Intertribal Timber Council 
requests the following.
    First, as a general matter, reject the BIA's proposed 
absorption of fixed cost increases. Then, increase BIA PPA 
forestry to $31.2 million, which will be equal to those 
increases for the U.S. Forest Services and the BLM from 2004 to 
2009.
    Second, BIA forestry projects funding has fallen from $18.5 
million in Fiscal Year 2005 to $17.7 million proposed for 
fiscal year 2011. Projects cover essential functions, like 
management planning, woodlands, integrated resource management 
plans, and forest development. An $8 million increase is 
needed, with $5 million dedicated to reducing the forest 
development, thinning, and planting backlog.
    Third, on a considerably bolder note, with Indian 
reservation unemployment at about 50 percent nationwide, we 
urge $151 million for a two year tribal forest restoration 
project, for 3,125 Native American green jobs, doing thinning 
and planting on trust forestland to reduce the backlog by half. 
These jobs can hire a great range of people, including entry-
level. They are quick to train. They will help the forests' 
health, capture carbon, and help climate change adaptation, and 
help the trust responsibility. We urge you to give this serious 
consideration.
    Fourth, for BIA endangered species, increase funding to 
$4.7 million, so the BIA gets the same per-acre funding as BLM. 
Fifth, we ask the committee to direct the BIA and the Forest 
Service to draw up a plan, with tribes and the Intertribal 
Timber Council, to preserve tribal forestry and mill 
infrastructure. Sawmills are disappearing across America, and 
tribal mills, because they are so important to tribal 
communities, are among the last to close. Without them, timber 
and other forest materials cannot be processed. Their retention 
is essential. We ask that a federal tribal plan be developed 
and be reported back to this committee in six months.
    Finally, for interior wildland fire management, we ask that 
preparedness be funded equal to the Forest Service. The 
Department of the Interior and the U.S. Forest Service fire 
cost accounting be standardized, and that $44 million be 
restored for field removal, and that for Indian trust land, it 
be prioritized, and not prioritized to the Wildland Urban 
Interfacte, and that fire 638 indirect costs come from the BIA 
in the right cost pool.
    Thank you, Mr. Chairman.
    [The statement of Joe Durglo follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Good for you. Thank you, Mr. Durglo. Mr. Cole.
    Mr. Cole. Thank you. I have to say, I am from Oklahoma. I 
do not know much about trees, so this has been very educational 
for me, Mr. Chairman. And nothing about the timber industry. 
And I frankly did not realize it was important, as important as 
it clearly is to the number of tribes that there are.
    And I got to tell you, I am pretty stunned at the 
differential between how we fund the U.S. Forestry Service and 
how you are funded. Is this historically, has this gap always 
been this wide, or----
    Mr. Durglo. Yes, sir. We have been historically underfunded 
in Indian forestry.
    Mr. Cole. What is the justification for us doing one thing 
on non-Indian lands, in terms of forests, and you know.
    Mr. Durglo. That is a very good question. I cannot answer 
that.
    Mr. Moran. I have some suspicions.
    Mr. Cole. Me too, Mr. Chairman. That is all I had. I just 
thought those facts deserved being underlined.
    Mr. Moran. Yes. Thank you very much, Mr. Cole. And thank 
you, Mr. Durglo. Very good. I had no idea that your Council 
manages the 90 percent of the millions of acres that we have 
under management. Thank you. Next, we will hear from Robert 
Benavides, the Governor of the Pueblo of Isleta.
                              ----------                              

                                           Tuesday, March 23, 2010.

                         PUEBLO OF ISLETA (NM)


                                WITNESS

ROBERT BENAVIDES
    Mr. Benavides. Good morning, Mr. Chairman. Good morning, 
Mr. Cole. Members and staff. As you know, my name is Robert 
Benavides. I am the Governor of the Isleta Pueblo. I live 13 
miles south of Albuquerque on the Rio Grande Valley.
    We have got a population of about 4,000 tribal members that 
live on the reservation, and about another 3,000 that are not 
members that also live on the reservation. We have a land base 
of 200,000 acres. The age median is around 31 years of age, 
with an income of less than $30,000 a year. Some of them are 
unemployed, even though we do have enterprises such as a 
casino, hotel, and some other facilities. We do employ close to 
2,000 people on our reservation.
    But just like the national economy, we too have felt the 
crunch, and we are still feeling it. And I guess that is why I 
am here. The reason why I am here is we have a bad water, we 
need to replace our water main in the village. That water main 
was installed in the late '40s, and probably the early '50s, 
and they are asbestos concrete water mains, and as a result, we 
have had poor health in our village.
    We have had over 200 water leaks. We have a high rate of 
cancer in our village. We have used our own money, and we have 
had some assistance from the State of New Mexico. We are 
replacing around 15,500 linear feet of water mains and lines. 
The construction of the main water line has started on March 
the 31st. We are identifying all the gas lines and whatever is 
needed for the project to begin. That will take around a year 
and a half to complete. I did take Congressman Teague to my 
home. I have a home in the village. To show him the coloration 
of the water, and the rusty color and smells. The people from 
the pueblo will hardly drink that water, because it is really 
in bad shape.
    The project is in excess of $1.25 million. We are seeking 
from federal funding about $500,000. You do have a copy of my 
testimony with you. And we are seeking help, also, from the 
State. We have been fortunate, but we need a lot more to 
complete that project.
    We are also working on an educational complex and long-term 
elderly care. Some of our buildings are condemned, but we are 
still using those buildings. There is mold and asbestos, and 
the EPA has come in and condemned those buildings, but we have 
no other buildings to work out of, so some of these employees 
are still working there. And we are also asking for help in 
that area.
    The Early Elderly Care Center, we are also asking for 
around $10--well, we spent $2.2 million of our own for that 
project. We received funding of $75,000 from HUD in 2006, 
$50,000 from the State of New Mexico, through capital outlay, 
but we still need around $10 million in federal appropriations 
to complete phase two of this project.
    As you know, even though we are in the Albuquerque area, 
there is no facilities that are really available, and some of 
the elderly cannot afford some of these facilities to stay in. 
So, that has been a hardship on most of the families that do 
have someone to take care of.
    [The statement of Robert Benavides follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, Mr. Benavides. The time has expired, 
and we are going to have to get back into session. Mr. Cole.
    Mr. Cole. Just a quick question or two. Out of curiosity, 
how close is the casino complex to the village, and----
    Mr. Benavides. It is about 5 miles.
    Mr. Cole. About 5 miles. What is their water source?
    Mr. Benavides. Well, we have a new water source there, but 
even though we do have a casino, we had a decline in our 
profits by about 23 percent.
    Mr. Cole. Oh. No, believe me, I am quite aware.
    Mr. Benavides. Yeah.
    Mr. Cole. That most of Indian country----
    Mr. Benavides. We have wells for the casino.
    Mr. Cole. Well, and of course, a significant portion of 
that income goes back to the investors, and goes, I suspect to 
the State of New Mexico who has a compact with you.
    Mr. Benavides. Right. Right.
    Mr. Cole. So, it is not like all that revenue flows to you.
    Mr. Benavides. No. And I just hope you consider our 
request. I did want to say one thing on law enforcement, as a 
law enforcement officer. The funding is not $19,000. It was 
$33,000. However, DoJ did take $20,000. Law enforcement in 
Indian country received $10,000. $10 million, I am sorry. We 
need all that money. We do not need 100,000 agents out in the 
field. They are never there, so that is where we need the 
money.
    Mr. Cole. Thank you.
    Mr. Moran. Thanks very much, Mr. Benavides. We appreciate 
it.
    Elbridge Coochise. Chief Justice, Retired, of the 
Independent Tribal Courts Review Team in Arizona. Judge.
                              ----------                              

                                           Tuesday, March 23, 2010.

                 INDEPENDENT TRIBAL COURTS REVIEW TEAM


                                WITNESS

ELBRIDGE COOCHISE
    Mr. Coochise. Thank you. Good morning, Chairman and 
committee staff. Thank you for allowing me to come in.
    I represent the Independent Tribal Courts Review Team. We 
have been reviewing tribal and CFR courts for the past four 
years, and we are here to make a request for at least $50 
million for the 156 tribes that are provided funds through the 
Bureau of Indian Affairs.
    Up until Fiscal Year 2009, the Bureau only provided $11.9 
million for the 156 tribes. And I do want to thank the 
committee for the $5 million for Fiscal Year 2010, and then, 
the Senate adding $5 million for a $10 million to Fiscal Year 
2010.
    And this is the first time that I have seen in all my years 
that additional funding that will go into the base of tribal 
courts. And again, the committee passed two years, '09 and '08, 
provided $2.4 million for one time funding, and that was 
distributed to about 24 and 22 tribes in those years, just for 
one time.
    But with the $11.9 and the current $10, that only brings us 
up to about $21 for the whole, all 156 tribes. And we have been 
charged with a responsibility to do a systemic operations 
assessment of the tribal courts.
    And to the Governor and chairwoman from Siletz, we just 
recently did theirs, and they are in dire need. In fact, we 
found the lowest, one court only gets $10,000 for their court 
system. But the funding, we are finding, is needed drastically 
at tribal courts. Understand, the tribes that are here have 
other problems that are health-related, but we are requesting 
an increase in the tribal court funding by 50 percent. And to 
fund, authorize $58.4 million under the Indian Tribal Justice 
Act that was passed in 1993, and it was reauthorized twice, and 
we still have not seen any funding under that bill.
    The reason for the increased funding need is the hiring and 
training of court personnel, an increase in salaries for 
judges, and a need for new technology. Most of the 60 courts 
that we have reviewed are still on a manual data collection 
system, and the few that have got grants from DoJ cost $60,000 
to $80,000 a year. The problem is, for relicensing of court 
clerks and others who use it, that is $5,000 a year that they 
have to pay, that they do not have the funds for.
    The security system really is nil within the tribal court 
system. Chairman Stafne, we reviewed his court last year, and 
while we were there, everybody, prisoners, people, court staff 
and judges, are crossing in--there is no security in most of 
these court systems, just because they do not have the funds.
    Then, there is code development. Many of the tribes, we are 
finding, are outdated in their codes, or they have been adopted 
from state codes that do not fit within the reservation. And 
so, we are requesting that additional funding be given to the 
Bureau of Indian Affairs to fund the 156 tribes.
    We have done 9 reviews this year, in Fiscal Year 2010. So, 
we had a total, then, of 69. And one of the items that was 
added in '09 was the speedy trial issue. Thus far, every court 
that we have reviewed, there were no violations of speedy trial 
issues, even though not all of them had a statute. Because most 
trials, from arraignment to trials, were done within 4 weeks.
    The only one that went beyond that was a federal CFR court, 
but they only have court once a month, and they were 6 months 
between arraignment and trials. So, the court systems are doing 
fairly well in providing due process to the community members, 
but they really need assistance.
    In fact, the Governor's court systems is a condemned 
building that has asbestos and other things. We were just there 
a couple weeks ago, and two of my people got sick just being in 
there for about an hour and a half. They need to be moved to a 
better facility.
    This is what we are finding, and in my report, or 
testimony, the one in Montana, the house and a dormitory, it 
leaks all over, and the walls are all marked up.
    The courts do need assistance, and there are increases in 
law enforcement, but unfortunately, when you make increases in 
law enforcement, you bottleneck the system if you do not put 
any more money into the court systems.
    We are handling, in the tribal court systems, even now, 
from gaming, that have state compacts. A lot of those cases, 
the slip and fall, the contract, tort issues, are coming to 
tribal court, because the compacts are not following through 
with the outside jams, judges are supposed to handle those.
    [The statement of Elbridge Coochise follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, Judge. The time has expired.
    Mr. Coochise. That is fine.
    Mr. Moran. And we have got to get this in by noon time. Mr. 
Cole.
    Mr. Cole. Just a quick comment, maybe, and question. I know 
we have been trying to work on this, Mr. Chairman, but we keep 
seeing these law enforcement issues, obviously, and justice 
issues. They come up in almost every discussion we have.
    Mr. Moran. I know.
    Mr. Cole. No matter what the point. It shows how central it 
is. And I know we have talked in the past about having a joint 
hearing with our colleagues in the Commerce, Justice, and 
Science Committee, where frankly, a lot of this funding is also 
at, because of the justice component.
    I hope we can do that some time, so it would be 
highlighted.
    Mr. Coochise. Yeah. Like I said, we really want to thank 
the committee for what you have done up to this point. I have 
been retired 13 years, and spent 32 years on the bench, and we 
are still not far down the road, as far as resources to run the 
courts.
    Mr. Moran. You make compelling testimony. We thank the 
Chief Justice.
    Mr. Coochise. Thank you very much, Chairman.
    Mr. Moran. Next, we will hear from Patty Brown-
Schwalenberg, who is Executive Director of the Chugach Regional 
Resources Commission. This is in Alaska.
                              ----------                              

                                           Tuesday, March 23, 2010.

                 CHUGACH REGIONAL RESOURCES COMMISSION


                                WITNESS

PATTY BROWN-SCHWALENBERG
    Ms. Brown-Schwalenberg. I have with me the chairman of our 
board, Patrick Norman, who is also the First Chief of the 
Native Village of Port Graham. I asked him to accompany me, and 
after a lot of years, he has finally been able to pull away 
from his work in the village.
    Thank you for allowing us to testify before you. I know we 
are on a short timeline here, so I will try to make it quick.
    The Chugach Regional Resources Commission is requesting 
that our funding of $350,000 be put into the base budget 
through the Indian appropriations process. We were in the base 
budget for, since 1992, under a 638 contract, and in about 
2003, the Bureau of Indian Affairs took us out of the budget. 
So, every year, we have been coming back to the Appropriations 
Committee, asking to be put back in. And we have, up until 
2006, our budget was severely reduced by the Bureau of Indian 
Affairs. In 2007, we did not get any money. In 2008, we were 
not sure we were going to get any money.
    So, we started talking to the Assistant Secretary of Indian 
Affairs, trying to resolve the matter. We knew the money was in 
the budget, but it was not, there were no earmarks in 2007. And 
we ended up having to file a lawsuit against the Secretary of 
the Interior to get our funding, which we did, with contract 
support, and according to the lawsuit, we are supposed to be 
getting full funding every year, and then, every three year 
contract has to be renewed by the Bureau of Indian Affairs.
    Despite this lawsuit, the Bureau of Indian Affairs has not 
put us in the budget and so, every year, we are faced with 
presenting our proposal, and then, they come back with a letter 
saying gee, we do not have any money for you. So----
    Mr. Moran. What is their rationale, beyond the fact that 
they do not have the money?
    Ms. Brown-Schwalenberg. I am not exactly sure. There were 
other organizations, including Circle of Light, that were taken 
out of the budget at the same time we were. They have been put 
back in. We have not, so we have been meeting with the Bureau 
of Indian Affairs on a regular basis, and I have no idea why we 
have not been included, but when we do go back, like we had to 
come back here last November, and pound on some doors and 
tables. We did get our funding for Financial Year 2010. So, the 
money is somewhere. I am just not exactly sure where.
    So, rather than us taking money from other tribal programs, 
and we have heard a lot of issues here today, just as we were 
sitting there. You know, economic depression and the 
community's health, law enforcement, clean water, education, 
elder care. It is all important stuff, and I would hate to 
have, you know, those programs suffer because the Bureau of 
Indian Affairs has not put this money in the budget, as 
required under the 638 contract law.
    But our organization works with the Seven Villages in 
Prince William Sound and Laura Cook on natural resource and 
environmental issues. So, it is, to me, the basis or the 
foundation to address all those problems in a culturally 
appropriate manner. Law enforcement, clean water, education, 
all that depends upon the resources, and make sure that they 
are all there.
    So that is what we work on. The second part of our request 
is $150,000 in additional funding for our Alutiiq Pride 
Shellfish Hatchery. It is the only shellfish hatchery in the 
state. And it not only serves the villages, in providing them 
with shellfish seed for replenishing the seed, but it is near 
the villages. It is also an economic project that sells various 
kinds of shellfish seeds to industry.
    We are doing a lot of research right now. We are doing 
research on blue king crab and red king crab, with Western 
Alaska, as well as Kodiak Island, and working with the state 
and the university and NOAA to, actually, maybe enhance the 
crab population, since there has not been a commercial crab 
industry in, I am sorry, around Kodiak in about 20 years.
    So, we are doing a lot of things with very little money, 
but this issue with our recurrent funding has been a problem. 
So, we would respectfully request assistance with that.
    [The statement of Patty Brown-Schwalenberg follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you. What are shellfish seeds?
    Ms. Brown-Schwalenberg. In layman's terms, they are like 
baby clams.
    Mr. Moran. That is what I figured.
    Ms. Brown-Schwalenberg. They are about that big, you know, 
clams, geoducks.
    Mr. Moran. Sure.
    Ms. Brown-Schwalenberg. Scallops.
    Mr. Moran. They are bought in large quantity, and then, 
you----
    Ms. Brown-Schwalenberg. We, well, we buy, we have the 
adults, and then, we spawn them out, raise up the seed, and 
then, they are planted in the sea beds.
    Mr. Moran. Yeah.
    Ms. Brown-Schwalenberg. In the substrate. Near the 
villages, and----
    Mr. Moran. Well, we should find out why BIA is not 
including you in its budget. I have been to the Chugach, on the 
way to Denali, and thank you for your hospitality several years 
ago. Although it was July 4, and you had a festival, and my son 
won the pie eating contest, and we went up to the national 
wildlife refuge there, where of course, they do not have any 
sanitation facilities, and he had the runs for a week and a 
half. But I will not forget the Chugach Village. We had a great 
time. Mr. Cole.
    Mr. Cole. I am not going to try and top that, Mr. Chairman. 
Just I want to echo your point you made. It does amaze me when 
the BIA loses a legal case. That ought to kind of tell them, 
you know, why do we want to come back down this road again? So, 
thank you for bringing it to our attention. Thank you, Mr. 
Chairman.
    Mr. Moran. Yeah, thank you, Mr. Cole. And thank you, Ms. 
Brown-Schwalenberg. And we appreciate the fact that you were 
able, for your colleague here, that I know it is a long ways to 
travel, but we appreciate you making your presence known before 
the subcommittee.
    Ms. Brown-Schwalenberg. Well, we feel it is important, and 
we appreciate the opportunity. Thank you.
    Mr. Moran. Very good. Good for you. Thank you very much. 
What we will do is to recess until two o'clock this afternoon.
                              ----------                              

    Mr. Moran. Welcome. Mr. Young, would you like to take your 
seat up here at the----
    Mr. Young. Thank you. And then I have to leave. We are 
going to have votes as soon as we get done with it.
    Mr. Moran. Yeah.
    Mr. Young. Oh, you gave me the nice chair, too.
    Mr. Moran. Let me mention to the witnesses first of all, we 
have only 5 minutes total for your statement and to answer 
questions. We do that because we have so many people who have 
asked to testify that we want to hear from all. We will watch 
the timer closely so that you are aware when the yellow light 
comes on and then when the red light comes on, then we are 
going to have to shut it off.
    Your entire prepared statement, though, will be inserted in 
the final hearing record.
    And at this point, I would like to call on the former 
Chairman of the Natural Resources Committee and a very 
prominent member of the Congress and leader for many years and 
a terrific representative for his constituents in Alaska, 
Congressman Don Young.
    Mr. Young. Thank you, Mr. Chairman. Again, I want to 
congratulate you on becoming Chairman of this committee. This 
committee is very important to the State of Alaska, as you 
know, and you play a major role in Alaska and invite you up to 
not only enjoy the scenery but the great people of Alaska.
    It is my honor today to introduce two people, Andy Teuber 
and Katherine Gottlieb. Both of these individuals have been 
very important. Andy has been a KANA board member, becoming 
President and CEO and Corporate Vice President in Kodiak, a 
for-profit Native corporation in the Kodiak region. He has 
served on the Boards of Alaska Federation of Natives, the 
Alutiiq Heritage Foundation, and the State Chamber of Commerce. 
He served as the Gulf of Alaska Coastal Communities Coalition, 
and he has done many, many things. He has worked on the 
Anchorage Chamber of Commerce, and actually, the Alaskan 
Journal of Commerce recently named him as Alaska's top 40 under 
40. He is a commercial fixed-wing and helicopter pilot, and he 
was born and raised in Kodiak and has three children with his 
spouse, Natasha. Katherine----
    Mr. Moran. Well, let's get them up here so we can--Yeah, 
where are they?
    Mr. Moran [continuing]. See who you are talking about.
    Mr. Young. As I was introducing him I thought--this is the 
young man. I am sorry. I apologize.
    Mr. Moran. Very good.
    Mr. Welcome, Mr. Teuber.
    Mr. Young. And Katherine is an MBA, serves as President and 
CEO of the Southcentral Foundation. It is a customer-owned 
healthcare system that works together with Alaska native people 
to achieve wellness in the entire community. Under her 
direction and guidance, the SCF has become a leader in 
healthcare, receiving national and international recognition. 
SCF's unique and creative programs draw upon the Alaska native 
culture to address healthcare challenges, substance abuse, 
women's health issues, and family wellness. She was a recipient 
of the 2004 MacArthur Genius Award. She holds a Bachelor of 
Arts degree, a Master's in Business Administration and Honorary 
Doctorate from Alaska Pacific University. She serves on 
numerous boards. She remains active on the national level of 
Native American policy issues and serves as a primary 
representative of the Indian Health Services National Tribal 
Advisory Committee on Behavioral Health. She is a daughter of 
an Aleut mother and a Philippine father. She is the mother of 
six children and grandmother of 23 grandchildren. And may I 
say, Mr. Chairman, she runs a tremendous healthcare facility. I 
have had the privilege of not only visiting but having my wife 
participate in the unit, and it is really an example. I 
actually submitted the model of that hospital to the writers of 
the new health bill and asked them to look at this model to see 
whether it would work correctly. They did adopt some things but 
not everything as they should have. These are good Alaskan 
young people that understand the healthcare needs of the State 
of Alaska.
    It is my honor to have them both at the table. And I do 
apologize. Usually I am down there when I do this. I got all 
confused. But thank you, Mr. Chairman.
    Mr. Moran. Thank you very much. Those were tremendous 
introductions. Unfortunately, they exhausted all of your time.
    Mr. Young. I was watching the time.
    Mr. Moran. I am kidding. No, come on back. I am kidding. We 
also have Mr. Cole, a very valuable member of the committee who 
has taken a particular interest in Native American affairs. He 
is of Native American heritage himself, and it is wonderful to 
have someone that cares as much as he does, as does Mr. Young.
    At this point, perhaps we can hear from you, Mr. Teuber. 
And they called a vote, so we have got at least 10 minutes. So 
we will get both witnesses in before we go to the vote.
                              ----------                              

                                           Tuesday, March 23, 2010.

                 KODIAK AREA NATIVE ASSOCIATION, ALASKA


                                WITNESS

ANDY TEUBER
    Mr. Teuber. Thank you so much, and thank you for that 
wonderful introduction, Congressman Young.
    Good afternoon Chairman Moran and Ranking Member Cole, 
members of the committee. My name is Andy Teuber, and I serve 
as the Chairman and President of the Alaska Native Tribal 
Health Consortium and also as the President and CEO of the 
Kodiak Area Native Association. On behalf of those we serve, 
which includes each of Alaska's 229 tribes and over 135,000 
American Indian and Alaska natives, I thank you and extend an 
invitation to the members to visit Alaska and see first-hand 
some of the unique challenges that nature creates, but more so 
many of the successes we have had been able to achieve in 
providing quality health services with what are oftentimes very 
limited resources.
    While the Nation debates the provisions in the recently 
passed health reform bill, I believe we can nearly all agree 
that the inclusion of the Indian Healthcare Improvement Act 
reauthorization is a long-overdue step in the right direction 
to modernize and improve the Indian health system.
    On behalf of Alaska's native community, thank you for your 
commitment to improving the health status of our native people.
    In recent years, the IHS budget has been funded at about 60 
percent of identified need, but we are now beginning to see 
meaningful increases thanks to your efforts. My written 
testimony addresses four key areas of resource deficiency in 
the 2011 IHS budget, and accordingly, we are requesting 
increases of $15 million for dental health, $81 million in 
contract support costs, $83 million for facility operational 
needs, and $10 million for a child abuse and neglect prevention 
initiative.
    By design, IHS budget line items work together to achieve 
the best possible results in the delivery of healthcare. 
Clearly increases in the clinical and preventive services 
funded by the IHS budget are necessary, but their full value 
cannot be realized if other portions of the budget that provide 
essential support for those services are not adequately funded.
    Frequently we find it necessary to compromise one essential 
program to support another. While I cannot emphasize enough the 
value the fully funded contract support costs would have, I am 
committing the balance of my time to bring attention to the 
need for resources in child abuse and neglect prevention 
initiatives and in dental health.
    An issue that often lurks in the darkness and in secrecy is 
the issue of child abuse and neglect. I do not believe there is 
another issue that affects the long-term health and well-being 
of native people as significantly as child abuse. Ironically, 
it is also an area that is glaringly devoid of resources to 
address the problem. A recent CDC study found a strong 
relationship between childhood trauma and risk factors for many 
of the leading causes of death in adults, including tobacco 
use, alcohol and substance abuse, obesity, diabetes, heart 
disease, and cancer. People who experience childhood trauma 
were found to be 12 times more likely to have increased health 
risks for alcoholism, drug abuse, depression and attempted 
suicides, 2 to 4 times more likely to smoke, 2 to 4 times more 
likely to contract a sexually transmitted disease and 1.4 to 
1.6 times more likely to be physically inactive or severely 
obese. Alaska unfortunately has the highest reported 
substantiated incidence per capita of child abuse and neglect 
in the United States.
    The domestic violence prevention initiative in 2009 funded 
at $7.5 million and $10 million in 2010 is a great step toward 
addressing our domestic violence prevention needs. We could use 
a similar program to address the equally important need for the 
prevention of child abuse and neglect and request that $10 
million be provided for such an initiative.
    Next, American Indians and Alaska natives, especially 
children, continue to experience oral health disparities such 
as children ages 2 to 4 suffering tooth decay at five times the 
national average and that 79 percent of native children ages 2 
to 5 have tooth decay, 60 percent of which is considered 
severe. This year in Alaska we have children who are graduating 
from high school with a full set of dentures.
    Each year over 1,200 children need oral surgery in Alaska 
due to the extent of their tooth decay, and the cost of one 
operating room dental case for a child with early childhood 
dental care can be as much as $7,000 because of the unique 
geography.
    Mr. Moran. Mr. Teuber, I hate to interrupt you, but I am 
serious on this one at this time. You are still on the first 
part of your testimony. We are almost up to 5 minutes, and we 
are going to have to leave. And I do want to get Katherine in 
if possible. So if you could somewhat summarize and we could go 
to questions.
    Mr. Teuber. I appreciate that. On behalf of ANTHC and KANA, 
I thank you for providing the opportunity to testify today and 
allowing me to highlight what I believe to be among the most 
urgent of needs for our native population. I appreciate your 
consideration of our recommendations and particularly for 
giving consideration to addressing the tragedy of child abuse 
and dental health disparities as both clearly are root causes 
for some of the challenges our native people confront. We need 
your help to deliver our children into adulthood without the 
burden and trauma of abuse and neglect and with improved dental 
health. Thank you.
    [The statement of Andy Teuber follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you. A very important statement, and thank 
you for making the committee aware that almost four out of five 
Indian children between the ages of 2 to 4, Alaska native 
children, have tooth decay and 1/3 miss school because of that. 
It is understandable when dental care costs up to $7,000 
because of the travel. I did not know that Alaska had the 
highest rate of child abuse. It is very disturbing, but we do 
appreciate you bringing it to our attention. Mr. Young?
    Mr. Young. That is fine. Let's hear from Katherine.
    Mr. Moran. Mr. Cole, do you want to--okay, very good. We 
now will hear from Katherine Gottlieb who is the President and 
CEO of the Southcentral Foundation in Alaska.
                              ----------                              

                                           Tuesday, March 23, 2010.

                    SOUTHCENTRAL FOUNDATION, ALASKA


                                WITNESS

KATHERINE GOTTLIEB
    Ms. Gottlieb. Thank you, Chairman Moran, Ranking Member, 
Mr. Cole and Congressman Young, and committee members for 
hearing my testimony today.
    My name is Kathy Gottlieb and I am the President and CEO of 
Southcentral Foundation for the last 17 years, and we have 
carried out various programs under compact from the Secretary 
of Health and Human Services for the last 25 years and under 
tribal leadership, Southcentral Foundation's Nuka Model of 
Care, of healthcare, redesigned the way Indian Health Service 
provides services, and people from across the world have come 
to see what we have done in the redesign of our health system.
    SCF's Nuka model includes primary care services to 50,000 
Alaskan Native American Indians in Alaska, and it covers 
Anchorage, Matsu Valley and 55 villages throughout Alaska, and 
it is an area covering about 100,000 square miles.
    SCF employs more than 1,400 employees, and we also jointly 
own and manage the Alaskan Native Medical Center with the 
Alaska Native Tribal Health Consortium, Andy Teuber is the 
chair.
    For many years, I have been an advocate for an increase in 
contract support costs, funding for tribes, and I want to pause 
just for a moment, even if it takes 2 minutes or so of my time, 
and the reason I want to pause is to thank this committee and 
this Congress for the increase that we have had, this historic 
increase in contract support costs for 2010. And for this, I am 
truly grateful as a President, CEO and tribal leader of Alaska.
    We have the hope and we have the belief of this committee 
and this Congress that we may finally have full funding for 
contract support costs in fiscal year 2011, and that is my 
prioritized request. In our world, we are addressing the 
highest disparities, cancer, obesity, child sex abuse, domestic 
violence, child neglect. And these are our top health issues. 
Without these funds, we are unable to do this.
    I am going to summarize my testimony because of your time, 
and I strongly urge this committee and Congress to fully fund 
tribal contract support costs. The majority of SCF's contract 
support costs are comprised of fixed overhead costs that are 
determined by indirect rates, and the remainder of the contract 
support cost is set directly by the IHS through negotiations. 
Together there are fixed costs that Southcentral Foundation 
occurs every single year.
    And I strongly emphasize that the contract costs cover 
critical infrastructure. They cover federally mandated costs 
such as annual independent audits, liabilities, property 
insurance, worker compensation payroll systems, purchase 
supplies, costs that track property and equipment. And if 
contract support costs appropriations are not provided, we will 
have to do what we have been doing for several years and that 
is we have no choice but to make up the difference through 
staffing and service reductions. And what that means is a 
shortfall, and it is a direct impact on our healthcare and it 
is also a direct impact on jobs. And our request specifically 
is this. We are asking that Congress increase the President's 
fiscal year 2011 budget request for contract support costs from 
$45 million to $150 million. If this is not possible, then a 
total increase to $80 million next year and a like increase of 
$35 million every year for the following 2 years would 
eliminate that contract support cost shortfall in 3 years. And 
what this means is it is critically needed. It is a side 
benefit. One hundred percent of these funds would go to the 
creation of good jobs at a time of severe stress in the 
Nation's economy, thereby increasing employment in some of the 
depressed parts of the United States.
    The bottom line is this. Contract support costs means jobs. 
Southcentral Foundation is anxious to fill as many vacancies as 
possible, those that we have been unable to fill because of the 
shortfall. If as we project, SCF alone would create 100 jobs 
from that funding and the associated increase in third-party 
revenues that SCF would collect from these positions.
    The IHS needs your help like you have already done in this 
last year. We ask that they would be able to honor the agency's 
obligation to all the tribes across the Nation. We have taken 
on this responsibility. We have shouldered this shortfall way 
too long. It really costs us.
    And thank you again for granting me the opportunity to 
testify on this critical issue on behalf of SCF and the tribes 
across the Nation.
    [The statement of Katherine Gottlieb follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thanks very much, Ms. Gottlieb, and Mr. Teuber. 
Mr. Young, did you have any questions?
    Mr. Young. One question, Katherine. On the contracting, you 
negotiate with the Indian Healthcare Service?
    Ms. Gottlieb. Yes, we do.
    Mr. Young. Separately?
    Ms. Gottlieb. Yes, we do.
    Mr. Young. If this committee appropriates the money, what 
assurance do we have that they negotiate in good faith?
    Mr. Young. They will negotiate in good faith. They have in 
the past. We have a methodology. Once the money is allocated to 
Indian Health Service, we will receive those contracts----
    Mr. Young. Okay, because you will not be caught in a 
shortfall then by them not paying because you have to do it up 
front?
    Ms. Gottlieb. Right. Well, we have been caught short in the 
shortfall only because the money has not been allocated, and 
IHS will allocate those monies to the Indian tribes.
    Mr. Moran. Mr. Cole.
    Mr. Cole. Just number one, thank you very much, and thank 
you for the tremendous work you do. I sort of have a sense you 
are both on the wrong side of this table, but we need to keep 
Mr. Young as long as we can.
    Mr. Young. Thank you.
    Mr. Cole. Let me ask you this, Doctor. It is really maybe 
not directly about your clinic, but I am very interested in the 
contracting process whereby you manage your own healthcare 
outcomes because my experience has been, certainly in my tribe, 
that once we were able to take over those services ourselves 
and contract for ourselves, and frankly eight other tribes in 
our area, healthcare got a whole lot better just because you 
really had a direct tribal involvement in the management of the 
delivery, and even with the resources and challenges that we 
all have in this area, that fundamental change and moving 
tribes forward as quickly as they can being able to manage 
their own healthcare was a good thing. I would love to hear 
your perspective and experience to see if it is----
    Mr. Moran. Mr. Cole, I am terribly sorry to do this, but we 
had several minutes remaining 1 minute ago.
    Mr. Cole. Mr. Chairman, I understand.
    Mr. Moran. We still have some members who have not voted, 
but they are all going down to vote now and if you have a quick 
response, maybe we could get that in and then I think we are 
going to have to go.
    Ms. Gottlieb. I have a very quick response for Mr. Cole. I 
would say that if all tribes would assume the management from 
the Indian Health Service and take responsibility for their own 
healthcare, they will drive health disparities down.
    Mr. Moran. Perfect.
    Mr. Cole. Thank you.
    Mr. Moran. That is a perfect way to end. And Mr. Teuber, 
thank you. That was excellent testimony, and thanks for the 
emphasis on dental and particularly child abuse. It was very 
good. We really appreciate you being here.
    [Recess.]
    Mr. Moran. Again, some housekeeping here. As compelling as 
all this testimony is going to be, we are going to have to get 
stricter because of the delay attributable to the votes. We 
have got to end this at 4:00, so we are going to have to go 
through in almost lightning fashion. So the more concise the 
statement, the more appreciated probably the more persuasive, 
perhaps.
    We will next hear from John Mousseau who is the Councilman 
of the Oglala Sioux Tribe in South Dakota. Nice to have you 
with us.
                              ----------                              

                                           Tuesday, March 23, 2010.

                    OGLALA SIOUX TRIBE, SOUTH DAKOTA


                                WITNESS

HERMES ``JOHN'' MOUSSEAU
    Mr. Mousseau. Thank you, sir. Good morning, Mr. Chairman, 
committee members. My name is Hermes John Mousseau. I am a 
member of the Oglala Sioux Tribe Judiciary Committee. I am also 
a former police officer. I am here representing the Oglala 
Sioux Tribe. President Two Bulls regrets that she cannot be 
here to present this herself.
    Our Pine Ridge reservation is roughly the size of Rhode 
Island, making us the second-largest reservation in the United 
States. Our population is upwards between 50,000 and 20,000 
coming on and off yearly. Our per-capita for a family of four 
is roughly $7,500 a year, and we also have an 80 percent 
unemployment rate.
    Now, our law enforcement, our 911 system, receives 77,000 
calls for police service a year. All of those calls are 
answered by 50 police officers. That means we average around 15 
police officers per shift, provided none are injured, sick or 
on regular scheduled days off.
    And while the BIA's own studies say we need 110 police 
officers, we only have 50 police officers so we are currently 
way under-funded as far as our needs of the population base. 
This is true even though our salaries are far lower than what 
the BIA police officers receive. Our police officers are only 
making an average of $31,000 a year with no medical, retirement 
or healthcare benefits. And the BIA under the 638 contract, our 
police officers are supposed to be guaranteed a wage or a 
salary that is comparable to a BIA law enforcement officer 
which we are far below. And yet, our officers still choose to 
work on our reservation and provide services.
    Not only is our response time ridiculously slow in Pine 
Ridge, our shortage of officers means that each one of them has 
to work alone with backup at least 30 minutes away. On a 
reservation with as much violence, alcoholism, drugs and gangs 
as ours, this is an extremely dangerous situation, and a number 
of officers are injured on the job every year. I myself was 
shot in the line of duty, and the officers who responded to my 
calls for assistance took 30 minutes to arrive. Now, can you 
imagine being in a situation where you are wounded in the line 
of duty and waiting for 30 minutes for assistance?
    Mr. Chairman, while we appreciate the increases that this 
subcommittee has provided to law enforcement programs over the 
past few years, I respectfully say that they are simply not 
enough. And like I emphasized before, studies show where we 
need 110 officers just based on our old 2000 population which--
go up. So we do need more time, more officers. And back home we 
were shocked and quite a bit angered when we had learned that 
the BIA was ready to give $19 million of the BIA budget to the 
FBI.
    While we are first to agree that we need more arrests and 
prosecutions of violent crime in Indian country, we also know 
that because the FBI is at least 1\1/2\ hours away from our 
reservation, our police officers are going to be the ones who 
respond, transport the victims, secure the crime scene. To 
reward the FBI for failing to perform what is already their 
authorized responsibility and to pay the reward with our 
precious tribal funds is just plain wrong. While the DoJ 
programs that the tribes compete for do provide a great source 
of income, purchasing certain unique equipment and for funding 
certain specialized training, I must state emphatically that 
they must not be seen as a replacement for, or a supplement to, 
BIA-based law enforcement because as you know, DoJ does now 
have indirect funding, they are competitive and they are 
unreliable from year to year.
    For these reasons, I respectfully request that you do 
everything in your power to increase the BIA-based law 
enforcement funding by at least 50 percent each year for the 
next 3 years, and without this increase crime on the 
reservation will not decrease.
    Now to tribal court funding. Given the fact that your 
tribal court is severely understaffed and underfunded and our 
backlog is over a year, we were shocked to see that the 
Administration is proposing a cut in tribal court funding, and 
you know, law enforcement alone is not going to combat these 
crimes. We also need a sound, well-trained, well-equipped, and 
well-funded judicial system to put those arrested in jail. How 
can you stop crime when you cannot afford to hire judges and 
prosecutors?
    So we are requesting an increase of the court's funding for 
30 percent, and we also would appreciate this assistance for 
the Pine Ridge Justice Facility. Let me bring your attention to 
the Medicine Root Facility. When the BIA came in for the Pine 
Ridge Justice Facility to ask us which one of our two jails we 
wanted to replace, we chose Pine Ridge because of the larger 
population. But our Kyle Facility was granted $3 million by 
this subcommittee for repairs, and our own estimate of $11.9 
million for repairs just to fix it, to bring it up to code. But 
we still need the $93 million to keep the building open, but we 
are asking, simply asking, instead of putting a Band-Aid 
approach on this, we want a new building that would be up to 
code.
    [The statement of Hermes John Mousseau follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, Councilman Mousseau. This was 
important testimony. It is unbelievable that you have half the 
officers that you had a decade ago, and you have got five times 
the crime. It needs to be addressed, and it is amazing that 
your officers are getting paid so much less than BIA officers 
and do not even get health insurance. It needs to be addressed. 
I appreciate it. We could talk about just Pine Ridge 
Reservation alone all afternoon. Unfortunately we do not have 
that time, but I much appreciate your coming to testify. Thank 
you very much. And I am sorry, we just have to do this in such 
an expedient manner, but I appreciate it.
    Mr. Mousseau. Thank you for the opportunity, and we would 
be pleased if you gentlemen would come to the Pine Ridge Indian 
Reservation and show you first hand what we are talking about.
    Mr. Moran. I do want to go to Pine Ridge, and I am sure Mr. 
Cole does as well. But more importantly, we would like to get 
you some resources. More than getting us out to the 
reservation, we need to get some money to you. But thank you 
very much. We appreciate it very much, Councilman Mousseau.
    Mr. Mousseau. Okay. Thank you.
    Mr. Moran. Thank you. Very good. Tom I am going to move on 
because we have to catch up on time due to the votes.
    Next we have Mr. Zorn, Jim Zorn, the Executive Director of 
the Great Lakes Indian Fish and Wildlife Commission.
                              ----------                              

                                           Tuesday, March 23, 2010.

            GREAT LAKES INDIAN FISH AND WILDLIFE COMMISSION


                                WITNESS

JAMES ZORN
    Mr. Zorn. Mr. Chairman, Mr. Cole. Congratulations, Mr. 
Chairman. A picture is worth 1,000 words as they say, so as a 
lawyer, here is a picture to help remind the committee of who 
we are. My name is James Zorn. I am the Executive Administrator 
of the Great Lakes Indian Fish and Wildlife Commission. On 
behalf of our 11-member tribal nations and their 38,000 members 
in the 60,000-square-miles service area that we cover, we thank 
you for what you did last year to help us solidify the Rights 
Protection Implementation programs. And we are here again today 
to remind you. Many times I follow Billy Frank, and so I get to 
say, ditto. So I am sure you remember what he testified to this 
morning, so I will not repeat in the interest of time. But just 
so you know, we face a similar situation out in the Great 
Lakes. We have increasing demand for services. We have many 
unmet needs at a time when states and others are doing less, 
and when our communities are at important crossroads, 
especially in these economic times and with youth trying to 
figure out what they should do and getting them connected back 
to a key, back to mother earth, and understanding their roots 
and the life ways that the ancestors reserved for them in these 
treaties is a very important job.
    And so the money that was restored last year was greatly 
appreciated, and we seek to get at least that much restored 
again this year because as I am sure you have heard, that goes 
a long way but there are certainly other unmet needs.
    And so we just point out that restoration last year, we are 
down almost $.5 to $1 million from that simply because of 
proposed cuts in the base program, the contract support 
shortfalls, as well as the absorption of the fixed costs.
    And so for Right Protection Implementation, the important 
point to remember is that if we are out to restore, let's not 
get back to where we were in a relatively short period of time.
    Now, on the EPA, the Great Lakes Restoration Initiative, we 
have a challenge for the committee to help us think through. As 
you know, the Administration this year is proposing $300 
million for that program. Last year $475 million was 
appropriated, $375 million, you know, pick a figure somewhere 
in between there will probably work. Our focus is on how to get 
tribes at the table there. What we would like to see is to 
figure out a way to get some of that money devoted to tribes 
and get to them directly under self-determination. That has 
proven to be accountable, efficient and the best way--I 
believe, Mr. Cole, you talked about healthcare services in the 
hands of tribes. Get this money in the hands of tribes and you 
will get the type of results that we all want in restoring and 
preserving. Why should you have to destroy something before you 
get the funds necessary to keep it there in the first place?
    And so we would like to figure out a way to work together. 
We are happy to talk to EPA. We have been talking to OMB and 
the Administration about that, how to get some of these dollars 
for these regional initiatives through whether it is BIA or 
some other way, I mean, clearly, for that intended purpose, but 
then more direct into the hands of the tribes where we can get 
them out to the field much more quickly without all the 
administrative overhead that you have.
    So those are our two main focuses today. We know that both 
of the committee members here today understand these programs. 
We know you understand the needs, and anything we can do to 
give you the ammunition you need to help out, just let us know.
    [The statement of James Zorn follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you very much, Mr. Zorn. In terms of the 
amount available for actual outlay, there will not be a 
reduction, will there, even if we do not maintain at the $475 
million, it is still a substantial money in the pipeline.
    Mr. Zorn. There is a lot of money out on the table that has 
not been contracted, and that is why I think from our 
perspective, we are more focused on the tribal share than the 
overall. We tend to see federal agency's budget grow, and then 
the tribes do not necessarily get their share.
    Mr. Moran. So let's be cognizant of that.
    Mr. Zorn. That would be great. Thank you so much.
    Mr. Moran. If it is something that could be done without 
adding to the bill, that would be fair. Good. Thank you very 
much, Mr. Zorn. Thank you. Nice job.
    Mr. Zorn. Thank you.
    Mr. Moran. Thank you very much. Next we are going to hear 
from Buford Rolin, Vice-Chair, National Indian Health Board and 
Chairman of the Poarch Band of Creek Indians.
                              ----------                              

                                           Tuesday, March 23, 2010.

                      NATIONAL INDIAN HEALTH BOARD


                                WITNESS

BUFORD ROLIN
    Mr. Rolin. Mr. Chairman, members of the committee, thank 
you very much for having me here today to provide testimony on 
the National Indian Health Board's views on the fiscal year 
2011 IHS budget. But first I would like to thank the House for 
its work on passing healthcare reform which included the 
permanent reauthorization of the Indian Healthcare Improvement 
Act. Indian country has labored over the reauthorization of the 
Indian Healthcare Improvement Act for over 10 years now, and 
after Sunday's vote, this important law is finally 
reauthorized. And I want to thank you. It was so good to hear 
from the President this morning of his support. And I attended 
the healthcare meeting, and he was certainly supportive of that 
issue.
    Our work is not done, though. Indian country needs to be a 
partner in designing and implementing the new authorities 
offered in the Indian Healthcare Improvement Act. In addition, 
we need your assistance in making sure that the new programs 
receive resources and that the IHS receives the funding 
increases as proposed in the fiscal year 2011 budget.
    NIHB was very pleased to learn that for the fiscal year 
2011 IHS budget, the Obama Administration is proposing a $354 
million increase over the fiscal year 2010 appropriations. This 
is an 8.7 percent increase, and this is certainly noteworthy.
    Despite the Federal Government's trust responsibility to 
provide healthcare to American Indians and Alaskan natives, IHS 
funding remains a discretionary line and is susceptible to 
cuts. IHS' budget also remains far from adequate funding. We 
need the help of the Appropriations Committee to make adequate 
funding a reality. The trust obligation to provide healthcare 
is paramount, and it is upon this foundation that the IHS 
Tribal Budget Formulation Work Group formed its recommendation 
for the fiscal year 2011 IHS budget. The work group's proposal 
centers on a 10-year phase-in to eventually achieve full 
funding for IHS. As a first step, the work group recommended an 
increase in the IHS budget totaling $2.1 billion over the 
fiscal year 2010 funding levels. These recommendations focus on 
two types of needed increases. First, the work group 
recommended an increase of $947 million in current services. 
Current services increases are those budget increments needed 
to enable the Indian Health System to continue operating at its 
current level of service. This category contains such items as 
pay cost increases, inflation, contract support costs, funding 
for population growth, and for facilities construction and 
staffing. Without these increases to base funding, the Indian 
health system would experience a decrease in its ability to 
care for current populations.
    Second, the work group recommended $1.14 billion be added 
to identify programs and facilities accounts. Programs services 
increases refer to the recommended increases in HHS budget 
accounts to enable our program to improve and expand the 
services they provide to Indian patients. As you know, the IHS 
has long been plagued by woefully inadequate funding in the 
program areas.
    On behalf of all tribes, please move toward funding all of 
the IHS budget. On behalf of the National Indian Health Board, 
thank you for the opportunity to address the Subcommittee on 
these important matters, and I will be happy to answer your 
questions.
    [The statement of Buford Rolin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Very well done. Thank you, Mr. Rolin.
    Mr. Rolin. Thank you.
    Mr. Moran. Thank you very much. Good testimony. We will now 
hear from Mickey Peercy who is the Tribal Executive Director of 
the Choctaw Nation of Oklahoma.
                              ----------                              

                                           Tuesday, March 23, 2010.

                       CHOCTAW NATION OF OKLAHOMA


                                WITNESS

MICKEY PEERCY
    Mr. Peercy. I want to thank the committee and Subcommittee 
for having Choctaw Nation of Oklahoma here. We have been here 
over the last 4 years to--and this is not in my written 
testimony--but we have been here in the last 4 years to think 
about Jones Academy, and I think that is working. That program 
is working. It is working through the BIA, and so the only 
thing I wanted to say is that I appreciate the interest in the 
movement from the Subcommittee to move the issue with Jones 
Academy forward.
    Chief Pyle sends his regards and wishes he could be here, 
but he is in Shreveport for a community meeting tonight.
    Mr. Cole. If I could just interrupt real quickly.
    Mr. Peercy. Yes, Congressman.
    Mr. Cole. Our friend, Congressman Boren and I share 
representation of the Choctaw Nation, and Dan did a great job 
working with Chairman Dicks in making sure that Jones Academy 
thing got done.
    Mr. Peercy. Thank you.
    Mr. Cole. So I just wanted to make sure that that was in 
the record.
    Mr. Peercy. Thank you, and we certainly appreciate that.
    I am here today to talk--there are about five issues that I 
have got in my written testimony that revolve around Indian 
Health Service contract support costs, contract health service, 
sanitation facilities construction, mandatories, and additional 
money back into the self-governance line item.
    The two, the mandatories and the self-governance line item, 
again, they are in the written testimony. We ask that you pay 
close attention to that.
    In terms of contract support costs, in the written 
testimony you have with you describes the stance of the Tribal 
Self Governance Advisory Committee and how they stand on 
contract support costs. We certainly support that stance, and 
we will support--I know Lloyd Miller will speak later about 
contract support costs, and we are part of his coalition.
    Just for an instance, I know we did a joint venture in 
Idabel, Congressman, about 6 or 7 years ago. It took until this 
year to get contract support costs on that addition to our 
program, so there is a real program. Our goal eventually is to 
make sure the shortfall is done away with, and I think Mr. 
Miller will describe how that can be done.
    Secondly, with contract health service, I do not know how 
familiar you folks are with contract health service, probably 
the most complex service provided in health service. It is 
those payments to outside doctors, vendors, hospitals, those 
things that we cannot provide in-house. I spoke about 6 or 8 
weeks ago to a Senate Committee on Indian Affairs about that 
issue, and the problem with the 800-pound gorilla is we do not 
know how much it is going to cost to fully fund that. Dr. 
Roubideaux within the health service has taken some steps 
forward to put a committee together to start taking a look at 
that. But again, we do not know how much it is going to cost. I 
know Senator Dorgan asked, ``what is it going to cost to fully 
fund it?'' We do not know. It is not the money we spend. It is 
not the deferreds and denials, it is those three, plus we know 
in our systems, Chickasaw, Choctaw systems, doctors do not make 
those referrals because they know it is not going to get paid. 
So there is an 800-pound gorilla out there waiting on us.
    The one thing I wanted to really talk about is you do not 
hear much about sanitation facilities construction. Choctaw 
Nation's southeast corner of Oklahoma is the size of Vermont. 
In Oklahoma, we have mountains, you know. We have hard to 
access communities and hard to access homes. Sanitation 
facilities construction is about putting those water systems 
in, those sewer systems in, that reaches those homes and those 
communities. It is a lot like on the BIA side, it is a lot like 
the roads program because we deal with communities, we deal 
with municipalities, we deal with rural water districts going 
into joint partnerships to try to use our money and their 
money, because in Oklahoma, we are not a reservation state. So 
our tribal folks live among everyone else.
    In Oklahoma there is an unmet need of $77 million. So we 
would ask that as we look into the Indian Health Service 
budget, that sanitation facilities really get looked at. It 
does not get looked at when you are talking about the 
difference in cancer, heart disease, diabetes, those things 
that we look at, but it is a preventative service that is 
necessary to keep the health of our people. Nine seconds.
    [The statement of Mickey Peercy follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you very much, Mr. Peercy. Mr. Cole, since 
it is Oklahoma.
    Mr. Cole. Thank you because there are actually a couple of 
points I want to make, and Mr. Peercy made one of them right 
off the bat. This is not a reservation tribe at all. What is 
the size of the Choctaw Nation?
    Mr. Peercy. It is the size of Vermont.
    Mr. Cole. Yeah, but what is the number of people, I should 
say.
    Mr. Peercy. Choctaw Nation totals 200,000 people. There are 
probably 65,000, 70,000 of those living in the ten counties.
    Mr. Cole. And what is the size of your tribal budget, 
roughly?
    Mr. Peercy. Total?
    Mr. Cole. Yes.
    Mr. Peercy. Health system or total?
    Mr. Cole. Total.
    Mr. Peercy. A billion.
    Mr. Cole. And there is no per-capita income distribution, 
correct?
    Mr. Peercy. No, sir. None at all. Services are provided.
    Mr. Cole. Right. So what you do is end up--everything you 
make, gaming, every other enterprise you have and there are 
multiple enterprises, Mr. Chairman--turn back and get invested 
in healthcare----
    Mr. Peercy. Yes, sir.
    Mr. Cole [continuing]. Education services----
    Mr. Peercy. Yes, sir.
    Mr. Cole [continuing]. Cooperative arrangements with local 
governments?
    Mr. Peercy. Yes, sir. Pretty unbelievable exercise and very 
different from what most people understand tribes to be, and 
that is the common situation in Oklahoma. This is one of the 
largest tribes in the country. They do an unbelievably good 
job.
    Mr. Cole. Thank you.
    Mr. Moran. Thank you for pointing that out. Thank you, Mr. 
Cole.
    Mr. Moran. Mr. Olver from Western Massachusetts has joined 
us, also the Chair of the Housing and Roads Appropriations 
Committee.
    Mr. Olver. May I make a comment?
    Mr. Moran. Yes.
    Mr. Olver. Thank you, Mr. Chairman. Since you had 
introduced me, I would just like to say for people who are here 
to testify today that Mr. Moran and I did not particularly plan 
this this way, it turns out that tomorrow I am holding in my 
Subcommittee, which covers transportation and housing and urban 
development, which does the road building on reservations, and 
HUD of course deals with Indian housing on the reservations and 
the construction and such. We are going to be doing that in 
Room 2358 at 10:00. I think it is 10:00 tomorrow. And for 
anybody who is still around, that makes it almost a two-fer for 
those who would have an interest or who are involved in the 
reservations and would want to know something about this 
oversight hearing on the building----
    Mr. Cole. Would the gentleman yield?
    Mr. Olver [continuing]. And housing programs.
    Mr. Cole. Would the gentleman yield for just a question on 
point? Some of that money I think went to your community. I am 
not even sure, but there is tribal road building money. It does 
not just go to reservations. These folks are in partnership 
with county governments and everything from bridges to things 
that county governments cannot afford, particularly where they 
have got either concentrations of their tribal members which 
then helps everybody, or where they have got the tribal 
enterprises. They become partners with some of that money that 
you make available to other people around them.
    So a lot of that, quote, reservation road money is not 
always spent on reservations. But it is spent through tribes.
    Mr. Moran. Good. A very important point. If any of you are 
going to be around, that would be a worthwhile hearing to 
observe tomorrow under Mr. Olver's committee.
    Thank you very much.
    Mr. Peercy. Thank you for your time.
    Mr. Moran. Thank you. All right. Next we will hear from 
Donald Rodgers, the Chief of the Catawba Indian Nation, South 
Carolina.
                              ----------                              

                                           Tuesday, March 23, 2010.

                 CATAWBA INDIAN NATION, SOUTH CAROLINA


                                WITNESS

DONALD RODGERS
    Mr. Rodgers. Good afternoon. Thank you very much on behalf 
of the Catawba Indian Nation for allowing us this opportunity 
to testify before the House Interior Appropriations 
Subcommittee.
    First and foremost, I think that a lot of times Congress 
folks do not hear enough appreciation, and I want to personally 
thank you on behalf of the Catawba Tribe who received support 
from the committee this past year. As we had some budget and 
audit issues that I had to address when I took office about 
2\1/2\ years ago, but with the support of Chairman Moran, 
Ranking Member Simpson, Congressman Cole, and the committee as 
a whole, the Bureau of Indian Affairs did take action and 
allowed the Catawba Indian Nation to receive several million 
dollars in funds that were allocated to it, and we would not 
have been able to do so without you all's support, and I deeply 
appreciate that, sir, from the Catawba Indian Nation. Thank you 
so much.
    Mr. Moran. I think Mr. Spratt was also instrumental in 
that.
    Mr. Rodgers. Yes, sir.
    Mr. Moran. Not think, I know that, and he is a good friend 
and a good friend of the Catawba----
    Mr. Rodgers. Yes, sir.
    Mr. Moran [continuing]. To his credit as well.
    Mr. Rodgers. Well, thank you very much. I am here today to 
urge the Subcommittee to invest federal dollars in programs 
that support economic development for smaller tribes that have 
limited resources but like the Catawba are committed to 
achieving economic self-sufficiency. The Catawba Indian Nation 
is one of a handful of federally recognized tribes that do not 
enjoy the range of full sovereign powers possessed by most 
federally recognized Indian nations.
    Under the terms of our settlement agreement, we possess 
what I would term second-class tribal sovereignty. For example, 
in the area of gaming, we are not authorized to establish 
gaming operations pursuant to the Indian Gaming Regulatory Act. 
Instead, we are limited to small bingo halls, and let me 
explain a couple of things here.
    During the Revolutionary War, the Catawba Indian Nation 
stood with the American Colonists in their struggle for 
independence from the doctoral mandates of King George III. 
Catawba scouts accompanied then General George Washington on 
many of his campaigns through the South. Ever since, the 
Catawbas have always answered the call of country, living up to 
their half of the tribe's government relationship with the 
United States, and we will continue to do that.
    It is our hope that when we come back to Congress and ask 
for amendments to our settlement act to restore some of our 
lost sovereignty and free up our economic potential that 
Congress will respond to our call just as enthusiastically as 
we have responded to the call of America as a whole.
    In the 2000 census, the Catawba Indian Nation had a per-
capita income of just $11,000. The estimated current 
unemployment rate among the Catawba is more than double that of 
the State, which is very high itself now. I think it is at 26 
percent overall, and so about half of our folks are unemployed 
now. The tribe currently has no economic development venture, 
so what we have come to ask for is that we want the same rights 
as other tribes but we want to also have the opportunity to 
have funding that comes to our tribe on behalf of small 
economic ventures. We are working on a Catawba market to create 
jobs that improve services to our tribal members but also gives 
them an opportunity to work. Also, a major road extension that 
would provide decent, safe access to our reservation but also 
allows emergency services to come to the reservation.
    A ride share program to get our members to jobs located 
throughout the area, and the summer youth program that will 
allow our children and young people to become engaged in 
education and prevention activities for them.
    I thank you for this opportunity to talk about the needs of 
the Catawba Indian Nation. Your support for our people and 
indeed for all the native people in America is greatly 
appreciated and truly in the best traditions of the government, 
the government relationship. Again, I thank you for the time 
that we have been able to spend here.
    [The statement of Donald Rodgers follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. I thank you very much, Mr. Rodgers. Is there any 
more money that needs to be settled with regard to the claim on 
the Catawba Nation?
    Mr. Rodgers. Well, what happened with that is the 
Department of Interior worked with the Department of Treasury 
to suspend collection on the debt, but we are working on that. 
I do not know if Congressman Sprat has asked you to seek an 
appropriation to settle that debt and if that could take place, 
that would be a blessing for us dearly.
    Mr. Moran. Okay. Thank you.
    Mr. Cole. Quickly, and I will try and be quick, Chairman. I 
just wanted to really reemphasize a point you made, Chief 
Rodgers, which all states may be equal but all tribes are not, 
and we have dispensed recognition in many cases and stripped 
tribes of the ability to pursue their own economic interests. 
We have done it as recently as the last Congress. It is totally 
the wrong thing to do. It actually turns the tribe into a 
permanent ward of the state and does not allow them to pursue 
the opportunities they ought to be able to pursue. And you are 
a perfect example of a tribe that has been handicapped in this 
way for a long time.
    The second, just a quick question to you. I know you were 
working with Secretary Echohawk, and he probably ought to get a 
plug here, too, because I understand he has been working really 
hard.
    Mr. Rodgers. Yes, he has. He has worked extremely hard for 
us and on our behalf, and we do offer him plugs quite a bit and 
thank him for that. I do appreciate his hard work for us on our 
behalf because he did step to the plate and it was an emotional 
day for us that day because it freed up about $3 million of 
funds that came to us immediately.
    Mr. Cole. He would not tell me what he was going to tell 
you, but he told you you were going to be a lot happier when 
you left than when you saw him.
    Mr. Rodgers. We were extremely happy.
    Mr. Cole. I thought it was going to happen.
    Mr. Rodgers. Thank you all for your help.
    Mr. Cole. Thank you. Thank you, Chairman.
    Mr. Moran. Once in a while good things happen to deserving 
people. Okay. Thank you very much. Good job, Mr. Rodgers. Now 
we will hear from Geoffrey Roth, the Executive Director of the 
International Council of Urban Indian Health.
                              ----------                              

                                           Tuesday, March 23, 2010.

                NATIONAL COUNCIL OF URBAN INDIAN HEALTH


                                WITNESS

GEOFFREY ROTH
    Mr. Roth. I will be as brief as possible, and I thank you 
guys very much.
    My name is Geoff Roth. I am the Director of the National 
Council of Urban Indian Health and a descendant of the Standing 
Rock Sioux Nation. I sit here and represent 36 of our member 
organizations and 150,000 American Indians and Alaska natives 
that our programs serve every year.
    I would like to thank Chairman Moran for this opportunity 
to talk about the fiscal year 2011 budget.
    Like everyone else has done, I would really like to come 
and say thank you first, thank you for healthcare reform. Thank 
you for the Indian Healthcare Improvement Act, and thank you 
for the increased budget in fiscal year 2010. However, our work 
is not done. In order to fulfill the promises of the Indian 
Healthcare Improvement Act, we must work toward ensuring that 
the new programs and projects under IHCIA receive the necessary 
funding for implementation. We ask the Subcommittee to sit down 
and be our partner implementing these new authorities.
    I have got three main budget recommendations. First, we 
fully support the National Indian Health Board's tribal budget 
formulation process and $2.1 billion above the fiscal year 2010 
funding level. We are grateful that the President's budget 
freeze did not include the Indian Health Services Budget. That 
is great.
    Second, NCU strongly advocates for a $4 million increase to 
the Urban Indian Health line item. We believe this is a modest 
increase request in light of the incredible need within the 
urban Indian communities and in order to meet rising needs, we 
definitely need that.
    Last, NCU would like to encourage the Subcommittee to 
discuss the additional funding needed created by the passage of 
the Indian Healthcare Improvement Act, and we would be happy to 
sit down and talk with you about that.
    While we recognize that this year's budget is very 
difficult to deal with, and we understand that there is an 
economic downturn in the country, we really feel that 
investment in Indian programs is extremely important.
    I want to thank you again. I would like to sit down with 
your staff and talk some more about the individual line items 
and again, $4 million to the Urban Indian line item.
    [The statement of Geoffrey Roth follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Very good. Nice going. Thank you, Mr. Roth. Mr. 
Cole?
    Mr. Cole. Yes. Quick point again. Given the constituency 
which you serve, which is located primarily as your name 
implies, in urban areas, if you are not funded, where do your 
patients go?
    Mr. Roth. Back to the tribes.
    Mr. Cole. Either back to the tribes, which can be a long 
way away----
    Mr. Roth. Or the emergency room.
    Mr. Cole [continuing]. Or they become indigent care in the 
next hospital over that gets uncompensated for. So it is sort 
of penny-wise and pound-foolish. You are not funded. I promise 
you, they are going someplace else because they do not have the 
wherewithal to do it. And again, you do not have the 
concentration of skill sets that you get a lot of these claims 
that are used to dealing with Indian people. They know the 
special healthcare challenges that population has. So you guys 
do great work.
    Mr. Roth. Thank you. Thank you very much.
    Mr. Olver. May I just ask, as information, you are not 
eligible to get care at a community health center? Many of the 
urgent centers do have community health care center systems.
    Mr. Roth. Eight of our programs are dual-funded Urban 
Indian Health programs and community health center programs. A 
lot of our population will not go to the community health 
center programs that are not native-specific. Our patients have 
a hard time going there without the doctors and people that 
know how to care specifically for the Indian population.
    Mr. Olver. I have heard that other years, yes, and I really 
do not entirely understand that other than----
    Mr. Roth. Well, there are different issues like amount of 
time that they are able to spend with patients to deal with the 
specific issues. There are long issues that our population has, 
medical disparities that our population has that require longer 
times sitting down and talking and, you know, being culturally 
sensitive. The community health centers do not necessarily do 
that.
    Mr. Moran. But they are allowed to?
    Mr. Roth. They are allowed to, yes.
    Mr. Moran. And we would encourage Native Americans to take 
advantage of that if that is what is most accessible because we 
are putting more money into those community health centers.
    Mr. Cole. I could not agree more. Those are great 
investments. But it is also a population that is different, 
literally, genetically than the rest of the population to some 
degree, and it has certain susceptibilities to certain 
diseases. And you just will not get the expertise unless you 
are dealing with a large enough concentration of that 
population to get it there.
    Mr. Roth. Yeah.
    Mr. Moran. On the other hand, if more Native Americans did 
use the community health centers, they might beef up and become 
more sensitive. Any way, good point.
    Mr. Olver. On the other hand, if there are eight of them 
that you do actually have arrangements with and are being 
sensitive to the kinds of issues that you raised, there is no 
reason why there cannot be 18.
    Mr. Roth. Yes, and I got to say, Dr. Wakefield, the 
administration--is really working to increase those and we want 
to work with them on it.
    Mr. Moran. That is what we want to see. Excellent. Thank 
you very much, Mr. Roth.
    Mr. Roth. Thank you.
    Mr. Moran. Next we will hear from Larry Wawronowicz who is 
the National Resources Director, Lac du Flambeau Band of Lake 
Superior Chippewa Indian Tribe from Wisconsin.
    Mr. Wawronowicz. Yes, how are you doing?
    Mr. Moran. Fine.
    Mr. Wawronowicz. Congratulations on your appointment.
    Mr. Moran. Thank you, Mr. Wawronowicz.
    Mr. Wawronowicz. When Jim Zorn indicated that pictures are 
worth 1,000 words, there is about a million words in there. If 
you want to share that, it gives you a little bit of an----
    Mr. Moran. Oh, pictures, yeah.
    Mr. Wawronowicz [continuing]. Opportunity to talk about Lac 
du Flambeau. It is located in the northern part of Wisconsin. I 
do have two Lac du Flambeau tribal members that are located in 
the audience, and one is named Eric Chapman. He is our----
    Mr. Moran. In fact, if they would like to sit beside you, 
that is fine while you give testimony, if they would like to.
    Mr. Wawronowicz. He is newly elected and tribal council 
member in October, and I have Patty Brown-Schwalenberg in the 
back that gave a presentation earlier.
    Mr. Moran. Yes. We heard from her. She did a good job.
    Mr. Wawronowicz. Yeah.
                              ----------                              

                                           Tuesday, March 23, 2010.

 LAC DU FLAMBEAU BAND OF LAKE SUPERIOR CHIPPEWA INDIAN TRIBE, WISCONSIN


                                WITNESS

LARRY WAWRONOWICZ
    Mr. Wawronowicz. Mr. Chairman and members of the committee, 
I am Larry Wawronowicz, and I am the Natural Resources Director 
for the Lac du Flambeau Band of Lake Superior Chippewa Indians. 
I am going to be brief today because we have a written document 
that gives you a lot of detail on what we support within the 
President's budget, as well as what our concerns are. And I 
respectfully submit this testimony on behalf of the tribal 
membership of the Lac du Flambeau Band of Lake Superior 
Chippewa Indians. This is what we are doing it for. We are 
doing it for the members.
    The Lac du Flambeau Band supports the inclusion of the 
Circle of Flight program as the BIA's base program at the 
amount of $600,000. This is a very important program for us in 
terms of protecting our wetland resources within the Great 
Lakes Region as well as enhancing waterfowl, and you know how 
important waterfowl is in terms of providing the opportunity 
for tribal members to hunt for subsistence as well as it 
supports a good hunting program within the Great Lakes Region.
    The Band also supports the $8.5 million for GAP, and the 
$30 million for multi-media grant programs. But we are a little 
bit concerned about the $93 million reduction in the Clean 
Water and Drinking Water State Revolving Fund. But the set-
aside for tribal programs has increased, and we appreciate that 
support for you to keep that in there.
    The Great Lakes Restoration initiative of $475 million at 
the fiscal year 2010 level, I wish we can maintain that in the 
fiscal year 2011 budget.
    The tribe appreciates the increase in indirect costs for 
the BIA programs, but we do not understand why there was a $9.4 
million absorption of fixed costs such as salary and fringe 
within the President's budget. We would like to request this 
committee to restore that funding.
    Eric Chapman is our chief conservation law enforcement 
officer as well as a very important component of our Tribal 
Natural Resource Department. We have a very comprehensive 
program and conservation laws. This is one of the programs. 
This program is totally funded by tribal funds. There is no BIA 
funding whatsoever that is going into our program, and that is 
around a $248,000 budget. Because of the economic downturn, we 
reduced our conservation law enforcement officers from four 
individual officers to two. And it is costing us about $100,000 
per officer to put them in patrol vehicles and taking care of 
business within the boundaries of the reservation.
    So we are asking Congress to maybe direct some funding 
through the Bureau of Indian Affairs to support our 
conservation law enforcement programs. We have two officers 
that are basically patrolling a 144-square-mile reservation, 
and it is not very safe just having two people on board.
    While we support the Administration and the Congress' 
support on trying to increase public safety in Indian country, 
we feel that some of the funds in the proposed budget are 
misdirected. An earlier presenter indicated that the $19 
million the BIA is going to give the FBI or the Department of 
Justice for 45 I believe FBI agents, we feel that is 
misdirected and maybe not the best use of the dollars, and we 
would like to see that money go to conservation law enforcement 
officers so we can protect our resources within the Lac du 
Flambeau Indian Reservation. Conservation law enforcements are 
always our first line of defense to illegal activities 
occurring on the reservation.
    The Lac du Flambeau Band supports the $3.6 million and $2.8 
million for tribal fish hatchery operations. We would like to 
see BIA forestry monies increase. I think there is a decrease 
of $156,000 which is in this year's budget which is not a lot 
but has totally been underfunded since 1991. And any decrease 
is going to have a negative impact on our ability to do 
business. It has economic development potential, helps us fight 
things like climate change because, you know, sequestering 
carbon and things like that.
    Historic preservation, we also need funding there. $120,000 
I guess is being requested to support tribal historic 
preservation offices. That is about $12 million because they 
anticipate THPOs across the country.
    And lastly, higher education is becoming so important for 
us at Lac du Flambeau because we are getting more and more 
people that are graduating from high school and going onto 
college and graduate work.
    So we support the budget of $2.1 million, but we are 
concerned that this particular budget is remaining flat over 
the few years, and maybe it is something that we can take care 
of in this budget but just make it something that we could red-
flag for the future.
    So again, thank you very much for your time. I really 
appreciate it, and again, congratulations on your appointment, 
sir.
    [The statement of Larry Wawronowicz follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, sir. Thank you very much. Thanks for 
the testimony. I appreciate it and all the explanatory material 
as well.
    Mr. Wawronowicz. Yeah, there is a good video on there, so 
if you do not have anything else to do----
    Mr. Cole. Mr. Chairman, if I could ask one question?
    Mr. Moran. Yes, Mr. Cole.
    Mr. Cole. This might be more appropriate to staff because I 
do not know if you would know, Mr. Roth. But this $19 million 
to the 45 FBI agents has come up several times in testimony, a 
lot of concern. Nobody is hollering, yeah, this is a great 
idea. Do you know if those agents would be stationed 
specifically on reservation land?
    Mr. Wawronowicz. No, the way I understand it there are 565 
federally recognized tribes in the United States. I think it is 
going to have an impact on 200 tribes. So there would be about 
365 tribes that may or may not be affected. It does not really 
put a lot of boots on the ground as far as I am concerned 
within Indian country. You know, if the $19 million goes to 
blue force, I call it, or brown force, conservation law 
enforcement, I think it would be a better, efficient use of the 
money.
    Mr. Cole. I may be wrong. Maybe again we can direct these 
questions to the Secretary, but you know, I think the argument 
behind it is, look, they have got jurisdictional authority that 
obviously, unfortunately, tribal law enforcement does not have 
and this sort of beefs it up and speeds it up. So there is an 
argument either way, but I would just like to know a little bit 
more about it.
    Mr. Wawronowicz. Well, if we could help in some way, you 
know, please give us a call.
    Mr. Cole. You already have.
    Mr. Wawronowicz. Contact information----
    Mr. Cole. Because just waving the red flag helps a lot.
    Mr. Moran. Yeah, it is something we should look at. It may 
very well not be the optimal use of funds.
    Mr. Wawronowicz. Thank you, Mr. Chairman.
    Mr. Cole. Thank you very much. Thank you.
    Mr. Olver. May I make----
    Mr. Moran. Yeah, Mr. Olver.
    Mr. Olver [continuing]. A very strict comment?
    Mr. Moran. Yeah.
    Mr. Olver. I am reminded that the hearing that I was 
talking about is at 2:00 in the afternoon rather than at 10:00 
in the morning. So if anybody was inclined to visit with that 
subcommittee as we talk about housing and road building on the 
reservations, then it is 2:00 at 2358 Rayburn Building.
    Mr. Moran. So that means you can stay up late, celebrate 
tonight, sleep late in the morning and come back at 2358 
Rayburn for Mr. Olver's hearing on housing and transportation.
    Mr. Wawronowicz. Thanks again.
    Mr. Moran. Thank you. Next we will hear from Tracy Ching 
King, the President of the Fort Belknap Indian Community in 
Montana.
                                           Tuesday, March 23, 2010.

                 FORT BELKNAP INDIAN COMMUNITY, MONTANA


                                WITNESS

TRACY CHING KING
    Mr. King. Thank you, Mr. Chairman. I really do not have any 
pictures, just requesting a picture perfect budget.
    Again, my name is Tracy Ching King. I serve as the 
President of the Fort Belknap Indian Community Council, home of 
the Assiniboine and Gros Ventre Nations. North Central Montana 
where winter is still there, and we are requesting some help 
with issues. Just like everyone else, we have our issues 
regarding 638 contracts. It seems like we are treated like 
prisoners and we are on probation sometimes, and to me that is 
not the way to treat us. I feel that the BIA should be working 
with us, not against us.
    A good example is: once we 638 contracted our law 
enforcement and our detention, the FTEs were 55,000 and that 
was cut to 27,000 now. So we have half the funding that we 
should have, but once the BIA will take over, usually it goes 
to 100 percent funding.
    A lot of issues were talked about regarding different 
budgets. We are working on programs to try to deal with a lot 
of different abuses. Myself, I do not believe in locking up 
people. I believe in helping them. I have worked with kids that 
were ready to be locked up, and one of the things that happened 
with a grant through the Department of Justice about 10 years 
ago, many of them were ready to be locked up. Today a lot of 
them come back from Iraq, serve their country. I come from a 
family of veterans, historically, and my daughter served in 
Iraq in the satellite imagery capturing insurgents, and the DA 
and sometimes IHS, they treat our veterans as if they were the 
tennis ball of the Williams sisters competing against one 
another.
    [The statement of Tracy Ching King follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. That is inexcusable, and I appreciate you 
bringing it to our attention.
    I have to bring to the attention of everyone here, though, 
we have just been informed we are going to have votes about 
3:45. They are going to take us to about 4:30. At 4:30, I have 
a hearing that I have got to attend with the Chair of the Chief 
of Staff of the Army, actually, on army funding. So we are 
going to run out of time, unless Mr. Olver is able to come 
back, I do not know whether you are going to be able to about 
4:30, John.
    Mr. Olver. Oh, at 4:30?
    Mr. Moran. Yeah. Well, if that being the case, we have got 
nine more. You are the 10th, Mr. King. I do not see how else we 
are going to have this hearing. I do not think it is fair to 
bring people back another day, so let us try to move through as 
many people as we can out of consideration for everyone. I hate 
to do this.
    Mr. King. I am finished, Mr. Chairman.
    Mr. Moran. The staff warned me that this could happen, and 
I thought that we could move forward anyway.
    Mr. King. Okay.
    Mr. Moran. But we have all of your testimony for the 
record.
    Mr. King. Thank you.
    Mr. Moran. Mr. Pomeroy is here. Mr. Pomeroy, did you want 
to say anything quickly with regard to Fort Belknap?
    Mr. Pomeroy. Thank you. Let me just say a couple words for 
the record. You will hear either in oral or written form from 
David Gipp, the President of the United Tribes Technical 
College in Bismarck, North Dakota. This is one of two multi-
tribal colleges that was founded 41 years ago, offers 17 
vocational and technical programs, 11 1-year certificates and a 
4-year degree to elementary education, 81 percent retention 
rate, and an extraordinary placement rate of 94 percent, Mr. 
Chairman.
    Mr. Moran. Mr. Gipp, did you want to come up? We are going 
to have to move through this very quickly, unfortunately, but--
--
    Mr. Pomeroy. Let me just say, this outfit is the best. What 
they do is remarkable. Thank you, Mr. Chairman.
    Mr. Moran. Thank you, Mr. Pomeroy. Very quickly. Mr. King 
was in the middle of some very good testimony, and I am sorry, 
Mr. King, it is very embarrassing that this kind of thing 
happens.
    Please, very quickly, Mr. Gipp, but we do want to hear from 
you.
                              ----------                              

                                           Tuesday, March 23, 2010.

             UNITED TRIBES TECHNICAL COLLEGE, NORTH DAKOTA


                                WITNESS

DAVID GIPP
    Mr. Gipp. Thank you, Mr. Chairman, and members of the 
Subcommittee. I will make it very quickly here within the next 
1 or 2 minutes.
    We do have five major points within our testimony that we 
would like the committee to consider. One is our general 
operating funds for United Tribes which is at about 6.4 percent 
in the request. We are also working very heavily with the 
Bureau of Indian Affairs and with the new Administration 
relative to law enforcement and police training. We are 
requesting $4.3 million to fund a Northern Plains Indian Police 
Academy of which we have pretty unanimous support from all of 
our tribes in our region, and we are also working on a science 
and technology building that is for $3 million. Another $3 
million for an expansion on our south campuses. You know we 
have been operating for over 41 years now, and we are also 
supporting the $23 million request for the Bureau of Indian 
Education for elementary and secondary schools.
    And that would summarize basically our testimony. We have 
about 1,100 adults and about 400 children on our campus with a 
K through 8 elementary school. Thank you so much.
    [The statement of David Gipp follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you very much, President Gipp. And again, 
President King, thank you very much. So sorry to have had to 
interrupt your testimony. I feel very badly about that. You did 
not deserve that.
    Next, Mr. Begay who is the General Manager of the Dine 
Power Authority in the Navajo Nation of Arizona. Mr. Begay.
                              ----------                              

                                           Tuesday, March 23, 2010.

              DINE POWER AUTHORITY, NAVAJO NATION, ARIZONA


                                WITNESS

STEVE BEGAY
    Mr. Begay. Thank you, Chairman Moran, Ranking Member 
Simpson, and members of the House Interior Appropriations----
    Mr. Moran. Thank you, President King, President Gipp. Thank 
you both.
    Mr. Begay [continuing]. Subcommittee. This is Tim Goodlet, 
the Chairman of our board and also a member of the Navajo 
Nation Council. I am the general counsel for Dine Power 
Authority, the energy development enterprise of Navajo Nation, 
and we have a project, the largest Indian project that we know 
of in Indian country. It is a 1500 megawatt desert rock energy 
project. It has modern emissions systems. It will generate jobs 
over a 5-year construction period, 200 permanent jobs in the 
plant, 200 permanent jobs in the mining for a 40- to 60-year 
period. Navajo has 50 percent unemployment, but this project 
will bring in over $50 million over the term of the project.
    The agencies and the Federal Government have been slow in 
the DREP permitting process. We received the air permit from 
the EPA, and it has been withdrawn and now we are a little bit 
frustrated that things are moving forward slowly. It has been 
twice extended for public review and comment process, and still 
we do not have a permit today. It is notable that coal projects 
in Illinois and Colorado, which were at the same stage of 
permitting in 2004, are now under construction.
    Why is the project located on Indian lands put at such an 
incredible regulatory disadvantage to other projects? Navajo 
nation is similarly frustrated by the continued delays in the 
federal environmental impact statement process.
    We have been actively engaged in both the EPA and the 
Department of Interior in an effort to bring these regulatory 
processes to closure in a reasonable timeframe. DPA urges this 
committee to include in the fiscal year 2011 Interior 
Appropriations bill sufficient funds to ensure that the EPA and 
the Interior are adequately resourced to complete the DREP 
regulatory processes and report language tasking them to move 
these processes forward in a quick way.
    [The statement of Steve Begay follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. I think we should put report language in. Maybe 
if the staff feels that a letter asking that they accelerate 
the process of it, it is at a pace comparable to non-Indian 
lands, that might be a constructive thing to do. We appreciate 
you bringing it to our attention. Thank you very much.
    Mr. Begay. Thank you very much.
    Mr. Moran. Thank you. We greatly appreciate that. Faye 
BlueEyes. Thank you very much, Mr. Begay.
                              ----------                              

                                           Tuesday, March 23, 2010.

     DZILTH-NA-O-DITH-HLE COMMUNITY GRANT SCHOOL BOARD, NEW MEXICO


                                WITNESS

FAYE BLUEEYES
    Ms. BlueEyes. Good afternoon. I am Faye BlueEyes. I am the 
program director at Dzilth-Na-O-Dith-Hle Community School. Our 
school is part of the Bureau of Indian Education School System 
and is operated by an all-Navajo school board with a grant from 
BIE. The main thing I would like to point out is that--schools 
get the same tribal grant support cost as BIA non-school 
contractor. We are only going to get 66 percent while the non-
school contractors will get 94 percent. But yet we both do the 
same thing, so we feel that is very unfair and it is not good 
policy and the disparity is just not right.
    And then I urge you to please read my written testimony.
    [The statement of Faye BlueEyes follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, and thanks for being so brief. Maybe 
working with Mr. Cole and other members of the Committee we can 
rectify some of the--it does not seem that it should be so 
disparate. That disparate treatment is something we should be 
able to do without having to devote a lot of resources, but 
maybe we can focus a little attention to it.
    Mr. Crouch, James Crouch, Executive Director of the 
California Rural Indian Health Board.
                              ----------                              

                                           Tuesday, March 23, 2010.

                  CALIFORNIA RURAL INDIAN HEALTH BOARD


                                WITNESS

JAMES CROUCH
    Mr. Crouch. Thank you for having me here. I will be 
extremely brief.
    CRIHB, in association with Tribally Operated Health 
Programs in California supports the President's request for the 
appropriations for fiscal year 2011. We would like to inform 
you about the fact that there are only two areas in the IHS 
that have no IHS hospitals so that all of our inpatient and 
specialty care is provided through the contract healthcare 
system. The President's request does include a significant, 
although never sufficient, amount of funds, new funds, program 
improvement funds, for contract healthcare.
    You may hear, and I would draw your attention to the last 
page of my testimony, that the current formula or the new 
change formula overly advantages those of us that have no 
access to IHS funded inpatient and specialty care. The graph 
shows actually over 10 years distributing the same $46 million 
every year going forward, after about a billion dollars, 
basically, the programs that have no hospitals, have not 
overlapped or exceeded in fact the relative distribution among 
the 12 areas stays the same. The curve has been bent up, and we 
appreciate the support.
    [The statement of James Crouch follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Okay. Thank you very much. I see what you are 
telling us in this chart. Thank you very much, Mr. Crouch. Well 
done.
    Next we will hear from Harold Dustybull who is Vice 
President of the National Johnson-O'Malley Association 
headquartered in Oklahoma.
                              ----------                              

                                           Tuesday, March 23, 2010.

            NATIONAL JOHNSON-O'MALLEY ASSOCIATION, OKLAHOMA


                                WITNESS

HAROLD DUSTYBULL
    Mr. Dustybull. Congressman Moran, Congressman Cole, 
Congressman Olver, I just have a couple of things, and I will 
make it real brief. We want our funds restored to $24 million 
which was a fiscal year 2006 enacted level. That is the main 
thing that we have been pushing for for years.
    We also want a position in the Department of Interior to 
oversee the JOM program. Those are two things that we have had 
and were taken away from us, and we want them back. And we ask 
for your folks' help in putting this back in place for us.
    And the rest of it is in my testimony, and I thank you very 
much.
    [The statement of Harold Dustybull follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. The testimony is very good testimony, and I am 
just reading it through here. I know Mr. Cole has a particular 
interest in Johnson-O'Malley Act, and I think as he explains it 
as you do, he gets some support there as well. Did you have 
anything you wanted to say, Tom?
    Mr. Cole. Thank you for those comments, Mr. Chairman. I 
look forward to working with you on it, and as you know, it is 
a great program. We need to restore it.
    Mr. Dustybull. Thank you.
    Mr. Moran. Thank you. Very well done. Thank you very much, 
Mr. Dustybull.
    Joseph Brings Plenty, Chairman of the Cheyenne River Sioux 
Tribe in South Dakota.
                              ----------                              

                                           Tuesday, March 23, 2010.

                CHEYENNE RIVER SIOUX TRIBE, SOUTH DAKOTA


                                WITNESS

JOSEPH BRINGS PLENTY
    Mr. Brings Plenty. My name is Joseph Brings Plenty. I am 
tribal Chairman, Cheyenne River Sioux Tribe.
    I am not going to be able to do any justice as far as what 
I have written down here. I have come a long ways, and I know 
you are pressed for time. So what we have here are our 
priorities, and I have traveled in representation from my 
nation to come here to express our concerns. I know that each 
and every other tribe out there has great concerns, and each 
one of them are unique in their ways, but everything is down in 
the testimony here. I hope you read it and take our priorities 
into consideration. Thank you.
    [The statement of Joseph Brings Plenty follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Do not leave yet. Tell us for a couple more 
minutes about your priorities. The Cheyenne River Sioux Tribe 
is the fourth largest tribe in the United States. We should be 
able to afford you more than a minute-and-a-half. Go ahead.
    Mr. Brings Plenty. Okay. Let me go ahead and read through 
my testimony.
    Mr. Moran. No, you do not have to read through it. Just 
tell us from your heart what you want us to be doing. What 
would you be doing if you were on this side of the table?
    Mr. Brings Plenty. One thing for sure is that our greatest 
priority is our water and infrastructure, and we had an 
appropriation through WRDA in 2007. It had survived basically a 
veto by the President then. But it was one of the unfunded 
mandates that so many people have heard of.
    This past January we had dealt with a winter ice storm 
which knocked out over 3,000 poles throughout our reservation. 
We had 10,000 tribal members without electricity, without heat, 
without water.
    Mr. Moran. How long did they go without power?
    Mr. Brings Plenty. I would say half of the tribe went 
without power for about a week, and the rest of the tribe for 
about 2 weeks. And there were some rural areas that went 
without electricity for 19 days.
    I guess one thing that you have to understand, too, as soon 
as the electricity went off the following day, there was 40-
below wind chill factors with 40-miles-per-hour winds that had 
hit the reservation area on the Great Plains.
    Mr. Cole. Did you get a FEMA disaster declaration for that?
    Mr. Brings Plenty. Yeah, we did. It was recently approved, 
and we are going through the application process this week back 
home.
    Mr. Cole. I would like to know how you come out on that 
because actually we had a similar situation in my area, in a 
rural area, and FEMA was actually quite good about helping. 
Those poles are $2,000 a piece to put up. So just do the math. 
At least that is what they are in our area. They may be more in 
yours. But that is a huge drain on tribal resources if you do 
not get it back up, and you should be eligible for FEMA help on 
something like that.
    Mr. Brings Plenty. Yeah, the FEMA was approved. We are 
going through the process. The utility company actually is not 
owned by the tribe. Our part of it, of course, with the water 
infrastructure, when that went down, that posed--we had to send 
our dialysis patients off the reservation, actually to our 
sister tribe. The Oglala Sioux Tribe had assisted us greatly 
during that time. We had about 40 or 39 people get sent off the 
reservation. But our water infrastructure is most important. We 
cannot build. We have three or four families living in one 
home. Unless we get the water infrastructure of course with--
and HUD you cannot build a new home unless you know, you have 
to have the infrastructure there for it before those dollars 
are spent. Probably about 5, 6 days into it, when the 
electricity came on, we had numerous assaults. A lot of people 
were pretty tired of each other, so law enforcement, which we 
have about 10 officers for 2.8 million acres there, trying to 
police the area were just overwhelmed. We had extra BIA 
personnel come on to assist, thank God nobody had perished 
during the storm.
    Mr. Cole. Just to underline the need, do you happen to know 
roughly what the unemployment figure on this reservation would 
be and what the per-capita income is?
    Mr. Brings Plenty. Eighty-six percent unemployment rate, 
and I would say maybe, for some families, I know that they are 
living off about $500, $300----
    Mr. Cole. So clearly not a lot of resources available to 
meet these kind of needs when you are talking infrastructure 
law enforcement all across the board. They are not there to be 
locally generated at this point.
    Mr. Brings Plenty. Yes, exactly.
    Mr. Moran. Some of us saw this on television and wished we 
could have done something about it.
    Mr. Olver, do you have any ideas, Chairing the House----
    Mr. Olver. Oh, do I have ideas. I am not sure that it is 
possible to cover them as quickly since--have the votes been 
called? I am not sure.
    Mr. Moran. They have not been called quite yet.
    Mr. Olver. I would like to ask a couple questions if I may.
    Mr. Moran. Okay.
    Mr. Olver. I note, Joseph, that you are also the Vice 
Chairman of the United Sioux Tribes Development Corporation. 
What sort of a budget does your development corporation have 
per year?
    Mr. Brings Plenty. Well, right now it has not--before it 
was in the President's budget. Since then before Bush's terms, 
it had been surviving on earmarks basically, and the 
corporation, of course, it involves all the tribes that are 
involved with the treaty of 1868. Right now I could not give 
you an exact estimate, but they are not functioning off very 
much money.
    Mr. Olver. And what kind of things come under the 
development? Do you build housing? Are you trying to create 
jobs?
    Mr. Brings Plenty. Yes----
    Mr. Olver. Are you developing social services in the 
development corporation?
    Mr. Brings Plenty. It takes care of some of the social 
needs on a public level as far as some individuals, and it had 
been done in the past as far as relocating from the reservation 
off, but what the primary function of the corporation is to 
create opportunity. And he had stated possible development in a 
business. That is----
    Mr. Olver. Job opportunities?
    Mr. Brings Plenty. Yes, exactly. And one thing, if you read 
in there toward the end of it, as per my request is funding for 
a database which is I think for just about every tribe out 
there would be very useful. We do not have a database system to 
where we could collect all our information. That would be one 
function of the United Sioux Tribes Corporation, to be able to 
be a hub for all of the tribes.
    Mr. Olver. And you are United Sioux Tribes, the 
corporation, the development corporation, that covers all the 
Sioux bands from North Dakota, South Dakota and Nebraska?
    Mr. Brings Plenty. Nebraska, yeah. The ones that are on----
    Mr. Olver. How many bands would there be? How many bands 
would you----
    Mr. Brings Plenty. Nine.
    Mr. Olver. Nine?
    Mr. Moran. So we will move on at this point, but Mr. Olver, 
let me just say, he is a very good guy, and he does chair the 
Housing and Transportation Appropriations Committee. It might 
be useful to contact his staff. I do not know whether he can 
help you out at all, but he is having a hearing on Indian 
housing tomorrow afternoon, and you know, he allocates his 
money according to need.
    Mr. Olver. But we do not have enough for all the needs----
    Mr. Moran. No, that is for sure.
    Mr. Olver [continuing]. On the reservations to say nothing 
of the needs elsewhere.
    Mr. Brings Plenty. And real quick, too, without the 
upgraded water infrastructure, we cannot--if we build a house 
here and add on a line, then somebody loses water pressure 
here. So we cannot build houses or we cannot build business. We 
cannot build anything. Right now, we have a moratorium on our 
reservation stating that we cannot build because of the water 
pressure.
    Mr. Moran. And what can you do about the water pressure?
    Mr. Brings Plenty. We have done just about everything that 
we could. We put up water towers, we put up reserves, 
everything that we could, and we have been very efficient but, 
you know, at this point, we----
    Mr. Moran. The water is not there.
    Mr. Brings Plenty. This has been an issue since 1993.
    Mr. Cole. What would be the largest job-creators--if you 
can just tell me a couple of them that are done by your 
development corporation?
    Mr. Brings Plenty. It has been helpful in the past with 
some of the tribes to create business within their 
reservations. But like I said it has not been very effective 
for some years now because of the funding. It was in the 
President's budget before. It is not now. So what we will do is 
come together and bring our ideas and push forward with a 
resolution from the Great Sioux Nation. What I could do, Mr. 
Olver, is send you a list of what United Sioux Tribes has done 
in the past to give you an idea of how it could be useful and 
what a good tool it could be.
    Mr. Olver. From my point of view, one needs to understand 
exactly all that--land or much of it North and South Dakota and 
a couple of places in Nebraska would be your bands. Some of 
them have their own tribal housing authorities----
    Mr. Brings Plenty. Yes.
    Mr. Olver [continuing]. Which would do housing.
    Mr. Brings Plenty. Yes.
    Mr. Olver. One by one. And whether each of the separate 
bands has mechanisms to do economic development, which is what 
you are talking about. HUD begins to talk about doing economic 
development which is what urban development is the other part 
of the title, not just housing and urban development, and not 
that you are urban particularly but in your communities. 
Certainly you need community development.
    Mr. Moran. So the more you can collaborate or you can show 
that it is generating jobs, the more consistent it is with the 
Federal Government's priorities, and Mr. Olver is a good 
contact to have and we appreciate your testimony. Thank you 
very much.
    Mr. Brings Plenty. Thank you, sir. I appreciate it.
    Mr. Moran. Thank you. Brian Patterson, President of the 
United South and Eastern Tribes of Tennessee.
                              ----------                              

                                           Tuesday, March 23, 2010.

            UNITED SOUTH AND EASTERN TRIBES, INC., TENNESSEE


                                WITNESS

BRIAN PATTERSON
    Mr. Patterson. Good morning or good afternoon as it may be. 
Chairman Brings Plenty, while America turned to Haiti with its 
heart in its wallet, the eyes of Indian country looked at your 
reservation with our thoughts and prayers and put our minds 
together and came up with ways that we could assist your 
people. So thank you for your leadership.
    And just as a point of interest as we sit here and we 
center our issues around self-determination and self-governance 
and self-sufficiency to become a self-determining people, I 
would just like to point out in point of the hardships on 
chairman's reservation facing his people, I spoke with Gail 
Kingman, the Executive Director of Great Plains Association, 
and we are going to spear a movement that would rally Indian 
country to put an emergency respondedness plan of action and 
develop some strategies that we could reach out and support 
Indian country in times of need such as this. Just as Katrina 
devastated some of my tribes in the South, in many of our USET 
member tribes, our family responded. We want to put into place 
the same type of strategy to respond within Indian country and 
help them out.
    Mr. Moran. Nice going, Mr. President. Thank you. Excellent.
    Mr. Patterson. Thank you, Mr. Chairman. I expressed my 
heart-felt gratitude to you chairing this committee in taking 
on and shouldering that responsibility. So from my heart, I 
express my heart-felt gratitude.
    Mr. Cole, I would just like to acknowledge your years as a 
tireless warrior and advocate for Indian country. Many thank 
yous.
    Mr. Olver, same with you. Thank you for, with heartfelt 
gratitude for serving in your capacity.
    I have served my people for nearly 20 years as Bear Clan 
representative of the Oneida Indian Nation of New York. I am in 
my second term as USET President of the United South and East 
Tribes. We are very diverse, not only in geography but in where 
we are in development. I represent tribes from Texas to Florida 
up to Maine, 25 federally recognized tribes, and we are 
grateful for this opportunity to present.
    Most of the USET in the BIA and BIE budget priorities are 
in line with identified national tribal priorities. However, 
there are several areas of concern that are specific to the 
tribes of the eastern region. While USET believes that all 
Indian programs are vital to creating strong tribal governments 
and that Congress should protect and improve current base 
funding levels for all programs, the USET priority programs are 
tribal priority allocations, contract support, tribal courts 
and scholarships. Education is the key to our survival as a 
people as well as the other priorities listed in advancing the 
best, bright future for our children.
    Thank you for your time, sir.
    [The statement of Brian Patterson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you very much. Good, concise, to-the-point 
testimony, and I appreciate it very much, Mr. Patterson. As you 
probably know, members, but far more importantly, the staff is 
going to review all of these statements and hopefully we will 
be able to reflect them in our markup. So thank you very much.
    Mr. Patterson. If we can be of any further service, please 
do not hesitate to call on us. Thank you.
    Mr. Moran. And thank you for responding for the Cheyenne 
River Sioux situation. That was horrible what they encountered 
through a natural disaster, and it is great to hear your 
response. Thank you, Mr. Patterson. Excellent.
    Lloyd Miller, who is a partner in Sonosky Chambers Sachse 
Miller & Munson, and Counsel to the National Tribal Contract 
Support Cost Coalition.
                              ----------                              

                                           Tuesday, March 23, 2010.

            NATIONAL TRIBAL CONTRACT SUPPORT COST COALITION


                                WITNESS

LLOYD MILLER
    Mr. Miller. Thank you, Mr. Chairman. The coalition is 
comprised of 16 tribes in 10 states administering over $400 
million in Indian health service grants and contracts and self-
governance agreements.
    I can say two things today without fear of contradiction. 
One is that the most important piece of Indian legislation to 
pass in the last 35 years is the Indian Self-Determination Act. 
It has produced enormous improvement for Indian communities by 
the communities themselves through contracts, compacts, self-
governance agreements. Mr. Cole's district in particular is 
stellar across the country as well as in Alaska.
    I can also say without fear of contradiction and as the 
Senate has said and the House has said that the single greatest 
impediment to the success of self-determination has been the 
underpayment of contract support costs.
    The committee has heard a lot this morning and this 
afternoon about contract support costs, and they sound like a 
very obscure issue. Contract support costs are the fixed costs 
that are set by the Federal Government through indirect cost 
rates that must be incurred which are audited every year and 
re-audited after they are incurred. They are fixed costs. They 
are costs of insurance, for instance, workers' compensation 
insurance. They are fixed. When they are not paid by the 
agency, they come out of the program. As a result, tribes are 
penalized such as the Cherokee nation, over $10 million. The 
Choctaw Nation, also a member of the coalition's like sum, 
several $10 million shortfalls across the country. Every $10 
million is 243 positions lost in healthcare both as a result of 
the money that comes out of the program and then the Medicare 
and Medicaid third-party revenues that cannot be generated.
    So it is an enormous drain on jobs in very depressed areas 
that provide healthcare, law enforcement, grazing, land 
programs, all of the programs that you have heard about today. 
Our concern is that when the budget is balanced on the contract 
support costs line item, instead of some other line item such 
as law enforcement, it is terrible to balance it on anything. 
But it balances it on the line item where only tribes 
participate, then it is balancing a budget disproportionately 
on the tribes. If it is balanced, for instance, on the hospital 
and clinic's budget, half of which, 60 percent of which is run 
by the tribes and 40 percent by IHS, there is a certain parity. 
But if it is balanced only on the contract support cost line, 
100 percent of the cut is borne by the tribes.
    So we would ask this committee to give some consideration. 
Wonderful of the committee the work that you did last year to 
increase an already wonderful budget request from the President 
to $116 million and to find funding for the BIA contract 
support cost increase. Spectacular, unprecedented in 20 years, 
that increase, but unfortunately, we are still only at 80 
percent funding on both sides in 2011 at the President's 
figures. I must correct the budget justification from the BIA. 
The BIA took the amount of the budget request and divided by 
the 2007 need, and that calculated out to 94 percent of need 
which a colleague earlier just mentioned. In fact, if they 
divided it by the 2011, it would be about 80 percent.
    So there is a long way to go. The testimony explains how we 
might close the gap in a three-year period, $30 million 
increases from IHS, $21 million increases per year for the BIA. 
These are enormous numbers, and the pressure is on the 
committee. You are formidable. I thank the committee for 
working on this issue so much over the years and offer any 
assistance I can to help in the future. Thank you, Mr. 
Chairman.
    [The statement of Lloyd Miller follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you. Thank you very much, sir. I 
appreciate, Mr. Miller, what you are doing on behalf of Native 
Americans.
    If we cut it tight on this vote, we could have almost 5 
minutes left, and what we could do, we have got two or three 
members that we cut short. If there are comments that you feel 
should have been made that have not gotten into the--thank you, 
Mr. Miller. You can offer comments, too, but if you feel there 
are comments that should have been made, we are open to them. 
We want to maximize our time in this hearing because we do not 
get enough time to listen to the Native American communities, 
and we want to get as much on the record as possible.
    Are there any comments that you wanted to make that, you 
know, having taken your seat subsequently that you thought, 
gee, I wish I had said so-and-so. Go ahead.
    Mr. Roth. I just wanted to----
    Mr. Moran. You need to repeat your name again for the 
record.
    Mr. Roth. My name is Geoffrey Roth, and I am the Executive 
Director of the National Council of Urban Indian Health.
    I did mention or was in my testimony that urban Indian 
health programs did not receive any money from the ARRA funding 
at all. Indian tribes community health centers and other 
programs that serve Indian populations received ARRA funding. 
Our programs did not receive any of that.
    So in consideration of additional funding or to increase 
services to the Indian population, I just wanted to make sure 
that that was understood.
    Mr. Moran. But there was money for Native American programs 
in ARRA.
    Mr. Roth. Oh, yes, there was quite a bit of money for 
Indian programs, but nothing for urban Indian health programs.
    Mr. Moran. I see. All right.
    Mr. Roth. And there was quite a bit of money for IHS-funded 
programs, and when the Finance Committee realized that they 
left us out, the staffers had already released the numbers at 
that point of how much was going to be in, and they said that 
they would carve money out of the tribal appropriations for 
urban Indian health programs, and I said no, do not do that. I 
am not going to take from the tribal programs.
    Mr. Moran. Yes, we do not want you to do that. But what we 
would like for you to do is to do an analysis of how this 
health reform plan, assuming it gets through the Senate this 
week, affects urban Indian health.
    Mr. Roth. Yes.
    Mr. Moran. And if there was a way through outreach or 
whatever to make it more effective, how you could do that. I 
think that would be very helpful for us to fully understand the 
maximum impact that this bill that we passed on Sunday might 
have, because I do think it could be a tremendous opportunity 
for many families to get some, really, to get 100 percent 
subsidy of insurance.
    Mr. Roth. We will definitely do that, and Dr. Roubideaux 
has just committed to do a national needs assessment on urban 
Indians as well.
    Mr. Moran. Thank you, Mr. Roth.
    Mr. Roth. Thank you.
    Mr. Olver. May I comment on that?
    Mr. Moran. Please.
    Mr. Olver. In my subcommittee we did--well, it was not out 
of the subcommittee because ARRA is coming out of the general 
programs of the Appropriations Committee. But there was $.5 
billion for Indian housing, and that has been largely 
committed, largely allocated, and obligated I think by this 
time. But what happens with that is for the 2011 budget, the 
recommendation out of OMB has been to reduce what had been the 
yearly allotment for that program because it takes a while, a 
period of time to use up what we did. Of course, what we 
intended to happen was that we would be providing a mechanism 
to do some of the replacement of the really serious housing 
deficiencies. These of course are only on the tribal areas, on 
the reservation areas.
    Mr. Moran. If I could, Mr. Olver, Chairman Brings Plenty, 
did you get any of that $.5 billion for the Cheyenne River 
Reservation, for housing that was made available in the 
economic Recovery Act?
    Mr. Olver. They should have gotten it tribe by tribe, 
whichever ones have housing authorities. Some of that----
    Mr. Moran. This is a large tribe. This is----
    Mr. Olver [continuing]. Was--do not apply for it.
    Mr. Moran. Sir, do you want to add anything before leaving?
    Mr. Brings Plenty. Sure. Of course there were requirements 
that came out or conditions that came out with the ARRA 
funding, and unfortunately if you were not a participant the 
year before, then you were not going to be eligible for that 
specific ARRA funding. So we were not----
    Mr. Olver. Well, why? There are 500 recognized tribes. Some 
do not have reservations of any significance, and some do not 
have housing authorities per se.
    Mr. Moran. True, but this is the fourth-largest tribe on a 
reservation.
    Mr. Olver. Well, when he says his tribal group, the 
combined bands are the fourth-largest tribe of the tribes. 
Several of those bands have housing authorities, and some of 
them must have gotten--I am going to have to ask questions 
tomorrow about that.
    Mr. Moran. And it would be useful if you could get back to 
us.
    Mr. Brings Plenty. Most definitely. Real quick, too, our 
relative here who had mentioned the emergency response. I am 
also the President of the large land-based tribes. Now, the 
thing is, what we are going to introduce in our next meeting is 
that we come up with basically the idea of what our relative 
has said on getting our own emergency response to be able to 
come out because this was completely, a really frustrating 
process for us, and we understand it is in place through the 
Stanford Act as far as how to request it and the mechanisms are 
set up, and I am worn down and emotionally exhausted from 
having to deal with all of that. But that is one thing that 
large land-based tribes are going to pursue.
    Mr. Moran. When there is money available, it has got to go 
to the people most in need, and you are certainly one of them. 
I hope you will continue in communication with us.
    Mr. Brings Plenty. I will.
    Mr. Moran. And Mr. Olver is a real resource because he is 
on both committees.
    Mr. Cole, did you have a final comment? Was there anything 
further that you wanted to add?
    Mr. Zorn. Very quickly. Jim Zorn, Great Lakes Indian Fish 
and Wildlife Commission.
    It is great to hear all the talk about health programs, and 
for natural resource-based tribes, it is important to remember 
the importance of the natives' foods diets. And so when you 
help the healthy communities in the front end, you help save 
costs in the back end. And one small comment about Self-
Determination Act funding, if you can get that to the tribes, 
they can use that as matching funds to leverage other funds 
like Fish and Wildlife Service and other agencies that are very 
good programs. And like with Circle of Flight, we have proven 
that for every dollar that you get to a tribal program like 
that, you can leverage up to three others. So there is 
efficiencies that way as well. So thank you.
    Mr. Moran. Very important. Thank you for that. Sir.
    Mr. Begay. Just real quick, we are building a large 
transmission project for renewable energy as well, and also we 
are in the Energy Act to receive grants and other assistance. 
Thank you.
    Mr. Moran. Good. Thank you. Yes.
    Mr. Noka. Excuse me, I do not want to breech protocol. 
Randy Noka, Tribal Council from the Narragansett Tribe, and 
also Vice President for UCET that the President spoke about.
    There is always a desire to get additional monies, and my 
tribe is certainly in that vein and this is the protocol I 
speak of. If there is any opportunity, I know it was before the 
House Resource Committee, but at the--we certainly need that in 
Indian country. So any consideration by the committee members 
would be appreciated.
    Mr. Cole. We have a bill to that effect. Senator Dorgan has 
a bill to that effect, and Congressman Kildee has a bill, and 
it really needs to get done because there are billions of 
dollars worth of investments in Indian lands that are at risk, 
and this is a tribe that is a very old tribe. I mean, it is 
ridiculous that you are not considered recognized. So I am 
certainly doing everything on my end to help.
    Mr. Moran. I totally agree with Mr. Cole and you. I am glad 
you made that point, and it will be the last word in this 
hearing. Thank you all very much.
                                          Thursday, March 25, 2010.

          ISSUES FROM THE FIELD: PUBLIC WITNESSES AND MEMBERS

                 ORGANIZATIONS AND MEMBERS OF CONGRESS

    Mr. Moran. Good morning to all of our witnesses and guests 
for our second public witness hearing of this week. This 
morning we are going to hear from Members of Congress and a 
number of witnesses representing a variety of environmental, 
recreational, memorial and arts organizations. I want to 
especially welcome those of you who have traveled long 
distances to be here today, so that does not include the 
Members as much as it is nice to hear from them. You did not 
have to make the effort that some folks had to make. But we 
look forward to everyone's testimony.
    At Mr. Simpson's urging, I try to cite someone that I know 
we find inspiration from mutually, and the great John Muir 
advocated passionately for the environment. He helped to 
inspire President Theodore Roosevelt's conservation initiatives 
and encouraged Congress to found the extensive national park 
system. He reminds us that we should never underestimate the 
importance of public citizens advocating before their 
government when they see opportunities for improvement, and we 
think that perhaps this quote from John Muir sums up why many 
of you traveled here today, why this subcommittee believes your 
testimony is so valuable no matter what the subject. Here is 
the quote: ``Everybody needs beauty as well as bread, places to 
play in and pray in, where nature may heal and give strength to 
body and soul.''
    Now for some important housekeeping items. We have to 
remind all witnesses that there is only 5 minutes total to 
deliver your statement and to answer questions. Invariably we 
get votes and all and there are other hearings going on so we 
found that we just have to be disciplined about that, so we are 
going to watch the timer closely. When the orange light comes 
on, you have 1 minute left, and should you not wrap up within 
that 1 minute, the red light comes on and that is when the time 
is expired. But everyone's entire prepared statement will be 
put into the final hearing record.
    Mr. Moran. Before we get started, Mr. Simpson, would you 
like to make any comments?
    Mr. Simpson. I am just meditating, and let's go on. Thank 
you all for coming.
    Mr. Moran. Our first witness is Representative Dean Heller 
from the great State of Nevada, and Mr. Heller, welcome.
                                          Thursday, March 25, 2010.

                                 NV-02


                                WITNESS

HON. DEAN HELLER
    Mr. Heller. Thank you, Mr. Chairman.
    Well, I appreciate you allowing me a few minutes of your 
time to discuss some of these issues. These are critical issues 
for the State of Nevada, and if you are out West--and Mike and 
I were looking at that map up there at the amount of land that 
is owned by the Forest Service and the Federal Government 
through BLM, and I think the issues that we are going to 
discuss today are just absolutely critical for some of these 
western states, especially the State of Nevada. So Mr. 
Chairman, thank you for allowing me to come in front of you, 
and Ranking Member, I appreciate your time also.
    I mentioned taking a look at that map. Eighty-five percent 
of Nevada is controlled by the Federal Government, 85 percent. 
I do not see any yellow in Virginia there, Mr. Chairman. So it 
causes some very distinct differences and issues, and I want to 
bring a couple of those issues up.
    The health of our rangelands under federal jurisdiction 
greatly impacts the health of the local communities in Nevada. 
Nevada's rangelands are in serious need of restoration and 
rehabilitation.
    As I am sure both of you are aware, the U.S. Fish and 
Wildlife Service recently announced that the sage grouse is a 
candidate for listing under the Endangered Species Act, and in 
some areas in Nevada we expect listing to occur within just the 
next few years. Sage grouse habitat consists of large portions 
of Nevada as well as portions across many of the western 
states. To say that an official listing of the sage grouse as 
an endangered species will have impact on the Western states is 
very much an understatement.
    Wildfires, invasive weeds and the overpopulation of non-
native wild horses have led to severe damage of our range and 
wildlife populations. Some of the native wildlife such as sage 
grouse relies heavily on healthy sagebrush ecosystem to 
maintain healthy populations. So in light of these problems, I 
would like to voice my support for making rangeland restoration 
a greater priority. The two top causes for the decline of the 
sage grouse population in Nevada are wildfires and invasive 
weeds. While I continue to strongly support wildfire 
suppression as a priority, I also believe greater efforts 
should be made to curb the infestation of invasive weeds and 
elevate rangeland restoration to a higher priority.
    The second issue I would like to bring to the committee's 
attention would be the removal of the geothermal royalties to 
local governments. As you know, the fiscal year 2010 Interior 
appropriations legislation contained a provision that stripped 
counties of the geothermal energy revenue sharing that was 
enacted as part of the energy policy back in 2005. This 
provision robs counties of their 25 percent share, which they 
count on to provide services and infrastructure in part made 
necessary by geothermal development and production in their 
communities. We have one particular county, Churchill County, 
that their 25 percent was literally millions of dollars to 
them. When that 25 percent was eliminated, it clearly had an 
impact on their ability to provide services. Some of our 
western communities have as little as 2 percent taxable land 
base. The geothermal revenue sharing provides a funding stream 
that allows the counties to fund services such as law 
enforcement, schools, health care and other critical 
infrastructure.
    I have introduced bipartisan legislation with 
Representative Thompson out of California to restore the 
counties' share of these revenues. While I believe these 
revenues should be returned to the local governments this year, 
I am here to advocate for the removal of this provision for the 
next fiscal year. At a time when Nevada counties are struggling 
to address falling revenues, action by Congress suddenly cut a 
significant portion of their local county budgets. Nevada has 
been hit with high foreclosure rates. Counties in my district 
are grappling with increased unemployment. In fact, there was 
an article that came out today in one of the local papers 
saying that four out of 10 people in Las Vegas desire to move 
out. So Las Vegas is going to lose 40 percent, and if it comes 
to fruition that that is the case, you can understand the 
impact that that is going to have throughout the whole State of 
Nevada. Local governments in Nevada are struggling to provide 
essential services, and these revenues are critical, these 
geothermal revenues.
    Nevada is a geothermal state. I think we have more 
geothermal activity in the state of Nevada than any other state 
in the country, and clearly the revenues that come from this, 
which offset the fact that we have very small taxable lands in 
the State of Nevada, getting hit twice, not being able to have 
a larger tax base through the lands and also eliminating the 
geothermal tax revenue has really been rough on the local 
governments throughout the State of Nevada. So we are looking 
to eliminate that particular provision when it comes to 
geothermal revenues and looking for some real solid help from 
this committee on rangeland management.
    I guess my point is, if you take the sage grouse and you 
put them under the Endangered Species Act, it is going to have 
huge impacts on our farmers and ranchers throughout the State 
of Nevada, so rangeland restoration is a critical issue in 
making sure that we have good sage grouse habitat so that we 
can alleviate some of those problems that would come with 
listing that.
    [The statement of Dean Heller follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, Mr. Heller. With regard to sage 
grouse, we have had some discussion in this subcommittee and 
with the Interior Department. The population has been reduced 
from millions down to a few thousand, so they felt that they 
are going to have to do something but their decision was to put 
it on a low priority so basically it is on a list but it is at 
the bottom of a long list and there is no intended action in 
the near term and probably for years. It will be years before 
they get to it. What they are going to try to do is to figure 
out other ways to build the sage grouse population back up so 
there are no punitive measures applied that would have economic 
problems for the areas where the sage grouse is indigenously 
located.
    I know that you had a problem last year on the construction 
of a fire facility in Carson, Nevada. That was all taken care 
of. That was moved away, moved out of Carson City?
    Mr. Heller. On that fire station? You know, I do not know 
what the current status of that is. I believe it went forward. 
I think it went forward and they are going to----
    Mr. Moran. In Carson City?
    Mr. Heller. In Carson City.
    Mr. Moran. I thought--because we were informed that BLM and 
Forest Service decided the facility would be built someplace 
else out of town.
    Mr. Heller. I knew that there was a variety of locations 
that they were considering for this particular fire station but 
I have not been told yet what that location is going to be.
    Mr. Moran. Well, what was indicated to us was that they 
were trying to reach a decision that you would find acceptable.
    Mr. Heller. Good, and I look forward to working with them.
    Mr. Moran. Our staff will inform you as to what we----
    Mr. Heller. That is good.
    Mr. Moran. I think it will show a responsiveness on the 
BLM/Forest Service part.
    And lastly, Senator Reid did add that provision on the 
revenue sharing from geothermal revenue onto the Senate-passed 
tax extended package.
    Mr. Heller. That is my understanding also.
    Mr. Moran. But the state did not lose revenue, right? Is 
the issue not that the state gets half the revenue instead of 
splitting it with the counties? So the state could choose to 
share it with the counties and there would not be any problem.
    Mr. Heller. Well, right now the issue that we have in the 
State of Nevada, it is in dire condition as most states are 
right now, very, very difficult for them. They just got out of 
a special session. I think they had to cut another billion 
dollars out of their budget and they are----
    Mr. Moran. They are telling you they want to just keep all 
the money. Okay. So it is not quite so much the Federal 
Government as the fact that the state wants to keep all of it, 
but I understand what happened in terms of the accounting for 
the energy----
    Mr. Heller. I do support Senator Reid's amendment to the 
extenders bill and putting that provision back in.
    Mr. Moran. Mr. Simpson.
    Mr. Simpson. Thanks for your testimony. I could not have 
said it better. What affects Idaho is the same thing that 
affects Nevada. Have you guys done any of the cooperative 
conservation agreements with BLM on sage grouse habitat there? 
Has your state been doing that, or regions of your state?
    Mr. Heller. We have, and we will continue to work with 
them. You know, the point of my testimony, as you are well 
aware, is that we continue to burn. When I was on the Resource 
Committee, we burn about the State of Rhode Island every year, 
and that is a lot of sage grouse habitat, and what grows back 
is not sagebrush, it is the cheek grass. And so yes, there are 
a lot of agreements and working with cooperative agreements 
with the Federal Government trying to figure out how to keep 
this cheek grass--maybe working with the cattle ranchers and 
the sheep ranchers in the area so that we can eliminate this 
cheek grass so we can get the sage to grow back, but it is 
these wildfires that are causing the concerns and the problems.
    Mr. Simpson. And it is important to point out when we did 
talk to BLM and the Fish and Wildlife Service that contrary to 
some people's popular belief, it is not grazing that causes the 
decrease in the sage grouse habitat, it is, as you mentioned, 
invasive species and the wildfires that are causing the 
decrease in the habitat.
    Mr. Heller. Correct.
    Mr. Moran. Thank you, Mr. Heller.
    Mr. Heller. Thank you very much.
    [The following is written testimony submitted by 
Congressman Silvestre Reyes:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Moran. Our next witness will be Gordon Felt, who is the 
president of Families of Flight 93. Mr. Felt.
                              ----------                              

                                          Thursday, March 25, 2010.

                         FAMILIES OF FLIGHT 93


                                WITNESS

GORDON FELT
    Mr. Felt. Chairman Moran, Ranking Member Simpson, my name 
is Gordon Felt and I am the president of the Families of Flight 
93. The Families is a nonprofit organization dedicated to 
honoring our loved ones' actions including those of my brother, 
Edward Porter Felt, that prevented an attack on our Nation's 
capital at the cost of their lives.
    Attending this hearing with me today are two family 
members, our vice president, Patrick White, and our treasurer, 
Deborah Borza. Deborah's daughter, Deora Bodley, and Patrick's 
cousin, Louis J. Nacke II, were two other heroes onboard Flight 
93.
    I appreciate the honor to appear before you today to 
provide the subcommittee with a progress report on the Flight 
93 National Memorial as well as to request the subcommittee's 
continued support in providing funding for the Memorial. 
However, before I begin, I want to voice my sincere 
appreciation to former Chairman Dicks for all he has done on 
behalf of the families of Flight 93 and our memorial.
    To keep the promise that this Nation and Congress made to 
appropriately honor the heroes' memories, it is critical that 
the first phase of the Flight 93 National Memorial be dedicated 
by the 10th anniversary of September 11th. Almost immediately 
following the crash of Flight 93, local officials and 
volunteers created a temporary memorial on a hilltop 
overlooking the crash site. Since September 11, 2001, more than 
1 million visitors have come to this temporary memorial driven 
by a desire to ensure the valiant efforts of the passengers and 
crew of Flight 93 were never forgotten.
    Senator Arlen Specter and the late Congressman John Murtha 
introduced legislation establishing the Flight 93 National 
Memorial. In 2002, Congress passed and the President signed the 
Flight 93 National Memorial Act which established the creation 
of the Flight 93 National Memorial. The memorial will serve to 
honor the courage and enduring sacrifice of the 40 heroes of 
Flight 93. It will be a place for individuals to learn about 
the events of September 11th and to find meaning and 
inspiration from their experience.
    The Flight 93 National Memorial's general management plan 
proposes to construct a memorial, visitors center, roads, 
parking facilities and associated infrastructure to accommodate 
approximately 250,000 annual visitors. The effort is expected 
to create nearly 1,200 new jobs in Somerset County, 
Pennsylvania, and the surrounding region including 670 
positions in construction and related fields over a 4-year 
period. The balance would be permanent employment resulting 
from increased tourism and related businesses. The boundaries 
of the Memorial are approximately 2,200 acres including 1,000 
acres that will be privately held but protected though 
easements or partnership agreements.
    The design for the Memorial was announced on September 9, 
2005, amid overwhelming support from the families of Flight 93 
and our partner organizations including the Flight 93 Memorial 
Task Force, the Flight 93 Federal Advisory Commission, the 
National Park Service and the National Park Foundation. A 
solemn groundbreaking ceremony was held on November 7, 2009, 
and a construction contract for phase 1 was awarded, and on 
February 1, 2010, a construction motion-to-proceed order was 
issued by the National Park Service.
    The budget estimate for the design and construction of the 
Memorial's first phase is $58.4 million. A cost estimate was 
prepared to reflect 2010 construction dollars anticipated to be 
the midpoint of construction. The budget, phasing plan and 
strategy to deal with increased costs of construction were 
presented to the National Park Service development advisory 
board in March 2008 and were approved.
    Securing the funds for the design and construction of the 
Memorial is a public-private partnership between the Federal 
Government, the Commonwealth of Pennsylvania and the American 
people. Under the partnership agreement, the Federal Government 
is responsible for providing $18.4 million, and the 
Commonwealth of Pennsylvania would provide $10 million and 
private donors would be responsible for raising $30 million. 
More than 57,000 donors have raised over $17 million for the 
Memorial, and we are on target to reach our $30 million goal. 
The Commonwealth of Pennsylvania has exceeded its original 
commitment of $10 million, providing approximately $18.5 
million to the project. Since fiscal year 2005, Congress has 
appropriated $10.371 million toward the design and construction 
of the Memorial from the Department of the Interior and 
Department of Transportation funding bills. The bipartisan 
support by the House and Senate to ensure the necessary funds 
are available to complete the Memorial's first phase by the 
10th anniversary of September 11th is truly appreciated.
    For 2011, the Families of Flight 93 have requested $3 
million in funding from Interior, Environment, and Related 
Agencies bill for the Memorial's phase 1-B water and sewage 
infrastructure as provided by the project's general management 
plan. I ask you and your committee for their individual 
attention and collective support for this funding request.
    Before I conclude my remarks, I would like to bring to the 
subcommittee's attention the Families of Flight 93's concern 
regarding the recently enacted Republican Conference rule 
change on earmarks and its impact on our ability to request 
federal funding for the Memorial's completion. The Memorial is 
a congressionally authorized project whose federal funding in 
the past has been provided through congressionally directed 
spending, primarily sponsored by Congressman Bill Shuster. With 
Congressman Shuster now unable to request funding for the 
Memorial, valid questions have been raised about whether the 
Federal Government's financial commitment to the Memorial will 
be realized. Mr. Chairman, the Families of Flight 93 have 
submitted the appropriations application to your office. We 
respectfully request that you personally support our efforts 
this year to ensure the needed funds are secured. Thank you.
    [The statement of Gordon Felt follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Well, thank you very much. It was very good 
testimony, but the last paragraph was the more important. I was 
trying to figure out what it was that you particularly wanted. 
I can see that. It is an earmark. I happen to agree with you in 
terms of earmarks. I think they are a proper reflection of 
Congressional intent individually and collectively, and they 
served our country for better than 200 years they have been in 
effect. But perhaps we would like to hear from Mr. Simpson at 
this point.
    Mr. Simpson. I agree with you.
    Mr. Moran. Okay.
    Mr. Felt. Mr. Chair, if I may, we look at the Memorial as a 
legislated memorial. I mean, it was enacted. So we like to look 
at the funding not necessarily as an earmark.
    Mr. Simpson. You are right. It ought to be a program.
    Mr. Felt. Exactly.
    Mr. Simpson. And I think the committee will be very 
supportive of it, is my guess.
    Mr. Felt. Well, we certainly appreciate your support.
    Mr. Moran. The only problem--and I agree with Mr. Simpson, 
but the issue is that normally it needs an authorization, and 
we are going to have to figure out how to do this. I also would 
like to build it into the budget but there is a reason why Mr. 
Shuster had to specifically designate it each time. So we are 
going to have to work with the staff and do the best we can. I 
do not think there is much disagreement over the objective but 
the process of getting there we will just have to try to figure 
out.
    Mr. Simpson. Also, Mr. Chairman, the Administration has 
said that if--this is their attack on earmarks. Of course, no 
Administration likes earmarks. They do not like Congress 
telling them how to spend money. But they have said that if 
something starts as an earmark, then they will not request it 
in their budget next year, you are going to have to continue it 
on by earmarks, so they do not request those kind of things 
that were started with earmarks, which is a problem. But that 
does not mean that this committee cannot direct what things are 
funded and are not funded whether you want to call them 
earmarks or anything else. I agree with your testimony. We need 
to get this done.
    Mr. Moran. It is the right thing to do. It is also 1,200 
jobs in an area that is desperately in need of jobs, and there 
are some sustainable jobs. I know people will be working at the 
Memorial. So we get what you are telling us, both Mr. Simpson 
and I, and we are just going to have to work with the staff to 
see what we can do.
    Mr. Felt. Well, we greatly appreciate your leadership and 
your continued support. Thank you.
    Mr. Simpson. Thank you.
    Mr. Moran. The next witness will be Gary Werner, who is the 
executive director of the Partnership for the National Trails 
System.
                                          Thursday, March 25, 2010.

                 PARTNERSHIP FOR NATIONAL TRAILS SYSTEM


                                WITNESS

GARY WERNER
    Mr. Werner. Good morning, Mr. Chairman and Mr. Simpson. I 
thank you for the opportunity to testify this morning. I am 
Gary Werner, here from Wisconsin representing the 30 nonprofit 
organizations with over 75,000 members throughout the country 
who are your partners in helping to sustain the 19 national 
historic trails and 11 national scenic trails that Congress has 
authorized to thank you for the support that you have given 
over the last decade or so of consistent funding for the 
trails. As you know, these 30 national scenic and historic 
trails span more than 50,000 miles through 49 of the 50 states. 
I am happy to say and remind you that our commitment as true 
partners remains firm.
    In 2009, we inspired and organized over 907,000 hours of 
volunteer labor contributed by citizens valued at about $18.6 
million and contributed another $11.9 million of direct 
financial assistance, about $30.5 million to these trails. 
Congress, you appropriated in 2010 about $29 million to the 
National Park Service, the Forest Service and the Bureau of 
Land Management to sustain the trails. We continue to be your 
good partners.
    What I do want to say, however, is that there is a lot of 
work yet to do. There are miles to build on these trails. There 
are invasive species to remove. There are sites to interpret, 
so we are asking you to increase funding to the three agencies 
in 2011, specifically about $16.5 million to the National Park 
Service for the 23 trails that it administers, about $8 million 
to the Bureau of Land Management for the three trails it 
administers and the 10 trails that it manages significant 
portions of, and about $11.3 million to the Forest Service for 
six trails that it administers and the 16 trails that it 
manages in part throughout the country.
    We are also asking you to appropriate $1.5 million of 
funding for a special youth stewardship or internship 
development program which would fund 50 student interns to work 
with national scenic, historic and recreation trail 
organizations throughout the country to help get more young 
people engaged and involved with the trails.
    There are also significant gaps in most of the scenic 
trails and there are many important sites on the historic 
trails yet to be protected, so we enthusiastically support the 
Administration's goal of ultimately getting to the full $900 
million annual funding authorized for the Land and Water 
Conservation Fund and to that end we ask you to appropriate 
$425 million in 2011 for federal program projects, $175 million 
to the states for the various projects that they can do and 
$150 million to the companion Forest Legacy program, and then 
specifically from the federal portion of land and water, to 
appropriate to the National Park Service $13.9 million for 
projects along the Ice Age, North Country and Appalachian 
national scenic trails, $5.3 million to the Bureau of Land 
Management for projects along the Oregon Trail in Idaho and in 
Oregon, the Lewis and Clark National Historic Trail, the 
Pacific Crest, Continental Divide and Pacific Northwest 
national scenic trails and to the Forest Service $41.7 million 
for projects along the Florida, Pacific Crest national scenic 
trails, Old Spanish National Historic Trail, Appalachian Trail 
and the North Country Trail, and also $3.375 million from the 
Forest Legacy Program for Continental Divide in New Mexico, and 
parenthetically, as you know, I guess those are all considered 
earmarks, but again, like the previous, these are federal 
programs and this is the way you direct the money to be spent.
    Mr. Simpson. No earmarks, just congressionally directed 
spending.
    Mr. Werner. Great. That is what we want.
    Secondly, last year at our request you directed the Bureau 
of Land Management to provide a sub-activity account for trails 
in the National Landscape Conservation System. We understand 
that the Office of Management and Budget told the Bureau not to 
follow your direction. This leaves the Bureau at a significant 
disadvantage in working with the Park Service and the Forest 
Service on these trails that cross various jurisdictional 
boundaries. So we ask you to once again direct the Bureau to 
provide a sub-activity account for the national scenic and 
historic trails and the wild and scenic rivers in their 
National Landscape Conservation System to be commensurate with 
the wilderness areas and the monuments.
    Lastly, the Challenge Cost Share programs were eliminated 
for the Park Service, the Bureau of Land Management and Fish 
and Wildlife Service. These are the programs that specifically 
are meant to foster the kind of volunteerism that I reported on 
and we ask you to please reinstate those programs. I think they 
are a total of $19 million across the three agencies and 
specifically we would ask for $4.5 million for the Park 
Service, and as you have in the past 15 years, direct the Park 
Service to provide one-third of that for the national trail 
system.
    I thank you for the opportunity to testify.
    [The statement of Gary Werner follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. You have got a lot to ask there.
    Mr. Werner. Yes, I know.
    Mr. Moran. But we are very sympathetic. Let me just ask one 
thing. When you clear these trails, one of the problems is that 
the first thing to grow back is poison ivy. I mean, if an area 
is not disturbed you do not get the poison ivy, but as soon as 
you disturb it you get the poison ivy and some trails just get 
overwhelmed with those poison ivy. Have you figured out how 
to--I mean, it sounds like a strange thing but it does 
discourage people if they think that the trail is just full of 
poison ivy. Have you thought about how you are going to address 
that?
    Mr. Werner. Actually, yes, and it is not just poison ivy. I 
mean, in some areas of the country, it is poison ivy, it is 
poison oak. In the Midwest where I am from, we have wild 
parsnip, which have an equally bad effect. And we are actively 
working to control those invasive and noxious species like 
that, but again, one of the reasons we are asking for more 
money is, we need more assistance to do that. We need to 
recruit more volunteers, and there is no substitute for 
actually going out and doing something on the ground.
    Mr. Moran. We are very sympathetic. We like trails.
    Mr. Werner. Thank you.
    Mr. Moran. They are an opportunity. They do not do any 
damage to the environment and they are an opportunity for 
people to enjoy that environment. The more trails, the better, 
as far as I am concerned, so we will do what we can.
    Mr. Werner. And they are a tremendous opportunity to get 
young people out and involved.
    Mr. Moran. In physical exercise.
    Mr. Werner. This is a report that we put together of a lot 
of the kinds of projects that we have underway along the 
trails.
    Mr. Moran. Now, where did you say you were going to put the 
Mike Simpson Memorial Trail in Idaho?
    Mr. Simpson. Blackwood.
    Mr. Werner. There are several that go through Idaho.
    Mr. Moran. Mr. Hinchey.
    Mr. Hinchey. Well, thanks very much, and sorry I did not 
get here for the beginning of your statement but I very much 
appreciate what you are doing. I understand how important it 
is, and I also understand how a lot of these issues have not 
been paid appropriate attention to for a long time and so there 
are a lot of things that are pending there. One of the things 
that we are having in New York, just curiously, is a lot of 
closing of state parks and there are a lot of state parks in 
New York. The issues there are that the Federal Government has 
provided a substantial amount of money for those parks and we 
are trying to keep them open on a number of bases including the 
contribution of the Federal Government to those state parks. So 
I just appreciate what you are doing and I understand how 
important it is, and I am sure that this committee will do 
everything it can to strengthen things up.
    Mr. Werner. Thank you.
    Mr. Simpson. Just one quick question.
    Mr. Moran. Sure.
    Mr. Simpson. The recommendation that they put a separate 
line item for trails, was that in report language?
    Mr. Werner. Yes. If you can put it into bill language, I 
understand it makes it much stronger.
    Mr. Simpson. Sometimes that is a better way to get your 
point across.
    Mr. Werner. And I just need to emphasize what you all have 
mentioned. It has been the efforts of your committee in adding 
money to what the agencies have requested over the years that 
has enabled us to increase the work that we are doing for the 
trails so we cannot thank you enough for that and encourage you 
to keep doing it. Thank you.
    Mr. Moran. Thank you very much, Mr. Werner.
    Mr. Arthur Cerullo, who is the speaker for the American 
Lung Association Nationwide Assembly.
                              ----------                              

                                          Thursday, March 25, 2010.

             AMERICAN LUNG ASSOCIATION NATIONWIDE ASSEMBLY


                                WITNESS

ARTHUR CERULLO
    Mr. Cerullo. Chairman Moran, Ranking Member Simpson, Mr. 
Hinchey, I am Arthur Cerullo, the speaker of the American Lung 
Association Nationwide Assembly. I am honored to testify in 
support of the Environmental Protection Agency's program to 
improve the Nation's air. I have been a volunteer for the 
American Lung Association for more than 20 years. I am an 
attorney in private practice in Portland, Maine, and prior to 
that I was a chemical engineer for a number of years.
    The American Lung Association was founded in 1904 to fight 
tuberculosis and today our mission is to save lives by 
improving lung health and preventing lung disease. We welcome 
the increases in the President's budget for EPA for Healthier 
Outdoor Air to $811.3 million and for Healthier Indoor Air to 
$47.1 million. Cleaner, healthier air will protect the public 
and especially those with lung disease from air pollution. As a 
former engineer, I know that aggressive implementation and 
enforcement of the Clean Air Act will drive innovation and 
improve our Nation's environmental performance while at the 
same time grow the economy. We urge this committee to ensure 
that the Clean Air Act's promise of clean, healthy air for all 
Americans is kept.
    I am from Maine, and if you have ever visited our beautiful 
state, you know why we treasure the outdoors: majestic 
mountains, crystal lakes, bracing coastal waters. Our summers 
are short, however, and we hate to miss a single chance to be 
outdoors but too often we miss our clear blue sky because of 
smog. Acadia National Park, one of the most beautiful parks in 
the country, is plagued by poor air quality much of the summer. 
Too often, smog from both local and distant sources obscures 
the view of the first light of day in the United States at the 
top of Cadillac Mountain. Unhealthy, polluted air robs of us 
the ability to enjoy the outdoors for fear of wheezing, an 
asthma attack or even death.
    In my written statement, I detail the magnitude of lung 
disease in the United States, the enormity of the Nation's air 
pollution problem and delineate specific support for sections 
of EPA's budget. In brief, more than 35 million Americans 
suffer from chronic lung disease and air pollution exacerbates 
nearly all lung diseases. The Clean Air Act has proven to be a 
powerful tool to improve the quality of our Nation's air. Since 
1990, when Congress strengthened the Clean Air Act, air 
pollution has been cut significantly. However, much remains to 
be done. Millions of Americans live in counties that have 
dangerously unhealthy air.
    I will briefly highlight some of the key programs that we 
support. First, the health-based National Ambient Air Quality 
Standards are the cornerstone of the Clean Air Act. They set 
the health goals and drive the pollution cleanup. We applaud 
EPA's renewed commitment and urge the committee to support 
EPA's work to complete the reviews of these standards in a 
timely manner based in the science and in compliance with the 
law.
    Second, we strongly support EPA's clean air research 
programs that help provide the sound science to inform these 
decisions.
    Third, EPA must also complete major rulemaking to reduce 
pollution. EPA must complete the rules to clean up power 
plants, known as the Clean Air Interstate Rule and Utility 
Maximum Achievable Control Technology Rule to reduce hazardous 
air pollution.
    Fourth, we support EPA's efforts to further reduce tailpipe 
emissions from cars and trucks known as tier 3. These rules are 
needed to mitigate any adverse air quality impacts that may 
result from increased use of renewable fuels and could include 
tighter particulate and nitrogen oxide standards as well as 
lower sulfur gasoline to enable advanced control pollution 
technology.
    Fifth, we strongly support increased funding for those on 
the front lines in the efforts to improve air quality, our 
state and local air agencies.
    We would like to highlight the President's request for a 
$15 million increase for air pollution monitoring, which will 
help improve the understanding of the levels and sources of 
pollution in our communities. Funding monitors must be a high 
priority for the committee.
    Finally, cleaning up the existing fleet of diesel vehicles 
is vital. Diesel pollution kills. Research shows increased 
health risks associated with living or working in close 
proximity to busy roadways. Children are especially vulnerable. 
We urge the committee to increase the diesel retrofit funding 
to at least $100 million.
    Further, we thank the committee for its support of the 
Healthier Indoor Air program at EPA. EPA has provided great 
leadership in addressing radon, the second leading cause of 
lung cancer. We also are pleased to support increased funding 
for the Healthy Schools Initiative. The Indoor Air program 
raises awareness about asthma and reduce children's exposure to 
indoor asthma triggers. The American Lung Association is proud 
to partner with EPA in this important work.
    Mr. Chairman, thank you for the opportunity to present the 
recommendations of the American Lung Association. Every day we 
are fighting for air, clean, healthy air for all Americans to 
breathe. Our robust Environmental Protection Agency air 
pollution program is vital to that success and our success.
    [The statement of Arthur Cerullo follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Good for you. Good, solid testimony. You got it 
in, in the 5 minutes. Unless there are some critical questions 
that are asked, we probably have to move along, but I do not 
want to preclude you.
    Mr. Hinchey. Just briefly.
    Mr. Moran. Go ahead.
    Mr. Hinchey. I just want to express, as the chairman did, 
my appreciation of what you said and how important it is. I 
mean, there is a whole lung situation that really needs to be 
dealt with more and more effectively, and as time goes on, it 
is getting worse and worse because of all the other activities 
going on.
    I wonder if there has been any focus of attention on this 
frac drilling circumstance and the potential for contaminating 
air quality in that regard?
    Mr. Cerullo. I cannot say offhand I have any information 
about that but certainly we will get back to you in the next 
day or two. I will ask some of our experts back at the office. 
I mean, our neck of the woods, radon is the real problem for us 
and because we are at the end of the tailpipe where we are 
from, these changes are what we need to implement as soon as 
possible. But I will get back to you on that issue. Anything 
else?
    Mr. Moran. No. Thank you very much for your testimony.
    Mike Garner and Bradley ``Butch'' Lambert. Mr. Garner, you 
are the chief of the Abandoned Mine Land Section of the 
Maryland Bureau of Mines, and Deputy Director, Virginia 
Department of Mines and Minerals and Energy is Mr. Lambert. And 
you are here on behalf of Interstate Mining Compact Commission, 
so please proceed.
                              ----------                              

                                          Thursday, March 25, 2010.

                  INTERSTATE MINING COMPACT COMMISSION


                               WITNESSES

MIKE GARNER
BRADLEY LAMBERT
    Mr. Lambert. Good morning, Mr. Chairman and members. Thank 
you for this opportunity to appear before you this morning. 
Again, my name is Butch Lambert. I am the deputy director for 
the Virginia Department of Mines, Minerals and Energy. I am 
appearing today on behalf of the Interstate Mining Compact 
Commission to present the views of the Compact member states 
concerning the fiscal year 2011 budget request of the Office of 
Surface Mining.
    In its proposed budget, OSM is requesting $60.3 million to 
fund Title V grants to states and Indian tribes for the 
implementation of the regulatory programs which will be a 
reduction of $11 million, or 15 percent for the fiscal year 
2011 enacted level. Last year, Congress appropriated an 
additional $5.8 million to increase for state Title V grants 
over the fiscal year 2009 enacted level for a total of $71.3 
million. For the first time in many years, the amount 
appropriated for these regulatory grants aligned with the 
demonstrated needs for the states and tribes and thereby 
eliminated the ever-widening gap between what the states 
request and what they receive. In fiscal year 2011, OSM has 
unilaterally and drastically reversed course and essentially 
unraveled and undermined the progress made by Congress in 
supporting state programs. This comes at precisely the wrong 
time. The states are in the process of putting the recent 
improvements in funding to work in the programs for the filling 
of vacant positions and the purchase of much-needed equipment. 
We trust the recent increases approved by Congress will remain 
the new base on which we build our programs into the future. 
This is particularly important as the state agencies work hard 
to convince our state legislators and our budget officers to 
support the regulatory programs through matching state funds, 
particularly given the difficult fiscal climate the states are 
facing.
    In this regard, it should be kept in mind that a 15 percent 
cut in the federal funding translates to a 30 percent cut for 
the overall program funding for many states since these states 
can only match what they receive in federal money. For 
instance, in Virginia, should OSM's reductions prevail, we 
would be looking at a $1.2 million cut to our state program. 
OSM's solution to drastic cuts to state regulatory programs 
comes in the way of an unrealistic assumption that the states 
can simply increase user fees in an effort to reduce the level 
of federal funding required to regulate and to an extent 
subsidize the coal industry. OSM's proposal is completely out 
of touch the realities associated with establishing or 
enhancing user fees. IMCC's recent polling of its member states 
confirmed it would be difficult, it not impossible, for most 
states to accomplish this feat, let alone in less than 1 year. 
We strongly urge the subcommittee to reject this approach and 
approve not less than $71 million for the state in Title V 
regulatory grants.
    At this time I will ask that my colleague, Mike Garner, 
talk about the Title IV funding.
    Mr. Moran. Mr. Garner.
    Mr. Garner. Thank you, Mr. Chairman, for allowing me to 
testify. I am here representing the 30 state and tribal members 
of the National Association of Abandoned Mine Land Programs 
that operate abandoned mine land programs authorized under 
Title IV SMCRA. Based on SMCRA fee collections, the fiscal year 
2011 mandatory appropriation for state and tribal AML grants 
should be $413.2 million. Instead, the Office of Surface Mining 
is only budgeted $259.5 million. This would eliminate funding 
to states and tribes that have been successful and able to 
certify completion of their highest-priority coal reclamation 
sites.
    From the beginning of SMCRA in 1977 to the latest 
amendments in 2006, Congress has promised that at least half of 
the money generated from fees collected within state or tribal 
boundaries, referred to as state share, would be returned for 
the uses described in the Act. For certified states, the state 
share funds can be used for environmental stewardship, cleaning 
up abandoned coal and hardrock mines, sustainable development, 
infrastructure improvements and alternative energy projects all 
stimulating the economy, protecting public health and safety, 
creating green jobs and improving the environment, many of the 
goals described in the American Recovery and Reinvestment Act. 
Breaking the promise of state share funding will upset 10 years 
of negotiation that resulted in the balance and compromise 
achieved in the 2006 amendments. We therefore respectfully ask 
the committee to continue funding for certified states.
    The proposed budget would also eliminate $20 million for 
federal AML emergency program. Section 410 of the emergency 
powers was unchanged in the 2006 amendments and requires OSM to 
fund the emergency AML program, and likewise, the Act does not 
allow states and tribes to fund the emergency program. Instead, 
it requires strict compliance with the non-emergency funding 
priorities. OSM has not developed legislation, regulations, 
procedures, directives nor has OSM received a solicitor's 
opinion regarding the legality of this transfer. For these 
reasons and many others, we urge the committee to restore the 
$20 million for the AML emergency program. Thank you, sir.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you. Do you have anything to say, Mr. 
Simpson?
    Mr. Simpson. No. We probably need to go on because you are 
running us behind.
    Mr. Hinchey. I think it is very clear. I appreciate it. 
Thank you.
    Mr. Moran. The mines that generated the revenue are not the 
ones necessarily that pay the fee, are they? I mean, excuse me, 
the mines that generated the abandoned mine situation are not 
the ones that pay the fee. There is a disconnect there.
    Mr. Lambert. Correct.
    Mr. Moran. Thank you.
    Maria Hinojosa and Gretchen Long, who are the commissioners 
of the National Parks Century Commission, nice to have you with 
us.
    Mr. Moran. Thank you.
                              ----------                              

                                          Thursday, March 25, 2010.

                NATIONAL PARKS SECOND CENTURY COMMISSION


                               WITNESSES

MARIA HINOJOSA
GRETCHEN LONG
    Ms. Hinojosa. Chairman, Ranking Member and Representative, 
it is good to be here. My name is Maria Hinojosa. Thank you for 
allowing Gretchen Long and myself to represent the National 
Parks Second Century Commission, an independent commission that 
last fall released our 21st century vision for our treasured 
national parks. Now, when I was first asked to be on this 
commission, I thought, why me? You know, I went to my first 
park, Yosemite, when I was about 26 years old. But then I 
thought wait a second, I am an American, I am an immigrant, I 
am a journalist, I am a mom. I know what these parks mean when 
people see this as a beacon, and serving on the Commission, we 
all understood that the parks should not only survive, they 
need to thrive.
    You all know that going to a national park can change you. 
It strengthens education. It reduces the impact of climate 
change. It provides meaningful opportunities for our young 
people. When you leave a park, when you leave a site, whether 
it is Yosemite or the Statue of Liberty or the African burial 
ground, you as an American are changed.
    But despite the tremendous power of the parks, our 
commission found that current funding is fundamentally 
inadequate. Our financial commitment to the parks matches 
neither their importance to society nor the enormous franchise 
they have with the American people. Our Commission came to 
greatly admire the bipartisan commitment that Congress and two 
Presidents have shown over the last 3 years to attack the 
operations funding shortfall of the national park system and we 
believe that adequate operations funding to be fundamental to 
the parks' success for the future. So we are hoping that the 
subcommittee will do as much as it can to continue the effort 
to increase funding for the National Park Service by at least 
$100 million over fixed cost inflation each year until the 
shortfall is eliminated. I see this as a park stimulus myself.
    We know that in order to keep the parks thriving, we have 
to engage non-traditional park visitors and we have to provide 
strong educational programming. It is not enough to just make 
people feel equally at home in the parks, we really have to put 
our efforts out there to bring the parks up to our modern 
society. We know that if people do not visit these parks, if 
they do not feel committed to the parks, connected to the 
parks, they will not thrive. So we would like to see you spend 
a tremendous amount of money, or effort, rather, to keep those 
$100 million coming to the parks, and let me just say that is a 
wonderful thing to have a park there but we do not want the 
tourists to say well, that was a really nice park but gee, it 
needed to be spruced up and why was that museum exhibit so 
retro. We can do better than that.
    [The statement of Maria Hinojosa follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Well, that is pretty impressive testimony there, 
Ms. Hinojosa. It is nice to have your professional 
communicative ability.
    Ms. Long. Maria has basically said all that I would say but 
perhaps I will add a few more points. I am Gretchen Long. I am 
also a member of the Second Century Commission, which was a 
wonderful experience under the leadership of Senator Howard 
Baker and Senator Bennett Johnston; 25 people from various 
parts of the geography and expertise and knowledge came 
together and all left with a profound sense that our national 
parks are indeed the best idea America has ever had. They are 
our treasured landscapes. They are our identity as Americans, 
as Flight 93 Memorial just was discussed and indicated, and 
they are our economic engines for the surrounding communities.
    The Second Century looked at what it hopes will be the role 
of the parks in the next century but it was a visionary yet 
practical outlook, particularly making recommendations that 
will position the parks by its 100th anniversary in 2016. The 
major recommendations of that Commission in my judgment were to 
increase the educational aspects of the National Park Service, 
to reach out far more effectively to all Americans and engage 
them, and thirdly, to realize that national parks alone cannot 
protect natural resources. They are part of larger areas and 
must be part of a larger landscape level conservation effort 
and in fact play, as national parks can uniquely do, the 
leadership and convening role in a larger agenda of landscape 
preservation.
    These are all good recommendations but over and above the 
existing needs of the Park Service, they like every other 
worthy request that has been made here today, we think ours of 
course is most worthy. They need to receive more funds. Your 
subcommittee has been particularly effective since 2008 in 
decreasing the shortfall in operating funds from $800 million 
to $580 million, and that is great but it is still a shortfall, 
and it is a shortfall within the context that there is still $9 
billion in maintenance backlog and $2 million in unacquired 
inholdings requirements worthy all to be purchased.
    So the Park Service is actually woefully underfunded for 
the high regard it holds with the American people. Particularly 
troubling is this year's operating budget, and we would ask, as 
Maria did, that you continue to work to try to realize full 
increase of $100 million plus fixed costs. It is a very 
difficult year. We understand that. If you can come up with 
something better than it is now, even if not $100 million, it 
would make a tremendous difference for the Park Service not to 
really be behind the curve in terms of its fixed costs.
    Secondly, we support fully the Land and Water Conservation 
Fund, and thirdly, and perhaps interestingly for your future 
consideration, and lastly, the Commission recommended that as 
the parks were set up in perpetuity, so should they have 
permanent and sustainable funding and there is a 
recommendation, which I believe will be followed through in the 
next couple of years, to develop an endowment with a national 
campaign looking for philanthropic and government support 
dollars. That is a new recommendation and I think you will see 
it coming before you in the next period of time.
    Thank you very much for listening to us.
    Mr. Moran. Thank you, Ms. Long. Ms. Hinojosa, thank you 
very much. You neglected to mention all the benefit that the 
restoration of Indian Creek has meant to Caldwell, Idaho.
    Ms. Long. I did, but you have that in your written 
testimony. When I looked at that testimony, I did wonder if 
that would be the pivotal point.
    Mr. Moran. Nice going. I was thinking for Mr. Simpson, not 
as much for me.
    Mr. Simpson. I have been there.
    Mr. Moran. I am sure you have.
    Thank you. Very good testimony. We appreciate it. Thank 
you.
    We are going to now hear from Mr. Calvelli, Ms. Moffatt, 
and then we are going to put in Congressman Brad Sherman, who 
has just arrived to join us. Mr. Calvelli. Mr. Calvelli is the 
executive vice president of the Wildlife Conservation Society.
                              ----------                              

                                          Thursday, March 25, 2010.

                     WILDLIFE CONSERVATION SOCIETY


                                WITNESS

JOHN CALVELLI
    Mr. Calvelli. Good morning, and I am also a recovering Hill 
staffer. I was on Capitol Hill for 12 years as Congressman 
Elliot Engel's chief of staff, so it is a pleasure to be back 
here in the Rayburn Building.
    In its 114-year history, the Wildlife Conservation Society 
has maintained a constant commitment to save wildlife and wild 
places around the world. Our conservation operations have 
expanded to 65 countries today and our curatorial science in 
five living institutions in New York City help make WCS one of 
the world's most comprehensive conservation organizations. We 
currently manage more than 200 million acres of land with a 
commitment to protect 25 percent of the earth's biodiversity. 
We also have an annual economic impact of $414 million, 
employing more than 4,000 staff globally including 200 PhDs and 
welcoming nearly 4 million visitors to our urban wildlife parks 
each year.
    I request that my previously submitted written testimony, 
which unfortunately did not have that great headline that the 
previous people spoke of, detailing WCS's conservation 
investments in fiscal year 2011 Interior appropriations 
recommendations be entered into the official record.
    This morning I will describe the invaluable contribution of 
the U.S. government to both domestic and international 
conservation, explain the need for greater investment and make 
recommendations to further strengthen U.S. government 
leadership and environmental stewardship and conservation.
    Having been born in the south Bronx, I have been all too 
familiar with busy streets and concrete. Amidst this, the 265-
acre Bronx Zoo headquarters of the Wildlife Conservation 
Society has for over 100 years provided a source of 
inspiration, stewardship and a real connection to global 
conservation to working-class families and neighborhoods across 
the region and beyond. The first-ever Urban Assembly School for 
Wildlife Conservation located in one of the poorest 
Congressional districts in the United States represented by 
Congressman Jose Serrano is an investment in changing the way 
we communicate our interactions with nature to our next 
generation. Students take regular classes at the Bronx Zoo, 
where our living exhibits provide extended classrooms for 
students to learn about and participate in local, national and 
global efforts to conserve the natural world. To this end, I 
applaud Secretary Salazar's commitment to engaging youth, 
particularly those from underserved areas, as a pillar of the 
Great Outdoors Initiative and recommend that the Department of 
the Interior develop great partnerships with zoos and aquariums 
to build a conservation ethic among the next generation of 
youth.
    One such challenge facing not just our youth but our nation 
and indeed the world is that of climate change, which poses an 
unparalleled threat to wildlife and the environments on which 
they depend. WCS conservationists work across the globe to 
combat climate change impacts including shifts in wildlife 
habitat and ranges. In the United States, WCS is encouraged by 
Interior's stated goal for its Climate Change Adaptation 
Initiative of identifying areas and species most vulnerable to 
climate change and implementing adaptation strategies in these 
areas. We support this laudable goal and recognize that the 
overall funding request of $171.3 million for this initiative 
is a good start to building resilient ecosystems.
    As part of this investment, landscape conservation 
cooperatives will continue to be developed and the scope of 
U.S. Geological Survey's National Climate Change and Wildlife 
Center will expand through the establishment of eight Climate 
Science Centers. Through these investments, WCS would like to 
see increased coordination with other agencies and external 
partners to develop a further understanding of climate impacts 
across entire landscapes coupled with demonstration projects 
that could provide resource managers the tools necessary to 
address the specific needs in that landscape. These interagency 
landscape level approaches are key to addressing not only 
climate change impacts but other issues such as sprawl and 
energy development as well.
    Recently, the U.S. Forest Service, National Park Service 
and the National Wildlife Refuge System pledged to work 
together to support the protection of the migration corridor of 
pronghorn antelope known as the Path of the Pronghorn across 
the broad greater Yellowstone ecosystem. While further 
protections are needed, WCS applauds this cooperative action 
demonstrating that by working together, we can find solutions 
to preserve our Nation's wildlife history and heritage.
    From world-renowned WCS conservationist George Schaller's 
first studies of mountain gorillas in 1959 to our 2008 
discovery of more than 125,000 western lowland gorillas in 
Congo, WCS has been committed to saving all four subspecies of 
gorilla. In recent years, our conservation successes would not 
be possible without the support of the U.S. Fish and Wildlife 
Service among other U.S. government agencies. Since 1991, the 
multinational species funds administered by the Fish and 
Wildlife Service has provided the world's only source of 
dedicated funding for Asian and African elephants, rhinos, 
tigers, great apes and sea turtles, and WCS recommends that 
Congress fund this program at $5 million for Rhino-Tiger Fund 
and $2.5 million for each of the remaining species funds.
    I see that we are running quickly out of time.
    Mr. Moran. We are out of time.
    Mr. Calvelli. And I want to just end with one thought, this 
idea that Ken Burns and the greatest idea that we had with 
parks. You will see in my testimony that we have many examples 
of that, and I apologize, I did not recognize the ranking 
member and Mr. Hinchey. Thank you for being here and giving us 
an opportunity.
    [The statement of John Calvelli follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you very much for that testimony, Mr. 
Calvelli. It is interesting, the newest exhibit at the National 
Museum of Natural History shows the closeness of the great apes 
and the chimpanzees and many of the species that you are trying 
to protect to mankind itself, so----
    Mr. Calvelli. One of the things, Mr. Chairman, that we have 
not done well as a conservation community is explain the impact 
of saving these tropical forests just in terms of even 
medicinals that are found there, and we need to be doing that 
and the Forest Service has done a good job in that.
    Mr. Moran. Thank you very much, Mr. Calvelli.
    Mr. Hinchey. John, I just want to say I appreciate what you 
are doing, always have, and I look forward to continuing 
working with you. Thank you very much.
    Mr. Calvelli. Thank you, sir.
    Mr. Moran. Now we will hear from Laurie Norton Moffatt, who 
is the director of the Norman Rockwell--oh, we can do Mr. 
Sherman. I am sorry, Ms. Moffatt. We are going to do Mr. 
Sherman, then we will bring you up. I was going by the schedule 
here. Congressman Brad Sherman.
                              ----------                              

                                          Thursday, March 25, 2010.

                                 CA-27


                                WITNESS

HON. BRAD SHERMAN
    Mr. Sherman. Mr. Chairman, thank you for taking me out of 
order. I come here as I have so many years on behalf of the 
Santa Monica Mountains National Recreation Area. Over 33 
million visitors a year visit the beaches and parks and 
mountains of this unit of the national park system, which 
stretches across the Santa Monica Mountains and transverses 
Zuma and Trancas Canyons. It is the most visited unit of the 
National Park Service. To date, the National Park Service has 
acquired 22,000 acres of park land using Land and Water 
Conservation funds totaling $163 million.
    The Santa Monica Mountains National Recreation Area has one 
of the largest backlogs of acquisition needs. Approximately 
20,000 acres remain to be acquired to complete the land 
protection plan and eventually to complete that plan it will 
cost an estimated $57 million. I am not here to ask for $57 
million. I am instead here to focus on the highest priority of 
the National Park Service in the Santa Monica Mountains, the 
Zuma/Trancas Canyons. The Department of Interior fiscal year 
2011 budget provides $3.75 million to acquire 16 tracts in 
those canyons. I strongly support what is already in the 
Administration budget and ask that you plus that amount up to 
$6 million so that all of the parcels in those two canyons can 
be acquired.
    The National Park Service ranks Zuma/Trancas Canyon 
watersheds and coastal estuaries as their top priority for land 
acquisition. The Park Service has identified 484 acres in the 
watershed for acquisition. This includes some 28 parcels. The 
estimated value of those parcels is $6 million. The owners have 
indicated a willingness to sell. There are no takings involved 
in the request that I am making.
    [The statement of Brad Sherman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. So the problem is that they are building high-
end housing on the private inholdings, which I suppose the 
value is enhanced because it is protected federal land around 
it, so you are suggesting that at this time the real estate 
value is depressed and so it is a good time to pick it up and 
preserve the overall quality of the entire area?
    Mr. Sherman. It is a buyer's market. We need to take 
advantage of this buyer's market, and at some point if these 
owners instead use their legal entitlements to put up mansions, 
we will never be able to restore the view shed. We will never 
really be able to preserve this land.
    Now we will hear from Ms. Moffatt, Laurie Norton Moffatt, 
who is the director of the Norman Rockwell Museum on behalf of 
the Association of Art Museum Directors and American 
Association of Museums.
                              ----------                              

                                          Thursday, March 25, 2010.

  ASSOCIATION OF ART MUSEUM DIRECTORS AND THE AMERICAN ASSOCIATION OF 
                                MUSEUMS


                                WITNESS

LAURIE NORTON MOFFATT
    Ms. Moffatt. Thank you, Mr. Chairman and Congressmen 
Simpson and Hinchey. Thank you for this opportunity to testify. 
Following on the heels of the millions of acres of preservation 
of the national parks, I have two very small stories to tell 
but I am speaking on behalf of millions of visitors and 
billions of museum artifacts our Nation preserves. I am here 
today to testify about the 2011 appropriations for the National 
Endowment for the Arts and the National Endowment for the 
Humanities, and I am speaking on behalf of Norman Rockwell 
Museum in Stockbridge, Massachusetts, where I am executive 
director, as well as for the American Association of Museums 
and the Association of Art Museum Directors.
    We are respectfully requesting Congress to approve funding 
increases for both agencies this year. At a time when 
individual, corporate and foundation giving is under 
unprecedented pressure and demand for the services of our 
museums in the Nation is at an all-time high as a result of the 
recession. These agencies are offering lifelines, helping us to 
preserve programming, collections and educational services for 
the public, not to mention millions of jobs of our staff and 
the vendors to our businesses.
    To provide a context for this request, I would like to 
speak about specific grants that the Norman Rockwell Museum and 
the Association of Art Museum Directors have received from the 
NEA and the NEH. Norman Rockwell Museum stewards the world's 
largest, most significant collection of the art and archives of 
American artist Norman Rockwell. Our exhibits attract 150,000 
visitors to Stockbridge, Massachusetts, in the rural western 
part of our state annually but we also serve 300,000 additional 
visitors through our exhibitions that travel around the 
country. Last year alone, we had nine exhibits traveling and 
being seen in 10 different states. Therefore, we are serving 
about half a million people a year from our small museum.
    Caring for this world-class collection is a formidable task 
for our small-size museum with a very tiny endowment. Let me 
just show you the impact of two NEA and NEH grants on one 
collection project that we have been doing. In 2003, we 
launched a comprehensive 10-year preservation digitization and 
public access initiative for the Norman Rockwell Archive, which 
has gained broad public support. For our efforts, our 
professional efforts, in 2008 the museum received the National 
Humanities Medal, the first and only museum in the Nation to 
have received this recognition for the studying and honoring of 
the life work and ideals of an icon in American art and for 
being the careful curator of the archives illustrations and 
benevolent spirit of Norman Rockwell that he bequeathed to the 
Nation. I can tell you that none of this would have been 
possible without funding we received from the NEA and the NEH 
and we leveraged this funding with more than $1 million in 
private foundation grants on top of the public grants.
    Mr. Moran. Well, it probably would have been NEH, would it 
not have been, more than NEA?
    Ms. Moffatt. It was both, actually, because of the ideals, 
the humanity ideals represented in Norman Rockwell's art, and 
NEH supports many, many exhibits that are seen around the 
country, so we do benefit from both agencies.
    A $25,000 NEA grant and a $300,000 Save America's Treasures 
grant preserve 18,000 fragile acetate negatives that were being 
lost and this collection of pictures, American Life in the 20th 
Century. And American Masterpiece's program has supported a 
national traveling exhibition of our collection to 12 venues 
around the country and is being seen in the states of Arkansas, 
California, Florida, Kansas, Michigan, North Carolina, Ohio, 
Virginia and Washington State. It will be seen by an estimated 
5 million visitors by the time it concludes in 2012. And an 
additional NEH grant has supported the arrangement and 
description of the Rockwell Archive and this vast collection of 
200,000 items that we care for and has created exhibitions, 
online digital access, book projects and educational 
programming for schools.
    To put this in context, our budget is less than $4 million 
annually and our endowment is equally small, also below $4 
million. The NEA and NEH support has made it possible for us to 
steward this national collection, which would not have been 
possible to do just from our visitors. The field at large has 
made recent grants to the Association of Art Museum Directors 
to help do a mapping project which has shown the regions of the 
Nation that our art museums are serving and demonstrating that 
many underserved and poor school districts are being served by 
the school programs in our country.
    So we respectfully request as a last request that the 
Congress reject a budget request by the Executive Office to 
eliminate Save America's Treasures. This program was 
established by First Lady Hillary Clinton and strongly 
supported by First Lady Laura Bush and it has helped rescue 
sites and collections of national and even world significance. 
So together with the National Park Service and the art museums 
and all museums in the Nation, we request that you support the 
NEA and NEH funding and restore America's treasures.
    [The statement of Laurie Norton Moffatt follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Your testimony is meeting sympathetic ears.
    Mr. Hinchey. The Norman Rockwell Museum is very impressive, 
and I think a lot of people are very grateful to you for what 
you continue to do there.
    Mr. Moran. Have you seen that, Mr. Hinchey?
    Mr. Hinchey. I have, yes. It is a great place.
    Ms. Moffatt. Thank you very much.
    Mr. Moran. Very good. Good testimony, and we happen to 
agree, and Save America's Treasures will be saved. Trust us. 
Thank you.
    Next we are going to hear from Peter Evans, the director of 
the Interstate Council on Water Policy. Mr. Evans.
                              ----------                              

                                          Thursday, March 25, 2010.

                   INTERSTATE COUNCIL ON WATER POLICY


                                WITNESS

PETER EVANS
    Mr. Evans. Good morning, Mr. Chairman, thank you, Ranking 
Member Simpson, Congressmen Hinchey. We have met previously 
with you. You will recall from last year's briefings that you 
are well aware of the America stream gauge programs at the U.S. 
Geological Survey. I know that time is short so we are going to 
get straight to the point.
    We brought you a letter in December showing the broad 
support, the wide level of concern about the continuing loss of 
stream gauges. For the record, sorry, I am Peter Evans. I am 
the executive director of the Interstate Council on Water 
Policy, and we appreciate this opportunity to testify this 
year, especially because the President's budget request 
includes a decrease in funding for two vital water science 
programs at USGS and we believe that this subcommittee needs to 
take action to correct that mistake.
    The last time we brought a letter to you, we brought 56 
organization endorsements along with the endorsement from 26 
state officials indicating their reliance on these programs and 
the detriment that they suffer as USGS continues to lose stream 
gauges.
    The stream gauges and groundwater monitoring wells operated 
by USGS serve as the stethoscope on America's rivers and water 
supplies. The members of the Interstate Council depend heavily 
on USGS stream gauging for the interpretative science essential 
in the development and implementation of sound water plans and 
in the operation of water projects. The Council was established 
in 1959 as a way for state officials to get together on a 
regular basis to learn from each other, to build their 
capabilities, also to speak as a group on important issues of 
federal policy and the assistance that we need. What our 
members have in common is the responsibility for developing and 
managing programs and implementing projects that reduce flood 
risk and drought risk and balance the needs of human 
communities with the protection of water quality, wetlands and 
riparian areas as well as the species that depend on them.
    As you know better than many of the other subcommittees in 
the Appropriations Committee, America faces many water-related 
challenges, and the President's budget includes new funding to 
address much of the infrastructure improvement and 
environmental restoration across the country. Without 
detracting from the worthiness of those initiatives, we find it 
unreasonable to invest so much in new support in those programs 
and projects without first investing in the water data and 
science needed for their design and implementation. Full 
implementation for these programs has never been requested. 
Both of these programs, the National Streamflow Information 
Program and the Cooperative Water Program, are national 
programs that have been authorized by Congress, funded for many 
years, but the Department has never requested full 
implementation.
    USGS estimated last year, at your request, that completing 
the installation of the Cooperative Water Program would cost an 
additional $121 million if they could do that over the next 5 
years and that annual operation and maintenance will cost $114 
million. If the National Streamflow Information Program were 
fully implemented, it would take a considerable burden off the 
co-op program, which is a cost-share program in which as the 
USGS lacks capacity states and local governments, tribal 
agencies have had to pick up the slack. They are now carrying 
on average across the country 70 percent of the share instead 
of the traditional 50/50 cost share.
    USGS also estimated last year, again at your request, that 
they would need an additional $100 million for the Cooperative 
Water Program in order to stop losing stream gauges and restore 
the ability to match local governments and state agencies on a 
50/50 basis. In response to your question, Congressman Simpson, 
I recall that the acting director for the U.S. Geological 
Survey told you last year that they had a plan to fully 
implement these programs over the next 5 years, and the 
information that they provided after their hearing last year 
showed the budget that they need. So it was a surprise to us to 
see that the President's request for this year includes a cut 
for both programs, and we realize that the budget is tight but 
we have made repeated efforts over the last 5 years to persuade 
the Department that this is a national problem that they need 
to attend to with the concurrence of lots of other 
organizations. We have written many letters over the past 5 
years to Secretary Salazar and his predecessors. They say that 
they are sympathetic and yet we see budget cuts. The data from 
these programs are essential in planning and managing the 
metropolitan water supply for Washington, D.C., the Everglades, 
the Chesapeake, the Long Island Sound, the Grand Canyon, the 
Sacramento-San Joaquin Bay Delta, all of these crucial water 
programs, all of which are vital to different parts of the 
country and depend on the data. The data is needed for the 
Water Smart Program, the water census that the Department is 
proposing and so we ask that you support us.
    [The statement of Peter Evans follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, Mr. Evans. You raise a very important 
issue to our attention and we certainly agree on the need. 
Thank you, Mr. Evans.
    Dr. Craig Schiffries, who is the director for Geoscience 
Policy at the Geological Society of America. Dr. Schiffries.
                              ----------                              

                                          Thursday, March 25, 2010.

            GEOLOGICAL SOCIETY OF AMERICA, GEOSCIENCE POLICY


                                WITNESS

CRAIG SCHIFFRIES
    Dr. Schiffries. Thank you very much, Mr. Chairman and 
members of the subcommittee. Thank you for the opportunity to 
testify today on behalf of the Geological Society of America, 
and I also serve as co-chair of the USGS Coalition. The 
Geological Society of America was founded in 1888 as a 
scientific society with over 22,000 members from academia, 
government and industry in all 50 states and more than 90 
countries.
    The Geological Society joins with the USGS Coalition and 
other organizations in recommending an appropriation of at 
least $1.3 billion for the USGS in fiscal year 2011. This 
budget would enable the USGS to address a growing backlog of 
science needs, accelerate the timetable for deploying critical 
monitoring systems and launch science initiatives that address 
new challenges. Despite the growing need for USGS science and 
information, funding for the USGS has stagnated in real dollars 
for more than a decade.
    The USGS is one of the Nation's premier science agencies 
that addresses many of society's most pressing challenges 
including energy resources, water resources, climate change and 
natural hazards. The devastating earthquake in Haiti on January 
12th that killed more than 200,000 people and the enormous 
earthquake in Chile on February 27th emphatically demonstrate 
the value of robust natural-hazards monitoring and warning 
systems and the need for increased investments in the USGS. The 
USGS has a unique combination of biological, geographical, 
geological and hydrological programs that enable it to address 
interdisciplinary research challenges that are beyond the 
capabilities of most other organizations. Quite simply, the 
USGS benefits every American every day.
    As shown in figure 1, the USGS budget fell in real dollars 
for 7 consecutive years from 2001 to 2008. Despite budget 
increases in 2009 and 2010, the USGS budget request for 2011 
remains below the USGS budget for 2001 in real dollars. The 
decline in funding for the USGS during this time period would 
have been much greater if Congress had not repeatedly restored 
proposed budget cuts. Federal funding for non-defense R&D 
increased significantly while funding for the USGS has 
stagnated for more than a decade. From 1996 to 2009, federal 
funding for the USGS fell by 1 percent constant dollars. During 
that same period, federal funding for non-defense R&D increased 
by 45 percent and funding for defense R&D increased by 66 
percent in constant dollars.
    Let me mention two examples of USGS science. In the 30 
years since the cataclysmic eruption of Mount St. Helens in 
1980, scientific and technological advances have enabled the 
U.S. Geological Survey to make reliable forecasts of expected 
volcanic activity a reality. Until now, these technologies and 
methods have been applied mainly on an ad hoc basis to 
volcanoes showing signs of activity. At present, almost half of 
the most threatening U.S. volcanoes are monitored only at a 
basic level with real-time sensors and only a few are well 
monitored with a suite of modern instruments and methods. 
However, monitoring capabilities at many hazardous volcanoes 
are known to be sparse and antiquated and some hazardous 
volcanoes have no ground-based monitoring whatsoever. The 
National Volcano Early Warning System is a proposed national-
scale effort by the USGS and its partners to ensure that 
volcanoes are monitored at a level commensurate with the 
threats they pose.
    I want to turn to earthquakes for a moment. In the minutes 
after an earthquake strikes, as recent events in Haiti have 
demonstrated, knowing where the shaking was most intense can 
save lives by providing emergency responders with situational 
awareness they need to concentrate their efforts where they 
matter most. In the United States, earthquakes are a national 
challenge with 75 million people in 39 states living in 
moderate to high earthquake hazard areas. The USGS has 
developed models for the location and expected severity of 
earthquakes shaking nationwide within specified time periods. 
These models are used to generate maps that are incorporated 
into seismic safety standards for model building codes and 
other purposes. Even if seismologists are unable to issue 
precise earthquake predictions, they can still issue warnings 
after an earthquake occurs. They can do this by sending warning 
signals that outrun seismic waves just as lightning outruns 
thunder. Earthquake waves travel roughly at the speed of sound 
and rock, and once an earthquake is detected, seismologists can 
send warning signals that travel at the speed of light. These 
warnings can be used to stop trains on the tracks before they 
derail, to shut down nuclear power plants before they are 
damaged, and to stop surgical procedures before a patient is 
injured. The United States has the technology but not the 
funding to fully implement this type of warning system.
    Let me make some other comparisons with federal funding for 
research and development. As I mentioned earlier, federal 
funding for the USGS fell 1 percent while non-defense R&D 
increased by 45 percent from 1996 to 2009. The USGS would 
continue to lose ground to other science agencies under 
President Obama's budget request for 2011 because non-defense 
R&D would increase overall by 5.9 percent while USGS R&D would 
increase by only 2.9 percent. Under President Obama's budget 
request to Congress, the increase in NASA's R&D budget is 
greater than the entire budget for the United States Geological 
Survey. According to the White House Office of Science and 
Technology Policy, the President's budget would increase R&D at 
NASA by $1.7 billion, or 18.3 percent, in fiscal year 2011. The 
$1.7 billion increase for NASA's R&D is far greater than the 
entire budget of the U.S. Geological Survey, which is $1.1 
billion.
    [The statement of Craig Schiffries follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Dr. Schiffries, I am going to interrupt you. 
That is all interesting. We are not opposed to the R&D in those 
areas, and do feel that there ought to be more devoted to USGS. 
You need to be making this case to the science guys in the 
White House to build it into the budget because we are very 
limited in how much we can do, the add-ons and subtractions and 
so on. We do not like to subtract but it would have been a lot 
easier if they had built in more, particularly for a warning 
system, which would seem to have even national security 
implications, but you have to talk to the people in the White 
House as well. That is very good testimony. Thank you, Dr. 
Schiffries.
    Dr. Schiffries. Thank you very much.
    Dr. Robert Gropp, the co-chair of the U.S. Geological 
Survey Coalition. Dr. Gropp.
                              ----------                              

                                          Thursday, March 25, 2010.

                    U.S. GEOLOGICAL SURVEY COALITION


                                WITNESS

ROBERT GROPP
    Dr. Gropp. Thank you, Mr. Chairman, members of the 
committee. I appreciate the opportunity to testify today, again 
sort of continuing to talk about the USGS. I am director of 
policy for the American Institute of Biological Sciences in 
addition to serving as co-chair of the Coalition.
    First of all, we would like to thank all the members of the 
committee and past members of the committee for your long 
support of the USGS. We truly appreciate what you all have done 
in a bipartisan fashion over the years to restore cuts, and so 
we sincerely thank you all for your efforts on that front. As 
Craig just mentioned, one of the Coalition's longstanding now, 
couple year request is that we think that the USGS would 
benefit from a $1.3 billion budget. We recognize your 
constraints but that remains our recommendation for the Survey 
for this coming year.
    The USGS Coalition is actually an alliance of over 70 
scientific societies, data consumers and associated 
stakeholders of the USGS. The group was founded to highlight 
and promote the continued vitality of the crosscut of unique 
biological, geological, hydrological and mapping programs that 
are found within the USGS and the unique opportunities 
scientifically that arise from that.
    With respect to the USGS, as you all well know, it is the 
Department of Interior's science agency but importantly, it is 
also an internationally recognized natural-resource agency that 
has benefits to every citizen domestically and internationally 
on a daily basis. Also importantly, as Craig was mentioning, it 
is a science agency and we are working to try to highlight that 
among the Administration and other federal agencies and 
appreciate any support you all can offer us with doing that. As 
you know, science is important in terms of reigniting the 
economy, solving problems, and in the case of USGS, it is also 
a beneficial investment in terms of reducing costs through 
making wise management decisions, cost-effective conservation 
decisions and so forth.
    Mr. Moran. It was a $20 million increase provided over last 
year's budget. What is the total? Do you recall the total for 
USGS versus the $1.3 billion?
    Dr. Gropp. It is about $1.1 billion.
    Mr. Moran. So you are looking for a $200 million increase?
    Dr. Gropp. Right.
    Mr. Moran. About 10 times what we did last year.
    Dr. Gropp. No, we recognize your constraints.
    As I am sure you are well aware, within that $20 million 
increase that is included, and I think this is a problem across 
Interior, is that $13.5 million is not accounted for in terms 
of fixed cost increases, and that is becoming a growing concern 
for us when we look at USGS as they continue to have to absorb 
these costs year over year. So if you take that off the $21 
million proposed increase, you are down to $8 million, which 
largely goes to important new programs--climate change, 
environment, ecosystems--but as was mentioned, there is about 
$11 million in cuts to water programs, bio programs and 
enterprise infrastructure. So it is a tight environment.
    [The statement of Robert Gropp follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. As you know, the Department of Interior elected 
to make every program absorb those fixed costs, but it is a 
fair point and an important one to bear in mind. Thank you, Dr. 
Gropp. Your testimony and the prior testimony were important, 
and we do understand USGS is very strong. In fact, I have made 
a point of trying to increase money for USGS and we will try to 
continue to, and while there are a lot of priorities, these are 
very good scientists that do good, important work.
    Mr. Hinchey.
    Mr. Hinchey. Well, I just agree. What you are talking about 
is very important, and I am sure we will do the best we can.
    Mr. Gropp. Again, thank you very much.
    Mr. Moran. Thank you, Dr. Gropp, very much.
    The next speaker will be Sara Fain, who is the co-chair of 
the Everglades Coalition. Good morning, Ms. Fain.
                              ----------                              

                                          Thursday, March 25, 2010.

                          EVERGLADES COALITION


                                WITNESS

SARA FAIN
    Ms. Fain. Mr. Chairman, members of the subcommittee, thank 
you for the opportunity to be here today. My name is Sara Fain 
and I am here as the national co-chair of the Everglades 
Coalition. The Everglades Coalition represents 53 environmental 
and conservation organizations and collectively we represent 
over 6 million members nationwide, and we have been working for 
over 25 years to work for the full restoration of the 
Everglades ecosystem.
    So first I want to take this opportunity to thank you for 
your visionary leadership over the last 17 years in guiding 
Everglades restoration. We are undertaking something really, 
really special down in south Florida. This is the most 
ambitious ecological restoration plan that has ever been 
undertaken in the history of the world, and we are setting the 
standard for restoration initiatives nationwide from Puget 
Sound to Chesapeake Bay, and it is largely because of your 
example that we are setting the high standard that we have, and 
I am excited to be able to come here today and talk about a 
wonderful year that we have had. It has been a momentous year 
where a lot has been accomplished. The year 2009 brought the 
highest levels of federal funding ever for the Everglades. We 
have finally broken ground on the modified water deliveries 
project, which is building a mile-long bridge along the 
northern border of Everglades National Park across Tamiami 
Trail and this will allow water to once again flow back into 
this park, helping restore critical habitat upon which our 
unique and biodiverse wildlife depends, and it was this 
committee that because of your actions has helped to move that 
forward, so on behalf of the Coalition, I thank you.
    We have also celebrated two other groundbreakings. We have 
broken ground on the C-111 spreader canal western project and 
the Picayune strand project, and with support in the fiscal 
year 2011 budget, we hope to break ground on three more 
projects: Indian River Lagoon, Biscayne Bay coastal wetlands 
and site one impoundments. And all these projects, let's 
remember, are not just critical pieces of the restoration plan 
but they are also creating on-the-ground construction jobs in 
this new restoration economy.
    Another great thing that has happened this year is the 
National Park Service at your direction has been developing a 
plan for additional bridging along Tamiami Trail, which this 
will be the ultimate goal in actually fully restoring water 
flow into one of our Nation's most iconic parks, so it really 
has been a momentous year and it is largely because of your 
commitment and leadership that I can come here today and be so 
optimistic about the future. I hope that we can continue on 
this momentum. People down in south Florida and nationwide are 
really, really excited about what is happening in the 
Everglades and so I would like to ask that you support the 
Administration's budget for Everglades restoration while also 
increasing funding for the modified water deliveries project to 
$15 million. That would be half of what remains in order to 
finish building the mile-long bridge along Tamiami Trail and 
would go a long way to actually start getting some flow back 
into the park.
    I also ask that you provide for the National Park Service's 
planning efforts in additional bridging along Tamiami Trail and 
let's just keep setting the bar high for America's Everglades. 
We continue to set the example for restoration initiatives 
everywhere.
    In closing, it was the foremost protector of the 
Everglades, Marjorie Stoman Douglas, who said, ``There are no 
other Everglades in the world.'' And so I hope that we can 
continue on this path to not only make sure that Everglades is 
a sanctuary for our wildlife but is also an economic driver, is 
a source of fresh water for people and that we leave a legacy 
for our children to be proud of.
    [The statement of Sara Fain follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thanks very much, Ms. Fain. I was disturbed at 
the deal that had been worked out with the State of Florida, 
Governor Crist and the sugar producer appears to be 
compromised. For one thing, Florida has run out of money and 
they signed the deal when real estate values were at their 
highest level ever, and of course, the sugar producers will not 
budge an inch. And so what was heralded as major progress has 
seen something of a setback, and I am not sure what we can do 
about that but it is troubling.
    Ms. Fain. Well, the good news is that the deal is not 
completed yet. The deal is still on the table and I think that 
there are opportunities for negotiations in the price. I think 
that the important thing is that we have known that the 2000 
plan that Congress adopted, the comprehensive Everglades 
restoration plan, was fundamentally flawed in that it did not 
provide enough land for storing and cleaning water. We have a 
willing seller for the first time in a generation who will 
provide us that opportunity. So I hope that we can find a way 
within the economic constraints to make this happen.
    Mr. Moran. Well, if they are not willing to show some 
flexibility, we need to see if we cannot come up with some 
creative approaches to dealing with them.
    Mr. Simpson.
    Mr. Simpson. Creative approaches.
    Mr. Moran. Well, I am thinking about it. I am not sure what 
we can do.
    Mr. Simpson. It scares me when you say ``creative 
approaches.''
    Mr. Moran. That is right. Well, I mean that. I did not say 
it was illegal. I just think that it is a terribly important 
issue and there ought to be some help given to people when an 
enormous amount of money has been made off that area down 
there.
    Ms. Fain. And I can bring back your comments to the State 
of Florida. I think that they recognize that there are 
potentially opportunities to make sure that this is a deal that 
is good for the people in South Florida.
    Mr. Moran. I do not think Governor Crist is the problem. It 
is not the government in Florida that is the problem.
    Mr. Hinchey.
    Mr. Hinchey. Well, I just want to thank you for what you 
are doing, and what you said is so true. I mean, this committee 
has been very, very devoted to this for a number of years and 
we have done a lot of things to help it get better advanced, 
and the optimism that you express is very encouraging to us, 
and I agree with what our chairman has just said. There are a 
lot of things we have to pay very close attention to, and this 
project is very, very important, and thank you for everything 
you are doing.
    Ms. Fain. Well, thank you, too.
    Mr. Moran. Thank you for everything you are doing. Thank 
you very much.
    Tom Partin, president of the American Forest Resource 
Council on behalf of the Federal Forest Resource Coalition. Mr. 
Partin.
                                          Thursday, March 25, 2010.

                   FEDERAL FOREST RESOURCE COALITION


                                WITNESS

TOM PARTIN
    Mr. Partin. Thank you. Good morning, Mr. Chairman, Ranking 
Member Simpson, members of the subcommittee. My name is Tom 
Partin. I am president of the American Forest Resource Council 
located in Portland, Oregon. I am testifying here today on 
behalf of the Federal Forest Resource Coalition. The Federal 
Forest Resource Coalition is kind of an informal group 
representing many forest industry trade associations including 
Intermountain Forestry Association, which Mr. Simpson, I am 
sure you are very aware of.
    Collectively, our members represent every segment of the 
forestry and wood products industry, and we employ more than 1 
million people directly and rank among the top 10 manufacturing 
employers in 48 states, so we are pretty proud of our record. 
Our companies depend on the federal forest to provide a 
consistent and sustainable flow of raw materials to remain in 
operation. Our members are often located in smaller rural 
communities and the jobs they provide are the lifeblood for 
these rural economies. With this in mind, it is easy to 
recognize that as the Forest Service budget and timber outputs 
go, so go the health of our forests, our forest products 
industry and many of America's rural communities.
    I am here today to discuss the President's fiscal year 2011 
Forest Service budget request. First, let me say that we are 
very pleased that the President recognizes the importance of 
the Forest Service and gave the Forest Service an increase. We 
are very much appreciative of that. However, we have some 
concerns with the budget. First, we have significant issues 
with merging the forest products, vegetation and watershed 
management and wildlife and fisheries habitat line items into a 
single integrated resources restoration account. The only 
target for this new account are acres treated, and we fear that 
the agency will lose the accountability for the timber targets 
that our industry so desperately needs. Our plants do not 
operate on acres treated. We need predictability and certainty 
in the form of timber output targets to be able to plan 
operations and investments. We strongly urge you to keep timber 
targets at both the regional and national forest level to 
ensure the flow of materials we need to survive.
    Our second concern is the timber management output target 
for the 2011 budget is actually down from 2.5 billion board 
feet in fiscal year 2010 to 2.4 billion in fiscal year 2011. 
This reduction is contrary to the strong Congressional support 
in many letters that came to the Administration for increasing 
timber sales, particularly as they relate to forest health and 
industry needs. We have recommended an increase from our group 
of $57 million to the forest products line item which would 
bring the 2011 target up to 3 billion board feet. This level of 
funding would provide a much-needed boost to rural America and 
speed the restoration of our federal forests which, as you 
know, are burning millions of acres each year.
    A very conservative estimate of jobs created per million 
board feet of timber harvested is 11.4 new direct and indirect 
jobs with an average wage of $42,300. Therefore, increasing the 
forest products line item by $57 million would increase the 
timber harvest to 3 billion board feet and create 6,600 new 
jobs nationwide. Quite frankly, we find it very difficult to 
understand at a time when we need to provide jobs to rural 
America, you propose reducing timber harvests, thus reducing 
jobs in our industry. Obviously we are missing 100 million 
board feet nationwide with this President's budget that came 
out and we are very concerned about that.
    A closer look at the integrated resource restoration line 
item shows an actual $26 million increase. However, $30 million 
of that would be set aside to implement the Forest Landscape 
Restoration Act and $50 million for priority watershed 
improvement projects. This means a $54 million actual reduction 
to the combined budgetary pool, and we fear this could greatly 
impact forest health projects and the timber outputs again that 
we do desperately need.
    Switching to the hazardous fuels line item, this area would 
receive a $9.2 million increase under the budget. In light of 
the heavy fuels buildup, we feel this is appropriate. However, 
we think we should take a new direction with this line item, 
and our group recommends that Congress should integrate 
hazardous fuels dollars with national forest system dollars for 
fuels work in some of the higher condition class areas. This 
integration could also fund the $80 million for the landscape 
restoration and watershed programs.
    We are also concerned about the language that directs a 
higher percentage of the work to be focused on wildland-urban 
interface area. Now, I will not disagree that the WUI areas are 
really important. However, a higher percentage of the class 2 
and class 3 forests where the big fires really start are 
located in the general forested areas away from the wildland-
urban interface. We need to put more focus and more of our 
dollars and efforts towards these extreme forest class 
condition areas.
    Finally, we disagree with the $118 million proposed cut to 
the capital improvement and maintenance budget. The elimination 
of all new road construction and reconstruction will undercut 
the agency's ability to sell many timber sales that are already 
through the NEPA process and ready to go and it will prevent 
maintaining a roads infrastructure already located out there in 
the forest that many of our public besides just the 
manufacturers really depend on.
    In short, again, the health of our forests, our forest 
products industry and our rural communities are based on the 
Forest Service budget. We really would request that you 
increase the forest products line item by $57 million to get 
our harvest up to 3 billion board feet and put 6,600 people 
back to work. Thank you for taking my testimony.
    [The statement of Tom Partin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, Mr. Partin. Thank you very much.
    Brian Moore is the legislative director of the Audubon 
Society.
                              ----------                              

                                          Thursday, March 25, 2010.

                            AUDUBON SOCIETY


                                WITNESS

BRIAN MOORE
    Mr. Moore. Good morning, Mr. Chairman, Mr. Simpson, Mr. 
Hinchey, and Mr. Chairman, congratulations on your new 
assignment as chairman of the subcommittee. We are very 
supportive of it, and the Audubon Society has a long 
relationship with you and the subcommittee, and we are glad to 
be here to be able to present our views on a few parts of the 
Department of Interior budget as well as the Environmental 
Protection Agency.
    Our main focus for the National Audubon Society is 
protecting and establishing habitat for birds and wildlife and 
so there is certain programs within both agencies that we 
particularly like to focus on.
    Mr. Moran. You begin by making recommendations for fiscal 
year 2012. Did you want to focus on 2012?
    Mr. Moore. No, sir, I did not. I have a revised testimony. 
That was a typographical error. I apologize for that and I have 
a new copy for you.
    Mr. Moran. I was giving you credit for a visionary 
approach.
    Mr. Moore. I apologize for that.
    Mr. Moran. You decided there is not much you can do about 
this year but let's try in 2012 to do a better job.
    Mr. Moore. I think we can do a lot this year, and even more 
in 2012.
    Mr. Moran. Sorry for the interruption.
    Mr. Moore. No, no. It is your committee. You interrupt as 
you please.
    The first thing that I would like to talk about is the 
restoration of the Everglades, and I know you have already 
heard about the Everglades. It is also a key priority for the 
National Audubon Society. We think last year was a monumental 
year for the Everglades, especially with the groundbreaking on 
the Tamiami Trail and other groundbreakings as well, and one 
funding recommendation we would give this year and also for 
2012 would be $15 million in 2011 and then $15 million in 2012 
for the modified water delivery program. We think that would 
complete that program, which would then free up the Park 
Service and this committee to begin to work on new projects 
within Everglades and create an ever greater restoration 
amongst that ecosystem. There are also other recommendations in 
that but I think you have heard them from the Everglades 
groups.
    Our second priority of course is the Land and Water 
Conservation Fund. We agree with many other groups that that 
fund should be increased to about $425 million with $175 
million of it going to the stateside program. We have many 
priorities with the LWCF. They are not limited to, but they 
include many refuges that have received funding in the past. 
They are the Silvio Conte National Wildlife Refuge, the Stewart 
McKinney National Wildlife Refuge, the Cash River National 
Wildlife Refuge in Arkansas, and of course the James River 
National Wildlife Refuge in your State of Virginia.
    We focus heavily on the national wildlife refuge system 
because we believe it is one of the federal units of land that 
provide the greatest habitat for birds, wildlife, migratory 
species and recreation for all Americans and so we call on this 
committee to continue your good work to increase the funding 
for the national wildlife refuge system to about $578 million. 
We think that is a fair number to increase the operations and 
maintenance of that agency as well as to maybe add some 
increased capacity to it.
    We are also very encouraged by the Administration's 
proposal that within that request they would move around $5 
million to the wildlife refuges within the Louisiana-
Mississippi coastline to help restore some of the damage 
created by Hurricane Rita, Hurricane Katrina and Hurricane Ike. 
Those are still ongoing issues and those communities are still 
recovering and so are those refuges. So we are pleased with 
that and we encourage both full funding for the refuge system 
as well as some dedicated funding or funding towards America's 
coastline.
    Of course, we are the Audubon Society and birds are very 
important to us. One program this committee has always shown 
great support for is the Neotropical Migratory Bird 
Conservation Act. We support a funding level this year of $6.5 
million for that program. It requires a three to one match to 
the Federal Government on that program, but in reality, it 
receives about a four to one match. We think this is an 
important year for that program because it is up for 
reauthorization, so proving to not only this committee but to 
the Administration that these funds are spent well and that the 
Congress and the authorizing committees can look at it as a 
success. It is important for the reauthorization of that 
program to show continued success for it and their ability to 
successfully spend the dollars that they received. The program 
is also very important to the Audubon Society.
    And finally, we of course have many other priorities but 
one more is the restoration of Long Island Sound, and we 
greatly commend this subcommittee. You nearly doubled the 
funding, or I think you more than doubled the funding for that 
program from the previous fiscal year to the one we are in now, 
and we would like increased funding for that program. We think 
that that office has shown the ability to effectively spend 
that money, and the same way with the Neotropical Migratory 
Bird Conservation Act, that program is up for reauthorization 
this year. I believe many of the efforts to reauthorize it 
coincide with the way this committee has spent money for it, 
meaning there were two authorized programs. This committee has 
wisely chosen to fund it as one line item and that is the way 
the reauthorization legislation is moving this year. So to have 
those things coincide we believe helps the reauthorization of 
that important program because it is an ecosystem that is often 
overlooked and it is important to us and it is important to the 
fifth of the population, I believe, that lives within that 
watershed.
    So those are our recommendations, and they are short, and 
there are many more in the written testimony, and I do 
appreciate your time.
    [The statement of Brian Moore follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you. It is comprehensive testimony. Thank 
you very much, Mr. Moore.
    Mr. Simpson. Let me ask one question.
    Mr. Moran. Please, Mr. Simpson.
    Mr. Simpson.1 Does the Audubon Society support the Fish and 
Wildlife Service's land conservation cooperatives?
    Mr. Moore. I am not sure we have created an opinion on 
that, Mr. Simpson. I will have to get back to you on that.
    Mr. Simpson. I appreciate it. Thank you.
    Mr. Moran. Mr. Moore, thank you very much.
    Dr. Bruce Stein, associate director of the Wildlife 
Conservation and Global Warming, National Wildlife Federation. 
Dr. Stein.
                              ----------                              

                                          Thursday, March 25, 2010.

                      NATIONAL WILDLIFE FEDERATION


                                WITNESS

BRUCE STEIN
    Dr. Stein. Thank you very much, Chairman Moran, Mr. 
Simpson, Mr. Hinchey. On behalf of the National Wildlife 
Federation, which is the Nation's largest conservation advocacy 
and education organization, we have got more than 4 million 
members and supporters, we thank you for the opportunity to 
provide testimony on the fiscal year 2011 budget.
    Our written testimony covers a wide range of agencies and 
issues commensurate with the wide range of our organizational 
interests, but today I want to focus on just four issues: 
climate change adaptation, state wildlife grants, renewable 
energy siting and the U.S. Forest Service's proposed budget 
reorganization.
    Regarding climate change adaptation, the National Wildlife 
Federation is strongly supportive of the $35 million increase 
in Department of Interior activities relating to preparing for 
and coping with the effects of climate change on our natural 
resources, and this does include the implementation expansion 
of the network of landscape conservation cooperatives, so Mr. 
Simpson, we are very supportive of that effort. We do 
recognize, however, as we mention in our written testimony, 
that there are and will be growing pains in any such program of 
that sort and there is a need for increased cooperation and 
communication among the federal agencies and with the states 
but we see the focus on landscape-scale conservation and 
bringing good science to bear on identifying what is going to 
be needed in the face of climate change to be absolutely 
essential. We are also supportive, by the way, of the U.S. 
Geological Survey's Wildlife and Climate Change Science Center 
which this committee has been so supportive of, again bringing 
to bear very important scientific expertise on how we address 
this central challenge of our time.
    Turning to state and tribal wildlife grants, this is a 
program that is really one of the Nation's core efforts to 
ensure that wildlife populations remain healthy across the 
country and do not become endangered. The National Wildlife 
Federation has been working with quite a number of states to 
help them make these plans climate-smart, to incorporate the 
necessary science and on-the-ground conservation activities 
that will be needed to ensure that this wildlife survives in an 
era of rapid climate change, and we would specifically 
recommend $100 million in funding in fiscal year 2011 for this 
program, which is a $10 million increase over what the 
President has requested.
    Transitioning to a clean energy economy is really one of 
the greatest challenges facing the Nation and we are very 
supportive of the President's New Energy Frontier Initiative in 
the Department of Interior, which would invest $73 million in 
new renewable energy programs, and although the program does 
recognize that not all lands with renewable potential are 
appropriate for development, we are concerned that the 
Department does not yet have the necessary policy guidance to 
avoid significant impacts on wildlife in their habitats through 
renewable and transmission siting, so this is something that we 
think really needs to be attended to. We are, however, very 
supportive of the Department's commonsense budget proposals for 
reducing extravagant subsidies to the oil and gas industries 
including a new fee on non-producing wells.
    And finally, just wanted to discuss the Forest Service's 
proposed integrated resource restoration budget line item. This 
proposal combines forest products, wildlife and fisheries and 
vegetation management into a single $694 million budget item, 
and although we are generally supportive of the intent of this, 
which is to get the Forest Service doing more large landscape 
and watershed restoration, integrated restoration, we are 
concerned that by doing this, the wildlife component of the 
budget is at risk of declining due to lack of budget 
transparency. We have seen similar things happen in the past 
when endangered species, for instance, no longer are a separate 
budget line item and the investment and their management and 
Forest Service activities has appeared to decline, although it 
is difficult to tell for sure. And so if this budget 
realignment is put in place, we would encourage the development 
of robust program monitoring and oversight to ensure the 
continued commitment to the delivery on wildlife and fisheries 
objectives.
    So Mr. Chairman, I appreciate the opportunity to appear.
    [The statement of Bruce Stein follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Good. Thanks very much. We appreciate that, Dr. 
Stein. Thank you for the testimony.
    We will move on at this point to Mary Sullivan Douglas, who 
is the senior staff associate of the National Association of 
Clean Air Agencies.
                              ----------                              

                                          Thursday, March 25, 2010.

               NATIONAL ASSOCIATION OF CLEAN AIR AGENCIES


                                WITNESS

MARY SULLIVAN DOUGLAS
    Ms. Douglas. Good morning. As you said, I am Mary Sullivan 
Douglas with the National Association of Clean Air Agencies. 
The members of NACAA are the state and local air pollution 
control officials in 53 states and territories and over 165 
metropolitan areas across the country. We thank you for this 
opportunity to testify on EPA's fiscal year 2011 budget for 
state and local air pollution control grants.
    NACAA supports the President's request for $309.1 million 
in federal grants for state and local air pollution control 
agencies. This amount represents an increase of $82.5 million 
above last year. Air pollution is one of the most pressing 
public health problems facing our Nation and probably causes 
more deaths than any other issue under this subcommittee's 
jurisdiction. In the United States, exposure to polluted air 
results in the premature deaths of tens of thousands of people 
every year and causes many serious health problems. According 
to EPA data, about 127 million people lived in counties that 
exceeded at least one of the health-based air quality standards 
in 2008. In addition, EPA estimates that nearly everyone in the 
United States has an increased cancer risk from air pollution 
of greater than 10 in 1 million where 1 in 1 million is 
generally considered acceptable.
    State and local air quality agencies have struggled with 
insufficient resources for many years. The Clean Air Act 
authorizes the Federal Government to provide grants for up to 
60 percent of the cost of state and local air programs while 
states and localities must provide a 40 percent match. In 
reality, however, state and local air agencies provide 77 
percent of their budgets while federal grants constitute only 
23 percent. Clearly, state and local agencies are providing far 
more than their fair share, which is especially difficult now 
when their budgets are severely strained by the economy. To 
make matters worse, federal grants have remained stagnant and 
their purchasing power has actually decreased from inflation by 
nearly 10 percent over the last 10 years. Last year we surveyed 
state and local air pollution control agencies and learned that 
there is an annual shortfall of $550 million in federal grants 
for air programs. During all this, state and local 
responsibilities have increased dramatically. These agencies 
cannot carry out their programs effectively with such enormous 
deficits.
    While the President's proposed increase does not fully 
address all of our funding needs, we are grateful for it and we 
support it because it will be very helpful as we continue our 
efforts to obtain and maintain healthful air quality for our 
Nation. The proposed budget calls for increases in three 
primary areas. The first is for core activities. While new and 
innovative efforts are necessary, the day-to-day activities 
that are the foundation of our programs are essential. The 
additional funds will support continuing responsibilities and 
the increasing workload that results as EPA updates its health-
based air quality standards. These include planning, emission 
inventories, sophisticated modeling, expanded monitoring 
networks, and adoption and enforcement of regulations.
    The second area identified for additional grants is 
increasing capacity for greenhouse gas permitting. State and 
local agencies need to expand their capacity with respect to 
greenhouse gases so that they are able to transition to 
whatever greenhouse gas program EPA develops and are prepared 
to issue permits to affected sources. The increase would be 
used for planning and analysis, source identification, staff 
development and training, outreach to industry, and responding 
to the public.
    The third area identified for increases is air pollution 
monitoring. State and local agencies must significantly 
increase their monitoring activities to address the new and 
revised health-based standards related to ozone, lead, nitrogen 
dioxide and sulfur dioxide, which will require the purchase of 
additional ambient air monitoring equipment.
    All three of these areas are of critical importance to 
state and local efforts to improve air quality and protect 
public health and are worthy of additional federal resources.
    In conclusion, NACAA recommends that Congress appropriate 
$309.1 million in federal grants to state and local air quality 
agencies under sections 103 and 105 of the Clean Air Act as the 
President requested.
    We thank you for this opportunity to testify, and we thank 
you for your support of clean air programs in the past.
    [The statement of Mary Sullivan Douglas follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, Ms. Douglas. Thank you very much.
    Mr. Hinchey. Thank you very much.
    Mr. Moran. The next witness will be Tom Cassidy, director 
of Federal Land programs for the Nature Conservancy. Mr. 
Cassidy, nice to see you again.
    Mr. Cassidy. Good to see you, sir.
    Mr. Moran. Thank you.
                              ----------                              

                                          Thursday, March 25, 2010.

                         THE NATURE CONSERVANCY


                                WITNESS

TOM CASSIDY
    Mr. Cassidy. Mr. Chairman, Mr. Simpson, Mr. Hinchey, I 
appreciate this opportunity to present the Nature Conservancy's 
recommendations for fiscal year 2011 appropriations. My name is 
Tom Cassidy and I am director of federal land programs. I 
suspect at this point in the hearing, as Moe Udall said, 
everything has been said but not everybody has said it. My oral 
testimony will highlight six of the key program areas described 
in my written testimony.
    First, thank you, Mr. Chairman and also for Chairman Dicks' 
leadership in restoring critically important funding for the 
Land and Water Conservation Fund. We are gratified by the 
President's commitment to fully fund LWCF and look forward to 
working with Secretary Salazar and the Congress to secure the 
funding necessary to protect America's great outdoors.
    As a member of the Land and Water Conservation Coalition, 
we recommend a funding level of $425 million for the federal 
side of LWCF. This year the Conservancy is specifically 
recommending 33 biologically rich land acquisition projects 
including the Eastern Shore of Virginia National Wildlife 
Refuge, Washington's Turnbull National Wildlife Refuge, and 
continuing large-scale projects in New England's Silvio Conte 
National Fish Wildlife Refuge, and the Montana Legacy Project. 
We also support a large multi-partner request in Wisconsin's 
Chequamegon-Nicolet National Forest.
    Second, we support a forest legacy funding level of $150 
million and are specifically proposing six projects totaling 
$20 million. We hope this year to complete the phased 
acquisition of the Northern Cumberlands project, the largest 
conservation project in Tennessee since the creation of Great 
Smoky Mountains National Park. Other priorities include the 
second phase of projects in New York's Follensby Pond and also 
in Texas.
    Third, the Conservancy welcomes the President's commitment 
to address the global climate challenge and supports the 
Administration's fiscal year 2011 proposed increases for 
climate-specific programs and activities. We appreciate this 
committee's leadership in highlighting climate change 
adaptation and science funding including the National Climate 
Change and Wildlife Science Center.
    Fourth, in wildfire management, we appreciate the 
committee's continued attention to high-cost wildfire and 
proactive management to reduce fuels and protect communities 
from damaging fire. We have several recommendations including 
an increase for hazardous fuels reduction by 10 percent over 
enacted as a necessary investment to reduce threats to 
communities and abate the cost of future wildfire and full 
funding of fire suppression needs through a combination of the 
fire suppression budget, the FLAME Fund and the Contingent 
Reserve Fund.
    Fifth, the Conservancy strongly supports the President's 
proposal for the Forest Service's integrated resource 
restoration budget. We recommend full funding for the 
Collaborative Forest Landscape Restoration Program and the 
Priority Watershed and Job Stabilization Initiative. We also 
support creation of the integrated resource restoration budget 
by combining formerly separate programs. We trust this new 
budget structure will better enable the Forest Service to 
provide important ecosystem and public services such as clean 
and abundant water, renewable energy from biomass, restored 
wildlife and fish habitat, carbon sequestration and healthy 
forests and grasslands.
    Finally, we support an increase for the Cooperative 
Endangered Species Conservation Fund to $100 million. We and 
our partners including multiple state, county governments and 
private landowners have used the habitat conservation plan and 
recovery land acquisition programs to secure key habitats for 
numerous threatened, endangered and at-risk species including 
through conservation easements on high-priority private lands 
such as Northern Idaho's Kootenai Valley.
    Thank you for the opportunity to present our testimony.
    [The statement of Tom Cassidy follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Good. Thanks. Fully comprehensive.
    Mr. Hinchey. Thank you for a very good statement.
    Mr. Moran. Thank you, Mr. Cassidy. Nice to see you.
    Patrick Natale is the final speaker, the executive director 
of the American Society of Civil Engineers.
                              ----------                              

                                          Thursday, March 25, 2010.

                  AMERICAN SOCIETY OF CIVIL ENGINEERS


                                WITNESS

PATRICK J. NATALE
    Mr. Natale. Thank you, Mr. Chairman, Mr. Simpson and 
members of the subcommittee. Good morning. I am Patrick Natale, 
executive director of the American Society of Civil Engineers, 
and I am very pleased to be here to speak to the subcommittee 
on behalf of the American Society of Civil Engineers but also 
the proposed budgets for the Environmental Protection Agency 
and the U.S. Geological Survey for 2011.
    First, ASCE recommends that appropriations of $3 billion 
for the Clean Water Act State Revolving Loan Fund for 2011. The 
President has requested $2 billion for clean water state 
revolving loans, and we support that. Although this reflects 
the President's desire to deal forcefully with the needs of 
America's aging infrastructure that serves our water needs, 
ASCE believes that the 20-year wastewater investment has a gap 
of approximately $400 billion, which requires a greater annual 
commitment. Our report card that we produce every several years 
talks about the importance of the grades on infrastructure. 
This has a barely passing grade of a D minus. Aging wastewater 
plants discharge billions of gallons of untreated wastewater 
into U.S. surface waters each year. In 2008, EPA reported a 
total investment need of America's publicly owned treatment 
works as of January 1, 2004, were at $202.5 billion. This 
reflects an increase of $16.1 billion, or 8.6 percent over the 
EPA's plan or review from 4 years earlier.
    Many of our systems have reached the end of their useful 
life. Older systems are plagued with chronic overflows during 
major rainstorms, heavy snow melts. Either intentionally or 
not, this brings the discharge of raw sewage into our water 
systems. EPA estimates that in August of 2004, the volume of 
combined sewage overflows discharge nationwide is 850 billion 
gallons per year. Sanitary-sewer overflows caused by blocked or 
broken pipes result in the release of as much as 10 billion 
gallons of raw sewage yearly into our systems, according to 
EPA.
    Future investments must be focused on updating, replacing 
existing systems as well as building new ones to meet the 
increasing demand. Improved operation processes include ongoing 
oversight, evaluation, asset management on a system-wide basis, 
and the watershed approach is to look more broadly at water 
resources and coordination with a systematic approach.
    Second, ASCE recommends the appropriation of $2 billion for 
the Safe Drinking Water Act State Revolving Fund for 2011. Like 
wastewater systems, America's drinking-water systems also had a 
near-failing grade of a D minus in our report card of 2009. 
America's drinking-water systems face annual shortfalls as much 
as $11 billion to replace aging facilities and they are near 
the end of their useful lives. This does not account for the 
growth and demand for drinking water over the next 20 years. 
Leaking pipes are estimated to lose 7 billion gallons of clean 
drinking water every day. Federal assistance has not kept pace 
with the demand. Between 1997 and 2010, Congress provided $11 
billion for the drinking-water state revolving fund through an 
annual appropriation. This total approximates the annual 
requirement to meet the needs according to an EPA study of 
2002. Although drinking-water-treatment operators are often 
able to provide work-arounds during disruptions, the Nation's 
drinking-water systems are not highly resistant or resilient 
and present capabilities and failures. They make it up but it 
is not the way to do business.
    Third and finally, ASCE recommends the appropriation of 
$1.3 billion for the USGS in the 2011 fiscal year budget. There 
is a bit of good news here, Mr. Chairman. In a time of fiscal 
constraint, the USGS budget proposal for 2011 represents a 4 
percent increase over the current fiscal year. The 2011 USGS 
budget request totals of $1.1 billion or $21.6 million above 
the enacted level of 2010. But we believe the agency's request 
falls short in several areas of being able to meet the needs 
for basic science in America.
    The President has asked for increases in the programs for 
renewable energy, climate change, water availability and use, 
natural hazards and Landsat. This is all good. But water 
resources investigations activity is funded at $228.8 million 
in 2011, which is $3.5 million below 2010 enacted levels. The 
tight budget led the Department to request budget reductions 
for the Cooperative Water Program, a reduction of $1.9 million 
from the 2010 levels, and the National Streamflow Information 
Program was reduced by almost $600,000 during this time frame.
    On a positive note, program increases were requested for 
the National Water Availability and Use Assessment including 
$1.1 million for groundwater resource programs and $6.4 million 
for the hydrological networks and analysis but the Cooperative 
Water Program is funded at $63.6 million, $2 million below the 
2010 levels. The program builds on the efforts of leveraging 
state, local and tribal funds to support the majority of 
national hydrologic data networks, stream gauges, wells and 
monitoring sites. The Water Research Act Program is funded at 
$6.5 million to promote state, regional and national 
coordination of the Water Resources Institute to facilitate 
research coordination, information and technology transfer. In 
the agency's own words, USGS is a multidisciplinary science 
organization focused on biology, geographic geology, geospatial 
information and water. We believe that this type of science 
effort deserves the strongest fiscal support from Congress.
    Mr. Chairman, this concludes my remarks.
    [The statement of Patrick J. Natale follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thanks very much, sir. I appreciate your being 
willing to testify, Dr. Natale. I guess you are not a doctor 
but you are executive director of American Society of Civil 
Engineers.
    Mr. Natale. That is correct.
    Mr. Moran. It is troubling that we are providing 5 percent 
of the need for clean drinking water and our sanitary-sewer 
overflows is one of the most pressing municipal infrastructure 
problems facing this country.
    Mr. Natale. I appreciate you understanding that, especially 
since you are my representative.
    Mr. Moran. Thank you for being here today. Thank you for 
your testimony.
    That will conclude the testimony. I want to thank all the 
witnesses.
                                          Thursday, April 15, 2010.

              VOICES FROM OUR NATIVE AMERICAN COMMUNITIES

    Mr. Moran. We want to say good afternoon to everyone to 
welcome all of our guests for today's public witness hearing. 
We are going to hear from our partners and our friends in the 
Native American community this afternoon, and we want to 
especially welcome those who traveled very long distances to be 
here. We do appreciate and respect that. I think I speak for 
Mr. Cole as well, though, we are kind of embarrassed that we 
cannot spend more time with you but because we have so many 
witnesses, we are going to have to restrict the time we are 
able to hear from you.
    Before we begin I would like to acknowledge the passing of 
a great American leader, the leader of the Cherokee Nation, 
Chief Wilma Mankiller. She passed away on April 6 of this year 
at her home in rural Adair County, Oklahoma. She often spoke of 
the need for Native Americans to speak out, and I think it 
would be appropriate today to honor her with the following 
quote.
    She said, ``I think the most important issue we have as a 
people is to begin to trust our own thinking again, to 
articulate our own vision of the future, and work to make that 
vision a reality.''
    She once said, ``I want to be remembered as the person who 
helped all of us to restore faith in ourselves,'' and so shall 
she be remembered.
    In March we held our first Native American witness day. The 
challenges these witnesses brought before us were absolutely 
daunting. Among other issues we heard about the need for better 
access to quality healthcare, the need for clean drinking water 
on any number of reservations, and in several situations the 
residents could not even use the water after it had been boiled 
and screened, and still it was not safe to drink, even to boil 
food with. We also heard about the challenges posed by a 
shortage of law enforcement officers on tribal lands.
    This subcommittee was affected, and we are proud of that. 
In this current year the response to Native American issues 
that were brought before the subcommittee caused us to provide 
what was an historic increase, it was a 10 percent increase in 
the Bureau of the Indian Affairs budget. We funded the Bureau 
at $2.6 billion.
    This year the Administration has recognized the need for 
increased funding, particularly for health services. It is an 
issue that is continually raised and appropriately so. So this 
year's Indian Health Services Budget Request from the Obama 
Administration includes a substantial increase. The request is 
for $4.4 billion. It is a $350 million increase over this 
current year's levels, and that is in a freeze budget. So 
almost every other program either got what they got last year 
or less, but the Indian Health Service stands out as a very 
substantial increase.
    Now, we would, and I mean, we cannot make you stay, 
obviously, but we would strongly urge you, certainly invite all 
of you, to stay for the Indian Health Service hearing that is 
going to follow right on the heels of this. Immediately after 
this series of hearings we are going to hear from Dr. Yvette 
Roubideaux, who is the Director of the Indian Health Service, 
and I think it is going to be a very important hearing.
    A couple of housekeeping things. Everyone is going to be 
restricted to 5 minutes. It is the only fair way we can do it 
so we treat everybody equally. If you finish before 5 minutes, 
there is a better chance of us being able to get in a question 
or two. We are going to have to watch the timer closely. When 
the orange light comes on, you have only 1 minute left and 
should begin to wrap up, and then when the red light comes on, 
the time is expired. The entire statement will be put into the 
record; and before we get started, Mr. Cole, would you have any 
comments you would like to share with us?
    Mr. Cole. Thank you very much, Mr. Chairman. I love these 
hearings because this room glitters with turquoise when we have 
these, and it makes me feel at home.
    But I want to first begin by following your lead and 
acknowledge the passing of our good friend, Chief Mankiller. I 
had the privilege of knowing her personally, working with her 
for many years. I was very proud that the House of 
Representatives passed a resolution honoring her remarkable 
life and achievements yesterday, and I do not have the exact 
quote, Mr. Chairman, but she was very famous in Indian Country 
for speaking truth to power, and I cannot recall the number of 
occasions when I heard her introduce herself as Wilma 
Mankiller, Principal Chief of the Cherokee Nation. If the 
United States Government had its way, I would not be chief, and 
there would not be a Cherokee Nation. That is a pretty good 
thing to think about, because that has been historically the 
policy of the country. It has oscillated between, 
``assimilation and accommodation and compromise and recognition 
of tribal sovereignty.'' Nobody was a more articulate and more 
ferocious defender of tribal sovereignty than Chief Mankiller 
was, and I know wherever she is at, she is watching, and 
frankly, would be pleased at this assembly.
    I also want to follow your lead in acknowledging the work 
of our former Chairman and last year's historic increases in 
our budget. It came in large part because of his hard work and 
his bipartisanship in this area. It was a pleasure for me to 
get to work with him and our current Chairman, Mr. Moran. The 
Administration has kept its commitments to Indian Country and 
has taken them very, very seriously. The Administration 
continues to do so in this budget, which, again, I concur with 
the Chairman, I am exceptionally pleased with the increases we 
have seen in Native American and Indian healthcare services.
    It is tried but true but the first Americans are the last 
Americans in a variety of ways. This is particularly obvious in 
statistics like lifespan, health and illness rates. This is a 
commitment that is long overdue in terms of being fulfilled, 
and we are going to work very hard with you, Mr. Chairman, and 
obviously with our friends on both sides of the aisle and with 
the Administration to make sure we continue to build on the 
progress that was made last year. Frankly, we cannot solve 
these problems in a single year. We all know that. They are 
decades really, even longer in duration, but the fact that we 
started and made significant steps in this direction is 
something I think this committee can be proud of on a 
bipartisan basis.
    But, again, I particularly want to single out my friend and 
our senior member on this committee, Congressman Dicks, 
Chairman Dicks. He has gone on to other responsibilities. The 
fact that he is here still tells you how focused he continues 
to be on this community. So thank you for your efforts, and 
again, thank all of you for traveling this distance. I know 
sometimes you wonder if it matters. Believe me, it does. You 
have been speaking for a long time. I think the points you have 
made are finally being listened to and attended to in a 
systematic fashion.
    So I appreciate that, and Mr. Chairman, appreciate your 
leadership and look forward to the hearing.
    Mr. Moran. Thanks very much, Mr. Cole. As Tom has said, Mr. 
Dicks has arrived. Mr. Dicks is now the Chair of the Defense 
Appropriations Committee, but he left a legacy of substantial 
increase, particularly for Indian programs and the Native 
Americans throughout the country have benefited from his 
priority. And so everyone should know the impact that he has 
had, and we will be lucky if we can continue simply in that 
tradition that he has established. He really set a standard of 
responsiveness.
    Norm, did you have anything you wanted to say?
    Mr. Dicks. Mr. Chairman, I would like to thank you for 
yielding, and I want to congratulate you for continuing to have 
this hearing, which is very important, and I think our 
committee has worked on a very bipartisan basis on Indian 
health, on contract support costs, and on urban health clinics. 
Yourself and Mr. Cole and all the other members have been very 
supportive of this. I look forward to hearing from the 
witnesses, I appreciate your leadership, and I wish you well as 
the new Chairman of the subcommittee.
    Mr. Moran. Thank you very much, Mr. Dicks, and of course, 
Mr. Cole, thank you very much for your comments and very 
appropriately giving Mr. Dicks the recognition that he clearly 
deserves.
    Our first witness will be Clarence Skye, the Executive 
Director of the United Sioux Tribes Development Corporation. 
Mr. Skye, welcome.
                              ----------                              

                                          Thursday, April 15, 2010.

              UNITED SIOUX TRIBES DEVELOPMENT CORPORATION


                                WITNESS

CLARENCE SKYE
    Mr. Skye. Good afternoon, Chairman James Moran and 
Representative Cole and Representative Norm Dicks we first met 
back in 1984. So I am a little old.
    Appreciate testifying before the House of Representatives 
Committee on Appropriations and Subcommittee on Interior, 
Environmental, and Related Agencies. The United Sioux tribes is 
made up of Sioux tribes in North Dakota, South Dakota, 
Nebraska, and they were once the Great Sioux Nation, and with 
the Great Sioux Nation they had treaties, and they were very 
sovereign people and proud people back in the early days.
    And like the gentleman said, what Wilma Mankiller said, we 
are not the Great Sioux Nation yet today, but we will be as 
long as we get the things we need and the appropriation. We 
have a dialect, which is the Lakota, Nakota and Dakota Sioux 
tribes, and they are in North Dakota, South Dakota, Nebraska, 
Minnesota, and Montana.
    What we are asking for in the agency programs, and the 
funding request, is to appropriate $1.2 million for the Indian 
Jobs Placement Program through the United Sioux Tribes 
Development Corporation under CFDA number 15.061, otherwise 
listed as United Sioux Tribes Fund Assistance Program. That is 
a very important program because what we do is we create jobs. 
We go out and work with the employers, we work with different 
companies, and we ask them to find employment for our Indian 
people. The Indian person--or tribal members I should say--come 
into our office, and they either come from the Oglala 
Reservation, the Rosebud Reservation, the Cheyenne River 
Reservation, the Standing Rock Reservation, which I am from, 
the Lower Brule or the Crow Creek and the Santee Reservation 
and the Yankton Reservation.
    They come in from their reservation, and there is no work. 
The other day we had a lady, a single parent with six kids, all 
the way down to 3 years old. They had runny noses, and the 
clothes were not in good shape, and they were real poor, and I 
dealt with them. We went and found them a place to live, and we 
found them food stamps, and we went to the state and got after 
them because under state's rights the states are cannibalizing 
federal programs. They are getting a lot of federal programs, 
and we are not privy to them, and we hope that with what I just 
said that it will make a difference when state officials 
testify before you on whether the people are participating in 
those programs. They send the money back to the Federal 
Government and say, no participation, no activity. And so, you 
know, we do not get to be a part of that.
    I will get over my emotionalism here. The other program 
that we are working on is to authorize $1.2 million for a 
National Tribal Cultural Resource Database, and we are working 
with U.S. Geological Survey, and we have a memorandum of 
understanding with them, and right now we are redoing that 
because what they do is satellite photographing of the land, 
and we are starting with the demonstration project with two 
reservations. We would like two under the appropriation.
    And what it does is like, when you go to a hospital, you 
get an MRI. Well, with the satellite photographing, they do an 
MRI of the land. With all the pipelines and gas lines and oil 
lines moving into the country, we want to be sure that we have 
those areas mapped; the sacred sites, the funeral remains, and 
artifacts, so that they do not get destroyed.
    Right now we have the state level signing off and approving 
the progress of the Keystone Pipeline. We want to have this 
program, and we want to work with the Harvard University to 
help us do some of the research. We are trying to get more of 
our Indian students into the science and math area with the 
tribal colleges, and so that is one of the purposes of working 
with the U.S. Geological Survey. Rosebud Sioux Tribe, the 
college, Sinte Gleska University, already has an agreement with 
USGS, and they are making their attempts, but we want to do 
this overall.
    Mr. Chairman, I would like to end my testimony by saying 
that I appreciate and congratulate Congressman Norm Dicks. He 
has been very helpful over the years, and it is hard to see 
somebody go, but changes got to be made. Thank you.
    [The statement of Mr. Skye follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, Mr. Skye. We are going to do 
everything we can to see that Native American people are not 
disadvantaged by the fact that Norm is no longer Chair, and he 
is the Vice-Chair of the committee, and we have a very strong 
advocate particularly in Mr. Cole.
    The folks, the communities that you pull together that were 
in such desperate poverty, how long ago was that?
    Mr. Skye. Mr. Chairman, we did that way back there in 1969.
    Mr. Moran. Yes.
    Mr. Skye. And we had done a lot of work to be sanctioned, 
the organization was sanctioned by all the Tribal Councils. It 
was voted on by resolution, and our main purpose was to do 
economic development, but then as the Indian people became more 
aware of the organization, they demanded more things of me, so 
I had to----
    Mr. Moran. Right. Yes.
    Mr. Skye [continuing]. Do education and everything else.
    Mr. Moran. I just wanted to fully understand that fact. 
Well, I am sure you have made a very positive difference, and 
we appreciate you caring as much as you do.
    Mr. Skye. Thank you very much.
    Mr. Moran. Thank you, Mr. Skye. Were there any questions?
    Mr. Cole. Quick comment, Mr. Chairman.
    Mr. Moran. Yes. Mr. Cole.
    Mr. Cole. I just wanted to thank you for two things. First 
in your testimony, I really appreciate the fact you mentioned 
the roles of President Nixon, Ford, and Reagan played in 
reestablishing self-determination and frankly how much better 
that has made things, because we deal with folks much better if 
we are dealing with Tribal Governments than trying to deal with 
isolated individuals.
    Second, I really want to echo the point that you made about 
the mapping program and the archeological work. Mr. Chairman, I 
had occasion last week when we were on break to visit the 
Oklahoma Archeological Site at the University of Oklahoma, and 
of course, my fellow Chickasaw, Lieutenant Governor Keel is 
here, we are newcomers to Oklahoma. We have only been there 
since 1830, but they have identified 25,000 archeological sites 
in Oklahoma that they have catalogued and some of them going 
back 11,000 years to buffalo-kill sites in the western part of 
the state.
    So getting that identified is important. We all mentioned 
something about Chief Mankiller. She used to have a wonderful 
saying, ``You do not know who you are until you know who you 
were.'' That is a very farsighted emphasis on your part, I 
think, to help us uncover and preserve what is a long, deep, 
rich history in this continent.
    Mr. Skye. Thanks very much.
    Mr. Moran. Thanks very much, Mr. Cole.
    We have also been joined by Mr. Simpson. Thanks for joining 
us.
    Very good. Thank you, Mr. Skye.
    Mr. Skye. Thank you.
    Mr. Moran. Thank you. Next we will hear from Andy Joseph, 
who is the Chairperson of the Northwest Portland Area Indian 
Health Board, Oregon. Mr. Joseph.
                                          Thursday, April 15, 2010.

              NORTHWEST PORTLAND AREA INDIAN HEALTH BOARD


                                WITNESS

ANDY JOSEPH
    Mr. Joseph. Good morning, Chairman Moran, Ranking Member 
Simpson, and Mr. Cole and Honorable Mr. Norm Dicks. I am Andy 
Joseph, Jr. I chair the Portland Area Indian Health Board in 
the Health and Human Services Committee for the confederated 
tribes of the Colville Indian Reservation. For 21 years our 
organization has conducted a detailed analysis of the IHS 
budget. It is used by Congress and the Administration, the 
Indian Health Advocate nationally. I am here today to provide 
our recommendations for IHS fiscal year 2011 budget.
    I want to begin by underscoring the significant health 
disparities that Indian people face and the progress we have 
made to address them over the last 30 years since IHS was 
established in 1954, has reduced maternal mortality by 64 
percent, reduced cervical cancer by 76 percent, reduced 
tuberculosis mortality by 80 percent. The average death rate 
has lowered by 29 percent.
    Despite these improvements, Indian people continue to have 
the highest disparities in the United States; 400 percent more 
likely to die of tuberculosis, 91 percent more likely to die of 
suicide, 300 percent more likely to die of diabetes 
complication, 67 percent more likely to die of pneumonia or 
influenza. Because of these health disparities, the funding 
recommendations this committee makes to the Appropriations 
Committee are critical to improving the health status of our 
people.
    The fundamental budget principle of the Northwest Tribes is 
that you must maintain the basic health program. To do this 
Congress must provide adequate funding to cover pay increases, 
inflation, population growth, and contract support costs. If 
these costs are not funded, tribes have no alternative but to 
cut health services to absorb these mandatory costs.
    We recommend for fiscal year 2011 that at least $469 
million increase be provided to the Indian Health Service as 
follows. We urge the committee to take into consideration 
actual medical inflation. The IHS Congressional justification 
uses a 3.3 percent inflation rate to calculate need in fiscal 
year 2011. Comparatively, the CPI inflation rates for hospital 
services is over 7 percent and for hospital outpatient services 
is over 8 percent.
    We recommend the committee provide $268 million to fund 
medical inflation for IHS Programs and at least $80 million of 
this to provide for CHS Program. The Senate Committee on Indian 
Affairs reports unmet need in the CHS Program to be at least $1 
billion, and an $80 million increase is reasonable.
    We recommend that at least $60 million be provided to fund 
population growth in the Portland area. Our user population 
last year grew by 2.4 percent, and unless funding is provided 
for population growth, services will have to be cut.
    We recommend a $146 million increase to contract support 
costs for funding ongoing CSC needs. Funds to support past 
years shortfalls owed to tribes who have assumed programs on 
behalf of the IHS.
    Health reform holds great potential for Indian people, and 
we encourage the subcommittee to begin thinking about how it 
can assist tribes to implement and benefit from health reform. 
The IHS system does not have the same capacity to provide 
comparable healthcare services across its system. Because of 
this, not all Indian people will benefit on an equal basis in 
health reform. This is a result in the varying levels of IHS 
funding.
    Facilities, infrastructure, staffing packages, and third 
party collections used to provide healthcare. To address these 
we recommend two things. First, funding provided for the Indian 
Healthcare Improvement Fund and through CHS Program must be 
carefully evaluated to consider the unique needs and 
circumstances of CHS-dependent areas. We further recommend that 
the subcommittee monitor the IHS to make sure that the 
resources are allocated carefully and fairly in the Indian 
Healthcare Improvement Fund and in the CHS Program. Otherwise 
it will continue to perpetuate the inequities in the level of 
care provided across the system.
    Second, we recommend that the committee encourage the IHS 
to explore alternative, innovative ideas for facilities' 
construction that will allow tribes to develop additional 
infrastructure, staffing capacities to provide health services 
that will be expanded under health reform. Examples of this 
includes adding staffing packages to the Small Ambulatory 
Constriction Program and develop regional referral specialty 
care centers to maximize CHS funding.
    I thank you, and I am happy to take any questions you might 
have.
    [The statement of Mr. Joseph follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joseph. You know, one time I had breakfast with Norm 
Dicks, and----
    Mr. Moran. And you still remember it? That must have been 
quite a breakfast.
    Mr. Joseph. He asked me where I was from, and I told him 
from the Colville Indian Reservation, and he said, do you know 
Lucy Covington? I said, yeah, that is my grand aunt. He says, 
well, she never used to ask us for anything. She would tell us 
what we were going to do for you. So as a tribal leader, 
government to government, I ask you to or I tell you to--this 
is what I want you to do for us.
    But thank you, Norm Dicks, for all your time that you have 
helped us.
    Mr. Dicks. Thank you.
    Mr. Moran. Good for you. Thank you very much, Mr. Joseph. 
Very good. Well done. You could have actually just made that 
statement, and it would have sufficed on the written testimony.
    Next we will hear from Fawn Sharp, who is the President of 
the Quinault Indian Nation in Washington State. Ms. Sharp.
    Mr. Dicks. Welcome, Fawn.
                              ----------                              

                                          Thursday, April 15, 2010.

                         QUINAULT INDIAN NATION


                                WITNESS

FAWN SHARP
    Ms. Sharp. Thank you, Chairman. First of all, I would like 
to congratulate you on this new post, and I would also like to 
congratulate the committee as a whole for the amazing 
accomplishments and success of the work of this committee over 
the last year and especially to our representative, Congressman 
Norm Dicks. Norm, thank you for your dedication and effort to 
Indian Country.
    I have three basic initiatives, priorities I would like to 
mention for and on behalf of the Quinault people, but before I 
do that I would like to first of all draw your attention to the 
first page of our testimony. We have laid out our 
recommendations in support of the affiliated tribes to the 
Northwest Indians, the Northwest Portland Area Indian Health 
Board, and the Northwest Indian Fisheries Commission. We have 
also identified a number of national and self-governance 
requests and recommendations that we would like to lend the 
support of the Quinault Indian Nation to.
    The first item that we would like to provide testimony on 
relates to the Quinault River Blueback Restoration Project. For 
those of you that are not familiar with that project, two years 
ago the Quinault Indian Nation looked at the Upper Quinault, 
and we saw widespread decimation of the flood plain. We saw 
houses being pulled into the river, we saw infrastructure being 
destroyed. For the last century the Upper Quinault has been 
wildly shifting from the north to the south.
    Now, we do have our own vision for what we would like to 
see in the Upper Quinault. It is about an 80-year vision. This 
is what we call a legacy plan that the Quinault Nation is 
putting together. We would like to see a mature, stable forest 
in place, large carbon sinks. It is an opportunity that we not 
only stabilize and secure local communities and infrastructure 
but to provide restoration to our sacred Blueback salmon.
    Along the way this project is going to create 20 to 30 jobs 
for construction. It is going to provide a sustainable economy 
for well over 100 commercial fishermen and 25 sport fishing 
guides. So it is a project that we have enlisted the local 
community, the state, the Army Corps of Engineers, and it is 
going to take 80 years to see this vision come to fruition, but 
in the last two years we have taken our very first step. We 
have constructed 12 engineered log jams and are proving to be 
effective. The river has shifted to the north, and that entire 
bank has been secure. So in a short period of time we have seen 
immediate success, and we plan to do that through fiscal year 
2019. Maybe when I am 86 years I will see mature forests in the 
flood plain. I will be 40 next month, Norm.
    Mr. Dicks. Too long to wait.
    Ms. Sharp. The next item that I would like to speak to you 
about is a request that we have for resource protection and 
enforcement. The Quinault Nation is comprised of over 200,000 
acres of forest and lands. There are 22 points of entry into 
the interior of our reservation from Lake Quinault to the 
Queets community. We have seen widespread natural resource 
looting, a destruction of our sacred materials that we use for 
basketry. We also would like to step up enforcement and provide 
six additional enforcement officers for our fishery, wildlife, 
and securing our treaty-based resources.
    So we want to provide a comprehensive approach to ensuring 
those that are recklessly disregarding our laws that we have in 
place to ensure that our resources are sustained into the 
future are brought to justice.
    The last item that I would like to speak to you about is 
our Comprehensive Substance Abuse Strategy. The Quinault Nation 
is seeking $500,000 to step up our Substance Abuse 
Comprehensive Strategy to seek, not only treatment, but 
prevention, after we have seen widespread and prolific increase 
to prescription pain medication, as well as the continued 
threat of methamphetamine within our communities.
    Our Comprehensive Strategy is seeking to leverage 
participation throughout the community. We have encouraged 
collaborative relationships with governmental departments, 
health authorities, medical professionals, community members, 
churches, and families. We see and recognize that to address 
drugs in our community it is going to take a comprehensive, 
widespread approach throughout the entire Nation and our local 
community.
    So with that I would like to thank this committee. It has 
been a pleasure, and I do thank you for your time.
    [The statement of Ms. Sharp follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, Ms. Sharp. Thank you very much.
    Mr. Dicks.
    Mr. Dicks. I just want to say to Fawn that we are glad you 
are here, and we know this Blueback salmon issue is serious, 
and we appreciated your supplies that were sent to the event 
last week, and we thank you very much.
    Ms. Sharp. Excellent.
    Mr. Dicks. Thank you.
    Mr. Moran. Thank you, Ms. Sharp.
    All right. Next we will hear from Jefferson Keel, the 
President of the National Congress of American Indians. Nice to 
see you, Mr. Keel.
                                          Thursday, April 15, 2010.

                 NATIONAL CONGRESS OF AMERICAN INDIANS


                                WITNESS

JEFFERSON KEEL
    Mr. Keel. Thank you. Good afternoon, Mr. Chairman.
    Mr. Moran. Good afternoon.
    Mr. Keel. Congressman Cole, Congressman Dicks, Mr. Simpson. 
Thank you for allowing us this opportunity to bring to you some 
items of interest in Indian Country.
    The first area I will address is public safety and justice. 
In Interior, the Administration has proposed an Empowering 
Tribal Nations, Protecting Indian Country Initiative that 
provides an additional $20 million in program funding over the 
fiscal year 2010, enacted level. The Department of the Interior 
is to collaborate with Justice for additional FBI agents 
dedicated to protecting Indian lands.
    NCAI has concerns about the proposed transfer of law 
enforcement funds from Interior to the FBI. In the 1980s the 
Reagan Administration transferred the entire BIA budget for 
investigations to the FBI. Even though these funds are now 
built into the FBI budget, the FBI has sometimes lost sight of 
its mission to provide these services to Indian Country.
    In addition, tribal leaders have consistently stated that 
the highest need is to provide more funding and more consistent 
funding for regular policing budgets. From 2005, to 2010, 
funding for BIA law enforcement has risen by 68.4 percent, from 
$180 million to $303 million. The major purpose of this 
increase was to put more cops on the street to combat violent 
crime, which is what tribal leaders have called for.
    Upon review of the Law Enforcement Spending Plan for fiscal 
years 2005 to 2009, the greatest percentage of increases went 
to the BIA Central Office, BIA District Commands, and the BIA 
Direct Service Operations. The smallest increases went to 638 
and self-governance tribes. We would urge the subcommittee to 
ensure that substantial law enforcement funding increases make 
it down to the tribal level and provide the needed boots on the 
ground.
    Next is Energy and Natural Resource Programs. The 
President's fiscal year 2011, budget request for EPA would 
establish a new focused, multi-media Tribal Implementation 
Grants Program to support on-the-ground implementation of 
environmental protection on tribal lands. These grants for 
which $30 million is requested are tailored to address an 
individual tribe's most serious environmental needs. We support 
this initiative, and we also support the $8.5 million increase 
for the General Assistance Program and the proposed percentage 
increase from 1.5 percent to 2 percent for the tribal set-
asides under both the Clean Water and Drinking Water State 
Revolving Funds.
    The 2011 budget request includes $2.5 million for energy 
projects given the potential for development of both 
conventional and renewable energy resources on tribal lands and 
the drastic impacts that climate change have in Indian and 
Alaskan native communities. NCAI supports these requested 
increases with hope that such funding could be sustained and 
increased in future years.
    We also support the requested increases in the Water 
Management Planning and Pre-Development, especially given level 
funding over a number of years for the BIA Natural Resources 
Programs.
    The 2011 budget proposes an increase of $28 million in 
Tribal Priority Allocations, TPA, which is 3.4 percent above 
the fiscal year 2010 enacted level. TPA funds the core 
governmental services that tribes provide to their citizens. We 
would like to request a general increase to TPA and BIA in 
general that takes into account inflation, pay costs, and 
population growth. As with other federal agencies, calculating 
mandatory cost increases is essential to maintaining the 
current level of services. These mandatories are unavoidable 
costs and include inflation, pay costs, and population growth 
as stated.
    If these mandatory requirements are not funded, tribes have 
no choice but to cut services, which further reduces the 
quantity and quality of core governmental services available to 
our Native people.
    To put this in context, over the last eight years of the 
largest six Interior agencies, BIA received the smallest 
percentage increase of 11.3 percent, while the Fish and 
Wildlife Service budget expanded by 26 percent, and the 
National Park Service grew by 21 percent. NCAI and tribes 
understand your subcommittee must weigh many needs and 
priorities, but we hope that we can work with you to ensure 
trust responsibility to tribes is honored in the budget 
process.
    Again, thank you for the opportunity to testify this 
afternoon.
    [The statement of Mr. Keel follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Mr. Cole.
    Mr. Cole. Thank you very much. First of all, I have got to 
point out just for the committee, Mr. Keel wears two hats. He 
is also the Lieutenant Governor of my tribe, Chickasaw Nation, 
and we are very proud of that and frankly, very proud of the 
fact that before he was involved in tribal government, he was 
busy defending the United States of America for most of his 
career as a professional solider. So thank you for that.
    I do have one question. It really does not relate to your 
testimony because I know you are here from NCAI, but one of the 
things I would like the committee to be aware of and I am sure 
we will talk about in the next session, is the Joint Venture 
Opportunity in Healthcare that the Chickasaws have undertaken 
with the BIA, because I think this is a way forward, 
particularly for tribes that are able to generate economic 
activity.
    In my district, Mr. Chairman, currently the Chickasaws are 
building a $170 million hospital, there was no federal money 
involved in the construction activity, but obviously there will 
be federal support in an ongoing basis in terms of the 
operation. So talking about that as an alternative or an 
additional model I think is very important for this committee 
to understand what the range of possibilities there might be 
for all tribes.
    Mr. Moran. Very good.
    Mr. Keel. Absolutely. The opportunity there, and as 
Congressman Cole just mentioned, there are some tribes that 
have the ability to enter into these joint venture arrangements 
with the Federal Government, and that is that the tribe can 
construct a hospital, in our case we are constructing a 
hospital, and we simply asked the Indian Health Service to 
staff it, and we already have a hospital, but we are asking for 
a little bit of an increase in the staffing to raise the level 
and quality of services that are provided to Indian people.
    In Southern Oklahoma we currently have a hospital that was 
built in 1980, to serve about 50,000 outpatient visits per 
year. For the last 7 years we have been over 350,000 visits per 
year. So, you know, we outgrew the need for that. We outgrew it 
15 years ago, and so it is time for us to be able to meet the 
needs of the Indian people, and this hospital will go a long 
way in ensuring that.
    We think it is a great model and something that Indian 
Country could model in the future.
    Mr. Moran. Sounds like it is.
    Mr. Cole. It is. It is amazing.
    Mr. Moran. I wish we could duplicate that all over the 
country on reservations but good. Thank you.
    Mr. Simpson. Mr. Chairman. You mentioned something that I 
think bothers this committee a little bit, and that is the 
concern that you expressed that we express also, transferring 
the law enforcement funds from Interior to BIA.
    As I understand it, one of the problems that the FBI has 
when they prosecute crimes on a reservation is that they go 
there, and oftentimes at the crime scene, the first officer 
that is going to be there is your local tribal officer and 
oftentimes they do not have the training and so forth to secure 
a crime scene, and so when the evidence gets disturbed, they 
have difficulty prosecuting a crime.
    Would not we be better off in pushing those funds down to 
train the tribal officers in securing crime scenes and those 
types of things rather than giving it to the FBI?
    Mr. Keel. Absolutely. That is exactly our point, that we 
believe that if we had adequate funding, we could train our 
local police forces in exactly that, in treating crime scenes, 
making the appropriate arrests when time is of the essence, and 
prosecuting crimes on Indian Country.
    Mr. Simpson. Well, Mr. Chairman, as we have talked about in 
prior hearings, I still think it would be a good idea when we 
have our hearing schedule over the whole joint hearing with 
Commerce, justill, Science, about this issue and talk to them 
about it and maybe a little joint hearing.
    Mr. Moran. Absolutely. Thank you, Mr. Simpson.
    Mr. Keel. Thank you very much.
    Mr. Moran. Thank you very much. Good testimony, Mr. Keel.
    Now we will hear from Nate Tyler, who is the Vice-Chair of 
the Makah Tribal Council in Washington State.
                              ----------                              

                                          Thursday, April 15, 2010.

                          MAKAH TRIBAL COUNCIL


                                WITNESS

NATE TYLER
    Mr. Tyler. Good afternoon. First and foremost I would like 
to congratulate you on your Chairmanship. Also, I would like to 
thank Mr. Norm Dicks for everything you have done for all 
tribes, your commitment, your dedication. We appreciate that.
    Mr. Dicks. Thank you.
    Mr. Tyler. Especially the Makah Tribe.
    Mr. Dicks. Thank you.
    Mr. Tyler. My name is Chelup. My family name means warrior. 
I was given the name Chelup after the Gulf War and Somalia. I 
am joined by T. J. Greene, Makah Tribal Council Treasurer. We 
have four priority issues: assistance for our decrepit jail, 
increased contract support costs for our Indian Health Service, 
which we compacted in '06, assistance from CERCLA or the 
Defense Department for helping us close the Warmhouse Beach 
Dump on the Makah Reservation, and we are asking for the 
National Park Service to consult with the tribes on their 
expansion plans in the Lake Ozette area.
    The current public safety correctional facility is totally 
inadequate in size, capacity, and design for our community's 
needs. BIA did an audit in 2001, and found it in non-compliance 
with almost all of the BIA's detention facility standards, and 
it has gotten worse since then. Our tribe wants to repair the 
current facility by the most cost-effective means possible to 
meet minimum standards. We believe the best way to do that is 
purchase a modular unit that can be attached to the existing 
facility. It will be able to house inmates, as well as making 
improvements to the existing building for administrative uses 
and to the adjoining grounds.
    We seek Congress's support for our modest Byrne 
Discretionary Grant request of $105,200 to cover 80 percent of 
the cost of improvements to the existing building and grounds, 
remodeling the kitchen and laundry, providing new water and 
sewer connections, repairing or replacing the HVAC system, new 
vents and new security camera and better lighting. This request 
will help us provide a correctional facility that meets the 
public safety and public health needs of our community.
    Contract support costs. In 2006, we compacted with the 
Indian Health Service. For 3 years we did not see an increase. 
We were stuck at 14 percent contract support costs, and you 
know, we spent a lot of effort coming back and forth between 
the Pacific Northwest and Washington, DC, and Maryland and 
Portland. A lot of effort was put into that, and once again, we 
do thank, Mr. Dicks and this subcommittee, on what they have 
done as far as contract support costs go.
    Mr. Moran. I think the average is about 12 percent.
    Mr. Dicks. No. It is much higher. They went to 12 percent--
--
    Mr. Moran. Average is probably about----
    Mr. Tyler. We are currently sitting at about 88 percent.
    Mr. Dicks. What would it be across the board for most 
tribes?
    Mr. Moran. Of the total project the cost for support costs, 
that ratio is about 12 percent across the board, I believe. In 
other words, the overhead. It is about 12 percent for contract 
support costs.
    Mr. Tyler. We urge this subcommittee to continue in the 
efforts of trying to close that gap and fund it at 100 percent.
    The Warmhouse Beach Dump. The Makah Tribe has taken 
aggressive steps, we have been for the last 3 years to address 
this serious environmental issue and the health risks posed by 
the Open Beach Dump. It is a decade-old landfill started by the 
DOD and used by the DOD and other federal agencies. It is 
leaking harmful chemicals into nearby streams which flows into 
the pristine waters of the Straits of Juan de Fuca, a 
traditional shell fishing location for the Makah people.
    We have initiated processes that could lead to the listing 
of the dump on EPA's list of Superfund sites. We will begin 
construction soon of a transfer station that would handle all 
the on-reservation garbage needs.
    As a result of the legacy of waste disposed by federal 
agencies on tribal land, Federal Government bears substantial 
responsibility for cleaning up the dump. The tribe has served a 
demand letter on the Defense Department seeking federal 
monetary contribution to the tribe's clean-up effort, which is 
projected to cost between $6 and $10 million.
    We have waited many years and tried many different avenues 
to close this dump. We believe that our latest actions are a 
necessary last resort to protect the health of our citizens and 
would appreciate the subcommittee's support of our efforts.
    Olympic National Park. The Olympic National Park is talking 
about expanding up to 12,000 acres in our traditional UNA. They 
are looking at currently an expansion of 240 acres. Friday was 
the first time we actually made government-to-government 
contact with the Park Service. The Superintendent did come out 
to the Makah Reservation.
    We filed comments on the proposal, which focused on the 
needs from the National Park Service to engage in government-
to-government consultation with the Makah Tribe regarding this 
proposed boundary expansion in order to ensure that it does not 
impair the treaty hunting and gathering rights of the Makah 
Tribe in this area. Our tribe reserved the right to hunt and 
gather on ``open and unclaimed lands'' in the 1855 Treaty of 
Neah Bay. This land falls within the ceded territory that would 
give them up.
    So we request Congressional legislation to implement this 
boundary expansion to include a treaty savings clause, to 
ensure that our tribe's existing treaty rights on these lands 
are preserved. In the meantime we have started that discussion 
with the Park Service, and that happened this last Friday.
    We appreciate your time, and we do thank you guys for 
everything you have done this past year.
    [The statement of Mr. Tyler follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you very much, sir. We appreciate your 
testimony, Mr. Tyler.
    Mr. Simpson. Just one question.
    Mr. Moran. Mr. Simpson.
    Mr. Simpson. You mentioned the jail facility you have. I 
never realized before until we started having all the 
testimony, that there are many tribes in the Pacific Northwest 
in the Puget Sound area, and I suspect a lot of them have the 
same issue with jail facilities and so forth.
    Have you ever looked at regional facilities? Several tribes 
getting together and building a regional facility to address 
those needs?
    Mr. Tyler. You know, we are at the beginning of the world. 
You know, we are probably a good hour and 40 minutes to the 
closest city, the closest reservation to us that would----
    Mr. Dicks. They are right at the northwest corner. You have 
the Pacific Ocean, and the Straits of Juan de Fuca.
    Mr. Tyler. Yeah.
    Mr. Dicks. Makah is right there at the northwest corner of 
the lower 48. So they are pretty isolated.
    Mr. Simpson. Okay.
    Mr. Dicks. The Quinaults are a couple of hours south and--
--
    Mr. Tyler. Three hours south.
    Mr. Dicks [continuing]. The Elwas are in Port Angeles, 
which is at least an hour and a half or two.
    Mr. Tyler. Yes.
    Mr. Dicks. So that is a ways away.
    Mr. Simpson. But conceptually it is a good idea.
    Mr. Dicks. It is a good idea.
    Mr. Simpson. Yeah.
    Mr. Greene. Congressman, if I can real quick just respond 
to that a little bit, I am T. J. Greene. I am the Treasurer for 
the Makah Tribe. I am the former chief of police for the Makah 
Tribe also.
    We did look at regionalization, talked with other tribes on 
it, and one of the issues with it, with doing a regionalization 
plan is because of our remote locations, the costs of staffing, 
transportation, and all those types of overhead costs go up 
dramatically when you do that, so it creates an extra burden 
for the tribes in our region when we do those sort of things. 
And those are not quite addressed through that regionalization 
planning when we do that.
    And if I can real quick also speak in support of something 
President Keel touched on, on the funding coming down to the 
officer level. You know, that makes a great difference. When I 
was the chief of police, I focused hard on training, and we had 
a serious incident that occurred on our reservation involving a 
non-member, an assault rifle, and while the FBI and local 
sheriff were trying to sort out jurisdictional issues, our 
officers were the ones processing the crime scene, did it from 
beginning to end, and turned the case over to the FBI. The FBI 
had no problems at all with that case. They were impressed with 
the level of training, the level of the skill that was provided 
by our officers, so that makes a real difference when that sort 
of thing can happen.
    Mr. Moran. Thanks very much. Appreciate it, Mr. Greene. 
Thank you.
    Mr. Dicks. I need to ask one question. Is your dad Dan 
Greene?
    Mr. Greene. That is my brother.
    Mr. Dicks. Your brother. Wonderful.
    Mr. Greene. Thank you.
    Mr. Dicks. We fished a lot together up there.
    Mr. Moran. All right. The next witness will be Sam Penney. 
He is actually the Chairman of the Nez Perce Tribal Executive 
Committee from Idaho. So this is going to be Mr. Simpson's fan 
club, and we just apparently heard from Mr. Dicks' fan club. 
Well deserved.
    Mr. Dicks. Thank you.
    Mr. Moran. Mr. Penney.
                              ----------                              

                                          Thursday, April 15, 2010.

                  NEZ PERCE TRIBAL EXECUTIVE COMMITTEE


                                WITNESS

SAM PENNEY
    Mr. Penney. Good afternoon, Mr. Chairman, members of the 
committee, and I would like to congratulate as well Congressman 
Dicks from the Northwest and Mike Simpson from Idaho's second 
district.
    I have submitted my testimony for the record, and I would 
just like to say a few things briefly.
    As with any government the Nez Perce Tribe provides a wide 
variety of services, not only to our tribe members, but also to 
the community at large. The Nez Perce Tribe operates a health 
clinic with a satellite office and a tribal police force of 16 
officers. We have a social service department, a comprehensive 
natural resource program that does work in forestry, wildlife 
management, land services, and land management, habitat 
restoration, air quality, smoke management, water quality and 
sewer service. We also have one of the largest fisheries 
department of any tribe in the country. We have a fishery's 
office in Lapwai, Idaho, Orofino, Idaho, McCall, Idaho, and one 
office in Joseph, Oregon, and we do a lot of work on the 
restoration of listed species under the ESA.
    I will speak briefly on several related agencies as well, 
Mr. Chairman. The tribe supports the President's 8.7 increase 
in spending for the Indian Health Service. As I mentioned, the 
Nez Perce Tribe operates two clinics. For example, under 
Nimiipuu Health, we served approximately 3,800 patients in 
2009, with a contract health service expenditure of $4.5 
million in 2009, but had an appropriation of only $3.3 million, 
which is a huge shortfall. Many times you hear about the 
deferred services for tribe members, and often we hear here in 
Washington the term, health rationing, and that is actually 
what it is. It ends up to health rationing of our tribal 
members' health.
    Let us speak briefly about BIA. The Nez Perce Tribe 
supports President Obama's budget request regarding increased 
spending for the BIA with an increased emphasis on law 
enforcement and trust land management. I think we are all 
familiar with the Cobell case and all the related issues 
regarding records, land titles, surveys, just a number of 
things that go along with Cobell.
    The Nez Perce Tribe also supports increased funding for law 
enforcement. The Nez Perce Tribe currently, because of the 
shortfall in our contract, contributed about $600,000 a year to 
law enforcement. That currently comes out of our fuels taxes to 
make up that shortfall.
    The tribe also supports increased funding for the law 
enforcement and public safety in the Protecting Indian Country 
Initiative. The Nez Perce Reservation covers about 1,200 square 
miles and covers five counties and has a mixture of tribal and 
non-tribal residents. Since I testified here last March there 
have been two incidents where a tribal member was shot fatally. 
Both of these incidents have created a sense of unease on the 
reservation. Proper funding for the federal authorities, in 
conjunction with passage of the Tribal Law and Order Act, is 
needed.
    What was apparent to me, Mr. Chairman, during the two 
shootings I referred to was the coordination that is needed 
between the U.S. Attorney General's Office, the FBI, and the 
Office of Law Enforcement Services under the BIA.
    I will speak a little bit about the Snake River Basin 
Adjudication. In 2004, the Snake River Basin Water Act was 
enacted. A component of that agreement was a transfer of 11,000 
acres of BLM land within the reservation to the Nez Perce 
Tribe. The lands were supposed to be surveyed as part of the 
transfer, but funding for those surveys has not been made to 
this date. The current budget calls for $695,000 for this year 
to begin that process. Although this will not cover the full 
cost of the surveys, it will be a great start to getting that 
project done.
    Also, Mr. Chairman, I will speak briefly about EPA. The 
tribe was pleased that Administrator Lisa Jackson proposed a 
$1.3 billion for state and tribal partnerships when she 
testified before this committee. In addition to the Air Quality 
Program, the tribe is currently in facilitation discussions 
with the State of Idaho that are being funded through grants 
from EPA. The facilitated discretion involves the tribe 
adopting water quality standards to improve water quality on 
the Nez Perce Reservation, and we look forward to continued 
funding to continue that process.
    Under the U.S. Forest Service the tribe also supports 
increased funding for the U.S. Forest Service in the protection 
of treaty reserved rights. Under our treaty of 1855, the 
treaty-reserved hunting, fishing, gathering rights are very 
important to the Nez Perce people. Our areas are rich in 
natural resources. We have had a good working relationship with 
the Forest Service. We have a forest agreement where the forest 
supervisors come to meet with us to discuss issues of 
importance to the Nez Perce Tribe.
    Also, we have issues with bighorn sheep, and I am just 
using this as an example of the partnerships we have with the 
Forest Service and other federal entities over the years. We 
are currently working on a bighorn sheep restoration in the 
State of Idaho where scientists believe diseases are 
transmitted by domestic sheep to wild bighorn sheep. So we are 
working hard to try to address that concern and also help to 
reduce the impacts to the domestic sheep industry.
    We are also working on a bison issue over in the 
Yellowstone area. The tribe is looking for a funding solution 
to help the bison hunt in the Gallatin National Forest near 
Yellowstone Park. More funding for the work to assist the 
Forest Service, the Fish and Wildlife Service, and the National 
Park Service to help meet the hunting rights of the Nez Perce 
Tribe is needed.
    And I will conclude, Mr. Chairman, in my brief statement 
just to summarize what I stated about the importance of 
partnerships, you know, with the various federal agencies. I 
think we found with especially a lot of the ESA work that we 
have done on fisheries that without the partnerships between 
the Forest Service, the Nez Perce Tribe, some local entities, 
Bonneville Power Administration, that it seems at times that, 
you know, not one entity has enough funds to do, you know, one 
project, but when we can work in partnership, there are a lot 
of things that we have been able to do, especially regarding 
endangered species, listed fish.
    So, Mr. Chairman, I thank you for this time.
    [The statement of Mr. Penney follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, Mr. Penney. Mr. Simpson.
    Mr. Simpson. Mr. Chairman, let me just say thanks to Sam 
for hosting me and my Deputy Chief of Staff last August when we 
came up and spent a day. He took us all around the reservation, 
showed us what was going on, and if Norm would have been with 
us, he would still be at the fish hatchery trying to figure out 
how to get those salmon. I know that. But, thank you. I enjoyed 
it very much and learned a lot.
    Mr. Penney. Thank you.
    Mr. Cole. Mr. Chairman, I just have one----
    Mr. Moran. Yes. Mr. Cole.
    Mr. Cole. This comes up over and over, but Chairman, you 
have got extensive experience in all ranges of tribal 
operations, and you have touched on law enforcement and the 
challenges that you face there. Thank you very much for the 
plug for Representative Herseth Sandlin's very good effort to 
streamline, overhaul, and beef up enforcement. That is an 
important piece of legislation that needs to move.
    I would like to get your opinion. One of the problems I 
have seen across Indian Country is, again, the relative 
weakness, honestly, of tribal jurisdiction, the inability to 
enforce your own laws on non-Native populations and to have 
anywhere near the range of criminal options. You know, if I 
went to a small town in Virginia or Washington and committed a 
crime, I would be subject to the full force of the law in the 
local jurisdiction. That is not true if you are a non-Indian 
coming onto Indian Country.
    What difference do you think it would make to law 
enforcement if you had comparable abilities to a local 
government in terms of both arrests and penalties?
    Mr. Penney. Well, I think first of all our tribal officers, 
their first concern is public safety, no matter who the officer 
is, to try to secure whatever the situation is until the 
appropriate law enforcement arrives, and just recently the 
Corlain Tribe in which I testified at the Idaho State 
Legislature, had some cross deputation agreements with the 
local counties, and one of the local sheriffs refused to enter 
into an agreement, the Corlain Tribe proposed HB-500, which 
would provide a mechanism for them to enter into such an 
agreement.
    But what takes place normally, in the Corlain case in 
particular, was say if there was a crime committed that they 
could be detained, but they would have to call for a local 
sheriff or Idaho State Police or someone else to arrive at the 
scene, and during that testimony many times they said that they 
never responded so that the person was just let go. So it does 
create a void in the safety of, not only tribe members, but all 
people within the reservation boundary.
    Mr. Cole. Yeah. Mr. Chairman, I would just like to echo the 
point that Mr. Simpson said. I mean, this really is an 
appropriate topic for a joint hearing between our subcommittee 
and CSI, not just on the funding and the FBI issue, but the 
whole problem of, frankly, the relative, you know, what do we 
do to make sure that the law enforcement that is the first-line 
responder and the justice system that is there, has the 
appropriate range of authority to make sure that its citizens 
and other citizens that come into this territory are protected. 
I just think this is an enduring, ongoing problem in Indian 
Country.
    Mr. Penney. If I may, Mr. Chairman, just one final 
statement about law enforcement. I think for many tribes, 
including our tribe, we believe our officers are well trained. 
They go to the Federal Academy, many of them go to the State 
Post Academy, and some in our case go to Advanced Idaho State 
Police Academy. So, you know, we believe hopefully we can 
provide the necessary training, but a lot of it is left up to 
the local sheriff, whether they want to enter into an agreement 
or not. If they do not, then there is no mechanism to do that.
    Mr. Moran. Well, you have some language for the report you 
may want to suggest to Mr. Cole in that area. There seems to be 
some agreement on that issue, and thank you very much, Mr. 
Penney.
    Mr. Penney. Thank you.
    Mr. Moran. Dr. Roger Bordeaux is the Executive Director of 
the Association of Community Tribal Schools in California.
                              ----------                              

                                          Thursday, April 15, 2010.

                ASSOCIATION OF COMMUNITY TRIBAL SCHOOLS


                                WITNESS

DR. ROGER BORDEAUX
    Mr. Bordeaux. Mr. Chairman, members of the committee, thank 
you for allowing me a few minutes to talk to you about the 
appropriations of Interior, and I specifically want to talk 
about the inequities that exist in the Bureau of Indian 
Education in regards to the distribution of their 
appropriations.
    Over the last five or six years their education management 
budget has increased by 288 percent from $8 million to $25 
million, and that did not even include an additional $10 
million that they get from the Department of Education and then 
over that same time period they have been increasing their 
Program Adjustment Funds and what they call Program Enhancement 
Funds, which are small pockets of money here and there that 
they use to dictate to schools what kind of programs they are 
to have and how much they are to have. So collectively, they 
have increased their total amount by well over 250 percent, 
from close to $10 or $15 million, five or six years ago to over 
$55 million right now.
    The inequity exists when you go and look at the five 
programs that are funded by the schools that actually get down 
to the school level, in the school, in the classrooms. The 
Indian School Equalization Program, the Facilities Management 
money, the Facilities Operations money, the Transportation 
money, and the Tribal Grant Cost Support funds. All of those 
have either had zero increases over the last five or six years 
or small increases, and I put charts in all of the testimony to 
identify all of that, and it is real glaring to us that it is 
almost like the Bureau of Indian Education is making a 
conscious effort to manage from 1,000 or 2,000 miles away all 
of the schools that they fund, even though they are tribally 
operated.
    So what we are asking is that you take a look at that and 
possibly use some of that funding to decrease those amounts for 
management and get that money down to the schools where it is 
necessary. The Bureau has a process for all five of those 
programs that I talked about, either through a formula that is 
required by legislation or required by regulations to develop a 
formula that says this is the need in each one of those cases. 
There is a formula for the Indian School Equalization Program 
need, the Facilities Maintenance and Facilities Operation 
monies are both driven by a formula, and those programs are 
both constrained right now anywhere from 56 percent up to 98 
percent or something like that. The transportation costs also 
can be done through a formula system, and the contract support 
costs also can identify the need.
    So they know what the need is. I mean, the total need right 
now, if they fully funded, is about an additional $171 million 
for all of the programs. But we realize it is kind of 
unrealistic to ask for $171 million in this time period, but I 
think we could come up with $20 to $40 million that was already 
within the budgets to transfer from Education Program 
Management, and a lot of these other things, and into the 
school systems.
    We have some recommendations on the last page of our 
appropriations of what we think should happen. The last thing I 
think that we would also like to talk about is in the 
appropriation language since 1995, there is some language that 
restricts existing schools from having program changes or 
expanding their school system. So if they have a K to 8 program 
and they want to go to high school, they cannot do it at 
existing schools, and then there is also more or less a 
moratorium on new school starts. So if another tribal 
government wanted to try to get a contract school started or 
grant school started, they could not do that because of the 
restriction that has existed in the appropriation language 
since 1985.
    We have been talking to a number of people that have an 
interest in possibly running their own school system at the 
tribal level but because of that language they cannot do it. So 
we ask you to consider lifting it and possibly putting a 
process in to help new schools start and program expansions, 
but still not attacking the current dollar pie that we have for 
the 185 schools that are funded right now.
    So in a nutshell, that is what is in the testimony, and we 
would also be more than willing to provide additional 
information if you need it to show you what our concerns are. 
Thank you for your time.
    [The statement of Mr. Bordeaux follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Very good, Dr. Bordeaux. Thank you.
    Mr. Cole.
    Mr. Cole. I think you make a really important point, 
because this committee has actually done, I think, a very good 
job, certainly in the last couple of years, to put additional 
money where it is needed. I do not know that we track it as 
well as we would like to but sort of push it through the 
bureaucracy down to local levels. It is exactly the same 
problem Mr. Simpson was pointing out with law enforcement. 
There are significant increases, but are they really going to 
where the rubber meets the road, and this is a perfect example.
    I particularly appreciate your emphasis on local management 
of the schools. You know, it is pretty tough if somebody making 
the decisions is 2,000 miles away. It is a lot different if 
people making the decisions are right where parents are at and 
where students are at. They not only know more, frankly, they 
are subject to more scrutiny and at least. As one parent put it 
to me, I would just like to be able to get my hands around the 
neck of the person that is making this decision. They are too 
far away right now, and I think that is a good thing. Local 
management meets local responsibility, so I hope, Mr. Chairman, 
we really look seriously at this as a way of pushing some of 
this money down to very hard-pressed schools and students. I 
think it would be very well used.
    Mr. Bordeaux. We will do whatever we can to help you guys 
with the information you need. Thank you.
    Mr. Moran. Thanks, Dr. Bordeaux. Thank you very much.
    Marvin Yellowhair is the president of the Black Mesa 
Community School Board on the Navajo Reservation in Arizona.
                              ----------                              

                                          Thursday, April 15, 2010.

         BLACK MESA COMMUNITY SCHOOL BOARD (NAVAJO RESERVATION)


                                WITNESS

MARVIN YELLOWHAIR
    Mr. Yellowhair. Good afternoon, Mr. Chairman and members of 
the subcommittee. My name is Marvin Yellowhair. I am a School 
Board President of Black Mesa Community School, a K through 8 
school located on 6,700 feet elevation. One of the most remote 
parts of the Navajo Reservation in Arizona. I also teach Navajo 
history and Navajo language at Rough Rock High School. I just 
want to tell you about the challenges of operating a very small 
school in an isolated area.
    As a small school we are not able to generate much funding 
from the Bureau of Indian Affairs, from the Base Education 
Program, and we ask for your help in increasing funding for 
several BIA schools.
    I will start with school transportation. Isolation with 
high transportation costs. That is certainly true of Black Mesa 
Community School. Neither of the two roads leading into Black 
Mesa are paved. To get on or off the mesa, we must travel 16 
miles of direct road to Rough Rock and also to Pinon; it is a 
26-mile trip. From either location it is yet another hour's 
drive to our closest town in Chinle. During periods of snow or 
heavy rain, both dirt roads in our community are impassible. 
Many of our school children routinely travel four hours per day 
when the roads are in good condition and up to eight hours in 
bad conditions.
    Here are pictures if you are interested, pictures of the 
road condition there in the last two winters. Many of our 
school children routinely travel four hours a day to school. I 
wish you could see our roads in February when the snow is 
melting.
    A few consequences of impassible roads are at one time this 
past winter we had to cancel school for 20 days and after our 
freezer broke down we lost a whole month's food for the school 
cafeteria. Another consequence is the high cost for delivery of 
foods and services due to length of time for our vendors, 
service providers, and others who reach our school. Due to the 
frequent breakdowns of the General Service Administration 
buses, GSA refuses to give us new buses, so they usually give 
us used buses that might break down easily.
    So, therefore, we had to purchase our own service truck and 
a back hoe. Every time we had to pull out a bus due to muddy 
conditions we use this equipment. We also purchased our own 
buses, some decent buses, which were approximately $80,000 a 
piece.
    So we recommend $70 million for a transportation account in 
order to meet more closely national school transportation 
standards for all BIE schools.
    TGSC, Tribal Grant Support Costs, laws require that 
tribally-operated schools receive at least $200,000 each year 
for its administrative and direct costs. Black Mesa should 
qualify for the small school minimum, but we routinely receive 
less than that because Congress never supplies a full account 
required by the law. Last year we received only $172,800 in 
Travel Grant Support Cost funding. Overall, BIE paid TGSC at 
only 61 percent of the amount the law requires.
    Even though ours is a small school, we must perform all of 
the fundamental administrative tasks required of a school 
board. Because we cannot afford to employ business and human 
resource managers, all these functions must be performed by an 
office technician and the school principal who is also 
responsible for directing the education program and supervision 
of the teaching staff. In other words, we have one person 
essentially performing three jobs, and a large portion of our 
TGSC funds must be reserved for audit, which costs $40,000, and 
that is close to a fourth of what we receive.
    The Administration proposal of $46 million would fund only 
60 percent of needs. We ask Congress to appropriate at least 
$70 million for the Tribal Grant Support Cost Account.
    Our facilities operation also falls short of the amount we 
need to maintain our buildings and communications systems. Even 
though the BIE has a formula for calculating facility operation 
funding needs, we and other BIE schools routinely receive less 
than one-half of the amount the formula produces. When our 
equipment malfunctions, it often means several days or several 
weeks for a technician or a repair person to come to our school 
to provide the services.
    We recommend $109 million for facilities operation to fully 
fund the formula for all BIE schools.
    As far as education program, ISEF, budget, for the current 
school year we received $338,300 under the ISEF formula for our 
education program. These funds must support teaching personnel 
to staff seven classrooms and a special education program, and 
the low salaries we offer makes recruitment and retention of 
certified personnel very difficult, and we have a high turnover 
of our teachers due to the isolation.
    We recommend $431 million for the ISEF account for all BIE 
schools. All of us connected with Black Mesa School work very 
hard each day to keep our school operating, and if we fail in 
this mission the children of our community being in an isolated 
area would not have access to education. The United States made 
a commitment to the Indian children enrolled in 183 BIE 
schools, including the Indian children at Black Mesa. We need 
to fulfill this commitment by providing us with the resources 
we need to make their path toward equality education easier to 
navigate.
    And by the way, being in an isolated school, our school 
made AYP this year, and would not use external excuses to not 
make AYP, but we made AYP. And thank you for believing in us 
and believing in our Navajo children.
    If you have any questions.
    [The statement of Mr. Yellowhair follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Well, I mean, it is astounding you are spending 
$8,000 per year per student just on transportation. There must 
be a better way, whether it is, you know, computers at home or 
linkups. With that kind of money you could afford a screen in 
the home with a computer linkup so you could have 
videoconferencing for the school. But I do not know enough 
about it to really be able to ask appropriate questions, but it 
seems an enormous undertaking to be transporting children for 
four hours a day at the cost of $8,000 per student just for 
transportation.
    Okay. Any questions? Okay.
    Mr. Simpson. That would be rural America, but Mr. Cole and 
I will come and visit your school at 6,700 feet if you will 
provide the oxygen. That is a little high.
    Mr. Yellowhair. I have seen people coming from Oklahoma and 
gasping for air up there in that elevation.
    Mr. Simpson. I bet.
    Mr. Moran. All right. Thanks very much, Mr. Yellowhair.
    Mr. Yellowhair. Okay. Thank you very much.
    Mr. Moran. Thank you. Next up will be Nathan Small, who is 
the Vice-Chair of the Shoshone-Bannock Tribes of the Fort Hall 
Reservation in Idaho.
                              ----------                              

                                          Thursday, April 15, 2010.

          SHOSHONE-BANNOCK TRIBES OF THE FORT HALL RESERVATION


                                WITNESS

NATHAN SMALL
    Mr. Small. Good afternoon, everybody, and thank you for the 
honor of being here today. Our Chairman is unavailable to make 
it for today's hearing or for today's testimony, so I am here 
today, and our testimony is going to focus on three priorities: 
public safety, road maintenance, and Indian Health Service 
needs.
    First, I would like to thank our Ranking Member Simpson for 
his tremendous support for our new Justice Center. We have 
endured the long struggles to provide adequate law enforcement, 
and we greatly appreciate his efforts to help us open up the 
new facility.
    Mr. Simpson has had the opportunity to come to our 
reservation. He just lives next door. He finally came in, and 
he had a chance to look at our facility that we have that we 
are currently in right now, and his words were that it was 
deplorable conditions, and these need to be changed. So with 
his help we have made those changes.
    But in order to make a lot of those changes, the Shoshone-
Bannock Tribes had to do something that the Bureau of Indian 
Affairs and, I guess, you the Congressional people, did not do 
for our tribe for about 20 to 30 years and that was to build us 
something that was adequate. We were not asking for something 
that was extravagant but adequate.
    Currently our courthouse that we have that is housing our 
court personnel is from a building that was built in 1895. Our 
police and jails were condemned 20 years ago and we are still 
using it up to this year. We were unable to house juveniles 
because we lacked a juvenile detention facility.
    Due to the lack of resources to provide deterrents and lack 
of public safety, many of our people over the past few 
generations have turned to gangs, drugs, crime, alcohol, all of 
the social ills that can affect the community in the worst way.
    Further, many of our tribal members have dropped out of 
school and have no vocational skills for jobs. They typically 
turn to a life of crime, without programs in place to help 
them.
    With our new justice center we are hoping to turn things 
around. Our tribe finally was able to secure a loan, even in 
these tough economic times, to build our own justice center. We 
are about ready to move into that new justice center, and, 
again, Mr. Simpson was there for our opening. It was not a 
grand opening, but it was more of an open house for our people 
to come and look at it, and it was the most beautiful thing 
that I have ever seen as far as court systems go, as far as a 
detention facility goes. They are state of the art.
    However, I have heard of other places that have opened up 
new jail systems, new detention centers, only to see them 
unused because of lack of funding. I hope that this would not 
include our tribe. Through grants and our own funds we were 
able to kind of complete this justice center this year. It will 
house our police department and our prosecutors, our courts, 
our adult and juvenile detention centers. Our staff are moving 
into the center as we speak today.
    We hope that the new facility can serve as a regional 
detention center for adults and juveniles. We built the center 
with sufficient bed space for this purpose, and we have already 
received support from nearby tribes to house their detainees. 
We ask for your continued support for use of our facility as a 
regional detention center as I heard a little earlier that that 
could be an idea in helping. We are at that phase real soon 
here.
    We have entered into contracts with the BIA to carry out 
programs in the new facilities. While we have received 
increased funding, it is still only a portion of the cost, 
forcing us to pay for many of those costs ourselves. 
Corrections, especially for juveniles, require a comprehensive 
approach. We do not want to simply lock up our juveniles but to 
educate them, provide treatment, rehabilitation, and help them 
become productive citizens. Our new facility has classrooms, 
treatment rooms, however, the BIA seems to lack funding for 
these programs.
    We urge the Appropriations Subcommittee to work together to 
force agencies to pool resources to address the health, 
educational treatment, and justice needs of tribal detention 
facilities in a comprehensive way. Right now the agencies are 
doing their own thing and do not affect the way we assist 
tribes when they can all pull their resources together to help.
    [The statement of Mr. Small follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, sir. Thank you, Mr. Small.
    Mr. Small. Yeah.
    Mr. Moran. Any questions?
    Mr. Simpson. Not any questions. I just want to thank you, 
Nathan, for being here today to give your testimony and give me 
part of the credit for the justice center, but it was the tribe 
who did this. I was just fortunate enough to be there when they 
opened, and I will tell you that if anybody wants to see a 
modern facility that really incorporates the police department, 
the court system, and the detention facilities together, this 
is really a model, and we said in our report language last 
year, that we hope this can serve as a model for other regional 
sort of detention facilities.
    One of the things and Nathan mentioned it, is these guys 
went out on their own and got a loan to do this, to build this. 
The concern that they have and continue to have is, you know, 
now that it is built, there is operating costs that are 
involved, and we have got a memorandum of understanding with 
the Department to help that for at least the first year I 
guess.
    Mr. Small. Correct.
    Mr. Moran. Well, that is the way it should be done. Thank 
you very much, Mr. Small.
    Mr. Small. All right. Thank you. I am sorry I am not a fast 
speaker, but I did have some stuff on road maintenance and 
healthcare but----
    Mr. Moran. Your entire statement will be put into the 
record.
    Mr. Small. All right. Thank you.
    Mr. Moran. Very good. Thank you, sir.
    Next we will hear from Nancy Martine-Alonzo, Trustee 
President of the Ramah Navajo School Board in New Mexico.
                              ----------                              

                                          Thursday, April 15, 2010.

                    RAMAH NAVAJO SCHOOL BOARD, INC.


                                WITNESS

NANCY MARTINE-ALONZO
    Ms. Martine-Alonzo. Good afternoon, Chair and members of 
the committee. Thank you for the opportunity to make this 
presentation before you. Up front with me is also my fellow 
colleague, Martha Garcia.
    I want to first start out by saying that we are extremely 
grateful to the Congressional funding we received 40 years ago 
to start our own Ramah Navajo Pine Hill School, and we are 
celebrating that 40th year this year, and over the years we 
have graduated over 700 students of our own children in our 
community, and many of them have gone on to be very successful, 
and we have graduated from colleges, medical doctors and 
lawyers and engineers, and we are just proud of that effort, 
and it all began through the Congressional funding that we 
received. So you and us stand to be congratulated today. We 
thank you very much for that.
    Testifying before you on five issues, four of them have to 
do with the operation of the Pine Hill Schools and to echo some 
of the same testimony that various members have come before you 
regarding the administration and operation of the BIE-funded 
schools, and the first area we want to focus on is the 
administrative costs, and while the Indian Health Services and 
some other contractual programs have received some modest 
increases in the last couple of years to bring them up to 
parity, you are talking about 80 to 90 percent of their 
indirect costs, the education side, the BIE education side is 
still at about 60, 65 percent. And so we are requesting more 
effort to bring that level up to the 100 percent that the law 
requires, and so that is something that we, too, want to go on 
record to request.
    And then in addition to that, our Indian Student 
Equalization Formula, you also heard testimony on that 
previously, about the need to increase that funding because we 
are struggling with trying to meet the adequate yearly 
progress. Our school is a K-12 school, and so in order to meet 
adequate yearly progress, all the scope of K through 12 must 
make that percent and meet that percent, and we are making 
progress every year, but we are struggling.
    And then in the area of transportation, when we do not 
receive adequate funding, we have to take funds from 
instruction and learning and use that to bring the children to 
school in order to provide the instruction, and so that is 
really a critical need that we would like to see increases in 
those areas.
    And the fourth item is scholarships for our Indian 
children. The new ESEA blueprint when you are going to revise a 
No Child Left Behind under the U.S. Department of Education, 
one of the criteria they are looking at is asking that by 2020, 
schools will be able to graduate students that can go into 
college or into the workforce without remediation, that they 
will really be able to raise their level of skill to that 
level. And so we need to increase the scholarship fund. We do 
send a lot of our students on but there are a lot that have to 
look to other areas for funding their college level education. 
So we urge you to consider that as well.
    And then the fifth and last item that I would like to talk 
about is the funding for about $1 million to address the 
telemedicine component. We operate a very small clinic on the 
Ramah Navajo Band and Tribe Reservation, and we are very 
remote, and the nearest hospital is 45 miles away, and we share 
that hospital with Zuni Tribe. We need to bring all of our 
capabilities up to par so that we can be able to get 
specialized services. If you take an X-ray in our clinic and 
you send it through the slow snail mail, it is going to take a 
week for that to go out and for a radiologist to read that X-
ray and to give you a diagnosis and send it back to you, and by 
that time maybe 2 or 3 weeks have passed. And if the diagnosis 
is cancer, you have deprived a patient of about a month's worth 
of treatment, and sometimes these are critical times that you 
have to respond.
    And so if we had the telemedicine capability and the data 
capability to be able to work with our partnerships in other 
areas that have this specialization, we can do this in 30 
minutes to an hour in sending our X-rays and get them read and 
receive that prognosis. So that is kind of the difference of 
what we are talking about here.
    And so we know that that is also a goal of the Indian 
Health Services, and so that is our last request, and we just 
thank you very much for this opportunity.
    [The statement of Ms. Martine-Alonzo follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you very much, ma'am. We appreciate that. 
Thank you. I have got to share some bad news with the committee 
here, so we appreciate your testimony, but we are going to have 
to accelerate the witnesses' testimony here.
    Coming up momentarily we are going to have the Flight 
Privilege Resolution. It is a 15-minute vote, which means it 
will probably be a good 20 minutes. Then the Shea-Porter 
amendment on sea level change. That is another 15 minutes, 
which is probably 20. Then 10 minutes of debate on a 
recommittal motion, 15 minute recommittal vote, final passage 
of the Clean Estuaries Act, and then another resolution.
    So we have got almost 2 hours of votes. I am not sure how 
we are going to handle this. They are going to start very 
quickly. I think we are going to have to do kind of a tag team 
here. Mr. Olver, if you could help, we could go back and forth. 
The problem is that more than likely you are only going to get 
one member of the committee, so we are going to have to 
accelerate this. We will try to get as many in as possible 
right now while the members are still here. We can probably 
take another 10 minutes before we have to run over to vote.
    But thank you very much for your testimony.
    Ms. Martine-Alonzo. Thank you.
    Mr. Moran. Thank you, Ms. Martine-Alonzo.
    Jerome Jainga, who is representing the Tribal Education 
Departments National Assembly. The acronym is TEDNA in 
Colorado.
    And if you could accelerate it, sir, we would very much 
appreciate it.
                              ----------                              

                                          Thursday, April 15, 2010.

             TRIBAL EDUCATION DEPARTMENTS NATIONAL ASSEMBLY


                                WITNESS

JEROME JAINGA
    Mr. Jainga. You bet. It is Jerome Jainga for the record, 
and good afternoon, Chairman Moran, Ranking Member Simpson, 
members of the subcommittee. Thanks for this opportunity for 
TEDNA to come and speak before you about Tribal Education 
Departments.
    I have worked as the Tribal Ed Director in the State of 
Washington for the Suquamish Tribe, who is one of the founding 
members of TEDNA, and we are very thankful to member Norm Dicks 
as well.
    TEDNA is a national member-based advocacy organization that 
is representing Tribal Education Departments and Tribal 
Education Agencies, TEDs or TEAs. Over 200 tribes have TEDs 
that serve almost 700,000 tribal students in public, Bureau of 
Indian Education, and charter schools located on or off tribal 
geographic territories.
    Today we are here to ask the subcommittee for the support 
of $2 million for TED. This money would become available to all 
the TEDs through a grant process in the Department of the 
Interior.
    In the Elementary and Secondary Act funding for TEDs 
through the Department of Interior has been authorized since 
1988. In the authorization Congress envisioned TEDs 
facilitating tribal control over education at the local level 
by coordinating education programs, developing and enforcing 
tribal education codes, policies and standards, and providing 
support services and technical assistance to schools and 
programs.
    In NCLB it was retained that TED appropriations of $2 
million, even though this needed, yet inadequate, Federal 
Appropriation Authorization would support the important work of 
TEDs to this date it has never been funded. Lack of federal 
support for TEDs harms tribal students and the statistics prove 
it, and again, it has yet to be funded.
    In some states high school dropout rates is well over 50 
percent. In 2008, approximately 23,000 tribal students between 
the ages of 16 and 19 dropped out of high school. That is 
roughly 5,750 tribal students a year throughout all classes, 
and it shows and represents about $221.6 million in lost wages 
for these families per year.
    Further, tribal students have a high rate of absenteeism, 
suspension, expulsion. Eighth graders are shown in the tribal 
student population to be 18 percent more likely to read or 
perform in mathematics at a below-basic level than their peers. 
TEDs are uniquely equipped to improve these statistics, because 
they are aware of the cultural, social, and the economic 
conditions that affect these tribal students. And this point is 
supported by the universal support in Indian Country and how 
they have shown their support for the TED and TEA 
appropriations.
    This year TEDNA has secured resolutions in support of these 
appropriations in the fiscal year 2011, budget from the 
National Congress of American Indian, National Indian Education 
Association, the United Southern Eastern Tribes, the Great 
Plains Tribal Chairman Association, and the Affiliated Tribes 
of the Northwest Indian.
    Further, several tribes have submitted appropriation 
request forms for TED and TEA program funding authorized in the 
NCLB to their Congressional offices, including tribes in 
Montana, Oklahoma, Washington, California, and Wisconsin.
    In addition, the National Congress of American Indians and 
the National Indian Education Association has made this funding 
a top priority. Indian Country is united in its support for TED 
and TEA appropriations, and we have worked to secure support 
from many Congressional offices, and we are grateful to that, 
and they are submitting support letters to the subcommittee.
    Without this federal financial support, TEDs for the most 
part do not have the ability to do what Congress had envisioned 
and to help students. It is a great investment in tribal 
students to put this funding forward so that tribal education 
codes, policies, and standards that have not been developed or 
implemented as they should can do that.
    The requested $2 million for TED and TEA appropriations is 
a good investment. It will improve academic success by 
providing funding for tribal education agencies to operate 
programs mentioned above and in areas such as math, science, 
reading, after-school programs, and tutoring. The Rosebud Sioux 
tribe, using their tribal dollars, operated similar programs, 
and that helped to lower the dropout rate by 30 percent. This 
is a statistic that came through the 1990s, but in short and in 
closing, TEDs and TEAs can help the non-tribal, and the 
federal, state governments to serve tribal children. TEDNA 
strongly encourages Congress to do this.
    [The statement of Mr. Jainga follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you.
    Mr. Jainga. Thank you.
    Mr. Moran. Thank you, Mr. Jainga. Thank you.
    Mr. Jaingan Questions?
    Mr. Moran. No, because we have got to move on, and what is 
going to happen is that it is the luck of the draw, and 
unfortunately, the people that have not yet spoken their luck 
is going to run out in terms of having the attention of the 
full subcommittee unfortunately.
    Roman Bitsuie, the Executive Director of Navajo Hopi Land 
Commission in Arizona.
                              ----------                              

                                          Thursday, April 15, 2010.

                      NAVAJO HOPI LAND COMMISSION


                                WITNESS

ROMAN BITSUIE
    Mr. Bitsuie. Mr. Chairman and members of the subcommittee, 
my name is Roman Bitsuie. I am the Executive Director of the 
Navajo Hopi Land Commission Office, an entity of the Navajo 
Nation. Thank you for this opportunity to provide testimony on 
what has been one of the most difficult matters in modern 
federal Indian policy and a true tragedy for the Navajo Nation.
    I have spent my entire adult life working to resolve Navajo 
Hopi land dispute and to address the Bennett freeze. I was born 
in the disputed area, and I have seen the hardship that the 
relocation law and the various long-term construction freezes 
that has created. The impact of these federal actions will be 
with the Nation for generations to come.
    Let me speak first about the former Bennett freeze area. 
Because of a dispute between the Hopi Tribe and the Navajo 
Nation, then BIA Commissioner Robert Bennett imposed a 
construction freeze in 1966, on this 1.5 million acre area 
located in the western portion of the Navajo Reservation. The 
freeze was in place until 2006. It was finally lifted after the 
Navajo Nation secured a court decision that held that nearly 
all the area was Navajo and then the two tribes were finally 
able to reach a settlement agreement.
    Because of the freeze, the Bennett-freeze Navajos are the 
poorest of the poor. As President Obama noted in his proposed 
fiscal year 2011, budget, ``During the freeze era the Navajo 
people were prohibited from building new homes, schools, and 
health facilities; building infrastructure; and engaging in 
community and economic development projects, including 
development for grazing, energy, and other land uses. The 
freeze influenced the Navajo people socially, economically, 
emotionally, physically, mentally, and spiritually.'' The 
Senate Interior Appropriations Committee reached a similar 
conclusion at a field hearing in 1993, which I have a copy.
    I might add that since the hearing, the only federal 
appropriation was that of $1.5 million to construct 85 homes 
when the freeze was lifted temporarily in 1992, only to be re-
imposed by the court in 1995.
    President Obama has proposed setting aside $1.5 million, 
``to begin development of the former Bennett freeze area.'' 
While the President's budget request is welcome, it is intended 
to be spent largely on land user and agricultural purposes. 
While these purposes are important, the number one need in this 
area based on an extensive independent study completed last 
year is improving housing.
    For this reason I will propose an additional $5 million in 
BIA housing funds be set aside for critical housing repairs and 
construction.
    I would also recommend that this committee support the 
establishment of a trust fund for reconstruction of the former 
Bennett freeze area with an initial allocation of $10 million 
for fiscal year 2011, but with further funding over the next 15 
years. Such funding will provide the long-term support needed 
if this area is to be rehabilitated.
    Finally, I would ask for $1.5 million for phase II of a 
solar project that the Navajo Nation is developing on Paragon 
ranch, lands in New Mexico. Funds generated through the 
development of these lands can only be used for the benefit of 
Navajo families and communities that have been affected by the 
Federal Relocation Law. If these lands can be developed, then a 
vital new source of funds will be available to address the 
Relocation Law.
    Although the Navajo Hopi land dispute and the Bennett 
freeze are painful issues, I thank the committee for this 
opportunity and to provide testimony about the many Navajo 
families who have suffered under federal actions can hope for a 
better life.
    Thank you, Mr. Chairman.
    [The statement of Mr. Bitsuie follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, Mr. Bitsuie. Thank you very much.
    Dr. Mark Walker is next. I am going to ask that it only be 
oral testimony. Please do not read anything. We do not have 
time for that. Just summarize what you want to tell us, and we 
will put the statement into the record. We have only got less 
than 5 minutes to vote, and once we go we are gone for 2 hours 
of voting. So that is the situation that confronts us 
unfortunately. It is out of our control. Dr. Walker.
                              ----------                              

                                          Thursday, April 15, 2010.

       COUNCIL ON GOVERNMENT AFFAIRS, AMERICAN DENTAL ASSOCIATION


                                WITNESS

DR. MARK WALKER
    Dr. Walker. Thank you very much. Well, we appreciate the 
opportunity to comment on the oral health issues that affect 
the American Indians and Alaska Natives, as well as the 
dentists that serve in Indian Country. I would like to thank 
the committee for their continued support of the Indian Health 
Service Program. Increases the committee included in this 
budget year will expand recruitment efforts, increase advanced 
training needed for specialists, and provide an electronic 
dental record service, all important things.
    We are pleased the Administration has recommended an 
increase in the budget for the dental division this next year; 
however, the proposed funding level of just over $161 million 
really only protects the status quo and does not improve the 
program to reduce the disproportional level of oral disease in 
this population.
    The most pressing oral issue in Indian Country is tooth 
decay or caries, and, especially among young children, has 
reached epidemic proportions. The decay rate is about 400 
percent that of the average population. Worse still is the 
severity of the decay. Native American preschool children have 
five decayed teeth compared to one decayed tooth in the rest of 
the population.
    To address this the Indian Health Service instituted an 
Early Childhood Caries Initiative, a program designed to 
promote prevention and early intervention in tooth decay in 
young children. Having long recognized the severity of this 
epidemic, last year the ADA hosted a symposium on early 
childhood caries in American Indians and Alaska Native 
children. Among their conclusions is that more research needs 
to be done for this disease because in the Native American 
children the disease starts earlier and it is often more 
aggressive and destructive.
    The Sisseton-Whapeton Tribe set a five year goal to have 
all children enter into school caries free. We would ask the 
committee to support this goal and expand it to all Native 
American children under the age of five. We anticipate this 
would cost another $50 million.
    [The statement of Dr. Walker follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Okay. Thanks very much, Dr. Walker. We are 
down----
    Dr. Walker. Thank you.
    Mr. Moran [continuing]. To about 2 minutes. We will bring 
that up with the head of the Indian Health Service if we can 
get her here.
    Dr. Walker. Thank you so much.
    Mr. Moran. Thank you very much.
    McCoy Oatman. You are going to have to do this in a minute 
or two if you want to have the attention of all of us, sir. I 
am sorry for this, but you are the Chair of the Columbia River 
Inter-Tribal Fish Commission, and we appreciate your coming to 
testify from Oregon.
                              ----------                              

                                          Thursday, April 15, 2010.

              COLUMBIA RIVER INTER-TRIBAL FISH COMMISSION


                                WITNESS

MCCOY OATMAN
    Mr. Oatman. All right. Thank you, Chairman Moran, committee 
members. My name is McCoy Oatman, and like you say, I am the 
Chairman of the Columbia River Inter-Tribal Fish Commission. I 
also sit on the Tribal Executive Committee, Nez Perce Tribal 
Executive Committee with Sam Penney who testified earlier.
    Most of our money for our program comes out of BIA, Rights 
Protection Implementation. The biggest request we have today is 
to restore the entire Rights Protection Implementation Account 
to its fiscal year 2010 level of $30,451,000. The two primary 
justifications for that is the increase in the management 
responsibilities. We recently concluded three significant 10-
year agreements: the U.S./Canada Pacific Salmon Treaty, U.S. v. 
Oregon Fisheries Management Plan, and Columbia Basin Fish 
Accords, which three of our tribes are signatories. The Nez 
Perce Tribe is not, but we agree with, the status of each tribe 
that they can go on with their own pathway.
    And just address our challenges. Climate change, reduction 
in state natural resource budgets, increase in safety and 
enforcement needs, and other species needs like lamprey, 
sturgeon, and some management need for the predatory sea lions 
that take a part of our salmon.
    And finally, we continue to sustain losses from inflation 
and rising costs, and I would just like to thank the 
subcommittee for their time today.
    [The statement of Mr. Oatman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Nice job, Mr. Oatman. Well done. That is the 
model. Nice going. Thank you very much. He does deserve a hand 
there.
    John Antonio, the Governor of Pueblo of Laguna in New 
Mexico. We may be able to fit this one in, but we are now out 
of time to go vote.
                              ----------                              

                                          Thursday, April 15, 2010.

                            PUEBLO OF LAGUNA


                                WITNESS

JOHN E. ANTONIO
    Mr. Antonio. Good afternoon, Mr. Chair and members of the 
committee. I thank you for the opportunity. My name is John 
Antonio, Sr. I am the Governor of the Pueblo of Laguna, New 
Mexico, a little bit west of Albuquerque, and on behalf of our 
8,300 member strong I bring our greetings.
    I know there is a lot of needs, and we have a lot of needs, 
and of course, you have heard them from the different tribes. 
So it is going to be part of the written records I understand, 
but, again, health, education, roads. I mean, those are all 
needs, and one of the basic things I just want to leave you 
with is right now we have a trust litigation that is still 
pending. You know, we hate to spend taxpayer money and our own 
money to fight each other.
    So I would just encourage you to encourage the Department 
of Justice, the Department of the Interior to please settle 
these trust litigations. You know, we have the world's largest 
open-pit uranium mine, and we have been dealing with this for 
57 years. We did our part to provide uranium resources, and the 
royalties that came to us were mismanaged by the Federal 
Government. They lost a lot of value. So right now we have 
calculated what they are worth today, and we would just like 
the government to be honorable and fair and give us our just 
compensation.
    [The statement of Mr. Antonio follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. I think we would like to see that be the case as 
well. We are not going to be able to resolve that in the 
Appropriations Subcommittee, but it is important to bring that 
to our attention.
    Thank you very much, Governor.
    Mr. Antonio. Thank you.
    Mr. Moran. And now we have to----
    Mr. Antonio. I appreciate it. Thank you.
    Mr. Moran [continuing]. Run off to vote now. We will try to 
get both votes in, and then I will try to be back hopefully 
either Mr. Simpson or Mr. Cole or either one. We are going to 
work with Mr. Olver and see if we cannot figure out a way to 
play tag team here and get as many witnesses as possible.
    And we also got the Director of the Indian Health Service, 
but I think at this point we are probably going to have to run 
over. The time expired a couple minutes ago.
    [Whereupon, the subcommittee recessed, to reconvene the 
same day.]
    Mr. Moran. Thank you. We are going to try to get the rest 
of the testimony in before the next vote.
    The next person to speak would be Rodger Martinez, the 
President of the Ramah Navajo Chapter of the Ramah Band of 
Navajos in New Mexico.
    Sir.
                              ----------                              

                                          Thursday, April 15, 2010.

           RAMAH NAVAJO CHAPTER OF THE RAMAH BAND OF NAVAJOS


                                WITNESS

RODGER MARTINEZ
    Mr. Martinez. Mr. Chairman, thank you very much and the 
committee if they are here. I have a three, four things.
    The first request we are looking at is the detention 
facilities. Through the ARRA funding we received $3.8 million. 
It is going to be constructed by the year 2011. We are looking 
at an operating fund of $941,000 that we want to see if we can 
have that included in the Bureau funding and also reoccurring 
funds from there on.
    And also we are looking at the Natural Resource Facilities 
that we have that needs to be completed with $400,000 and then 
$200,000 of reoccurring funds for operations.
    And the other unmet need is infrastructure for a real 
estate program that we have. Currently our building is situated 
in an emergency flood zone, and it has been flooded several 
times, and it does not really look good. We have been infested 
by other things as far as we had a bull snake that came in and 
we lost it in the building somewhere. Those are some of the 
things that we have been dealing with.
    And the last one, that was the third, and the fourth one is 
Congress passed a jobs bill here recently, and it does not do 
much the way the bill was passed. You know, it does help a lot 
of business people in situations where they, mainly the roads 
and the small business areas, but it really does not reach the 
grass root areas where it puts a workforce together. And we can 
go as far back as Depression era. So that, and you know, having 
some money go across for the Marshall Plan and the WPA at the 
time. We need to do something like that and put people back to 
work on the reservation.
    On the reservation our unemployment is very high; 60 
percent, and now we had two suicides since January, and some of 
it is attributed to that, and it is a depressing situation, no 
jobs, and people have kids, and they cannot afford to make a 
living in situations like that, and nowadays it is high tech, 
and everybody cannot land a job that is high tech, and that is 
one of the big issues that we are facing on the reservation. 
Not only in Ramah but all the reservations. And this is some of 
the things that we face.
    I hope the committee will understand our needs and be able 
to afford us in this request that we have for you today.
    [The statement of Mr. Martinez follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you. Which money are you talking about 
that was so disappointing to you? Which agency?
    Mr. Martinez. The Southwest Region. We are with the Navajo 
Nation, but our fundings are going through the Southwest Region 
because that is where we usually receive our monies with the 
Southwest Region in Albuquerque.
    Mr. Moran. All right. Well, thank you very much, Mr. 
Martinez. Thank you for your testimony. Thanks for being here 
with us. We appreciate it. Thank you.
    Dr. Dale Walker is the Director of the One Sky National 
Resource Center for American Indian/Alaska Native Substance 
Abuse Services on behalf of the Friends of Indian Health in 
Oregon. Sir.
                              ----------                              

                                          Thursday, April 15, 2010.

  ONE SKY NATIONAL RESOURCE CENTER FOR AMERICAN INDIAN/ALASKA NATIVE 
     SUBSTANCE ABUSE SERVICES ON BEHALF OF FRIENDS OF INDIAN HEALTH


                                WITNESS

DR. DALE WALKER
    Dr. Walker. Hello, there, and thank you very much for a 
chaotic day, and I appreciate the fact that you came back to 
help us work through the process. My name is Dale Walker. I am 
a member of the Cherokee Tribe from Oklahoma. I am also a 
psychiatrist. I work with the University of Oregon and have a 
center there called the One Sky Center. As a part of that 
center we provide consultation and technical assistance across 
Indian Country. We average about 50 tribes a year that we work 
with, and so part of my experience has to do with working 
behavioral health, especially addictions, methamphetamine, 
alcohol, depression, domestic violence, suicide. Not what you 
call the easy things to deal with in Indian Country. They are 
all elevated, they are all remarkable issues and problems.
    What we want to talk about today is the fact that I am here 
representing the Friends of American Indian Health. That is a 
unique organization, because it has voluntarily come together 
to advocate and help support Indian issues, and I am certainly 
honored to be here on their behalf.
    They come here with two issues of major concern. One has to 
do with contract health services as a piece of the solution for 
Indian healthcare. Now, Indian healthcare is a remarkable 
phenomenon. Your committee advocated and supported special 
facets, especially for meth and suicide, last year, and we 
thank you for that process.
    This year there is an increase of just under 9 percent of 
the budget now to about $4.8 billion. The contract healthcare 
part of that budget covers the chronic illness care that the 
primary healthcare clinics of the Indian Health Service do not 
administer or have the staff to support. They contract that out 
to local community, private practitioners, and such.
    Their needs are estimated to be $400 million short. That 
would help solve the problems of the contract care. Let me just 
mention to you, if you are an American Indian, and you happen 
to have an illness that requires longer-term care, could be 
diabetes, could be cancer, could be heart disease, if the funds 
could run out in the first six months of a fiscal year, the 
last six months there are no funds, and so care is denied. 
35,000 times in 2008.
    When that happens, the care is just delayed and spilled 
into the next year, so prevention intervention for chronic 
illness does not happen. So the idea is to provide the contract 
care services, build your prevention programs, and help these 
systems work. I can tell you that is a very, very critical 
element.
    The next issue is how do you deal with the lack of 
recruitment, the vacant positions within the Indian Health 
Service. There are over 900 vacant positions within the Indian 
Health Service, and one way of dealing with that is funding. In 
funding the workforce and providing to do retention support for 
people who have bills for their healthcare payments has worked 
in the past. It is estimated that another $14 million would be 
very, very useful. I do not think that is a lot of money to try 
to recruit and bring more people into the Indian Health 
Service.
    When people are involved in recruitment and retention by 
payback of their healthcare, that has been shown to increase 
their retention considerably, and so we think that that is a 
good way to go.
    The other thing that is happening is the friends themselves 
are helping to develop an advocacy package for recruitment of 
more people into Indian healthcare. I just want to take the 
moment and tell you that I am excited about what is happening 
in the Indian Health Service. I think that the movement towards 
increases in funding, the attention to care is absolutely 
critical and will empower Indian people to be much more 
involved in their care. If we can figure a way for interagency 
coordination between Indian Health Service and Bureau of Indian 
Affairs to help pursue that, I think it will be a major 
breakthrough. Frankly, the way I saw your committee work is a 
model for what needs to happen.
    [The statement of Dr. Walker follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you very much, Dr. Walker. We appreciate 
it.
    We are going to hear from Dr. Roubideaux in a moment, and 
they have increased money, and I know they will spend it well, 
even though the demands are enormous.
    Thank you very much.
    Dr. Walker. Thank you.
    Mr. Moran. Next, Jerry Pardilla, who is the Executive 
Director of the National Tribal Environmental Council, New 
Mexico. Mr. Pardilla.
                              ----------                              

                                          Thursday, April 15, 2010.

                 NATIONAL TRIBAL ENVIRONMENTAL COUNCIL


                                WITNESS

JERRY PARDILLA
    Mr. Pardilla. Good afternoon.
    Mr. Moran. Good afternoon.
    Mr. Pardilla. Thank you for the opportunity to be here, Mr. 
Chairman. In the interest of time I would really like to just 
highlight, focus on five programs, and they are within the 
Bureau of Indian Affairs, the Fish and Wildlife Service, and 
the Environmental Protection Agency.
    The underlying perspective that we offer these comments are 
that tribes have some of the more pristine habitat in the 
country, and for those lands tribes have been historically 
under-funded for wildlife and natural resources, management 
programs, and also for environmental protection programs.
    I would like first to draw your attention to the Climate 
Change Adaptation Initiative. This is a new program. It began 
in fiscal year 2010, out of the Bureau of Indian Affairs. Now, 
that first year there was appropriated 136 million, and there 
were no allocations to tribes. Tribes got zero in the first 
year.
    Mr. Moran. Go over this again.
    Mr. Pardilla. The Climate Change Adaptation Initiative 
began fiscal year 2010, in September.
    Mr. Moran. And there were requests but no funding.
    Mr. Pardilla. Zero funding for tribes. And it is not 
consistent with the disproportionate impacts tribes are 
experiencing due to climate change and lifestyle and even their 
very homes if you look to the very well-known villages along 
the Alaska coast. So zero funding in 2010. In 2011, tribes are 
only being allocated $200,000, and we think that this is 
tragically low, and it is a mere .001 percent of the overall 
funding for this program, which the Administration is 
requesting $171.3 million. So of that in 2011, only $200,000 
for tribes.
    We think that a more proportionate amount of funding given 
that of the 95 million acres that Indian tribes and Alaska 
Native corporations manage, some 4 percent of the United States 
total land area, that a more equitable funding would be $8.5 
million out of that Climate Change Adaptation Initiative 
funding.
    Mr. Moran. We may address that. We may want to address that 
in the report. Thank you for bringing that to our attention.
    Mr. Pardilla. Thank you, and the next area is the Trust 
National Resources Program, and we urge you to maintain the 
2010 enacted amount of $175.62 million. This would involve a 
reinstatement of $17.2 million, and again, I would like to 
point out that this fund represents the largest amount of base 
federal funding for tribal natural resources management.
    In 1999, Department of Interior, Bureau of Indian Affairs 
issued a report that documented more than $356 million of unmet 
annual needs, so we are dramatically under-funded, and a 
reduction would be a further harm.
    Moving onto the Fish and Wildlife Service, I draw your 
attention to the Tribal Wildlife Grants Program. We urge you to 
consider increasing the funding to $8.4 million, which would be 
a 20 percent increase over last year's funding. In 2010, the 
State and Tribal Wildlife Grant Program received $90 million, 
and it is an increase of $15 million from the year before and 
approximately 20 percent. We think that tribes should be 
considered for a 20 percent increase proportional to the 
increased request.
    Moving onto the Environmental Protection Agency, we urge 
you to preserve the Administration's request for $32.9 million. 
This comes in two parts. One is a new $30 million for Multi-
Media Tribal Implementation Program funds. This is a new 
program. We are not quite sure how this is going to operate at 
the EPA, but it is new funding, and we encourage you to 
preserve that.
    Along with that is $2.9 million for capacity building and 
implementation of that program.
    The last part and final point is with the Indian 
Environmental General Assistance Program, and we encourage you 
to preserve the Administration's 2011 request of $71.4 million 
in the GAP Program.
    So with that, sir, that concludes my comments.
    [The statement of Mr. Pardilla follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you very much, Mr. Pardilla. We appreciate 
your testimony. We appreciate the testimony of everyone, and 
those who were cut short, please feel free to share your 
further views with the committee, and we have all of your 
formal testimony. I am sorry that I had to cut some people 
short, but I wanted as many members as possible to hear the 
major points that you wanted to make.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               I N D E X

                              ----------                              

              Voices From Our Native American Communities
                             March 23, 2010
                          INDEX--ORGANIZATIONS

                                                                   Page
Assiniboine and Sioux Tribes of Fort Peck Reservation............    82
California Rural Indian Health Board.............................   204
Catawba Indian Nation............................................   163
Cheyenne River Sioux Tribe.......................................   212
Choctaw Nation of Oklahoma.......................................   156
Chugach Regional Resources Commission............................   117
Colville Reservation, Confederated Tribes of.....................    56
Dine Power Authority.............................................   195
Dzilth-Na-O-Dith-Hle Community Grant School Board................   199
Fort Belknap Indian Community....................................   184
Great Lakes Indian Fish and Wildlife Commission..................   144
Independent Tribal Courts Review Team............................   110
Institute for Indian Estate Planning.............................     9
Intertribal Timber Council.......................................    97
Isleta Pueblo....................................................   104
Johnson-O'Malley Association.....................................   209
Kodiak Area Native Association...................................   125
Lac Du Flambeau Band of Lake Superior Chippewa Indian Tribe......   176
Lower Elwha Klallam Tribe........................................    15
Lummi Indian Nation..............................................     3
National Council of Urban Indian Health..........................   169
National Indian Education Association............................    90
National Indian Health Board.....................................   150
Northwest Indian Fisheries Commission............................    29
Oglala Sioux Tribe...............................................   138
Puyallup Tribe of Indians........................................    22
Santee Sioux Tribe...............................................    61
Seattle Indian Health Board......................................    36
Siltez Tribe.....................................................    76
Skokomish Indian Tribe...........................................    44
[Sonosky, Chambers, Sachse, Miller & Munson].....................   226
Squaxin Island Tribe.............................................    50
Southcentral Foundation..........................................   132
United South and Eastern Tribes, Inc.............................   221
United Tribes Technical College..................................   189
Warm Springs Reservation of Oregon, Confederated Tribes of.......    69

                            INDEX--WITNESSES

Bean, David......................................................    22
Begay, Steve.....................................................   195
Benavides, Robert................................................   104
BlueEyes, Faye...................................................   199
Brings Plenty, Joseph............................................   212
Brown-Schwalenberg, Patty........................................   117
Cagey, Henry.....................................................     3
Charles, Frances.................................................    15
Coochise, Elbridge...............................................   110
Crouch, James....................................................   204
Durglo, Joe......................................................    97
Dustybull, Harold................................................   209
Finley, Michael..................................................    56
Forquera, Ralph..................................................    36
Frank, Billy Jr..................................................    29
Gipp, David......................................................   189
Gottlieb, Katherine..............................................   132
Grim, Michael....................................................    29
Kelly, Bob.......................................................    29
King, Tracy Ching................................................   184
Kruger, Pete.....................................................    50
Marks, Patricia..................................................    61
Miller, Lloyd....................................................   226
Mousseau, Hermes John............................................   138
Nash, Douglas....................................................     9
Patterson, Brian.................................................   221
Pavel, Joseph....................................................    44
Peercy, Mickey...................................................   156
Peters, Ray......................................................    50
Pigsley, Deloris.................................................    76
Rodgers, Donald..................................................   163
Rolin, Buford....................................................   150
Roth, Geoffrey...................................................   169
Stafne, A.T......................................................    82
Suppah, Ron......................................................    69
Teuber, Andy.....................................................   125
Trudell, Roger...................................................    61
Wawronowicz, Larry...............................................   176
Whitefoot, Patricia..............................................    90
Zorn, James......................................................   144
                               __________

    Issues from the Field: Public Witnesses and Members of Congress
                             March 25, 2010
                          INDEX--ORGANIZATIONS

American Association of Museums..................................   295
American Lung Association........................................   260
American Society of Civil Engineers..............................   357
Association of Art Museum Directors..............................   295
Audubon Society..................................................   332
Everglades Coalition.............................................   320
Families of Flight 93............................................   245
Federal Forest Resource Coalition................................   326
Geological Society of America....................................   308
Interstate Council on Water Policy...............................   302
Interstate Mining Compact Commission.............................   267
Member of Congress........................................236, 242, 292
National Association of Clean Air Agencies.......................   345
National Parks Second Century Commission.........................   278
National Wildlife Federation.....................................   339
Nature Conservancy...............................................   351
Partnership for National Trails System...........................   253
USGS Coalition...................................................   314
Wildlife Conservation Society....................................   285

                       INDEX--MEMBERS OF CONGRESS

Heller, Representative Dean......................................   236
Reyes, Representative Silvestre..................................   242
Sherman, Representative Brad.....................................   292

                            INDEX--WITNESSES

Calvelli, John...................................................   285
Cassidy, Tom.....................................................   351
Cerullo, Arthur..................................................   260
Douglas, Mary Sullivan...........................................   345
Evans, Peter.....................................................   302
Fain, Sara.......................................................   320
Felt, Gordon.....................................................   245
Garner, Mike.....................................................   267
Gropp, Dr. Robert................................................   314
Hinojosa, Maria..................................................   278
Lambert, Bradley.................................................   267
Long, Gretchen...................................................   278
Moffatt, Laurie Norton...........................................   295
Moore, Brian.....................................................   332
Natale, Patrick..................................................   357
Partin, Tom......................................................   326
Schiffries, Dr. Craig............................................   308
Stein, Dr. Bruce.................................................   339
Werner, Gary.....................................................   253
                               __________

              Voices from Our Native American Communities
                             April 15, 2010
                          INDEX--ORGANIZATIONS

American Dental Association......................................   446
Association of Community Tribal Schools..........................   410
Black Mesa Community School Board................................   416
Columbia River Inter-Tribal Fish Commission......................   452
Friends of Indian Health.........................................   468
Makah Tribal Council.............................................   394
National Congress of American Indians............................   387
National Tribal Environmental Council............................   475
Navajo Hopi Land Commission......................................   441
Nez Perce Tribal Executive Committee.............................   402
Northwest Portland Area Indian Health Board......................   375
Pueblo of Laguna.................................................   457
Quinault Indian Nation...........................................   381
Ramah Navajo Chapter of the Ramah Band of Navajos................   462
Ramah Navajo School Board, Inc...................................   428
Shoshone-Bannock Tribes of the Fort Hall Reservation.............   422
Tribal Education Departments National Assembly...................   435
United Sioux Tribes Development Corporation......................   367

                            INDEX--WITNESSES

Antonio, John E..................................................   457
Bitsuie, Roman...................................................   441
Bordeaux, Dr. Roger..............................................   410
Jainga, Jerome...................................................   435
Joseph, Andy.....................................................   375
Keel, Jefferson..................................................   387
Martine-Alonzo, Nancy............................................   428
Martinez, Rodger.................................................   462
Oatman, McCoy....................................................   452
Pardilla, Jerry..................................................   475
Penney, Sam......................................................   402
Sharp, Fawn......................................................   381
Skye, Clarence...................................................   367
Small, Nathan....................................................   422
Tyler, Nate......................................................   394
Walker, Dr. Dale.................................................   468
Walker, Dr. Mark.................................................   446
Yellowhair, Marvin...............................................   416
                               __________

                        Written Public Testimony
                          INDEX--ORGANIZATIONS

1854 Treaty Authority............................................   484
Alaska Wilderness League.........................................   487
Alliance of National Heritage Areas..............................   493
American Assoication of Petroleum Geoligists.....................   497
American Bird Conservancy........................................   500
American Forest & Paper Association..............................   504
American Forest Foundation.....................................510, 914
American Forests.................................................   508
American Indian Higher Education Consortium......................   514
American Institute of Biological Sciences........................   518
American Public Power Association................................   522
American Rivers..................................................   524
American Society for Microbiology................................   528
American Society of Agronomy.....................................   532
American Society of Mechanical Engineers.........................   536
American Sportfishing Association................................   540
Amigos de la Sevilleta...........................................   544
Animal Welfare Institute.........................................   546
Appalachian Mountain Club........................................   550
Appalachian Trail Conservancy....................................   554
Association of American Universities.............................   489
Association of Public and Land-Grant Universities................   562
Association of Research Libraries................................   566
Association of State Drinking Water Administrators...............   558
Bat Conservation International...................................   569
Biomass Energy Research Association..............................   573
Bird Conservation Alliance.......................................   577
Bird Conservation Funding Coalition..............................   580
Buffalo Field Campaign...........................................   584
California Forest Pest Council...................................   914
Cascade Land Conservancy.........................................   588
Center for Coalfield Justice.....................................   592
Center for Plant Conservation....................................   594
Central Arkansas Water...........................................   598
Childrens Environmental Health Network...........................   600
Chippewa Flowage Project in Wisconsin............................   604
Citizens Coal Council............................................   607
City of Chicago Department of Streets & Sanitation, Bureau of 
  Forestry.......................................................   914
Civil War Preservation Trust.....................................   609
Closeup Foundation...............................................   613
Coalition for Environmentally Safe Schools.......................   619
Coalition for Healthier Schools................................620, 622
Colorado River Basin Salinity Control Forum......................   616
Colorado River Board of California...............................   624
Colorado River Commission of Nevada..............................   628
Confederated Tribes of the Grande Ronde Community of Oregon......   629
Connecticut Council of Trout Unlimted............................   632
Conservation Fund................................................   636
Cooperative Alliance for Refuge Enhancement (CARE)...............   640
Council for Tribal Employment Rights.............................   643
Council of Western State Foresters...............................   647
Cuyahoga Valley National Park Association........................   649
Dance/USA........................................................   652
Davey Institute..................................................   914
Defenders of Wildlife............................................   656
Deschutes Chapter of Trout Unlimited.............................   660
Doris Day Animal League..........................................   744
Emissions Control Technology Association.........................   667
Endangered Species Coalition.....................................   671
Environmental Council of the States (ECOS).......................   663
Federation of State Humanities Councils..........................   675
Fond du Lac Band of Lake Superior Chippewa.......................   679
Friends of Back Bay..............................................   683
Friends of Balcones Canyonlands National Wildlife Refuge.........   686
Friends of Blackwater National Wildlife Refuge...................   689
Friends of Congaree Swamp........................................   692
Friends of Maine Seabird Islands.................................   695
Friends of Rachel Carson National Wildlife Refuge................   697
Friends of Shiawassee National Wildlife Refuge...................   699
Friends of the Bosque del Apache National Wildlife Refuge........   701
Friends of the Chassahowitzka National Wildlife Refuge...........   703
Friends of the Tampa Bay National Wildlife Refuges, Inc..........   706
Friends of Virgin Islands National Park..........................   708
Friends of Wallkill River National Wildlife Refuge...............   711
Friends of Wertheim National Wildlife Refuge.....................   713
Georgie Department of Natural Resources..........................   715
Grand Valley Water Users Association.............................   718
Great Lakes Commission des Grands Lacs...........................   722
Greater Yellowstone Coalition....................................   719
Green Mountain Club..............................................   726
Ground Water Protection Council..................................   729
Healing Our Waters - Great Lakes Coalition.......................   732
Hoopa Valley Tribal Council......................................   736
Hoopa Valley Tribe, K'ima:w Medical Center.......................   740
Humane Society Legislative Fund..................................   744
Humane Society of the United States..............................   744
Ice Age Floods Institute.........................................   752
Idaho Conservation League........................................   756
International Association of Fire Chiefs.........................   757
International Code Council.......................................   759
International Maple Syrup Institute..............................   914
InterTribal Bison Cooperative....................................   762
Izaak Walton League of America...................................   766
Kern County Valley Floor Habitat Conservation Plan Industry & 
  Government Coalition...........................................   770
Land and Water Conservation Fund Coalition.......................   774
League of American Orchestras....................................   778
Ludlow's Island Resort...........................................   782
Marine Conservation Biology Institute............................   786
Metropolitan Water District of Southern California...............   790
Mother Lode Chapter, Sierra Club.................................   793
Mulch & Soil Council.............................................   914
National Assembly of State Arts Agencies.........................   796
National Association of Forest Service Retirees..................   800
National Association of State Energy Officials...................   804
National Association of State Foresters........................807, 914
National Association of Tribal Historic Preservation Officers....   845
National Conference of State Historic Preservation Officers......   811
National Cooperators' Coalition..................................   849
National Fish and Wildlife Foundation............................   815
National Humanities Alliance.....................................   852
National Institutes for Water Resources..........................   819
National Mining Association......................................   823
National Parks and Hospitality Association.......................   827
National Parks Conservation Association..........................   831
National Plant Board.............................................   914
National Recreation and Park Association.........................   835
National Trust for Historic Preservation.........................   839
National Wildlife Refuge Association.............................   856
Native American Healing Through Horses Alliance..................   843
Nature Conservancy...............................................   914
New Jersey Audubon Society.......................................   860
New Mexico Wildlife Federation...................................   863
New York Department of Environmental Conservation................   914
North American Maple Syrup Council, Inc..........................   914
Northern Plains Resource Council.................................   867
Ohio Environmental Council.......................................   868
Opera America....................................................   871
Ophir (Town of), CO..............................................   875
Oregon Water Resources Congress..................................   877
Orleans Audubon Society, Inc.....................................   881
Outdoor Alliance.................................................   884
Pelican Island Preservation Society..............................   888
Pennsylvania Department of Agriculture...........................   914
Performing Arts Alliance.........................................   890
Pocono Heritage Land Trust.......................................   894
Preservation Action..............................................   897
Public Lands Foundation..........................................   901
Public Trust Environmental Legal Institute of Florida, Inc.......   905
Purdue University, Department of Entomology......................   914
Rainforest Biodiversity Group....................................   908
Red Lake Band of Chippewa Indians................................   910
Rocky Mountain Climate Organization..............................   917
San Diego County Water Authority.................................   921
Sierra Foothills Audubon Society.................................   923
Society for American Archaeology.................................   926
Society of American Florists.....................................   914
Standing Rock Sioux Tribe........................................   930
Team El Toro.....................................................   934
Theatre Communications Group.....................................   937
Trust for Public Land............................................   940
Union of Concerned Scientists....................................   914
Upper Peninsula Public Access Coalition..........................   944
Vermont Council of Trout Unlimited...............................   948
Wellington, FL...................................................   951
West Virginia University National Drinking Water Clearinghouse...   956
Western Interstate Energy Board (WINB)...........................   954
Wheeler Wildlife Refuge Association..............................   960
Wilderness Society...............................................   970
Wildlands CPR....................................................   962
Wildlife Society.................................................   966
Wisconsin Board of Commissioners of Public Land..................   974
Wyoming State Engineer's Office..................................   977

                            INDEX--WITNESSES

Adler, Prudence S................................................   566
Arnold, Susan....................................................   550
Bajura, Richard A................................................   956
Barnes, Randy....................................................   875
Barnett, Claire..................................................   622
Bartel, Dan......................................................   770
Baskin, Laurie...................................................   937
Basralian, Joe...................................................   860
Bearer, Cynthia..................................................   600
Beetham, Mary Beth...............................................   656
Berdahl, Robert M................................................   489
Bisson, Henri R..................................................   901
Blazer, Arthur Butch.............................................   647
Blue-McLean, Anngeolace..........................................   703
Bowen, Darell....................................................   951
Bowers, Carla....................................................   583
Brister, Daniel..................................................   584
Brown, Molly P...................................................   683
Brown, R. Steven.................................................   663
Brownrigg, Ted...................................................   660
Budd, Dan s......................................................   977
Burns, Kathleen..................................................   935
Caan, George M...................................................   628
Carlson, Ervin...................................................   762
Carr, Julie Palakovich...........................................   518
Chandler, William................................................   786
Clark, Chris.....................................................   715
Clark, Les.......................................................   770
Colburn, David...................................................   675
Coulson, Jennifer................................................   881
Crandall, Derrick A..............................................   827
D'Antonio, John R................................................   616
Daulton, Michael.................................................   580
Davis, James.....................................................   934
Davis, Mary......................................................   934
Davis, Timothy S.................................................   613
DeCoster, Kathy..................................................   940
Dickson, David...................................................   486
Diver, Karen R...................................................   679
Durkin, Bill.....................................................   697
Duvernoy, Gene...................................................   588
Easley, Tom......................................................   917
Eder, Tim........................................................   722
Edwards, Conrad..................................................   643
Erickson, Aimee..................................................   607
Fascione, Nina...................................................   569
Finkelman, Lois G................................................   835
Focht, Will......................................................   819
Giudice, Philip..................................................   804
Glasener, Karl...................................................   532
Glowienka, James P...............................................   632
Goad, Claire.....................................................   713
Gray, Gerald J...................................................   508
Grego, Dr. John..................................................   692
Gunn, Dr. Sue....................................................   962
Guyer, Ed........................................................   736
Hamilton, Alan...................................................   866
Harbut, Dr. Michael..............................................   936
Hargis, Shelia...................................................   686
Hein, Erik.......................................................   897
Hirsche, Evan....................................................   640
Holmer, Steve....................................................   500
Hoover, Charles..................................................   699
Hopper, Dr. George...............................................   562
Hopwood, Jane T..................................................   695
Howard, Barbara..................................................   706
Huta, Leda.......................................................   671
Hutchins, Michael................................................   580
Hymel, Stephanie.................................................   598
Ibata, Dr. Brent.................................................   748
Iwan, Gerald R...................................................   956
James, Ted.......................................................   770
Johnson, Jeffrey D...............................................   758
Jourdain Jr., Floyd..............................................   910
Kane, Robert.....................................................   736
Kennedy, Cheryle A...............................................   629
Kennedy, Kathryn L...............................................   594
Kessler, Elizabeth S.............................................   835
Kessler, Joe.....................................................   708
Kiernan, Thomas C................................................   831
Kightlinger, Jeffrey.............................................   790
King, Tim........................................................   934
Kleinknecht, Gary................................................   752
Koehn, Steve.....................................................   807
Kovarovics, Scott................................................   766
Kraus, D. Bambi..................................................   845
Kurtzweil, Douglas J.............................................   609
Larson, Douglas C................................................   954
Lawton, Joe......................................................   875
Lee, Joe.........................................................   729
Leonard, George M................................................   800
Leopold, Bruce...................................................   966
Lighthizer, O. James.............................................   609
Liss, Cathy......................................................   546
Lord, Chad.......................................................   732
Lorenz, John C...................................................   497
Ludlow, Mark.....................................................   782
Martin, Tom......................................................   510
Mason, Maria.....................................................   619
Massey, Steve....................................................   888
Masten, Leonard................................................736, 740
McCollum, Michelle...............................................   493
Meyer, Kristy....................................................   868
Miller, Andrew...................................................   905
Miller, Dr. Gregory..............................................   884
Mimiaga, Bill....................................................   934
Mimiaga, Christine...............................................   934
Moe, Richard.....................................................   839
Moore, Chris.....................................................   948
Morganthau, Thomas A.............................................   894
Murphy, Charles W................................................   930
Murray, William R................................................   504
Myers, Jacob.....................................................   484
Nelson, Tia......................................................   974
O'Connor, Martin.................................................   689
O'Dowd, Grace....................................................   934
O'Dowd, Robert...................................................   934
O'Grady, Dr. Richard.............................................   518
Olson, Jody......................................................   815
Pellegrino, Joan L...............................................   573
Pfister, Ellen...................................................   867
Pierpont, Ruth...................................................   811
Pizarchik, Joseph................................................   607
Poole, Bob.......................................................   770
Pope, Maddy......................................................   774
Proctor, Richard L...............................................   718
Raabe, Peter.....................................................   524
Ratliff, Mary Lee................................................   960
Regan, Ron.......................................................   580
Regan, Timothy...................................................   667
Riley, Steve.....................................................   849
Rippel, Raina....................................................   592
Rivenes, Barbara L...............................................   793
Rivenes, Donald L................................................   923
Robertson, Gordon................................................   540
Robison, John....................................................   756
Rosen, Jesse.....................................................   778
Rowsome, Alan....................................................   970
Sakura, Daniel G.................................................   636
Schneider, Daniel R..............................................   908
Schroeder, Darin C.............................................577, 580
Schulfer, Roche..................................................   890
Scorca, Marc.....................................................   871
Shea, Susan......................................................   726
Snyder, Andrea...................................................   652
Soare, Mihail....................................................   740
Springer, Marie..................................................   711
Staab, Darek.....................................................   660
Stapleton, Maureen A.............................................   921
Startzell, David N...............................................   554
Stowe, Nyleen Troxel.............................................   544
Sybert, Brian....................................................   719
Taft, James D....................................................   558
Tyrrell, Patrick T...............................................   977
Uldrich, John....................................................   934
Vradenburg, Leigh Ann............................................   701
Warren, Nancy....................................................   944
Winkler, Anita...................................................   877
Yandala, Deb.....................................................   649
Yerkes, Sara C...................................................   761
Zimmerman, Gerald R..............................................   624

                                  <all>
</pre></body></html>
